<html>
<title> - CLIMATE CHANGE IMPACTS ON THE TRANSPORTATION SECTOR</title>
<body><pre>[Senate Hearing 110-1199]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1199
 
                        CLIMATE CHANGE IMPACTS 

                      ON THE TRANSPORTATION SECTOR

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 

                             Transportation






                  U.S. GOVERNMENT PRINTING OFFICE
78-852                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2008....................................     1
Statement of Senator Carper......................................    31
    Prepared statement...........................................    34
Statement of Senator Inouye......................................     1
Statement of Senator Kerry.......................................    24
Statement of Senator Klobuchar...................................    36
Statement of Senator Lautenberg..................................    39
Statement of Senator Nelson......................................    35
Statement of Senator Stevens.....................................    28
    Prepared statement...........................................    30
Statement of Senator Thune.......................................    91
    Prepared statement...........................................    36

                               Witnesses

Barrett, Hon. Thomas J., Vice Admiral, Deputy Secretary, 
  Department of Transportation...................................     2
    Prepared statement...........................................     4
Dickey, Ph.D., G. Edward, Affiliate Professor of Economics, 
  Loyola College in Maryland; Member, Committee on Climate Change 
  and U.S. Transportation, Transportation Research Board, 
  Division on Earth and Life Studies, National Research Council, 
  The National Academies.........................................    51
    Prepared statement...........................................    53
Friedman, David, Research Director and Senior Engineer, The Union 
  of Concerned Scientists........................................    56
    Prepared statement...........................................    58
Hamberger, Edward R., President and Chief Executive Officer, 
  Association of American Railroads..............................    63
    Prepared statement...........................................    65
Meenan, John M., Executive Vice President and Chief Operating 
  Officer, Air Transport Association of America, Inc.............    71
    Prepared statement...........................................    73
Peterson, Dr. Thomas C., Climate Services Division, National 
  Climatic Data Center, National Environmental Satellite, Data, 
  and Information Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    17
    Prepared statement...........................................    19
Porcari, John, Secretary, Maryland Department of Transportation; 
  Chair, Climate Change Technical Assistance Program Advisory 
  Board, and Chair, Standing Committee on Aviation, American 
  Association of State Highway and Transportation Officials......    40
    Prepared statement...........................................    42
Treadwell, Mead, Chair, U.S. Arctic Research Commission..........    81
    Prepared statement...........................................    83
Turner, Dr. James M., Deputy Director, National Institute of 
  Standards and Technology, U.S. Department of Commerce..........     9
    Prepared Statement...........................................    11

                                Appendix

Alterman, Stephen A., President, Cargo Airline Association, 
  prepared statement.............................................   100
Boxer, Hon. Barbara, U.S. Senator from California, prepared 
  statement......................................................    95
Letter, dated June 23, 2008, to Hon. Daniel K. Inouye, from 
  Edward M. Bolen, President and CEO, National Business Aviation 
  Association, Inc...............................................   104
Letter, dated June 24, 2008, to Hon. Daniel K. Inouye, from Ross 
  B. Capon, Executive Director, National Association of Railroad 
  Passengers.....................................................   102
Letter, dated June 30, 2008 to Hon. Daniel K. Inouye, from Thomas 
  D. Simpson, Executive Director, Railway Supply Institute, Inc..    99
Response to written questions submitted to Hon. Thomas J. Barrett 
  by:
    Hon. Maria Cantwell..........................................   109
    Hon. Thomas R. Carper........................................   110
    Hon. Daniel K. Inouye........................................   108
Response to written question submitted to Dr. G. Edward Dickey 
  by:
    Hon. Daniel K. Inouye........................................   117
    Hon. Ted Stevens.............................................   119
Response to written questions submitted to David Friedman by:
    Hon. Maria Cantwell..........................................   120
    Hon. Thomas R. Carper........................................   121
    Hon. Daniel K. Inouye........................................   119
    Hon. Ted Stevens.............................................   122
Response to written questions submitted to Ed Hamberger by:
    Hon. Maria Cantwell..........................................   123
    Hon. Thomas R. Carper........................................   124
    Hon. Daniel K. Inouye........................................   123
    Hon. Ted Stevens.............................................   125
Response to written questions submitted to Thomas C. Peterson by:
    Hon. Maria Cantwell..........................................   114
    Hon. Daniel K. Inouye........................................   113
Response to written questions submitted to Hon. John Porcari by:
    Hon. Thomas R. Carper........................................   106
    Hon. Daniel K. Inouye........................................   105
Response to written questions submitted to Dr. James M. Turner by 
  Hon. Daniel K. Inouye..........................................   112
Schaffer, Captain Mary Ann, Chairperson, Aviation Sustainability 
  and Environment Task Force, Air Line Pilots Association, 
  International, prepared statement..............................    96


                        CLIMATE CHANGE IMPACTS 
                      ON THE TRANSPORTATION SECTOR

                              ----------                              


                         TUESDAY, JUNE 24, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:33 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The hearing will come to order.
    This Committee, with its diverse jurisdiction, has a 
history of rising to meet climate change challenges by 
advancing, in a bipartisan manner, legislation that will make a 
difference in the fight against global climate change. 
Legislation passed by this Committee will result in a 
meaningful reduction of fuel consumption and emissions by 
increasing fuel efficiency standards for American cars.
    In addition, the actions of this Committee have 
strengthened climate change research programs, addressed ocean 
acidification, and ensured that adequate information and data 
are available to help lawmakers, regulators, and planners, 
among others, make informed decisions and adapt to climate 
changes.
    Today's hearing regarding climate change impacts on the 
transportation sector is a continuation of the Commerce 
Committee's work to examine efforts to reduce greenhouse gas 
emissions in the transportation sector and determine what role 
the Federal Government should play in encouraging these 
efforts.
    The transportation sector is a major indicator of the 
overall economic health of our Nation. Given that fact, it is 
important to recognize that climate affects the design, 
construction, safety and operations, and maintenance of 
transportation infrastructure and systems. For example, as we 
will hear today, predicted increases in precipitation and 
frequency of storms will impact our transportation systems; 
recent flooding in the Midwest resulted in submerged highways 
and railroad bridges, and significant diversion of freight 
traffic. In addition, severe storms have caused major airport 
delays around the country.
    While there is a need for the transportation sector to 
adapt to the environmental changes brought on by global climate 
change, it is also widely recognized that the transportation 
sector has contributed to the causes of climate change.
    Transportation sources account for approximately one-third 
of U.S. greenhouse gas emissions. And transportation emissions 
are among the fastest-rising of all emitting sectors, due to 
increased consumption of gasoline, jet fuel, and diesel fuel. 
The Environmental Protection Agency estimates that greenhouse 
gas emissions attributable to the transportation sector will 
increase 26 percent by the year 2020.
    Today's hearing will examine climate change research, 
mitigation, and adaption results, efforts in the transportation 
sector, including the surface transportation, maritime, and 
aviation industries. The Committee looks forward to hearing 
from the witnesses about how the transportation sector can 
adapt to the impacts of climate change, increase fuel 
efficiency, and otherwise reduce greenhouse gas emissions.
    We have several witnesses with us today. Panel one consists 
of the Deputy Secretary of the Department of Transportation, 
the Honorable Thomas Barrett; Acting Director of the National 
Institute of Standards and Technology, Dr. James M. Turner; and 
a Physical Scientist from the National Climatic Data Center, 
National Oceanic and Atmospheric Admainistration, Dr. Thomas C. 
Peterson.
    May I call upon Deputy Secretary Barrett.

   STATEMENT OF HON. THOMAS J. BARRETT, VICE ADMIRAL, DEPUTY 
            SECRETARY, DEPARTMENT OF TRANSPORTATION

    Admiral Barrett. Mr. Chairman, thank you, and good morning.
    I'm pleased to appear before you today and discuss the 
activities of the United States Department of Transportation as 
they relate to transportation's impact on climate change and 
the impacts that climate change may have on the Nation's 
transportation networks.
    This Committee brings a breadth of expertise and 
understanding to transportation's vital role to the United 
States economy and our quality of life and its impact on the 
global economy, so we appreciate your leadership on this 
important subject.
    To support the Administration's climate change goals, DOT 
is working to reduce greenhouse gas emissions from 
transportation activities and prepare for the impacts of 
climate change to protect transportation infrastructure. As we 
pursue these goals, like you, we are mindful of the 
indispensable role that transportation plays in sustaining and 
improving our economy. And, like you, we have seen much 
evidence that markets provide strong incentives for innovation 
and improvement in efficiency.
    With that in mind, under Secretary Peters's leadership, we 
have focused our approach on improving vehicle efficiency, 
increasing use of alternative fuels, reducing congestion, 
advancing the efficiency of the transportation system, and 
improving our understanding of the impacts of climate change on 
transportation networks.
    The Administration is leading efforts to improve the fuel 
economy of the Nation's fleet of passenger vehicles and light 
trucks. Building on a record of fuel economy reforms, DOT 
announced a CAFE proposal, in April, that would save a 
projected 55 billion gallons of fuel and reduce U.S. carbon 
dioxide emissions by 521 million metric tons over the lifetime 
of the regulated vehicles, going above and beyond the 
requirements set out by Congress under the Energy Independence 
and Security Act.
    In addition, the National Highway Traffic Safety 
Administration is working with the National Academy of Science 
to develop a study of fuel economy standards for medium- and 
heavy-duty trucks.
    The Administration strongly supports research on, and use 
of, alternative fuels. The Federal Aviation Administration, for 
example, is a major partner in the Commercial Aviation 
Alternative Fuels Initiative, and DOT has, and is, undertaking 
research required for development of safety standards for 
future hydrogen vehicles and infrastructure.
    And while we look at these, improvements in the efficiency 
of the existing transportation system can reduce delays and 
also deliver significant environmental benefits, including 
greenhouse gas emissions.
    The Texas Transportation Institute estimated highway 
congestion in the United States wastes 2.9 billion gallons of 
fuel annually, translating to 2.6 million metric tons of 
unnecessary CO<INF>2</INF>. And all of us have been stuck in 
traffic, watching our fuel gauge creep toward empty as 
congestion brings traffic to a crawl. DOT has responded with a 
congestion initiative, a multifaceted program to ease highway, 
aviation, freight, intermodal, and border congestion through 
direct user fees and more congestion pricing.
    I would invite your attention, also, Mr. Chairman--aviation 
is a somewhat unheralded but real success story in these areas. 
Compared to the year 2000, U.S. commercial aviation in 2006 
moved 12 percent more passengers and 22 percent more freight, 
while actually burning less fuel and reducing our carbon input 
by a million tons. This is a result of airframe, power, and air 
traffic system improvements. U.S. airlines, in a very 
competitive market, have committed to another 30 percent 
improvement by 2025, a goal the industry adopted before the 
recent spike in fuel prices. And I would urge caution in not 
hamstringing this flagship U.S. industry that has such global 
reach by imposed new emission regimes.
    Clearly, anyone who has flown lately, though, can attest to 
the fact that the current aviation system needs fundamental 
changes. We recognize this and have begun to implement air 
traffic management procedures, and taken steps to introduce 
components of the next generation air transportation system. 
And the FAA is moving to accelerate implementation of that 
system, in terms you may have heard, to make it more NowGen 
than NextGen, and they'll be introducing test pad sites in 
Florida and several other U.S. city pairs this year.
    The Department is also addressing the challenges posed by 
climate on transportation infrastructure and systems. DOT 
released, earlier this year, the Gulf Coast study, which 
provides and assessment of the vulnerabilities of 
transportation systems in the region, and subsequent phases 
will focus on developing tools for State and local officials to 
use as they develop their transportation plans and make 
investment decisions.
    We have also begun to develop a congressionally required 
report on transportation impact on climate change and ways to 
mitigate its impact on the changing environment.
    In sum, the Department is approaching greenhouse gas 
mitigation in line with the Secretary's priorities, and I know 
Congress is, for a safe, efficient, reliable, and, 
increasingly, a clean transportation network. We take this 
issue very seriously, as I know the Committee does.
    We appreciate the attention and the opportunity to discuss 
the issue. And I would be pleased to respond to your questions, 
sir.
    [The prepared statement of Vice Admiral Barrett follows:]

      Prepared Statement of Hon. Thomas J. Barrett, Vice Admiral, 
             Deputy Secretary, Department of Transportation
    Chairman Inouye, Vice Chairman Stevens, and distinguished Members, 
I am pleased to appear before the Committee today to discuss the 
various activities of the U.S. Department of Transportation as they 
relate both to transportation's impact on climate change and to the 
impacts that climate change may have on the Nation's transportation 
networks. I appreciate your attention on this important subject and the 
expertise this Committee brings to transportation and the American and 
global economy.
    Addressing the challenge that global climate change presents will 
require a sustained effort over many years. The Bush Administration is 
committed to cutting greenhouse gas emissions and to mitigating the 
impacts of the climate change that occur. This Administration has 
devoted almost $45 billion to support climate change-related programs, 
with an additional $40 billion in loan guarantees made available to 
support investments in technologies that promise to reduce greenhouse 
gas emissions.
    The Department of Transportation's principal mission is to ensure 
the safe, efficient, and reliable performance of our highway, transit, 
rail, maritime, pipeline, and aviation networks. We also support the 
Administration's efforts to reduce the Nation's greenhouse gas 
emissions, not only by working to reduce greenhouse gas emissions from 
transportation activities, but also by preparing for the impacts of 
climate change in order to protect our valuable transportation 
infrastructure. As we pursue each of these goals, we are always mindful 
of the indispensable role that transportation plays in sustaining and 
improving our economy, and supporting our trade, and the importance of 
transportation infrastructure to the millions of Americans who depend 
on it for their mobility and the competitiveness of their businesses. 
These goals are all a part of the Secretary's priorities for a safe, 
efficient, reliable and clean transportation network.
Reducing Transportation's Impacts
    I would first like to discuss the Department's approach to the 
mitigation of greenhouse gas emissions from the transportation sector. 
Our approach focuses on: improving vehicle efficiency; increasing the 
use of alternative fuels; advancing the efficiency of the 
transportation system (often by promoting market-based measures and 
technological innovations); and improving our understanding of the 
impacts of climate change on transportation infrastructure.
    Let me state at the outset that, although mandates and regulations 
have their place, new technologies and private sector innovations are 
really the keys to effectively addressing climate change without 
compromising the competitiveness of our transportation providers or the 
shippers and passengers that rely upon them. As evidence, I refer you 
to the European aviation regulatory model that has encouraged a 
decrease in overall ridership but an increase in emissions. Compare 
that to the more open market approach taken in the U.S.--our airlines 
have increased ridership while at the same time decreased emissions 
dramatically. Between 2000 and 2006, aviation CO<INF>2</INF> emissions 
in the U.S. declined by about 4 percent. During the same period in 
Europe, emissions increased by around 30 percent.
Vehicle and Engine Efficiency
    The Administration has been a leader in improving the fuel economy 
of the Nation's fleet of passenger vehicles and light trucks. Our 
record in this area speaks for itself. In April, Secretary Peters 
announced a proposal that would establish the first new fuel economy 
standards for passenger cars in more than two decades, and would update 
and expand fuel economy standards for light trucks. Once finalized, 
this rule would raise 2011 passenger car fuel economy standards by 13 
percent and boost light truck fuel economy standards by a further 4 
percent above the attribute-weighted standard set 2 years ago. Overall, 
the fuel economy standards of the U.S. fleet would be raised by more 
than 25 percent through model year 2015.
    The proposal reflects the fuel economy reforms passed by Congress 
in December 2007 at the President's urging. Indeed, the new law, the 
Energy Independence and Security Act (EISA) of 2007, incorporates many 
of the provisions of the President's ``Twenty in Ten'' initiative, 
aimed at reducing light duty vehicle petroleum consumption by 20 
percent in 10 years through both improved fuel economy standards and 
increased use of alternative fuels.
    The standards in the proposed rule would save a projected 55 
billion gallons of fuel and reduce U.S. carbon dioxide emissions by 521 
million metric tons over the lifetime of the regulated vehicles. It 
also includes provisions for trading fuel economy credits between 
manufacturers and vehicle classes, as well as provisions for carrying 
forward excess credits earned in earlier years. This proposal goes 
above and beyond the requirements set out by Congress.
    This proposal builds on earlier initiatives to raise light truck 
fuel economy under prior law. The Department issued new fuel economy 
rules for light trucks in 2003 (covering model years 2005-2007), and in 
2006 (covering model years 2008-2011). The 2006 rulemaking implemented 
an innovative attribute-based standard for light trucks that Congress 
extended to passenger cars in EISA. The two earlier rules are estimated 
to save 13 billion gallons of fuel over the lifetimes of the regulated 
vehicles.
    Through the Federal Highway Administration's Congestion Mitigation 
and Air Quality Improvement Program (CMAQ), the Department is working 
with State and local governments on a range of programs to improve 
urban air quality within the transportation sector. For example, DOT 
has cooperated with the Environmental Protection Agency's SmartWay 
Program initiative to retrofit trucks and truck stops with on-board and 
off-board auxiliary power to run vehicle lights and air conditioning 
and reduce truck idling. This program has reduced fuel consumption, 
criteria pollutant emissions, and greenhouse gas emissions, and has 
expanded to include idling emissions from marine, agricultural, rail, 
and off-road heavy-duty engines. The Federal Transit Administration 
funds the development and deployment of alternative fuel buses, 
including hydrogen fuel cell buses, and diesel-electric hybrid buses, 
as well as alternative fuels infrastructure for transit systems across 
the United States.
    The Department also has focused on efficiency beyond the highway. 
In aviation, we have begun to implement the Next Generation Air 
Transportation System to modernize the U.S. air traffic system, of 
which I will say more in a moment. The Federal Aviation Administration 
is in the process of setting up a new program, CLEEN--Continuous, Low 
Energy, Emissions, and Noise--a research consortium focused on cost-
shared efforts accelerating the maturation of lower energy, emissions, 
and noise technologies for aircraft and engines and advancing cleaner 
alternative fuels. The Maritime Administration (MARAD) is focused on 
new technologies to reduce the harmful emissions from marine diesel 
engines through research on alternative fuels (such as biodiesel) and 
reduced ship stack emissions.
Alternative Fuels
    The Administration also is supporting research on and use of 
alternative fuels. The EISA requires fuel producers to supply at least 
36 billion gallons of renewable fuel by the year 2022--a 500 percent 
increase in the use of renewable fuels. President Bush is calling on 
every vehicle manufacturer that serves the U.S. market to produce flex-
fuel vehicles across its fleet, providing tax incentives for drivers to 
buy fuel-efficient hybrid vehicles that run on both gasoline and 
electricity and investing in plug-in hybrids that can cover up to 40 
miles on electricity alone.
    Though corn-based ethanol is currently the primary way to meet that 
standard, that will not always be the case, and so the Administration 
also is investing in next generation biofuels such as cellulosic 
ethanol. Since President Bush took office, the projected cost of 
cellulosic ethanol has dropped by more than 60 percent.
    Last year, the U.S. produced about 450 million gallons of 
biodiesel--up 80 percent from 2006. Today, there are more than 968 
biodiesel fueling stations, and hundreds of fleet operators use 
biodiesel to fuel their trucks. Over the last 5 years, the 
Administration has invested about $1.2 billion in hydrogen research and 
development to help bring hydrogen fuel cell vehicles to market. These 
vehicles use no gasoline at all, and emit only clean water.
    Even as the Administration focuses on alternative fuels and alt-
fuels vehicles, we must ensure that the environmental improvements they 
bring do not erode the safety levels that Americans expect. Through the 
National Highway Traffic Safety Administration, the Research and 
Innovative Technology Administration, and the Pipeline and Hazardous 
Materials Safety Administration, we have undertaken research required 
for the development of safety standards for future hydrogen vehicles 
and infrastructure.
    We are exploring the potential of alternative fuels for aviation--
fuels that could have benefits for energy security as well as emissions 
performance. The FAA is one of the key partners in the Commercial 
Aviation Alternative Fuels Initiative (CAAFI). CAAFI's participants, 
which include airlines, manufacturers, airports, fuel producers, 
Federal agencies and international players, are implementing a roadmap 
for the use of alternative fuels for commercial aviation. Commercial 
airlines and manufacturers are beginning to make some headway in 
experimental use of biofuels in jet aircraft. Using an unmodified 
Boeing 747, pilots for Richard Branson's Virgin Atlantic have 
successfully flown from London's Heathrow airport to Amsterdam using a 
biofuel made of a mix of coconut and babassu oil.
System Efficiency and the Marketplace
    As important as research may be, the Department is of course 
concerned first and foremost about making our networks as safe and 
reliable as possible. Secretary Peters has made improving the 
performance of those networks one of the Department's primary 
objectives, because severe congestion is choking our major urban areas 
(and, for that matter, more and more medium-sized cities), impeding the 
efficient flow of goods, and threatening our mobility--to the tune of 
about $200 billion every year just on our highways. As we focus on 
increasing efficiency, we simultaneously can and should reduce the 
amount of needless greenhouse gas (GHG) and other emissions that those 
networks generate through idling, inefficient routing, and other 
undesirable effects.
    The problem is significant. The Texas Transportation Institute 
estimates that highway congestion in the U.S. wastes approximately 2.9 
billion gallons of fuel annually, translating into 2.6 million tons of 
unnecessary CO<INF>2</INF> emissions every year. We think this figure 
actually underestimates the costs associated with the near-constant 
congestion that afflicts so many of our cities and our most important 
highway corridors. I think all of us have experienced this first hand 
while stuck in traffic watching the gas tank empty as congestion brings 
highway speeds to a crawl.
    The Department has responded with the Congestion Initiative, a 
multifaceted program aimed at easing highway, aviation, freight/
intermodal, and border congestion. As part of the Initiative, we have 
focused on encouraging states and localities--which, after all, own 
nearly all our highways--to embrace congestion pricing and direct user 
fees for both their operational and environmental benefits.
    Researchers have for decades predicted the beneficial environmental 
impacts of pricing, and we have recently seen real evidence of reduced 
emissions in cities around the world following adoption of congestion 
pricing. One study found that congestion pricing reduced emissions up 
to 10 percent in the aggregate and as much as 30 percent in high 
pollution areas.\1\ These benefits are obtained because efficient 
pricing mechanisms reduce the number of trips taken, alter trip routes, 
reduce trip duration, decrease variation in travel speeds, and 
facilitate more pollution-efficient travel speeds. A study of Atlanta 
during the 1996 Summer Olympics revealed significant benefits.\2\ 
Several travel demand management measures were introduced to reduce 
traffic congestion during the 17 days of the games. The study found 
that daily peak ozone levels dropped 28 percent and hospitalizations 
for asthma fell by almost 20 percent during that time.
---------------------------------------------------------------------------
    \1\ Khalid (Daniel & Bekka., 1998. The Environmental Impact of 
Highway Congestion Pricing, Journal of Urban Economics. Volume 47, 
Issue 2, March 2000, Pages 180-215).
    \2\ Friedman & Powell. 2001. Impact of Changes in Transportation 
and Commuting Behaviors During the 1996 Summer Olympic Games in Atlanta 
on Air Quality and Childhood Asthma. JAMA. Vol. 285 No. 7, February 21, 
2001.
---------------------------------------------------------------------------
    Moreover, with the proliferation of open road pricing technology, 
highway facilities can achieve free-flow conditions without intrusive 
tollbooths, thus obtaining the efficiency and environmental benefits of 
pricing without the harmful impacts of queued vehicles waiting in line 
to pay.
    Real evidence of the emissions benefits of pricing is now available 
from Singapore, London, Stockholm, and Germany. Through congestion 
pricing, London reduced emissions of particulate matter and nitrogen 
oxides by 12 percent and fossil fuel consumption and CO<INF>2</INF> 
emissions by 20 percent. Singapore uses pricing to manage demand on its 
downtown road network during peak travel periods and has prevented the 
emission of an estimated 175,000 pounds of CO<INF>2</INF>. Stockholm's 
congestion pricing system, which targets congestion in the city center, 
has led to a 10-14 percent drop in CO<INF>2</INF> emissions. In January 
2005, Germany implemented a new system to price trucks on the 
autobahns. These charges, which are collected electronically using 
Global Positioning System Satellites (GPS), are based not only on 
distance traveled and number of axles, but also on a vehicle's 
emissions class. This system has increased freight efficiency and cut 
freight greenhouse gas emissions by 7 percent. A 50 percent premium 
charge for older, more polluting trucks has doubled the replacement 
rate to new trucks.
    Our focus on variable pricing and other direct user fees also 
responds to the drawbacks of a highway funding model that relies on gas 
tax revenues even as we strive toward increased energy independence, 
greater fuel economy in automobiles, development of alternative fuels, 
and reduced emissions. The EISA, and the increasing popularity of 
hybrid vehicles, presage reductions in the amount of gas tax revenue 
available for investment in transportation. Concerns about the 
viability of gas tax revenues are only exacerbated by the recent 
increases in fuel prices which have led to reduced vehicle miles 
travelled on U.S. roads (Americans drove 1.4 billion fewer miles in 
April 2008 than they did in April 2007, the sixth consecutive monthly 
drop). As the United States works to reduce emissions and promote 
alternative fuels, a transportation funding system that relies 
primarily on the gas tax undoubtedly contradicts the Nation's overall 
policy objectives. Pricing and other market solutions can help address 
concerns about the viability of the gas tax by substituting private 
capital and direct user fees for gas tax revenue.
    Because of these benefits, tolling and direct user charges have won 
support from a wide range of ideological viewpoints in the United 
States--from Environmental Defense and the Nature Conservancy to the 
Competitive Enterprise Institute and the Reason Foundation. Recognizing 
the environmental benefits of this approach, San Francisco Mayor Gavin 
Newsom stated in his recent inaugural address that a ``sensible 
congestion-pricing plan is the single greatest step we can take to 
protect [San Francisco's] environment and improve our quality of 
life.''
    All of this is to say that we view congestion pricing as a win-win 
concept because it generates revenues that can be used to expand and 
maintain highways or bridges or transit, and it provides users with 
price signals that encourage rational decisions about how and when to 
drive--yielding efficiencies that are at once an environmental and 
economic boon.
    Anyone who has flown lately can attest to the fact that the current 
aviation system needs fundamental changes. I briefly made reference to 
the Next Generation Air Transportation System, or NextGen. As with 
congestion pricing, this is an area in which efficiency improvements 
and environmental advances go hand-in-hand. NextGen aims to improve our 
air traffic management procedures and route structures so that aircraft 
can choose more efficient routes, make quicker in-flight decisions to 
avoid weather and other traffic, and even operate more efficiently on 
the ground.
    The FAA and our commercial airlines have saved 300 hundred million 
gallons of jet fuel and displaced over 6 million tons of carbon dioxide 
emissions by implementing Reduced Vertical Separation Minimums (RVSM), 
permitting aircraft flying in U.S. air space to operate at more 
efficient altitudes. FAA has achieved further improvements in system 
performance through the related reforms of Area Navigation (RNAV) and 
Required Navigation Performance (RNP)--both of which allow for the more 
efficient routing for commercial air traffic and more reliable service 
during marginal weather conditions, particularly at congested airports 
such as Atlanta Hartsfield. If we want to reduce jet fuel consumption 
and aircraft emissions without discouraging air travel, we must 
transform our aviation system. As we move to push Automatic Dependent 
Surveillance Broadcast (ADS-B) into the cockpit, we anticipate still 
greater efficiency gains. And, because every gallon of jet fuel not 
burned equates to roughly 20 pounds of displaced CO<INF>2</INF>, even 
small improvements yield huge GHG savings when deployed systemwide.
    These advances, combined with the imperative for commercial 
airlines to save fuel, have produced reductions in GHG emissions that--
contrary to frequent criticisms--are quite impressive. Compared to the 
year 2000, U.S. commercial aviation in 2006 moved 12 percent more 
passengers and 22 percent more freight while actually burning less 
fuel, thereby reducing our carbon output by a million tons. U.S. 
airlines have committed to another 30 percent improvement by 2025. With 
the recent spike in fuel prices, reduction in schedules, and retirement 
of older aircraft, fuel consumption by U.S. airlines will continue to 
decline.
    Internationally, the Department supports the International Civil 
Aviation Organization's continued leadership in the environmental arena 
and its decisive action in developing a comprehensive plan to mitigate 
aviation GHG emissions and establishing a new high-level Group on 
International Aviation and Climate Change to work with ICAO's 190 
Member States to implement the plan. We oppose, I should emphasize, the 
European Union's proposal to include aviation in an ``emissions trading 
scheme,'' as both unworkable and contrary to international aviation 
law.
    In 2008, we have seen auto buyers shift toward smaller vehicles and 
hybrids; airlines modify their fleets (and their operations) to do more 
flying with fuel-efficient aircraft and to get weight off the airplane; 
shippers move freight to an increasingly efficient rail network; and 
commuters utilize transit services in greater numbers. These examples 
contain a common thread, and, of course, that thread is that the market 
itself--especially of late--will provide ample incentive for 
transportation providers and consumers to travel more efficiently and 
with reduced emissions. The Secretary has demonstrated a clear 
commitment to improving transit. Cumulative VMT has fallen by 17.3 
billion miles since November 2006, and we estimate that greenhouse gas 
emissions in the transportation sector fell by an estimated 9 million 
metric tons for the first quarter of 2008. The pain from increased fuel 
prices that Americans are experiencing at the pump and in the grocery 
store is real and should not be minimized, but the changes we are 
seeing in transportation systems response to the high price of oil 
remind us that the marketplace can be a major ally in reducing 
transportation's environmental footprint and creating the conditions 
necessary to spur private sector environmental innovation.
Better Scientific Understanding
    I also would like to summarize the Department's efforts to measure 
and prepare for the impacts that climate change may have on our 
transportation infrastructure. The Department's Center for Climate 
Change and Environmental Forecasting was designated by EISA to be the 
Office of Climate Change and Environment. This virtual organization is 
the focal point within DOT for multimodal technical expertise on 
transportation and climate change. Nine DOT operating administrations 
contribute resources to conduct strategic research, engage in policy 
analysis, and ensure coordination on multi-modal approaches to reducing 
transportation-related greenhouse gases and to mitigate the effects of 
global climate change on the transportation network. Recent and 
continuing research has focused on a range of topics, including 
emission modeling, evaluation of State and local efforts, early action, 
tax credits, alternative fuels, and urban ferries.
    Most recently, the Center has focused on research requirements from 
EISA: first, U.S. DOT has approved a statement of work to conduct an 
EISA-required report on transportation's impact on climate change and 
ways to mitigate transportation's contribution. The study will also 
consider co-benefits of fuel savings and air quality improvement. This 
report will be conducted in coordination with the Environmental 
Protection Agency and in consultation with the United States Global 
Change Research Program. Second, the U.S. DOT, in coordination with a 
range of other groups, is developing a Transportation and Climate 
Change Clearinghouse to provide one-stop shopping for transportation 
decision-makers and planners.
    As part of the NextGen effort to advance our understanding of 
aviation's effects on climate, the FAA has launched the Aviation 
Climate change Research Initiative (ACCRI) in partnership with the 
National Aeronautics and Space Administration (NASA) and other 
agencies. This initiative will help accelerate our scientific 
understanding to inform policy decisions in this area.
    The Department also is addressing the challenges posed by the 
impacts of climate change on transportation infrastructure and systems. 
Our Center for Climate Change and Environmental Forecasting has been 
studying this question for several years. Early this year, DOT released 
The Impacts of Climate Change and Variability on Transportation Systems 
and Infrastructure: Gulf Coast Study, Phase I. This study provides an 
assessment of the vulnerabilities of transportation systems in the 
region to potential changes in weather patterns and related impacts, as 
well as the effect of natural land subsidence in the region. The area 
examined by the study includes 48 contiguous counties in four states, 
running from Galveston, TX to Mobile, AL.
    Based on 21 simulation models and a range of future scenarios, the 
study found that potential changes in climate, through both sea level 
rise and subsidence over the next 50-100 years, could disrupt 
transportation services in several key ways. Twenty-seven percent of 
major roads, 9 percent of rail lines, and 72 percent of area ports are 
at or below 4 feet in elevation above sea level, and could be 
vulnerable to future sea-level rise combined with non-climate related 
sinking of the area's land mass that is occurring in the area. The 
study is designed to help State and local officials as they develop 
their transportation plans and make investment decisions. Subsequent 
phases of the study are intended to focus on risks and adaptation 
strategies involved in planning, investment, and design decisions for 
infrastructure in the Gulf Coast region and nationwide. The study was 
performed in partnership with the U.S. Geological Survey and State and 
local researchers, and is one of 21 ``synthesis and assessment'' 
reports produced as part of the U.S. Climate Change Science Program.
    A similar study that will soon be released is The Potential Impacts 
of Global Sea Level Rise on Transportation Infrastructure. This study 
was designed to produce rough estimates of how future climate change, 
specifically sea level rise and storm surge, could affect 
transportation infrastructure on the East Coast of the United States. 
Like the Gulf Coast Study, this study's major purpose is to aid 
policymakers by providing estimates of these effects as they relate to 
roads, rails, airports, and ports.
    In sum, the Department is approaching greenhouse gas mitigation and 
adaptation in a comprehensive, multimodal, and innovative way, in line 
with the Secretary's priorities for safety, system performance, and 
21st century solutions. I commend the Committee for paying attention to 
this important subject and appreciate the opportunity to discuss this 
issue with a group of individuals who are so knowledgeable about our 
transportation network. I look forward to your questions.

    The Chairman. Thank you very much.
    Dr. Turner?

  STATEMENT OF DR. JAMES M. TURNER, DEPUTY DIRECTOR, NATIONAL 
   INSTITUTE OF STANDARDS AND TECHNOLOGY, U.S. DEPARTMENT OF 
                            COMMERCE

    Dr. Turner. Yes, sir. Good morning, Mr. Chairman. Thank you 
very much for the opportunity to appear before you today to 
discuss the research related to the transportation sector in 
areas that are related to global climate change underway at the 
National Institute of Standards and Technology, or NIST.
    The well-being of U.S. citizens is affected every day by 
NIST's measurements, science, and standards work. Virtually 
every segment of the economy, from transportation to computer 
networks, banking, food processing, healthcare, communication, 
depends on NIST research, products, and services. More broadly, 
the quality of the water we drink, the air we breathe, the 
energy we use, and the food we eat depends, in part, on that 
work.
    Just as NIST has impacted these technologies in the past, 
NIST is poised to play an equally important role in our 
Nation's efforts to address the challenges of climate change. A 
large part of the work that NIST does for the transportation 
sector has an impact on climate change.
    In the area of transportation, let me start with an 
example. NIST conducts research and provides measurement 
science and services that underpin many stages of the 
transportation sector in auto manufacturing, from the 
production of materials, like sheet metal for body panels, to 
monitoring the final quality of the vehicle assembly. NIST's 
work extends beyond the car to the transportation 
infrastructure itself, including both fossil and alternative 
fuels and emissions, to lightweight metals and composites for 
auto body parts and fuel cells.
    Another big area NIST works in is advanced materials, like 
cement, for bridges and highways. Cement production provides a 
large amount of CO<INF>2</INF>, and NIST's work to improve the 
quality of cement will lead to less frequent replacement.
    Specific areas that I address in more detail in my written 
testimony include composition, volume, and weight standards for 
fuels and oil to allow confidence in the trading of low and 
high sulfur content fuels in competitive markets. This covers 
everything from measures and standards for fossil fuels, to 
biofuels, from train cars of coal, to gallons of gasoline at 
the pump; to gas reference standards for sulfur dioxide and 
nitrous oxides that enable the automotive manufacturers to meet 
the EPA standards; allow industry to tune and trade their 
emissions through the EPA's sulfur dioxide cap-and-trade 
system; to composition of refrigerants in automotive air-
conditioning systems to eliminate chlorofluorocarbons and find 
replacements that minimize the impacts on the ozone-depletion 
in the upper atmosphere; to production of roadway materials and 
the composition, strength, and durability of road and bridge 
materials and construction techniques to minimize greenhouse 
gas emissions; to lightweight metal-forming and composites to 
enable manufacturers to have high-performance, high-durability, 
and safe materials to increase efficiency in the automotive and 
aerospace industry; to development of measurements, science, 
and standards infrastructure to support the development and 
implementation of advanced alternative fuel sources, such as 
hydrogen and biofuels; and finally, to the development of the 
Smart Grid standards for plug-in hybrid electric vehicles 
scheduled to be in showrooms in 2010.
    Automobiles and light trucks consume 79 percent of all U.S. 
distilled fuel and account for 19.8 percent of all U.S. 
CO<INF>2</INF> emissions. Lightweight materials are a big part 
of the solution to reduce our consumption, as lighter vehicles 
tend to use less fuel.
    The Department of Energy's Office of Vehicle Technology 
states that lightweight materials are needed to ``offset the 
increased weight and cost per unit of power of alternative 
power trains, hybrids, and fuel cells, with respect to 
conventional power trains.''
    The transportation industry, particularly the automotive 
and aerospace industry, is looking for lightweight materials, 
such as new lightweight aluminum and composite materials, to 
improve fuel efficiency. Introduction of these materials is 
limited by severe manufacturing difficulties tied to 
unpredictable small-scale stresses during production. DOE and 
NIST scientists developed a way to measure and map stresses on 
this scale using X-ray micro-beams that are 100 times thinner 
than a human hair. These measurements have solved key 
scientific questions about how metals deform, and this 
knowledge will accelerate the introduction of lightweight 
alloys into fuel-efficient vehicles.
    Before I sum up my remarks, I'd like to briefly mention two 
of our requested budget initiatives for 2009 that will greatly 
expand our capabilities and ability to have an impact on the 
broader issue of climate change.
    The expansion of the NIST Center for Neutron Research 
(NCNR) is integral to our programs that impact transportation-
related climate change issues because of the ability to image 
the interior of operating hydrogen fuel cells. Large and small 
companies involved in the manufacture or use of fuel cells, 
including General Motors, DuPont, and PlugPower, have benefited 
from this unique capability.
    Industry scientists have stated that the research performed 
at the NIST Center for Neutron Research has allowed them to 
jump 5 years ahead in fuel cell development.
    The second initiative, which is related directly to the 
work made possible by the NCNR, is an expansion of our program 
targeted to enable the use of hydrogen as a fuel. This 
initiative would expand our work to address more of the 
technical challenges that need to be overcome before hydrogen 
can become a practical and economic alternative fuel, such as 
its propensity to embrittle materials which could lead to 
problems in containment and distribution infrastructure 
integrity, not to mention the challenges associated with 
measuring and distributing it to ensure equitable sale in the 
marketplace.
    Today, more than any other time in our history, 
technological innovation and progress depend upon NIST's unique 
skills and capability. Helping the U.S. to drive and take 
advantage of the increased pace of technological change is a 
top priority for NIST. The technologies that emerge as a result 
of NIST's development of measurement science and standard tools 
will enable U.S. companies to innovate and remain competitive. 
That absolutely includes the need to develop both information 
and measures to enable the United States and other nations to 
deal with the potential and real climate-related impacts of 
transportation systems and components.
    This concludes my remarks, and I'll be happy to answer any 
questions you may have, sir.
    [The prepared statement of Dr. Turner follows:]

 Prepared Statement of Dr. James M. Turner, Deputy Director, National 
   Institute of Standards and Technology, U.S. Department of Commerce
    Chairman Inouye, Vice Chairman Stevens, and Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the research we do related to the transportation sector on 
areas that are related to global climate change underway at the 
National Institute of Standards and Technology (NIST).
    The well-being of U.S. citizens is affected every day by NIST's 
measurement and standards work. Virtually every segment of the economy, 
from transportation to computer networks, banking, food processing, 
health care and communication, depends on NIST research, products and 
services. More broadly, the quality of the water we drink, the air we 
breathe, the energy that we use, and the food we eat depends in part on 
that work.
    The work NIST is doing on climate change is important. Some of the 
drivers of climate, such as the sun's output, have small variations 
that change slowly over time. As a result, climate predictions depend 
on developing absolute measurements of the sun's energy that can be 
compared accurately over decades from different sensors. Other 
important variables include the sizes, shapes, and chemical composition 
of particles or droplets (aerosols) in the atmosphere. Whether aerosols 
contribute to the warming or the cooling of the Earth depends upon 
their composition.
    In the area of transportation, let me start with one example. NIST 
conducts research and provides measurement science and services that 
underpin many stages of auto manufacturing--from the production of 
materials like sheet metal for body panels to monitoring the final 
quality of the vehicle assembly. NIST's work extends beyond the car to 
the transportation infrastructure itself, including both fossil and 
alternative fuels; emissions; advanced materials like cement for 
bridges and highways to lightweight metals and composites for auto body 
parts; fuel cells; and more efficient and greener manufacturing 
processes:
    In addition, NIST works in the following areas:

  <bullet> Composition, volume, and weight standards for fuels and oil 
        to allow confidence in trading in low to high sulfur content 
        fuels in competitive markets. This covers everything from 
        measures and standards for fossil fuels to biofuels, and from 
        train cars of coal to gallons of gasoline at the pump.

  <bullet> Gas reference standards for sulfur dioxide and nitrous 
        oxides that enable automotive manufacturers to meet 
        Environmental Protection Agency (EPA) standards and generally 
        allow industry to tune and trade their emissions through the 
        EPA sulfur dioxide cap and trade system.

  <bullet> Composition of refrigerants in automotive air conditioning 
        systems to eliminate chlorofluorocarbons and find replacements 
        that minimize impacts on ozone depletion in the upper 
        atmosphere, as well as climate forcing due to these gases.

  <bullet> Production of roadway materials, and the composition, 
        strength, and durability of road and bridge materials and 
        construction techniques to minimize greenhouse gas (GHG) 
        emissions.

  <bullet> Lightweight metal forming and composites to enable 
        manufacturers to have high performance, high durability and 
        safe materials to increase efficiency in the automotive and 
        aerospace industry.

  <bullet> Developing Smart Grid standards for plug-in hybrid 
        electrical vehicles scheduled to be in showrooms in 2010.

  <bullet> More efficient, greener manufacturing through a partnership 
        with EPA on the Green Supplier Network.

    Now I would like to cover some specific work NIST is undertaking to 
improve efficiencies in the transportation industry that could reduce 
the impact of the industry on climate change. I also want to note that 
NIST has requested budget increases in FY09 that would enable us to 
expand and accelerate our work in this area. It also is important to 
note that nearly all of NIST's work is planned and done in partnership 
with others in industry, universities, and government at all levels.
Supporting Innovations in Fossil, Bio Fuels and Hydrogen Fuel Cells--
        Monitoring Emissions and Developing New Fuel Capabilities and 
        Standards
    Fossil Fuels Standard Reference Materials (SRMs)--Standards in 
Emissions. Beginning in June 2006 the U.S. Environmental Protection 
Agency mandated ultra-low sulfur diesel (ULSD) fuel to make possible 
more efficient exhaust emissions. The accurate determination of sulfur 
in ULSD at low levels is a major measurement challenge with enormous 
economic consequences, mostly in avoided costs, for petroleum 
refineries and for every link in the distribution system. To meet this 
challenge, industry must have highly accurate sulfur standards. These 
SRMs ensure the accurate make up of the fuel and enable compliance to 
EPAs regulations regarding sulfur fuels. NIST is the place to go for an 
SRM for a fossil fuel. NIST's first fossil fuel SRMs were issued in 
1967 and continue to be issued today.
    These standards represent some of NIST's most successful products. 
According to the study Economic Impact of Standard Reference Materials 
for Sulfur in Fossil Fuels, NIST work returned a calculated rate of 
return for the program of 1,056 percent. Studies also demonstrate that 
NIST standards for sulfur in fossil fuels have a net value to society 
of more than $409 million since 1984.
    Biofuels. Biofuels have gained popularity worldwide both as a 
renewable energy source and as a way to reduce greenhouse gas emissions 
and move away from dependence on fossil fuels. NIST is participating in 
this arena. The United States, Brazil and the European Union have 
convened a task force of experts to study existing biofuels standards 
and catalog similarities and differences between them. Out of this 
partnership, NIST and Brazil are collaborating on the development of 
joint measurement standards for bioethanol and biodiesel by the end of 
2008.
    Getting an Accurate Fill-Up. Working very closely with State 
weights and measures organizations, NIST has long maintained the 
standard for ensuring that consumers actually receive a gallon of gas 
every time they pay for one. Now NIST researchers are incorporating the 
properties of hydrogen in standards that will support the development 
of hydrogen as a fuel in vehicles. One of the challenges in the use of 
hydrogen as a vehicle fuel is the seemingly trivial matter of measuring 
fuel consumption. Consumers and industry are accustomed to high 
accuracy when purchasing gasoline. Refueling with hydrogen is a problem 
because there are currently no mechanisms to ensure accuracy at the 
pump. Hydrogen is dispensed at a very high pressure, at varying degrees 
of temperature and with mixtures of other gases. NIST's research and 
new technological innovations will enable accuracy in hydrogen fill-
ups.
    Fuel Research for Aviation, Aerospace and Vehicular Transportation. 
NIST has a major effort underway to characterize and model fuel fluids. 
All reformulations of these fuels changes the way they operate and NIST 
is working to identify how they are affected. These liquid fuels have 
long been the most convenient fuel source for all sectors of 
transportation--aircraft, rockets, cars, trucks, locomotives and 
military vehicles. The design and specification of these fuels has 
environmental considerations. Redesigning fuels with environmental 
considerations as a factor can only be done after NIST does its job of 
understanding how different additives and formulations affect the fuel.
    Enabling the Use of Hydrogen Fuel. As mentioned above, NIST is 
working to enable the use of hydrogen as a fuel. Hydrogen offers the 
possibility of lowering the impact of motor vehicles on the 
environment, and reducing our Nation's dependence on foreign oil. While 
the burning of fossil fuels produces carbon dioxide and other emissions 
harmful to the environment, hydrogen fuel can be made from many energy 
sources, including renewables, and produces zero emissions.
    Technical challenges need to be overcome to make hydrogen-powered 
vehicles more practical and economical. Fuel cells need to operate as 
reliably as today's gasoline engine. We need systems that can store 
enough hydrogen fuel to give consumers a comfortable driving range. We 
need science-based standards that will guide local officials in 
establishing codes for building and fire safety as they relate to 
something like a hydrogen fueling station. And we need a technical 
infrastructure to ensure the equitable sale of hydrogen in the 
marketplace, as exists today for gasoline.
    Expansion of research efforts at NIST is essential to achieving 
widespread use of hydrogen as a fuel. The distribution and sale of 
hydrogen will require entirely new systems for ensuring equity in the 
marketplace. In Fiscal Year 2009, NIST has requested $4 million to 
accelerate its research in this area. NIST has been a leading provider 
of data on the chemical and physical properties of hydrogen for more 
than 50 years. It has statutory responsibility under the Pipeline 
Safety Act of 2002 (P.L. 107-355) to develop research and standards for 
gas pipeline integrity, safety, and reliability. It is the lead U.S. 
agency for weights and measures of vehicle fuels, and it develops test 
protocols for stationary fuel-cell systems, covering issues of 
efficiency, performance, and compatibility with the power grid for 
interconnection purposes.
    NIST's Center for Neutron Research (NCNR) is the premier facility 
for real-time, three-dimensional imaging of hydrogen in operating fuel 
cells. NIST's operations have won awards and wide praise for providing 
the diagnostics that industry needs to make fuel cells more reliable 
and less costly. The unique resources developed at this NIST facility 
will also help reduce technical barriers for efficient hydrogen 
production and storage. Indeed, NIST participates in two of the three 
Centers of Excellence established by DOE to develop better means of 
hydrogen storage.
    Transporting and Distributing Hydrogen. Gasoline consumption in the 
U.S. exceeds 388 million gallons per day and at $4 a gallon that is a 
growing investment. Producing hydrogen fuel from domestic energy 
sources will increase domestic control and substantially reduce 
greenhouse gas emissions. One barrier to this switch is pipelines. 
There are currently 700 miles of hydrogen pipelines in operation--that 
is in comparison to 1 million miles of natural gas pipelines. To move 
to a more nationwide use of hydrogen, safe and effective pipelines have 
to be developed. This work will also be part of the NIST Fiscal Year 
2009 Hydrogen initiative request of $4 million dollars to accelerate 
research in this area. NIST is working on both sensor development to 
monitor the pipelines and steel and material testing to ensure the 
safest pipeline possible. NIST is working to establish the codes and 
standards necessary to ensure safe distribution of hydrogen fuels. The 
future ``hydrogen economy'' will depend on efficient transport of fuel 
across the U.S. In order to use the existing network of pipelines, 
tests have to be developed to test for the degradation that is likely 
to occur to the metals that can be caused by hydrogen weakening the 
pipeline. By establishing the unique test facilities and standard test 
procedures, we will provide pipeline operators with critical data on 
the durability of pipeline material in high-pressure hydrogen gas 
environments.
    Hydrogen Storage. Hydrogen is promoted as a petroleum replacement 
that presents an attractive alternative for fueling automobiles and 
trucks while maintaining a cleaner global environment. A major 
roadblock associated with the use of hydrogen is the inability to store 
it efficiently. Because hydrogen's properties have been shown to 
embrittle metals and because current storage technologies limit the 
potential range of hydrogen powered vehicles, NIST is working on 
measurement tools to determine hydrogen's absorption/desorption 
characteristics that will accelerate discovery of new materials that 
can be used to store hydrogen for use across the U.S.
    Fuel Cell Research. This is another area where innovations can have 
an impact on the environment. A huge array of emerging technologies, 
from new portable electronic devices to smart energy vehicles, depend 
on the successful development and deployment of efficient, lightweight, 
reliable and cost-effective fuel cells. The potential market for these 
new products represents billions of dollars to the U.S. economy. NIST's 
Center for Neutron Research (NCNR) works with General Motors and others 
in this area. NIST's expertise is essential for making fuel cells less 
costly and more reliable.
    To develop fuel cells for practical use, NIST researchers are 
developing measurement methods to characterize the nanoscale structure 
and dynamics of polymer membranes inside the fuel cell to enable 
stronger fuel cells. Industry's use of the unique facilities and 
instruments at NIST will help reduce technical barriers for efficient 
hydrogen production, storage, and use.
Supporting Innovation in Advanced Materials--Lightweight Materials and 
        Nanocomposites
    In addition to the work NIST is doing in the area of hydrogen fuel, 
other researchers at NIST are looking at materials that will make more 
efficient cars, airplanes and trains. These efficiencies also will 
strongly benefit the environment by introducing lighter, more fuel 
efficient transportation.
    Automobiles and light trucks consume 79 percent of all U.S. 
distilled fuel and emit 19.8 percent of all U.S. CO<INF>2</INF> 
emissions. Lightweight materials are a big part of the solution to 
reduce our consumption. The Department of Energy, Office of Vehicle 
Technologies states that lightweight materials are needed to ``offset 
the increased weight and cost per unit of power of alternative 
powertrains (hybrids, fuel cells) with respect to conventional 
powertrains.''
    Lightweight Materials for Automobiles. The transportation industry 
in general, particularly the automotive industry, is looking for 
lightweight materials such as new lightweight aluminum and high-
strength steel alloys to improve fuel efficiency. Introduction of these 
alloys is limited by severe manufacturing difficulties tied to 
unpredictable micron-scale stresses during production. NIST and 
industry scientists developed a way to measure and map stresses on the 
micron scale using X-ray microbeams that are 100 times thinner than a 
human hair. These measurements have solved key scientific questions 
about how metals deform and this knowledge will accelerate the 
introduction of new lightweight alloys into fuel-efficient vehicles.
    NIST is partnering with the automotive industry to accelerate the 
introduction of aluminum and high-strength steel into automobile 
production and is collaborating with the Argonne National Laboratory's 
Advanced Photon Source and the Oak Ridge National Laboratory to measure 
stresses in deformed metals at the nanoscale level.
    NIST Center for Metal Forming. The NIST Center for Metal Forming is 
developing the measurements, standards and analysis necessary for the 
U.S. automotive industry and metal suppliers to transition to new ways 
of forming metals. This will enable the industry to transition to new 
advanced and lightweight materials more easily as more accurate data 
and material models will lead to more accurate die designs, reducing 
redesign and new model development costs. The reduction of sheet metal 
forming redesigns through improved material data and models is 
projected to save the U.S. auto industry a large portion of the $600 
million lost per year on redesigns.
    Determining the Life Cycle and Environmental, Health and Safety 
Performances of Polymer Nanocomposites. Polymer nanocomposites, defined 
as material systems in which one or more dimensions is less than 100 
nm, have greatly improved performance properties relative to 
traditional polymeric materials and are forecast to make significant in 
roads in the near future in high volume markets including 
infrastructure, automotive, and aerospace industries. However, use of 
these materials in products is hindered by the lack of performance data 
for them, as well as significant societal concerns regarding the 
release of significant quantities of nanomaterials into the environment 
during or at the end of the product service life. Critical information 
and data is lacking for characterizing and predicting life cycle 
performance and in-service release rates of nanoparticles from polymer 
nanocomposites. Although current research focuses on nanoparticle 
exposure during the manufacturing process, in-service release of 
nanoparticles from nanocomposites is expected to be greater by several 
orders of magnitude. NIST will develop and apply measurement science 
over a wide range of length and time scales to enable a comprehensive 
understanding of life cycle performance and nanoparticle release rates 
of polymer nanocomposites.
    Timely, accurate, and precise material life cycle performance 
estimates will enable a revolutionary transformation from initial cost 
to life cycle cost-based materials selections. Information regarding 
nanoparticle release rates over the life cycle of nanocomposite 
materials will ensure safety in commerce by directly addressing public, 
environmental, and regulatory concerns regarding the environmental, 
health, and safety aspects of these materials. This research will also 
foster innovation throughout the nanocomposites supply chain such as 
material and product manufacturers, and end users and improve the 
competitive position of U.S. industry in the global market.
    While NIST's work in the automotive and related industries is 
important to reducing our impact on the environment, there are many 
ways in which NIST's research in the area of transportation 
infrastructure could reduce our impact on our climate.
Supporting Innovation in Transportation Infrastructure Via Concrete 
        Research That Will Have an Impact on the Environment
    Most of the U.S. and the world's infrastructure--transportation 
structures, tunnels, airports, buildings, dams, industrial plants--is 
made out of concrete. There has been significant work in the area of 
concrete technology over the last few decades to greatly improve 
processing and properties making concrete more sustainable.
    Why is this important to climate change? The cement and concrete 
industry is a large generator of greenhouse gas, mainly carbon dioxide 
(CO<INF>2</INF>), during the manufacturing production process. One U.S. 
ton of cement produces about one ton of CO<INF>2</INF> and the annual 
world production of cement--2.5 billion tons--is equal to a 3-9 percent 
estimated share of world man-made CO<INF>2</INF>. In 2006, the U.S. 
produced 96 million tons of cement and 37 million tons were imported 
for use in the U.S. It is estimated that 1.5 percent of U.S. man-made 
CO<INF>2</INF> generation comes from concrete production. And while 
this is a large number, cement production is forecast to greatly 
increase over the next 20-40 years because of burgeoning demand for new 
and replacement infrastructure.
    In the U.S., the energy efficiency of cement production is already 
high, and is probably only capable of fairly small improvements. One is 
limited to reducing the CO<INF>2</INF> that is given off from the raw 
materials by partially substituting another material for the cement in 
concrete, such as the substitution of non-CO<INF>2</INF> containing 
materials for a portion of the limestone in the raw materials. Around 
the world, the two most common minerals used to substitute for cement 
are fly ash and granulated ground blast furnace slag. The use of fly 
ash and slag in concrete can actually improve the properties of 
concrete, especially the durability.
    NIST is planning to incorporate research on fly ash into our 
research program in this year and is currently collaborating with 
several research institutions in submitting joint proposals in response 
to a Federal Highway Administration Broad Area Announcement pertaining 
to fly ash. In addition, our researchers have published extensively on 
the incorporation of fly ash into concrete for other Federal agencies.
    Let me highlight some of NIST's work to address the needs of the 
concrete industry itself. All of our work will improve our 
understanding of how cement and concrete actually work, and ultimately 
should make possible improvements in the formulation and use of cement 
that could save hundreds of millions of dollars in annual maintenance 
and repair costs for concrete structures and the country's 
infrastructure. This work should also lead to improving the properties 
and performance of concrete while decreasing energy costs and reducing 
the CO<INF>2</INF> emissions from its production.
    Using NIST State of the Art Tools to Study Concrete. Using the most 
modern tools of materials research, researchers from NIST and industry 
are exploring one of the oldest but most complex construction 
materials--cement.
    Cement may be the world's most widely used manufactured material--
more than two billion metric tons are consumed each year--but it also 
is one of the more complex. And while it was known to the Romans, who 
used it to good effect in the Coliseum and Pantheon, questions still 
remain as to just how it works, in particular how it is structured at 
the nano- and microscale, and how this structure affects its 
performance. NIST's investigations should lead to a better 
understanding of the contribution of the nanoscale structure of cement 
to concrete durability, and how to improve it.
    Processing of High-Performance Concrete: Mixing and Flow 
Properties. NIST researchers are looking at ways to develop cement 
paste and mortar measurement techniques. Researchers are also looking 
at models of mortar and concrete flow, and guidelines for optimizing 
the proportioning and processing of high-performance concrete (HPC). At 
present, there are no generally accepted guidelines for formulating and 
mixing HPC and no standard tests for measuring the workability of HPC 
in terms of fundamental flow quantities such as yield stress and 
plastic viscosity. In the selection of mixture proportions, many 
methods exist for present-day concretes, but none has received general 
acceptance and only a few are based on performance rather than 
prescription; all require the making and testing of numerous batches, 
which is not the most efficient way to test. We need to link the 
mixture composition with performance, including flow properties. A 
method for predicting the flow properties of HPC from mixture 
proportions will result in a significant reduction of cost in designing 
HPC mixtures with optimum performance, both in the fresh and hardened 
states. NIST is developing models to simulate various scenarios to 
address this issue and to improve the performance of concrete.
    Virtual Cement and Concrete Testing Laboratory (VCCTL) Cement 
Hydration Modeling. A new hydration model is part of a NIST/industry 
consortium to design, develop, document, and validate a novel, next-
generation computer model of microstructure development of hydrating 
cement paste. The hydration of portland cement pastes is an extremely 
complicated phenomena involving many chemical reactions. The VCCTL 
consortium is committed to the development of a computer model, based 
on accepted reaction thermodynamics and kinetics that can make reliable 
predictions of the kinetics of 3-D microstructure development and its 
dependence on various chemical admixtures. Such a model could become a 
valuable research tool for cement and admixture companies and could 
help them reduce the amount of physical testing that they currently 
perform.
    Micro- and Macrostructural Characterization of High-Performance 
Concrete. NIST is developing methods for characterizing of the micro- 
and macrostructures of cements and high-performance concrete. To 
understand how concrete will react under certain circumstances--in 
numerous environments--one has to understand concrete at the micro 
level. The methodology developed by NIST will form the basis for 
assessing and predicting concrete composition and texture influences on 
performance. This project will lead to an improved understanding of 
concrete degradation and therefore reduce the need for repeated 
replacement of concrete and thereby reducing the CO<INF>2</INF> 
emissions associated with the production of cement.
    Simulation of the Performance and Service Life of High Performance 
Concrete. NIST is also looking at computer simulation algorithms for 
the service life of high-performance concrete. The service life of HPC 
depends on almost all performance properties, such as transport 
properties like resistance to chemical penetration and mechanical 
properties like elasticity. These properties need to be predicted at 
the design stage, so that HPC can be designed for durability and 
lifecycle cost requirements, not just strength requirements. The only 
accurate way that different kinds of HPC can be handled is to base such 
predictions on fundamental materials science that includes 
microstructure, cement chemistry, concrete mixture design, and expected 
curing. Since concrete is made up of particles at many length scales 
(e.g., cement, fly ash, silica fume, sand, gravel), quantitative 
characterization of particle shape is needed so that real particles can 
be used in these kinds of quantitative models.
    Adaptive Concrete Technologies. NIST researchers are investigating 
adaptive concrete technologies including internal curing and the 
incorporation of phase change materials into concrete to increase its 
service life. Field concrete is exposed to a wide variety of 
environmental conditions and distress. These environmental factors 
often result in premature degradation and/or failure. Examples include 
early-age cracking due to shrinkage and degradation as a result of 
repeated cycles of freezing and thawing, and deterioration due to 
damaging reactions of chemicals (chloride, sulfate, and alkali ions, 
etc.). An adaptive concrete is one that dynamically and actively 
``responds'' to these stimuli in such a manner as to reduce their 
impacts. The results of this research may encourage the industry to 
have another look at what composition is truly optimum for applications 
such as pavements and bridge decks, where durability is much more 
important than strength.
    Doubling the Service Life of Concrete. NIST is working to have a 
dramatic effect on the concrete industry through doubling the service 
life of new concrete by altering the composition of concrete. One of 
the main goals of high performance concrete is to increase service 
life. Under most chemical erosion scenarios, the service life of 
concrete depends on its reaction to external chemicals entering it. 
There are a number of ways to significantly increase the service life 
of concrete including reducing the porosity and adding mixtures to 
provide increased resistance to the infiltration of chemicals. 
Unfortunately, one of the side effects of these modifications is a 
large increase in the propensity for early-age cracking, and the 
desired barrier performance of a dense concrete is easily compromised 
by the formation of just a few cracks. Time until the steel 
reinforcement in the concrete rusts is related to the depth of concrete 
cover, so that if you increase the thickness of concrete over the steel 
by 50 percent, you get approximately double the expected service life. 
More concrete covering the rebar may not be feasible because of design 
constraints, and both additional concrete and changing the composition 
to resist chemicals can add considerable cost to construction. NIST 
researchers propose a different approach to modification of the 
physical properties of the concrete structure by using a combination of 
electrical conductivity, ion diffusivity, and viscosity measurements.
    In addition to these programs, NIST cement Standard Reference 
Materials (SRMs) have underpinned product quality for the cement 
industry for nearly 50 years. The cement SRMs series has proven to be 
essential to laboratories that certify concrete products for 
performance and that evaluate mechanisms for concrete corrosion and 
failure.
Summary
    For 107 years, NIST research has been critical to our Nation's 
innovation and competitiveness by directly supporting technological 
advances in broad sectors of the economy that will quite literally 
define the 21st century--as well as improve the safety and quality of 
life for all our citizens.
    Today, more than at any other time in history, technological 
innovation and progress depend on NIST's unique skills and 
capabilities. Helping the U.S. to drive and take advantage of the 
increased pace of technological change is a top priority for NIST. The 
technologies that emerge as a result of NIST's development of these 
tools are enabling U.S. companies to innovate and remain competitive. 
That absolutely includes the need to develop both information and 
better tools to enable the United States and other nations to deal with 
the potential and real climate-related impacts of transportation 
systems and components.
    To ensure that NIST programs deliver the highest impact, the 
Institute, working with our stakeholders in Congress, industry, 
academia, and other government agencies, will continue to identify the 
most critical measurement, standards, and technological challenges--
including our efforts that relate to the transportation sector and 
climate change. We look forward to working with you, Mr. Chairman, and 
Members of the Subcommittee, throughout this process.

    The Chairman. Thank you very much, Dr. Turner.
    Dr. Peterson?

          STATEMENT OF DR. THOMAS C. PETERSON, CLIMATE

       SERVICES DIVISION, NATIONAL CLIMATIC DATA CENTER,

            NATIONAL ENVIRONMENTAL SATELLITE, DATA,

           AND INFORMATION SERVICE, NATIONAL OCEANIC

                AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Peterson. Chairman Inouye, Vice Chairman Stevens, 
Members of the Committee, thank you for this opportunity to 
talk to you today on the impacts of climate change on 
transportation.
    When the National Research Council started focusing on this 
topic a few years ago, they didn't find very much solid 
information on it. I'm pleased to be able to report to you 
today that this is no longer the case. In addition to the paper 
the National Research Council commissioned me to write on 
climate variability and change with implications for 
transportation, earlier this year the National Research Council 
released its report on the potential impacts of climate change 
on U.S. transportation. Also, the U.S. Climate Change Science 
Program recently released its report on the impacts of climate 
variability and change on transportation in the Gulf Coast and 
a report on weather and climate extremes and how they are 
changing. This latter report, of which I'm one of the authors, 
is relevant to transportation because transportation is 
particularly sensitive to changes in extremes, and it was just 
released last Thursday.
    There are five key aspects of climate change that are of 
greatest relevance to transportation. The first is increases in 
very hot days and heat waves. Very hot days can cause railroad 
tracks to buckle and road pavement to rut more easily. They 
limit some outdoor maintenance activities and can force 
aircraft at higher elevation airports to lighten their loads.
    The second is the increases in Arctic temperatures which 
are causing a thawing of permafrost on which some 
transportation infrastructure was built. Also, the melting of 
Arctic sea ice is raising the potential future opening of a 
summertime Arctic sea lane, which could save thousands of miles 
on some shipping routes.
    The third--global sea level is rising, and in many parts of 
the country this will be noticed when storm waters flood 
farther inland than they would have without sea level rise. In 
some areas of the country, such as along the Gulf Coast, local 
sea level rise can be much greater than global rise, due to 
land subsidence.
    The fourth is increases in heavy precipitation. Flooding 
from heavy rain damages many types of transportation 
infrastructure.
    And the last feature is increases in hurricane intensities. 
The number of hurricanes is not projected to increase, but it 
is likely that their intensity will. Intense hurricanes impact 
transportation infrastructure through stronger winds, heavier 
precipitation, and higher storm surges.
    NOAA helps the Nation's transportation industry identify 
and manage risk associated with climate variability and change 
by serving as a centralized source of relevant and timely 
weather and climate information needed to support commerce. 
Specifically, NOAA actively supports the transportation 
industry in three ways.
    The first is through the creation of basic data and models 
that transportation planners rely on for both adjusting to 
real-time weather impacts and for making long-range 
infrastructure decisions.
    The second is through NOAA's participation in scientific 
assessments such as the Intergovernmental Panel on Climate 
Change. These reports synthesize state-of-the-art scientific 
understanding that planners need when looking decades into the 
future.
    And the third is outreach and education to data users in 
transportation and other sectors. For example NOAA hosts annual 
data user workshops which both educates transportation data 
uses on what relevant data and services NOAA can provide and 
also educates NOAA on the needs of the transportation sector.
    User-specific information is needed, because climate change 
will affect transportation and transportation infrastructure in 
multiple ways over the lifetime of the infrastructure, which 
can be long. The lifetime of roadways is typically 25 years; 
railroads, 50 years; and bridges and underpasses, 100 years.
    When planning a new bridge, for example, designers can take 
into consideration, among other things, current traffic and 
potential future traffic; current weather and climate, and 
potential future weather and climate. The design of the 8-mile-
long Confederation Bridge, which connects Prince Edward Island 
to the Canadian mainland, did just that by taking into account 
the possibility of a 3-foot rise in sea level due to climate 
change.
    Many other adaptation measures can be adopted. For example, 
there are methods of laying railroad track that can raise the 
temperature at which they buckle; some pavement options are 
more resistant to rutting during hot weather than others; and 
larger culverts can be placed under railroads and highways to 
accommodate heavier precipitation.
    In summary, to help the Nation respond to this challenge, 
NOAA provides climate information to the transportation sector 
to aid in its efficient and safe operation and to help guide 
infrastructure design to withstand future climate change.
    The environmental information NOAA provides is crucial for 
decision makers in the transportation sector and many other 
critical areas of the economy every day.
    Thank you, again, for inviting me to testify. I'm happy to 
answer any questions you may have.
    [The prepared statement of Dr. Peterson follows:]

    Prepared Statement of Dr. Thomas C. Peterson, Climate Services 
    Division, National Climatic Data Center, National Environmental 
                              Satellite, 
    Data, and Information Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
    Mr. Chairman and Members of the Committee, I am Dr. Thomas 
Peterson, a physical scientist with NOAA's National Climatic Data 
Center. I am pleased to present a summary of our understanding of the 
impacts of climate change on transportation infrastructure as well as a 
description of NOAA's role in creating and providing key information on 
climate change to transportation decision-makers. I am an author of a 
National Research Council (NRC) commissioned paper released this past 
March on Climate Variability and Change with Implications for 
Transportation, along with other colleagues from NOAA and the 
Department of Energy's Lawrence Berkeley National Laboratory.
    My testimony will draw from the NRC paper as well as from three 
other timely reports of which I am an author of the report on climate 
extremes:

        The Potential Impacts of Climate Change on U.S. Transportation 
        by the NRC Transportation Research Board (TRB) which was 
        released March 11, 2008.

        Impacts of Climate Variability and Change on Transportation 
        Systems and Infrastructure--Gulf Coast Study, U.S. Climate 
        Change Science Program (CCSP) Synthesis and Assessment Report 
        4.7, released March 12, 2008.

        Weather and Climate Extremes in a Changing Climate, U.S. 
        Climate Change Science Program Synthesis and Assessment Report 
        3.3, released June 2008.
Climate Change and Its Impacts on Transportation Operation and 
        Infrastructure
    According to the NRC report, five aspects of climate change impact 
transportation operations and infrastructure: (1) increases in very hot 
days and heat waves, (2) increases in Arctic temperatures, (3) rising 
sea levels, (4) increases in intense precipitation events, and (5) 
increases in hurricane intensity.
Increases in Very Hot Days and Heat Waves
    It is highly likely (greater than 90 percent probability of 
occurrence) that heat extremes and heat waves will continue to become 
more intense, last longer, and be more frequent in most regions during 
the twenty-first century. In 2007, the probability of having five 
summer days at or above 43.3 +C (110 +F) in Dallas was about 2 percent. 
In 25 years the models indicate that this probability increases to 5 
percent; in 50 years, to 25 percent; and by 2099, to 90 percent. Very 
hot days can have an impact on operations; for example, by limiting 
periods of outdoor railroad track maintenance activity due to health 
and safety concerns. High temperatures can have a big impact on 
aircraft by influencing the limits on payload and/or canceling flights. 
This is due to the fact that, because warmer air is thinner (less 
dense), for any given take-off speed the wings of airplanes create less 
lift when temperatures are high. This causes lower lift-off load limits 
at high-altitude or hot-weather airports with insufficient runway 
lengths. Examples of impacts on infrastructure include rail-track 
deformities, thermal expansion on bridge joints and paved surfaces, and 
concerns regarding the integrity of pavement.
Increases in Arctic Temperatures
    Arctic warming is virtually certain (greater than 99 percent 
probability of occurrence), as temperature increases are expected to be 
greatest over land and at most high northern latitudes. As much as 90 
percent of the upper layer of permafrost could thaw under higher 
emission scenarios. The greatest temperature increases in North America 
are projected to occur in the winter in northern parts of Alaska and 
Canada as a result of feedback effects of shortened periods of snow 
cover. By the end of the twenty-first century, temperatures could 
increase by as much as 10.0 +C (18.0 +F) in the winter and 2.0 +C (3.6 
+F) in the summer in the northernmost areas. For the rest of North 
America, the projected annual mean temperature increase ranges from 3.0 
to 5.0 +C (5.4 to 9.0 +F), with smaller increases expected near the 
coasts. Examples of impacts on operations include a longer ocean 
transport season and more ice-free ports in northern regions, as well 
as the possible availability of a northern sea route, or a northwest 
passage. Examples of impacts on infrastructure include a short season 
for ice on roads and thawing of permafrost, which causes subsidence of 
roads, rail beds, bridge supports, pipelines, and runway foundations.
Rising Sea Levels
    It is virtually certain (greater than 99 percent probability of 
occurrence) that sea levels will continue to rise in the twenty-first 
century as a result of thermal expansion and loss of mass from ice 
sheets. The projected global range in sea level rise is from 0.18 m 
(7.1 in) to 0.59 m (23.2 in) by 2099. These estimates do not include 
subsidence in regions of the Gulf of Mexico and uplift along portions 
of the New England and Alaskan coasts. They also do not include the 
dynamics of land ice in frozen regions such as Greenland and 
Antarctica, which could increase the projection for sea level rise. The 
Gulf Coast Study estimates that a relative sea level rise of 0.5 to 4 
feet is quite possible for parts of the Gulf Coast within 50 years, due 
primarily to land subsidence. With an increase of 4 feet in relative 
sea level, as much as 2,400 miles of major Gulf Coast roadways could be 
permanently flooded without adaptation measures. Other examples of the 
impacts of sea level rise on operations include more frequent 
interruptions in coastal and low-lying roadway travel and rail service 
due to storm surge. Sea level rise will cause storm water levels to be 
higher and flow further inland, exposing more infrastructure to 
destructive wave forces. Higher storm water levels will in turn require 
reassessment of evacuation routes, changes in infrastructure design, 
siting, and development patterns, and the potential for closure or 
restrictions at several of the top 50 airports, as well as key maritime 
ports that lie in coastal zones. With 50 percent of the population 
living in the coastal zone, these airports and ports provide service to 
the highest-density populations in the United States. Examples of 
impacts on infrastructure include reduced clearance under bridges; 
erosion of road base and bridge supports; inundation of roads, rail 
lines, subways, and airport runways in coastal areas; more frequent or 
severe flooding of underground tunnels and low-lying infrastructure; 
and changes in harbor and port facilities to accommodate higher tides 
and storm surges.
Increases in Intense Precipitation Events
    It is very likely (greater than 90 percent probability of 
occurrence) that intense precipitation events will continue to become 
more frequent in widespread areas of the United States. Examples of 
impacts on operations include increased flooding of evacuation routes, 
increases in weather-related delays and traffic disruptions, and 
increases in airline delays due to convective weather. Examples of 
impacts on infrastructure include increases in flooding of roadways, 
rail lines, subterranean tunnels, and runways; increases in scouring of 
pipeline roadbeds and damage to pipelines; and increases in road 
washout, damages to rail-bed support structures, and landslides and 
mudslides that damage roadways and tracks.
Increases in Hurricane Intensity
    It is likely (greater than 66 percent probability of occurrence) 
that tropical storm intensities, with larger peak wind speeds and more 
intense precipitation, will increase. However, it is presently unknown 
how 21st century tropical storm frequency will change compared to the 
historical data. Increased storm intensity can lead to increased 
likelihood of negative impacts to operations and infrastructure, even 
though the number of storms may not be changing. Examples of impacts of 
increased storm intensity on operations include more frequent and 
potentially more extensive emergency evacuations; and more debris on 
roads and rail lines, interrupting travel and shipping. Examples of 
impacts on infrastructure include a greater probability of 
infrastructure failures, increased threat to stability of bridge decks, 
and harbor infrastructure damage due to waves and storm surges.
    In addition to the five major aspects of climate change listed 
above, cold extremes are likely to decrease. This change should have 
mostly positive impacts on transportation, such as a decrease in ice 
buildup on marine infrastructure. Also, if the snow season is shorter, 
roadway maintenance will be easier and highway safety will improve.
    In summary, climate change will affect transportation operations 
and infrastructure in multiple ways. Transportation infrastructures 
have long lifetimes. For roadways it is typically 25 years, railroads 
50 years, and bridges and underpasses 100 years. When planning a new 
bridge, for example, designers can take into consideration (among other 
things) current traffic, potential future traffic, current weather and 
climate, and potential future weather and climate. As illustration of 
such an adaptation measure, the design of the 8 mile long Confederation 
Bridge, which connects Prince Edward Island to the Canadian mainland, 
took into account the possibility of a 1-m (3 feet) sea-level rise due 
to climate change. Many other adaptation measures can be adopted. For 
example, there are methods of laying railroad track that raise the 
temperature at which it will buckle, some pavement options are more 
resistant to rutting during hot weather than others and larger culverts 
can be placed under railroads and highways to accommodate heavier 
precipitation. To help the Nation respond to this challenge, NOAA 
provides climate information to the transportation sector to aid in its 
efficient and safe operation, and to help design infrastructure to 
withstand future climate change.
NOAA's Role in Providing Climate Information
    NOAA helps the Nation's transportation industry identify and manage 
risks associated with climate variability and change. NOAA supports the 
transportation industry by serving as the centralized source of 
relevant and timely weather and climate information needed to support 
commerce. NOAA's contributions include historical and real-time data, 
monitoring and assessments, research and modeling, predictions and 
projections, decision-support tools.
    For example:

  <bullet> NOAA's Climate Prediction Center produces seasonal forecasts 
        used for planning for transport on waterways and stockpiling 
        supplies such as sandbags or salt for roadway (among other 
        functions).

  <bullet> NOAA's National Climatic Data Center (NCDC) develops 
        national and global datasets that have been used to maximize 
        climate resources and minimize the risks posed by climate 
        variability and weather extremes.

  <bullet> NOAA's Earth System Research Laboratory, working with the 
        Federal Highway Administration, develops decision-support 
        software applications that use weather forecasts to generate 
        predictions about roadway conditions and recommendations for 
        the frequency of snow plowing and deicing. These efforts help 
        to increase roadway safety and cost-savings due to reduced 
        unnecessary roadway maintenance.

  <bullet> NOAA's Geophysical Fluid Dynamics Laboratory develops 
        climate models to prepare projections of future climate 
        conditions.

  <bullet> NOAA's Climate Program Office supports fundamental research 
        aimed at fulfilling NOAA's goal to understand and describe 
        climate variability and change to enhance society's ability to 
        plan and respond.

  <bullet> NOAA's National Weather Service and NCDC produce many 
        publications that describe the weather and climate of the 
        United States, participate in national and international 
        climate research assessments, and fulfill millions of data 
        customer requests each year.

  <bullet> NOAA's National Ocean Service provides information on local 
        vertical land movement and local relative mean sea level trends 
        and provides coastal managers with coastal resilience tools and 
        training.

    Climate change presents a substantial challenge for future policy 
and business decision-making, and the demand for climate information 
from NOAA has increased over the past decade and continues to grow. 
Designers of transportation infrastructure can use NOAA's climate 
change information to help guide the design and construction of new 
infrastructure, so it will withstand climactic changes throughout its 
designed life time.
    NOAA actively participates with other Federal agencies and other 
organizations, and often takes a leadership role in collaborative 
climate change assessments and reports. NOAA has worked on both 
domestic efforts, such as the U.S. Climate Change Science Program 
(CCSP) report on changes in extremes in North America, and 
international efforts, including the Intergovernmental Panel on Climate 
Change (IPCC). These rigorous assessments synthesize the latest climate 
science to provide authoritative information on how the climate has 
changed in the past and is expected to change in the future. These 
reports are widely accessed by the transportation industry.
    NOAA has taken a proactive role in understanding the emerging data 
and information needs facing a variety of data users and decision-
makers. As climate services continue to evolve, NOAA recognizes that 
local, regional, state, and private entities require better information 
to understand how their localities are contributing to, will be 
affected by, and can adapt to a changing climate. It is NOAA's goal to 
provide relevant, user-specific climate information to meet this 
demand. NOAA has begun to address this through problem-focused 
initiatives developed collaboratively with users, such as the 
transportation industry.
    For example, in 2007, NCDC hosted a specialized NOAA Data Users 
workshop to identify the climate data and information requirements of 
the energy, insurance, and transportation sectors, in the context of a 
changing climate. The workshop also explored how those emerging 
information needs might guide future products and services. The 
feedback gained from this workshop provided an understanding of the 
needs of each industry, enabling NOAA to maximize the value of the 
climate products and services it delivers. For instance, in addition to 
NOAA's role as provider of historical, current and modeled 
environmental data, these industries are interested in data about the 
probability of risk associated with a changing climate.
    In summary, NOAA is striving to meet the rising demand for climate 
data and products, which support decision-making in a number of 
nationally significant industries including transportation. Government 
and industry leaders recognize the inherent value in planning for 
future climate change through an enhanced climate services partnership 
between the public and private sectors.
    Mr. Chairman, thank you for inviting me to discuss the effects of 
climate change on our Nation's transportation operations and 
infrastructure. I look forward to working with the Committee on any 
further information you may require for your deliberations on this 
topic.
References
    CCSP, 2008: Impacts of Climate Change and Variability on 
Transportation Systems and Infrastructure: Gulf Coast Study, Phase I. A 
Report by the U.S. Climate Change Science Program and the Subcommittee 
on Global Change Research [Savonis, M.J., V.R. Burkett, and J.R. Potter 
(eds.)]. Department of Transportation, Washington, D.C., USA, 445 pp.
    CCSP, 2008: Weather and Climate Extremes in a Changing Climate. 
Regions of Focus: North America, Hawaii, Caribbean, and U.S. Pacific 
Islands. A Report by the U.S. Climate Change Science Program and the 
Subcommittee on Global Change Research. [Thomas R. Karl, Gerald A. 
Meehl, Christopher D. Miller, Susan J. Hassol, Anne M. Waple, and 
William L. Murray (eds.)]. Department of Commerce, NOAA's National 
Climatic Data Center, Washington, D.C., USA, 164 pp.
    Peterson, Thomas C., Marjorie McGuirk, Tamara G. Houston, Andrew H. 
Horvitz and Michael F. Wehner, 2008: Climate Variability and Change 
with Implications for Transportation, National Research Council, 
Washington, D.C., http://onlinepubs.trb.org/onlinepubs/sr/
sr290Many.pdf, 90 pp.
    NRC, 2008: The Potential Impacts of Climate Change on U.S. 
Transportation. National Research Council of the National Academy of 
Sciences, Transportation Research Board Special Report #290, National 
Research Council, Washington, DC, 218 pages.

    The Chairman. I thank you very much, Dr. Peterson.
    My staff has prepared several very technical questions, but 
I'd like to ask other questions, if I may.
    None of you have mentioned the price of gasoline at the 
pumps, or suggested what it should be tomorrow or the following 
day. I would venture to say that if gas prices were set at 
$2.50 a gallon this morning, we would not be holding this 
hearing, nor would Presidential candidates be concerned about 
climate change, emissions, or greenhouse gases.
    And so, I've done some studying, and I'm not certain 
whether the information I'm receiving has any bearing. For 
example, I've been told that 94 percent of the oil we consume 
in the United States comes from countries or dictatorships, 6 
percent by private capitalists. Does that make any sense--94 
percent by countries like Saudi Arabia, Iran, the Emirates, 
nationally owned companies like in Venezuela; and 6 percent by 
private sources--does that make sense? Any of you.
    [No response.]
    The Chairman. We have no idea where the oil is coming from?
    [No response.]
    The Chairman. I've been also told that if all the oil 
consumed in the United States each day--51 percent consumed by 
passenger cars, 12 percent by trucks, buses, and trains, 7 
percent by aircraft, 24 percent by industry, and the rest, 
different places. Does that make sense?
    Admiral Barrett. Senator, I--we're obviously more focused 
on transportation, but, in response to your first question, my 
understanding is, about--something a little less than 40 
percent of our supply comes from domestic sources, and the 
remainder comes from overseas. And I don't know how to 
characterize it. I don't have any information on the nature of 
the places we get it. But, obviously, Congress, certainly the 
Administration, is focused on energy security and energy 
independence; it's a fundamental issue for the country.
    With respect to transportation, what I would offer you is 
that about 95 percent of the fuel used in transportation is 
based on petroleum in one form or another. There are some 
amounts that come from the power grid--electric, on rail--and 
there's some amount--some small amount comes from natural gas--
power compressors. So, the net is that our transportation 
systems are heavily reliant on fossil fuel, and obviously the 
supply of that fuel to the effectiveness of our transportation 
networks and our economy is vitally important.
    The Chairman. I've been told, by responsible people, that 
all of the major automobile manufacturers in the United States 
are prepared to build automobiles that will run on alternative 
fuel once we determine what that alternative fuel is to be. 
Now, if we look at articles, you'll see one organization 
advocating electricity; another, hydrogen; another, biofuel; 
one says do what Brazil does, raise sugar cane; others say 
corn, et cetera. But yet, at the same time, automobile 
manufacturers say, ``If we decide, will we have distribution 
points?'' At the present time, less than 1 percent of our gas 
stations provide other-than-petroleum sources. What's the 
solution?
    Admiral Barrett. Senator, thank you.
    I--from a transportation perspective--again, to go back to 
your initial entry point, on the fuel price--market forces 
dramatically will affect the transportation systems, and also 
what types of alternatives. Obviously, Congress and certainly 
the Administration are promoting alternate fuels, renewable 
fuels, new technologies, different technologies, battery 
technologies, hybrids, clean diesel, more efficient diesel, a 
multitude of initiatives. And I don't think that the market has 
settled out, in terms of what the American consumer will find 
most efficient and affordable and functional for their 
transportation needs. And I think part of what has to happen 
is, as manufacturers in the marketplace bring these 
technologies forward, I think the--both the opportunities and 
the challenges associated with them in the costs will surface. 
And I think the market will be in the best position to help 
sort this out over time.
    I think, obviously, from our perspective, we have ratcheted 
up, substantially, the mandated fuel economy standards. As you 
know, in April we proposed new CAFE standards for passenger 
cars and light trucks. That will increase--require an increase, 
if the rules are adopted, of 25 percent in the fuel economy of 
the major U.S. vehicle fleets by 2015. That would save you 
somewhere in the order of 521 million metric tons of 
CO<INF>2</INF>. That's a very aggressive standard. It exceeds 
what Congress set down in the Energy Independence and Security 
Act. Congress mandated about a three-and-a-half-percent-a-year 
improvement. The Administration's initial target was about 4 
percent, and the rule we've proposed is about 4 and a half 
percent. And how the manufacturers get to that standard, I 
believe, will be a combination of the types of initiatives you 
spoke about. And I think the market will lean toward the most 
effective ones at the end of the day.
    The Chairman. I've been further advised by economists that 
the hike in price is not under the control of the marketplace; 
the marketplace supply-and-demand theory has very limited 
impact. Speculators, maybe, account for about 10 percent of the 
hike. And nowhere can anyone suggest that the cost of 
production has gone up that high. So, somebody's making a ton 
of money. Is that assumption correct?
    Admiral Barrett. Mr. Chairman, I think what clearly has 
gone on is, the demand, globally, has gone up dramatically over 
the past several years, not just in the United States--this is 
a global market; it's gone up dramatically in places like 
China, it's gone dramatically up in places like India, it 
certainly has increased in this country, as well.
    So, again, to the best of our knowledge, this is 
fundamentally driven by supply and demand. And that's why, 
candidly, you know, the solution to this problem is--we hear 
lots of alternatives--we, kind of, have to do everything. We've 
got to increase domestic supplies. We've got to drive more 
efficient vehicles. We've got to make our systems more 
efficient. We've got to take a different look--I know this 
Committee will--at transportation, and more flexibility in 
transportation funding. You know, the vehicle miles traveled in 
April of this year are down substantially from where they were 
last year, driven by the prices you mentioned. And also, 
transit ridership is going up. People are shifting their 
choices, if you will, in response to these market pressures. 
And so, I think we need a multifaceted approach, and obviously 
we're going to work, and continue to work, very hard at that.
    But, to the best of my knowledge, sir, this is primarily 
driven by supply and demand over an extended period of time. 
This is not new; it's just--there's less margin, there's less 
flexibility. We're getting up to the, kind of, limits of what 
the available supply is, and we need to think very seriously 
about expanding that supply, particularly domestically, as you 
mentioned, in areas such as offshore or areas such as ANWR. We 
need to think very seriously about that, and improve our 
supplies.
    The Chairman. I thank you very much.
    Vice Chairman Stevens?
    Senator Stevens. Senator Kerry was here ahead of me.
    The Chairman. Mr. Kerry?

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Admiral Barrett, I'm a little surprised, 
first of all, to hear you extolling the Administration's 
initiative with respect to CAFE standards, since the 
Administration fought them every step of the way and the level 
we're going to is well below what most of us believe we ought 
to be going to. And I wonder if, since your own figures on the 
savings and the standards were calculated on a $2.25 price--
whether now that doesn't have to be completely revised, since 
we're almost double that.
    Admiral Barrett. Senator, our prices were calculated based 
on the information provided by Department of Energy, the 
standard package prices that the Government uses. But, 
candidly, the mandate we have in the law was to address the 
most feasible possible, given technology availability, as well 
as, you know, the art of the possible and 18-month cycles in 
advance for manufacturers to adjust their times, and also the 
cost.
    Senator Kerry. What do you----
    Admiral Barrett. The cost----
    Senator Kerry.--mean by the ``art of the possible''?
    Admiral Barrett. In other words, the technology has to be 
available----
    Senator Kerry. Well, the National Academy of Sciences says 
it is, you could double it now.
    Admiral Barrett. Not speculative. I mean, it can't--there's 
also a huge cost factor. The cost of the standards we----
    Senator Kerry. Come back to the----
    Admiral Barrett. Yes, sir.
    Senator Kerry.--to the expectations. I mean, the National 
Academy says that a lot of people out there--you can get 170 
miles to a gallon tomorrow if you use a battery and plug-in and 
hybrid.
    Admiral Barrett. Well, and I think the manufacturers are 
trying to bring those forward. But, I don't think----
    Senator Kerry. Do you think the market is moving fast 
enough to respond to that?
    Admiral Barrett. I think it's moving very--I think it's 
moving increasingly rapidly.
    Senator Kerry. And----
    Admiral Barrett. And I think you'll see more increase in 
that. And----
    Senator Kerry. Do you think we'd be better off if the 
market moved faster?
    Admiral Barrett. I think the market is moving faster----
    Senator Kerry. Do you think we'd be better off if the 
market moved faster?
    Admiral Barrett. I think the market will move in line with 
the technology. I just----
    Senator Kerry. No. No, no, no.
    Admiral Barrett. There's a cost----
    Senator Kerry. Would we be better off as a country if the 
market moved faster?
    Admiral Barrett. Well, I think there are tradeoffs. The 
cost to the consumer, of what we have proposed--not anything 
further, as you discuss; what we have proposed--is somewhere 
between $300 and $900 a vehicle. That's substantial impact, 
also, that needs to be factored in.
    Senator Kerry. But we----
    Admiral Barrett. I also can't----
    Senator Kerry.--we did factor it in. In 2004, I proposed a 
$4,000-per-vehicle credit to the consumer.
    Admiral Barrett. Well----
    Senator Kerry. That's a worthwhile tax expenditure, isn't 
it?
    Admiral Barrett. Well, it--I think that's an issue for the 
Congress. I--what I also--I just--candidly, Senator, I 
appreciate your interest in this, and I understand the concern 
you're raising. What we put out as a proposal--we're open for 
comments until July 1--we will take seriously the feedback. And 
obviously, we will look at what's going on in the market and 
what's going on with fuel as we consider a final rule.
    Senator Kerry. Well, the final rule is predicated on a 
notion that we're going to try to achieve that standard by 
2030, isn't that correct?
    Admiral Barrett. Well, it's staged, so actually a lot of 
the standard will be achieved by 2015, and then 2020 is the out 
year for the final standard--2020.
    Senator Kerry. China's going to achieve that standard next 
year.
    Admiral Barrett. I'm not--I'm not aware of that. China has 
nowhere near the number of vehicles we have, either, sir.
    Senator Kerry. They're growing rapidly, aren't they?
    Admiral Barrett. They are growing. But, they're still----
    Senator Kerry. Doesn't it matter that they think they can 
put vehicles in place that can establish that standard by next 
year? What does that say about us?
    Admiral Barrett. Again, we've proposed what we believe is 
feasible and achievable, in line with the law. We've actually 
exceeded the requirement in the law. But, I don't know, 
specifically, what the Chinese----
    Senator Kerry. Where's the Administration's proposal with 
respect to high-speed rail, and rail as a whole, in the 
country?
    Admiral Barrett. Well, I think rail--a number of things are 
going on. Certainly, freight rail is a hugely efficient way of 
moving freight. It's near capacity across the country.
    Senator Kerry. And where's the proposal to expand capacity 
on high-speed rail?
    Admiral Barrett. Well, again, I think that's something 
that, again, is in a research-and-development area. I think 
Congress is obviously interested, and we are interest, also--as 
well. But, the technology for some of the high-speed rail is 
enormously expensive. And unlike in some other places, we're 
using existing infrastructure. You know, it's--it takes a lot 
of work. And it would probably be feasible only in very heavily 
trafficked corridors.
    Senator Kerry. Well, we have some of those, Mr. Barrett. We 
have trains today that could go 150 miles an hour, and they 
can't go 150 miles an hour because the Baltimore Tunnel won't 
allow them to, because the----
    Admiral Barrett. You're right.
    Senator Kerry.--bridges won't allow them to. And you don't 
have any proposal whatsoever to fix those things.
    Admiral Barrett. Well, I think, again, investment in 
infrastructure is enormously important.
    Senator Kerry. Well, of course it is. That's what I'm 
talking about. But, where's the proposal?
    Admiral Barrett. For high-speed rail? We----
    Senator Kerry. For any of these things.
    Admiral Barrett. Well, we have proposed--we, in fact, have 
spent enormous amounts of money on improving transit 
infrastructure, improving highway infrastructure, and trying to 
bring market forces to bear to improve the flow, to eliminate 
the congestion. And I think the passengers are moving, based on 
those prices.
    Senator Kerry. Well, I have to tell you that it's more than 
passing disappointing.
    Let me ask you what is the guiding operative management 
target under which Department of Transportation, Department of 
Energy, and others are proceeding with respect to global 
climate change? This hearing is obviously on global climate 
change. This is the 20-year anniversary of Jim Hansen coming up 
here and telling us that it's happening now, 20 years ago. Now 
we know it's happening, even to a greater degree and faster 
than was predicted. I'd like to know what the operative 
estimate is of your Department as to where a potential, sort 
of, catastrophic tipping point may be, and how fast you have to 
respond to these infrastructure challenges.
    And I do that particularly in light of the fact that there 
are predictions, for instance, that--just last week, The 
Washington Post ran a story headlined, ``Extreme Weather to 
Increase with Climate Change,'' and, ``Our scientists now agree 
that the droughts are going to get drier, the storms are going 
to get stormier, the floods are going to get deeper with 
climate change.'' That's a quote. They warn of more flooding, 
like we're seeing in Iowa today, more heavy downpours, more 
droughts. ``In March, the Department of Transportation found 
that the Gulf Coast would put a substantial portion of the 
region's transportation infrastructure at risk. Storm surges in 
the Gulf Coast will flood more than half the area's major 
highways, almost half of the rail miles, 29 airports, and 
virtually all of the ports.''
    So, given these predictions, which keep coming at us, under 
what time-frame do you believe you're operating, in terms of 
the infrastructure expenditures necessary to respond to these 
threats?
    Admiral Barrett. Senator, I think the answer is, first, 
you--and you highlighted it--the Gulf Coast study we did is 
regionally focused. With respect to transportation 
infrastructure, the first step is understanding the potential 
implications in local areas, because they vary. And a follow-on 
to that study will involve the East Coast. But, the impacts 
will be different. Gulf Coast, obviously, you've got the 
potential for sea level rise, temperature changes, storm 
intensity, all affecting the things you do. So, I think the 
first thing we are trying to do is understand better, and 
particularly regionally, what the actual implications might be 
so that people who repair and renew and expand transportation 
infrastructure, which, to a large extent, rests in the states, 
as well as the Federal Government, can adjust to that over time 
as they repair and renew and build out.
    But, I think there is no timeline, specific, but we clearly 
need to understand what needs to be done, and, as we plan new 
projects--for example, we had instrumented, in the Gulf region, 
a cable-stay bridge when Katrina came through. We have the data 
from the wind-loading on that bridge, and we're trying to--and 
we are assessing the implications of that for bridge design 
across the country. And I think you will see adjustments to how 
we design, build, and install bridges to withstand climate 
better, and the impacts of climate change, whether it's 
increased storms or higher river levels.
    And so, the technology to do this is within our capability. 
We will make the adjustments as rapidly as we can. But, there's 
no specific time. It's a serious issue, it's got our attention, 
and, working with the Congress, we are doing our very best to 
address it.
    Senator Kerry. Mr. Chairman, my time is up, and I 
appreciate your indulgence here.
    I'd just close by saying there really is a specific time, 
sir. Jim Hansen, who is hugely respected, first warned of this, 
20 years ago, and we've been slow to respond to it. The science 
is only coming back stronger and more rapidly and greater. Jim 
Hansen has now revised--right now, today, in these days--is 
warning us that we have less cushion than the scientists 
thought when they revised the cushion from several years ago. 
So, it's gone from 550 parts per million of greenhouse gases, 
to 450, and now, they believe, less than that.
    There is a time-frame here. They've said we've got 10 years 
to get this right. And if you're saying to us, you know, 
there's no time-frame, and that's, sort of, the attitude of 
where we are, I think this is going to be very difficult to get 
done. And I think it's, frankly, inappropriate, that that is 
where a major department, the Department of Transportation, 
stands today. I think there ought to be vast commitments in 
incentives, tax incentives, grants, expenditures to put America 
on a course, here, to deal with this.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Vice Chairman Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Well, thank you very much, Mr. Chairman.
    I would ask that you put my statement in the record that I 
would have made if I had gotten here on time. I do apologize 
for being late.
    The Chairman. Without objection.
    Senator Stevens. And I'm constrained to say that I think my 
friend from Massachusetts seems to think that we ought to 
change the world overnight. We did adopt a new CAFE standard, 
the first since the 1970s; and we're implementing it. China has 
not called in the cars that are polluting. They've set new 
standards for their new vehicles, if and when they get them.
    I think the problem we have to deal with is the impact of 
some of these changes on the individual American and on our 
states. Our state had, as I've said in this statement, a report 
that the effects of climate change stand to increase our 
maintenance and replacement costs for public infrastructure by 
$6 billion over the next 20 years. Now, we're a small state. 
The impact of that on the taxpayer and upon the people of our 
state is going to be overwhelming if we have to start meeting 
some immediate standards. The question has got to be, What do 
we do first?
    Now, I applaud you, Mr. Barrett, for what you've said, in 
terms of the attempts that the administration is making to get 
people to move, across the board. Nobody can do it overnight, 
all at once. But, I think the CAFE standards that we've 
established are really a step in the right direction. We're 
trying to find ways to really measure the effects of 
alternative energies and how much we can afford to move, and 
how quickly we can move on those.
    I would say, those people who have opposed our exploration 
in the Arctic of Alaska and of developing our resources 
offshore have put us behind the eight ball right now. If 
President Clinton hadn't vetoed the ANWR bill in 1995, we would 
be producing an extra 2 million barrels of oil a day, and that 
income to our state and to our Nation would enable us to be 
making some of the changes that we have to make. The only way 
we can make them now is to raise taxes. And how do you raise 
taxes on people that are currently now paying for oil at $140 a 
barrel instead of $8 a barrel, which is what we paid when we 
completed the Alaska Oil Pipeline?
    Now, Mr. Secretary, what I'd really like to know is 
something different, and that is, have you conferred with the 
people in the aviation industry? How are they going to meet 
these changes? The cost of aviation fuel is going up as 
rapidly, or more rapidly, than that for automobiles. In my 
state, 70 percent of the destinations in my State can be 
reached only by air, and we're seeing enormous change. National 
airline after national airline is canceling their flights to my 
state. We'll be isolated in another 2 years. Now, what can we 
do to meet the problems of these international and national 
airlines?
    Admiral Barrett. Senator, thank you. I think they are 
enormously challenged. At the same time, they are leading 
American industry with respect to technology. And, as I 
indicated in my statement, they have actually been able to 
improve their fuel efficiency and reduce their carbon emissions 
when other international airlines--EU, for example--have not 
been able to do it; they're moving in the opposite direction.
    We clearly--one of the principal things we're doing is try 
to accelerate bringing forward what is commonly termed ``next 
generation technology'' to allow the management of the air 
traffic system that we operate--the FAA operates--to allow them 
to operate much more efficiency and reduce their carbon burn. 
We are providing grants, through our Airport Improvement 
Programs, to bring ground equipment forward that uses less 
fuel. But, aviation--a lot of the burn is in the routes, it's 
getting them the ability to get from point to point more 
efficiently. We've changed the routing in the air, we've 
brought forward--allowed them to space--safely, I might add--
closer together at certain altitudes. We have worked closely 
with the Department of Defense to open up military airspace as 
part of the national airspace when we've had holiday traffic. 
Again, it reduces the fuel burn to the airlines. We're working 
very closely with them to try and do everything we can to 
minimize the burden the Government puts on them, in terms of 
managing their flight profiles.
    And--but, I don't want to underestimate it. Their model, 
their business model of your major carriers is not built on 
135-dollar-a-barrel fuel, and it's a substantial challenge. And 
we're going to move, again, as quickly as we can. The FAA 
certainly is.
    As an example, one of the issues we're working with the--
with RNAV--and you're familiar with these, Senator--continuous-
descent approaches to allow airlines in--where we can do it 
safely--to come down on a direct approach, basically throttle 
back into an airport. FAA is moving testbed into Florida to 
bring this forward. We've done tests in Louisville to work 
incrementally to reduce the fuel burn. It's that simple. 
There's a direct line between fuel burn and carbon footprint 
and cost.
    Airlines are offloading weight, as you know. We're managing 
that for safety. That's another concern. As these things are 
taken--as these measures are taken, we're working very closely 
with them to make sure their flying remains as it is, a very 
safe mode of transportation.
    Senator Stevens. Well, that's good. I'm glad to hear it.
    Have you analyzed the effect of cap-and-trade legislation 
on building our enormous natural-gas pipeline to Alaska?
    Admiral Barrett. Not specifically, no. But, I would say 
that cap-and-trade--we've done a couple of things in the 
Department. We have tried--for example, Pipeline Safety 
Administration--to look at ways to move gas through lines at 
higher volume and get more efficiency out of an existing line; 
move more--increase the capacity.
    But, cap-and-trade, with respect to transportation systems, 
has to be approached very carefully. Mobile sources and sources 
that move product are not the same as power plants. And, again, 
the cost structure of the business models are totally 
different. And if we are not very careful about improving--and 
we're global--if we impose, carelessly, cap-and-trade regimes 
in transportation, it can have a very negative, even 
devastating effect. So, we haven't looked specifically at your 
question. I'd be glad to, and provide some feedback to you.
    Senator Stevens. Well, I wish you would, because I was told 
that the application of cap-and-trade, the credits that would 
be required during the construction phase alone for a pipeline 
of that size, really, it would be the largest project in the 
history of the United States financed by private capital--that, 
for all the trucks and everything else that are going to be 
used in this construction phase over a period of 5-6 years, 
that the costs would be increased by at least 20 percent if 
they had to go out and buy credits under that concept for the 
pollution that's taking place, notwithstanding the fact that 
the completion of the line would bring about the delivery of an 
enormous amount of new additional natural gas, which is not as 
polluting as the coal that people are using in many of the 
areas that would be supplied. There doesn't seem to be any 
leeway for those who want to move to try and get a more 
efficient type of energy available. I think that cap-and-trade 
legislation would kill that pipeline.
    Admiral Barrett. Sir, no, I agree, in general. Cap-and-
trade in transportation is very treacherous and needs to be 
looked at very closely.
    Senator Stevens. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Stevens. I do have some questions to be submitted 
to--I'm going to be going out of the hearing after----
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    The effects of climate change on the transportation sector is an 
important issue, particularly in Alaska, and I thank the Chairman for 
holding this hearing.
    The University of Alaska recently released a report on potential 
impacts of climate change on transportation and public infrastructure 
in Alaska. The report found that the effects of climate change stand to 
increase maintenance and replacement costs of public infrastructure in 
Alaska by up to 20 percent, or an additional $6 billion over the next 
two decades.
    We can mitigate these impacts and reduce costs through study and 
research on improving the planning, design, construction, and operation 
of transportation systems.
    We must also explore the potential for increased energy efficiency 
and reduced greenhouse gas emissions in the transportation sector. 
Recently, I have supported legislation to increase the corporate 
average fuel economy standards for automobiles.
    Conservation measures and alternative energies need to be part of 
our long-term strategy, but the idea that we can transition from fossil 
fuels anytime in the next 20 years is not realistic.
    Worldwide oil demand is expected to increase to 116 million barrels 
a day by 2030. We do need to explore ways to ease our dependence on 
fossil fuels in the transportation sector, but the investments required 
to make this transition are enormous.
    This is why I continue to argue that revenues from new domestic 
sources of oil, including ANWR, should be devoted to climate change 
adaptation and alternative energy development to reduce our dependence 
on foreign oil.
    I welcome our witnesses today, including Mead Treadwell who has 
traveled all the way from Anchorage to be here, and I look forward to 
your testimony.

    The Chairman. Without objection, so ordered.
    Senator Carper?

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    To our witnesses, welcome. Thank you for joining us today, 
for your testimony, and for responding to our questions.
    I just want to follow up on a couple of comments that our 
colleagues have made in some discussion a bit earlier on CAFE. 
The CAFE legislation, which I think all of us here worked on to 
enact, has the practical effect of, not literally but 
figuratively, removing about 60 million vehicles off of our 
roads, in terms of reduced CO<INF>2</INF> emissions, by 2020. 
That's no small accomplishment. If we don't figure out how to 
drive less, though, instead of how to drive more, it will be an 
accomplishment for naught.
    We were speculating earlier about whether or not we needed 
to go further than CAFE, further than 35 miles per gallon by 
2020. My guess is that market forces will get us there a lot 
faster than the legislation that we've passed. And I think that 
will be a good thing.
    I have a couple of questions, and I have a statement for 
the record, if I could, more effective, but a couple of 
questions.
    Senator Carper. And the first question, I think I'll direct 
it to Dr. Peterson to start off with and others might respond, 
if they wish. The transportation sector is responsible, I 
believe, for almost one-third of our greenhouse gas emissions, 
making it among the largest source in our economy; I think, 
second only to power plants. How should the U.S. surface 
transportation policy be updated to support the goals of 
climate change legislation?
    Dr. Peterson. Thank you for the opportunity to respond to 
that question, but it's somewhat out of my area of expertise. 
We've been focusing on how climate change will impact 
transportation, rather than focusing on how transportation is 
impacting climate change and what should be the change in 
policies should be with regard to transportation.
    Senator Carper. Let me ask a slightly different question, 
but a related one. Should the transportation sector be 
responsible for one-third of the emission reductions for 
CO<INF>2</INF> that are necessary to meet targets that 
scientists say is necessary?
    Dr. Peterson. Should transportation be required for one-
third of the reductions or a different amount? Again, that's 
out of my area of expertise. But, as we look forward----
    Senator Carper. Once, in another hearing, I asked a witness 
a question like that, and it was beyond his area of expertise, 
and he just said to me, ``Next question?''
    [Laughter.]
    Senator Carper. You can----
    Dr. Peterson. Next question?
    [Laughter.]
    Senator Carper. Let me just bounce that same question off 
of Mr. Barrett.
    Mr. Barrett, you want to take a shot at that, and we'll 
give Dr. Peterson a pass, here.
    Dr. Peterson. Thank you.
    Admiral Barrett. Senator, thank you very much. And I'd 
agree with your observation, by the way, that the market does--
seems to be working. And as gas prices are going up, we are 
seeing shifts in behavior that affect--and, over time, will 
affect even more--transportation.
    But, I think--one way to approach it is, I think we clearly 
recognize it and desire to reduce the greenhouse gas emissions 
that comes from transportation. We can improve the energy 
efficiency of transportation vehicles, such as with CAFE. We 
can substitute energy sources that are lower in emission--
alternate fuels, renewable fuels. We can do things, like we're 
doing with congestion pricing, that improve the flow--better 
technology, signal timing--that leverage the systems we've got; 
and then reduce, you know, how much motorized activity goes 
on--vehicles--and how much.
    But, the intermodal piece is important, too. I mean, you're 
seeing shifts to rail, to ships, to ways that are intrinsically 
more efficient, and the market is driving that. I don't know if 
that's what--responsive. But, I think the goal is to drive it 
down, across the board.
    Senator Carper. I take the train back and forth to 
Washington almost every day. I live in Delaware and I don't get 
off the train at BWI, but if I wanted to, I could literally 
take a bus from my house to the train station, catch the train, 
take the train to BWI, get off, take a shuttle to the terminal, 
and then fly to just about any place around the world. We don't 
always make it easy for people to get from a train to an 
airport terminal, but we do at BWI, and I think we do the same 
thing at Newark, Delaware.
    Let me just do a follow-up, if I can, Mr. Barrett. I think, 
in your testimony, you talked about congestion pricing, and you 
mentioned it just a moment ago, as well, and other travel 
demand management techniques, and I missed your statement, but 
I believe you may have cited Germany's experience with this. 
But, as I'm sure you know, Germany has invested a lot of money 
in transit. They've invested a fair amount of money in other 
driving alternatives that are not always available in American 
communities, like what I described for my own community for 
myself if I wanted to fly out of BWI. But, without the safe, 
convenient driving alternatives, do people really have the kind 
of options that they need, other than, in some cases, paying 
the tolls, or, in other cases, changing the time of their 
commute, which they might like to do, but their employers may 
have another idea about that? And doesn't this severely limit 
the potential benefit of congestion pricing, which, frankly, I 
still find is an interesting option, but it's not without its 
problems?
    Admiral Barrett. No, I think it--one of the options it does 
is potentially does create funds to invest in other 
alternatives. You mentioned Germany, but if you look at London 
or you look at Stockholm, you look at some of the other 
examples where they've put, for example, cordon-type pricing 
approaches in, one of the things they do with the funds they 
gain is invest it to improve transit and improve the 
alternatives that you're speaking about, so that, you know, 
ultimately, the publicly has more choice available to them. And 
certainly, I think the idea of providing more flexibility to 
both State and local officials as they make those regional 
investment decisions is important.
    Senator Carper. All right. Thank you.
    This could be a question for any of our panelists, but 
transit agencies across the country are struggling to meet the 
increasing demands resulting from high gas prices. This is 
actually a good-news story, I think, because we've seen SEPTA 
ridership growing in my own region of the country, by 5 to 10 
percent; we've seen some transit agencies with as much as 20-25 
percent growth in ridership. Ridership on Amtrak is up, I 
think, this year to date, by about 10 to 15 percent; last year, 
it was up by close to 10 percent, as well. But, transit 
agencies across the country are struggling to meet increasing 
demands resulting from high gas prices, as you know. And, at 
the same time, more people are turning to transit as a clean, 
affordable way to travel. In fact, the typical public 
transportation user, on average, needs to buy, I'm told, about 
half as much gasoline as a person without access to transit. 
And I would just ask anyone on this panel, is the Federal 
investment in public transportation adequate to serve our 
public in an era of high gas prices?
    Dr. Turner, I can tell you're dying to answer that 
question.
    [Laughter.]
    Dr. Turner. Well, sir, your perceptive powers are amazing.
    [Laughter.]
    Dr. Turner. This is a little bit out of our area of 
expertise, but let me just describe for you the things that 
we're doing at NIST.
    We're basically attacking this at three levels, starting 
with the atmosphere. We are working with NOAA, which is a 
sister agency of ours within the Department of Commerce, to 
make very accurate measurements of the gases that are in the 
atmosphere, to help with calibrating satellite instruments and 
to make very accurate measurements of the solar radiance on the 
atmosphere, and also to look at the impact of aerosols, because 
NOAA needs that information to put into their climate models to 
make the predictions that are necessary.
    We're also looking at some very near-term things, such as 
biofuels and hydrogen as alternatives in the mix that people 
will have. We've been very active with Brazil and the EU to 
develop standards and methods of measuring, to assure that 
commerce can take place equitably in biofuels.
    The U.S. auto manufacturers have also been a very 
significant user of our neutron facility, which is used to 
improve fuel cells, which support a hydrogen economy. We're 
also working to tackle the problem of embrittlement that 
hydrogen has on metals that would be used in a pipeline. So, 
we're looking at that also.
    One of the other things that we're doing is to look at what 
can be done with respect to cement. It's something so basic, so 
fundamental, but it turns out that, for each ton of cement 
produced, you produce a ton of carbon dioxide. And so, one of 
the things we're looking at is the replacement of cement, in 
manufacturing concrete, with fly ash. Fly ash is a byproduct of 
electricity production, and so, any increase that we can have 
in the production of concrete, using fly ash as opposed to 
cement, would have immediate impact on the carbon footprint 
that's out there.
    Senator Carper. All right, thank you.
    Mr. Chairman, I think my time has expired. Could I just add 
a quick P.S., if I may? I won't ask another question.
    When I was Governor of Delaware, if we wanted to build a 
road or a highway or a bridge, the Federal Government paid for 
80 percent of it. Eighty percent. If we wanted to do a transit 
investment, the Federal Government provided 50 percent of it. 
If we wanted to invest--if it made more sense to put in 
intercity passenger rail, the Federal Government provided 
nothing. And I'm sure we made investment decisions, that were 
probably wrong decisions, because of the difference in those 
modes of--or measures of Federal support.
    Thank you.
    [The prepared statement of Senator Carper follows:]

  Prepared Statement of Hon. Thomas Carper, U.S. Senator from Delaware
    This is a very important hearing, one that I hope will be repeated 
in the other committees with jurisdiction over transportation.
    The transportation sector is responsible for 30 percent of this 
Nation's carbon emissions and growing. Yet emissions from the 
transportation sector can be more difficult to address than stationary 
sources.
    This is because we have millions of tiny, mobile smokestacks 
manufactured by different companies, fueled with fuel from different 
companies and sources and operated by millions of different people with 
varying demands and needs.
    No matter the challenge, it is an area we must address in order to 
meet our carbon reduction targets and we already have the tools to do 
so.
    There are three broad areas that must be dealt with: the efficiency 
of vehicles, the carbon content of fuels and how much people drive. 
Last year, this committee took the lead in passing a bill to increase 
the fuel efficiency of cars from 25 mpg to 35 mpg by 2020.
    We also promoted the use of alternative fuels by passing a 
renewable fuels standard, requiring the production of 21 billion 
gallons of advanced renewable fuels, also by 2020.
    The final area that needs some attention is making our 
transportation system less congested and more efficient. This means 
fixing bottlenecks, intermodalism and more options to driving.
    American ingenuity is going to bring us the Chevrolet Volt in the 
very near future--a car that will go 640 miles without needing to be 
recharged or filled up. There are also companies hard at work 
developing renewable fuels. One example is Coskata, a U.S. company that 
says it will be able to produce ethanol from practically any source--
including garbage, plant waste and used tires--for $1 per gallon.
    Now we, in government, need to show the same amount of ingenuity 
and address the efficiency of the transportation system we have built.
    There is much we can learn from state and local governments that 
have already begun to invest in alternatives to driving, saving their 
constituents thousands of dollars when the cost of gas goes up.
    Some states and local governments have found that when 
transportation and development decisions are made together the whole 
system works better, people save money on transportation, property 
values rise and pollution decreases.
    To support these important efforts, the Federal Government will 
have to work across agencies and modes of travel to find the most 
effective way to move people and freight.
    I look forward to hearing from our witnesses, particularly from the 
Department of Transportation, about how we can break down these silos 
and find ways to make it safe and convenient for people and goods to 
get where they are going, whether it is by car or truck, train, plane, 
ship or all of the above.
    We will have to address that here in Congress, as well. In the 
Senate, transportation is handled by three different committees--air 
and rail in this Committee, highways at Environment and Public Works 
and transit at Banking. I am fortunate enough to serve on all three.
    As we develop a climate change bill and prepare to reauthorize the 
surface transportation program, we need to bring these three committees 
together to consider how to move people and goods, not just cars, 
trains and ships. By doing so, we can save Americans money at the pump, 
reduce congestion and reduce the carbon and other pollutants being 
emitted today.

    The Chairman. There is a vote pending at this moment. 
Senator Nelson will ask one question, and we will stand in 
recess.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. We have 7 minutes left to vote, so you all 
are saying, with climate change, roads will buckle, bridges 
will wash out, railroads will be destroyed. If the seas rose 2 
feet, in my state of Florida, we're talking about--what kind of 
investment in transportation would be thrown out the window as 
a result of that?
    Admiral Barrett. I would guess--surmise, substantial. But, 
I--again, I would take the approach--the Gulf Coast, trying to 
quantify specifically where those--what rail would need to be 
rerouted, what roads would need to be readjusted. I think you 
need very specific analysis at a local and/or regional level. 
And obviously, we're working toward that. Understanding the 
specific impacts is enormously important.
    Dr. Turner. Sir, one of the things that I would add is that 
one of our initiatives in our 2009 budget looks more broadly at 
making communities more disaster-resilient. This would be for 
water, winds, fires, and so forth.
    Senator Nelson. And that's the point. In a state like 
Florida, where 80 percent of the population is on the coast, 
it's very difficult to go in and redo all of that 
infrastructure. And the cost is just going to be enormous. So, 
we'd better start figuring out something to do so that the seas 
don't rise.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The hearing will stand in recess. We'll be back in about 10 
minutes.
    [Recess.]
    The Chairman. We shall resume the hearing.
    I've been asked by Senator Thune to submit his remarks and 
questions for the record. Without objection, it is so ordered.
    [The information previously referred to follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota

    Thank you Mr. Chairman, I would like to thank the Chairman 
and Vice Chairman for holding today's hearing on the 
transportation sector's impact on climate change and climate 
change's impact on our transportation infrastructure.
    When discussing the topic of transportation's impact on 
carbon dioxide and other greenhouse gas emissions, we must 
start with the Energy Independence and Security Act of 2007.
    In addition to the historic increase in vehicle fuel 
efficiency standards and other energy efficiency programs, this 
bill included an expanded renewable fuels standard.
    The 2007 Energy Bill requires the use of 36 billion gallons 
of renewable fuel by 2022. The new RFS also includes 
significant requirements for lifecycle greenhouse gas emission 
reductions.
    New corn ethanol plants must produce ethanol with a 20 
percent reduction in lifecycle greenhouse gas emissions.
    Advanced biofuel and cellulosic ethanol, which constitute 
the majority of the new RFS, must have a 50 percent reduction 
and 60 percent reduction in lifecycle greenhouse gas emissions 
relative to regular gasoline.
    Mr. Chairman, this landmark piece of legislation cannot be 
overlooked when discussing transportation sector's impact on 
greenhouse gas emissions.
    Moving forward, we must continue to meet the challenges of 
high fuel costs and greenhouse gas emissions with common sense 
policies that reduce emissions while keeping U.S. businesses 
competitive, our economy growing, and family budgets intact.
    Climate Change's impact on the transportation sector:

    On account of aging and outdated infrastructure, we have 
economic challenges that are real, tangible, and identifiable 
today. Many of these infrastructure challenges are going unmet.
    Based on projections of population growth and government 
funding streams such as the Federal Highway trust, fund we know 
that these challenges will only grow in the future and 
resources will increasingly fall short of meeting these real 
short- and mid-term challenges.
    I encourage the Committee to proceed with caution when 
considering proposals that allocate scarce Federal resources 
based on climate models or projections of weather patterns far 
into the future.
    The Chairman. May we have a 2-minute recess?
    [Recess.]
    The Chairman. You are here earlier than expected.
    Ms. Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you so much, Mr. Chairman. 
Thank you for waiting. And thank you, to our witnesses.
    Everywhere I went this weekend, this issue of the 
interaction between changes to our climate and our 
transportation system--confronted me from our airlines 
executives at Northwest Airlines, who testified yesterday about 
the effect on the fuel and their need to do something 
differently there, to a bus line, called Jefferson Bus Line, 
that I did an event with, and their brochures show 100 penguins 
getting on their bus, to show how, by using public 
transportation, we can reduce carbon dioxide emissions, like, 
55 cars for every bus, to a very sad moment when we went to 
look at the floods in southern Minnesota, right on the Iowa 
border, and went to a very rural part of our state, where a man 
was driving a business owner to get a sump pump, in the middle 
of the night, to help his daughter, and suddenly the road just 
opened up and caved in. It's literally from this wall to that 
wall, a country road, down probably, I don't know, 10 yards, 
and he died in this. And we went to the site with some of the 
rescue workers that tried to save his life. But, it made me 
think--very close to my heart--about the effect that changes in 
our world are having on our transportation system.
    So, I know, Dr. Peterson, you talked about some of the work 
that might need to be done for bridges and for roads and for 
other things if we continue to see changes to our climate 
resulting in more storms and tornados and everything else. 
Could you elaborate on that a little bit?
    Dr. Peterson. Yes, thank you.
    One of the things we're realizing, as the climate is 
changing, is that it is not only changing now, or has changed 
in the past, but that it will change even more rapidly into the 
future, and we need to take this into consideration as we're 
designing infrastructure. Some of the questions about 
infrastructure are a result of how long it has been in service. 
For example, some coastal railroad tracks were laid shortly 
after the Civil War, and the climate has changed. Sea level has 
risen since then, and is expected to continue to rise in the 
future. So, we need to have a continuing effort to take 
adaptation measures. Not only at the present time, but 
continuing into the future. To always try to include the latest 
information as we design structures to withstand the future 
climate as it is evolving and going on.
    Senator Klobuchar. And, of course, we, here in Congress, 
have a responsibility to try to figure out how to fund it, and 
right now we are looking at a potentially bankrupt Highway 
Trust Fund if we don't do something different there. And I 
don't expect you to give us that answer, but it's clearly, as I 
hear about the adaptations you think that we need, that we're 
going to have to look at more infrastructure funding.
    Have you looked, also, at the effect on the Great Lakes? 
Because, with the exception of this year, over the past 80 
years we've seen Lake Superior at its lowest level--it's still 
low now, it was just lower the year before--due to climate 
change, because the water is evaporating. It's different than 
the sea. The ice melts quicker, the water evaporates, and the 
water levels are going down, so we're having severe problems 
with barge traffic coming in.
    Dr. Peterson. Yes, as the ice recedes and there is less 
ice, there is more evaporation with a general trend towards 
more drying in the midsection of the continent. We were just 
working on a figure, last week, of Great Lakes water levels 
with different model projections into the future, going out to 
2100, and all of the Great Lake levels were projected to 
decrease under all the different global warming scenarios we 
were looking at.
    Senator Klobuchar. OK. Thank you. I just wondered if that 
was unique to our lake.
    And then, I wanted to turn to--Mr. Deputy Secretary, to 
some of the issues of the biofuels, which both you and Dr. 
Turner mentioned. And we are one of the leading states for 
biodiesel, were ahead of our time on ethanol, and are now ahead 
of our time, in terms of looking to that next stage of ethanol, 
which is cellulosic, with prairie grass and--I've seen plants 
in my state. Guys have laptop computers showing how we can grow 
it on all the highway medians. And my husband and I wonder how 
we're going to harvest it. It looks a little dangerous. But, 
the point is that there are all kinds of possibilities to go 
into this next stage of ethanol, and I just wondered what you 
see as the potential of biofuels if we go beyond where we are 
now with corn?
    Admiral Barrett. Senator, thanks. Obviously, alternative 
and renewable fuels are something that offers some 
possibilities. What we are looking at is both the research and 
technology necessary to allow these fuels to operate safely. 
Safety is always our primary concern. And, as you bring 
ethanol, alcohol-based fuels, into transportation networks, the 
ability to move them and distribute them safely is a concern. 
So, we're investing a fair amount of research in that, and 
obviously working with a lot of partners.
    Senator Klobuchar. And I probably missed the main point. I 
mean, the main point, when we're talking about climate change 
and the interaction with transportation, is, not only is it 
energy-independent, but it's actually the--if done right, the 
prairie grass, the cellulosic is actually carbon-negative, as 
opposed to the corn, which reduces carbon dioxide by, I think, 
20 percent over the fuel, but this could actually be carbon-
negative, so it could reduce----
    Admiral Barrett. And I--in broad terms, we obviously have 
to make our vehicles more efficient, we have to make our 
systems more efficient, we have to look for alternative and 
renewable sources, we have to improve our supplies. I think 
it's multifaceted. I also think it will take time. The market 
will help determine how quickly it can be brought forward and 
how it works for American consumers and their vehicles.
    Senator Klobuchar. And, Dr. Turner, one of the things we're 
looking at is some higher blends. Let's say, we--you know, we 
have E85 in Minnesota, but we also--E10, E20, but we could do 
some higher blend of fuel, where it's part gas and then it's 
part biofuel, whether it's from algae or whatever we're going 
to develop in this country. Have you looked at that for 
standards for certification? I know there's also--it's--being 
in a big snowmobiling state of Minnesota, there are also some 
issues for smaller engines with higher biofuel blends that 
we're going to have to look at and make sure that they're still 
going to be able to work. But, could you talk about that? 
Because that could be a very promising development, if we 
actually up the percentage of biofuels in all of our--in all of 
our fuel.
    Dr. Turner. Yes, Senator. As you're aware, measurements and 
standards are our core competency, and we certainly are looking 
at that. We're also looking a bit beyond that, to look at 
different catalysts that may be available to make the process 
of producing the ethanol more efficient. Also, we are looking 
at the possibility of synthetic molecules that would have a 
greater energy content than the ethanol that's currently 
produced.
    Senator Klobuchar. Exactly.
    Dr. Turner. We're looking at things, across the board, as 
well as looking globally at the other countries that will be 
playing in the ethanol economy, to make sure that we have a 
level playing field and we have common terminology and common 
definitions and are able to trace back to common standard 
references for precisely what is ethanol, so that our consumers 
can have confidence that for each dollar they pay, they get 
what they think they're getting.
    Senator Klobuchar. And I just think sometimes this--biofuel 
things get very confusing for people, but it's an infant 
industry, and it clearly needs to get more efficient as we go 
forward. But, when we look at other countries, like Brazil, 
they've done a lot with this, and it's possible, if we do this 
right, we can actually do something about climate change at the 
same time.
    So, thank you, to all three of you.
    The Chairman. Thank you very much.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Mr. Chairman, I'll wait until the 
second panel comes, please.
    The Chairman. OK.
    Then, I'd like to thank Admiral Barrett, Acting Director 
Turner, and Senior Scientist Peterson. We thank you very much. 
Your testimony will be most helpful.
    And we'll be submitting many questions. We look forward to 
your answers.
    Our next panel consists of the Chair of the American 
Association of State Highway and Transportation Officials, 
Climate Change Technical Assistance Program, and the Secretary 
of Transportation of the State of Maryland, the Honorable John 
D. Porcari; then the Affiliate Professor of Economics, Loyola 
College in Maryland, on behalf of the National Research 
Council, Three Stratford Road, Baltimore, Dr. G. Edward Dickey; 
Research Director of the Clean Vehicles Program, Union of 
Concerned Scientists, Mr. David Friedman; President and Chief 
Executive Officer, American--Association of American Railroads, 
Mr. Edward Hamberger; Executive Vice President and Chief 
Operating Officer, Air Transport Association, Mr. John M. 
Meenan; and the Chairman of the Arctic Research Commission, Mr. 
Mead Treadwell, of Anchorage.
    I'd like to recognize Mr. Lautenberg for his opening 
statement.
    Senator Lautenberg. Thank you, Mr. Chairman. And I 
apologize for my late arrival.
    I saw a phenomenon this morning that is almost noteworthy; 
and that was, I came down on an airplane that was on time. It 
is very unusual.
    [Laughter.]
    Senator Lautenberg. Mr. Chairman, one-third of America's 
greenhouse gas emissions comes from cars, trucks, and buses. 
And Dr. James Hansen, NASA scientist, said, just last week, and 
I quote, ``If we don't begin to reduce greenhouse gas emissions 
in the next several years, then we are in trouble.'' And we've 
got to begin by getting cars off the road, more people onto 
passenger rail, buses, subways, and other types of mass 
transit. Already, more and more people are riding public 
transit, and it's more efficient, more convenient, and, with 
these high gas prices, certainly more affordable.
    Now, as all know, gas has skyrocketed in price from $1.50 a 
gallon in 2000 to more than $4.00 a gallon today. And that's 
why, in the first 3 months of this year, the number of people 
taking mass-transit options rose more than 3 percent, just in 
the first 3 months, over the same period last year. And I'm a 
user of trains on a regular basis, and it's just more and more 
crowded, people jamming the cars and the stations.
    Amtrak also set records last month, both in number of 
riders and amount of revenue. And the Lautenberg-Lott Amtrak 
bill, which we hope to finalize soon, and send to the President 
for his signature, will lead to even more rail options for 
travelers. But, for travelers who still need or choose to 
drive, we must continue improving the fuel economy of our cars 
and trucks.
    Last year, we took the historic step of increasing the fuel 
efficiency of our vehicles for the first time in decades. But, 
that same day, the Bush EPA denied a waiver to allow 
California, New Jersey, and 14 other states to set fuel economy 
at even the higher standard of 40 miles a gallon by 2020. Now, 
if this waiver were granted, it would take the equivalent of 
more than 6 million cars and trucks off the road. Congress must 
act to overturn the President's action.
    We've also got to act to ensure more efficient movement of 
freight. Trains are at least six times more energy efficient 
than trucks, and barges are more than eight times more 
efficient. I chaired a Subcommittee hearing a couple of weeks 
ago on freight transportation needs, and, based on what I 
learned, I plan to introduce tax relief legislation which will 
encourage greater use of ships and barges, or, as we call it, 
short sea shipping between U.S. ports. By investing in fuel 
efficiency, mass transit, and better freight strategies, we can 
both bring relief to the people at the pump and fight global 
warming for generations to come.
    And I thank you, Mr. Chairman, for permitting me to go out 
of order.
    The Chairman. Mr. Lautenberg, will you yield?
    I regret I must leave this hearing. And so, I will be 
relinquishing the chair to Senator Lautenberg.
    And I thank you very much, members of the panel. But, I 
have two other meetings to attend. So, thank you.
    Senator Lautenberg [presiding]. Thank you, Mr. Ex-Chairman.
    [Laughter.]
    Senator Lautenberg. I don't do this lightly.
    We welcome the panel, and I'm pleased to be here with my 
friend Senator Stevens from Alaska. You heard the Chairman 
bring in the list of our panel, and I'm pleased to have you all 
here. And I would ask that you give your testimony.
    And, unfortunately, because of the size of the panel, we're 
going to be fairly strict in the limit of 5 minutes, so we ask 
you to summarize your testimony.
    And, if you would, first, Mr. Porcari.

           STATEMENT OF HON. JOHN PORCARI, SECRETARY,

         MARYLAND DEPARTMENT OF TRANSPORTATION; CHAIR,

          CLIMATE CHANGE TECHNICAL ASSISTANCE PROGRAM

        ADVISORY BOARD; AND CHAIR, STANDING COMMITTEE ON

      AVIATION, AMERICAN ASSOCIATION OF STATE HIGHWAY AND 
                    TRANSPORTATION OFFICIALS

    Mr. Porcari. Thank you, Mr. Chairman and members of the 
Committee.
    I'm John Porcari, Secretary of the Maryland Department of 
Transportation, and I'm here on behalf of the American 
Association of State Highway and Transportation Officials in my 
capacity as Chair of the Climate Change Technical Assistance 
Advisory Board.
    And let me say that, first, the State DOTs are working to 
be part of the climate change solution. As you have noted, 
transportation represents approximately one-third of greenhouse 
gas emissions, and it's estimated that highway vehicles 
generate 72 percent of those emissions.
    To make a positive contribution to the issue of global 
climate change, AASHTO believes transportation policies need to 
reduce dependence on foreign oil, reduce energy consumption, 
and reduce travel demand relative to current trends. To achieve 
these goals, AASHTO has called for reducing oil consumption by 
20 percent in 10 years, doubling the fuel efficiency of new 
passenger cars and light trucks by 2020, in the fleet by 2030, 
and reducing the growth of vehicle-miles-traveled from the 
predicted 2 percent per year to 1 percent per year.
    To reduce vehicle travel, AASHTO has endorsed doubling 
transit ridership by 2030, significantly expanding the market 
share of passengers and freight moved by rail rather than 
trucks, reducing the percentage of commuters who drive alone to 
the 1980 levels, and increasing the percentage of those who 
ride transit, carpool, walk, bike, and work at home.
    Additionally, we're utilizing a publication we call the 
``AASHTO Transportation and Climate Change Primer'' to outline, 
for State and industry transportation leaders, the current 
thinking on climate change and transportation.
    We have also initiated a climate change technical 
assistance program to supply states with timely information, 
tools, technical assistance, and assistance in meeting climate 
change challenges.
    Let me briefly turn to the points that we believe should 
guide Federal policy in this area.
    First, the challenge before us is to reduce total 
greenhouse gas emissions worldwide. We need to develop national 
policies that reduce our own emissions, and, where possible, 
contribute to the broader global effort to reduce emissions.
    Second, reducing greenhouse gas emissions worldwide will 
require a major contribution from every country and every 
economic sector, including transportation. No one can sit on 
the sidelines. Transportation agencies stand ready to do our 
part.
    Third, reducing greenhouse gas emissions will involve many 
separate initiatives. In the transportation sector, we need 
improvements in fuel economy, greater usage of low-carbon 
fuels, better management of our transportation system to reduce 
congestion and smooth traffic flows, and we need to take steps 
that reduce the growth in vehicle miles traveled.
    Fourth, we should focus on finding solutions that yield the 
greatest emissions reductions at the lowest cost. In other 
words, cost-effectiveness should be a major consideration in 
setting policy.
    Fifth and finally, we need major technological 
breakthroughs in order to have any chance of dramatically 
cutting global emissions of greenhouse gases. For 
transportation, this means improvement of fuel economy, but 
ultimately a transition to entirely new fuels and new 
propulsion systems.
    With these breakthroughs and significant reductions, we 
believe we can still allow for the travel growth to support the 
economy.
    In recent decades, road travel has greatly increased, while 
the emissions of many harmful air pollutants have been 
significantly reduced. Technological innovation has made this 
possible. Reducing greenhouse gas emissions presents a new 
challenge, and technological advances will be just as 
important.
    We're also seeing a tempering of growth in travel, due, in 
part, to the higher fuel prices. Rather than growing at 2 
percent or more annually, we've seeing the average vehicle-
mile-traveled growth of one-half of 1 percent since 2004.
    Recently, USDOT reported the cumulative vehicle miles of 
travel for 2008 declined by 2.1 percent. It's feasible, through 
a combination of measures, to achieve major reductions in 
greenhouse gases from road travel in the U.S. Relieving traffic 
congestion is also essential to reducing greenhouse gas 
emissions. The optimal speed for motor vehicles is about 45 
miles per hour. At lower speeds, emissions are several times 
higher. If we can reduce the fuel burned by vehicles stalled in 
traffic, that is a gain. If we can improve the flow of traffic 
so fuel is burned at a more optimal efficiency, that will also 
produce a gain.
    In my own State of Maryland, under the leadership of 
Governor Martin O'Malley, we've developed a statewide 
greenhouse gas emissions and carbon footprint reduction 
strategy. Our goal is to reduce emissions between 25 and 50 
percent by 2020, and to obtain a 90-percent reduction in 
greenhouse gases by 2050. Those transportation policies that 
will help implement this include: slowing the growth of VMT, 
supporting the development and use of improved techniques and 
fuels, and examining other strategies, such as promoting 
sustainable transit communities and transit-oriented 
development.
    We're also evaluating what climate change and sea level 
rise will mean to our transportation infrastructure, given that 
Maryland has 4,360 miles of shoreline. Now, fortunately, as a 
multimodal State DOT with one transportation trust fund for 
highways, transit, ports, and airports, we can work across the 
board to meet these goals.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Porcari follows:]

 Prepared Statement of John Porcari, Secretary, Maryland Department of 
  Transportation; Chair, Climate Change Technical Assistance Program 
  Advisory Board; and Chair, Standing Committee on Aviation, American 
       Association of State Highway and Transportation Officials
    Good morning, I am John Porcari, Secretary of the Maryland 
Department of Transportation. Thank you for the invitation to speak 
today on an issue of critical importance to the Nation--climate change 
and national strategies to address climate change.
    I am appearing on behalf of the American Association of State 
Highway and Transportation Officials (AASHTO). I chair AASHTO's Climate 
Change Technical Assistance Program Advisory Board and the Standing 
Committee on Aviation. I will also touch on some Maryland activities 
and initiatives.
    AASHTO and its members are working diligently to be part of the 
climate change solution. AASHTO has undertaken a number of climate 
change activities, including:

  <bullet> Organizing a Transportation Vision Conference in Spring, 
        2007 which included discussions regarding sustainability and 
        climate change;

  <bullet> Publishing, in April 2008, a Primer on Transportation and 
        Climate Change; and

  <bullet> Developing a Climate Change Technical Assistance Program to 
        supply AASHTO members with timely information, tools and 
        technical assistance to assist them in meeting the difficult 
        challenges that arise related to climate change.

    These and other materials will be provided to the Committee staff 
for use by the Committee.
    In May, 2007 AASHTO brought together transportation experts from 
across the nation, representing users, builders and providers of our 
transportation system for a three-day Transportation Vision and 
Strategies for the 21st Century Summit. The resulting report, A New 
Vision for the 21st Century, recognized the difficult challenge of 
expanding the transportation network's capacity to serve a growing 
population and communities and an expanding economy while 
simultaneously reducing the environmental footprint of the system. To 
address this challenge, AASHTO adopted the ``Triple Bottom Line'' 
approach, to encourage sustainable development by evaluating 
performance on the basis of social, economic and environmental impacts. 
The ``triple bottom line'' calls for:

  <bullet> Robust economic growth,

  <bullet> ``Better than before'' health of the environment, and

  <bullet> Improved quality of life for all citizens.

    AASHTO further recognized that to make a positive contribution to 
the issue of global climate change, transportation policies need to 
reduce dependence on foreign oil, reduce energy consumption, and reduce 
travel demand, relative to current trends. To achieve these goals 
AASHTO called for:

  <bullet> Supporting the President's goal to reduce oil consumption by 
        20 percent in 10 years,

  <bullet> Doubling the fuel efficiency of new passenger cars and light 
        trucks by 2020, the entire fleet by 2030, and

  <bullet> Reducing the growth of vehicle miles traveled from the 
        predicted 2 percent per year to 1 percent per year.

    To achieve the proposed reduction in VMT growth, AASHTO proposed:

  <bullet> Doubling transit ridership by 2030,

  <bullet> Significantly expanding the market share of passengers and 
        freight moved by rail rather than trucks,

  <bullet> Reducing the percentage of commuters who drive alone to 1980 
        levels, and

  <bullet> Increasing the percentage of those who ride transit, 
        carpool, walk, bike and work at home.

    The AASHTO Transportation and Climate Change Primer was developed 
to provide AASHTO members with an introduction to the issue of climate 
change and its implications for transportation policy in the United 
States. The paper is organized into five parts:

  <bullet> Part I summarizes the current state of scientific knowledge 
        concerning the causes and impacts of climate change.

  <bullet> Part II provides an introduction to climate change policy 
        issues.

  <bullet> Part III discusses trends in greenhouse gas emissions from 
        road transportation.

  <bullet> Part IV reviews potential measures to reduce greenhouse gas 
        emissions from road transportation.

  <bullet> Part V identifies issues for further study.

    The Primer is based on the most recent research in the field. Its 
purpose is to outline for AASHTO members the current thinking of 
governmental agencies, researchers, and advocacy groups on the issue of 
climate change and transportation.
General Observations
    In my testimony today, I will focus on the issue of climate change 
as it relates to the surface transportation system, specifically 
highways. I will begin with a few general points that we believe should 
guide Federal policy in this area.
    First: The challenge before us is to reduce total greenhouse gas 
emissions, worldwide. In the end, it is the global total that matters. 
This means we need to develop national policies that reduce our own 
emissions and, where possible, contribute to the broader global effort 
to reduce emissions.
    Second: Reducing greenhouse gas emissions worldwide will require a 
major contribution from every country and every economic sector, 
including transportation. No one can sit on the sidelines and wait for 
others to carry the burden. As transportation agencies, we stand ready 
to do our part.
    Third: The effort to reduce greenhouse gas emissions will involve 
many separate initiatives. There is no silver bullet. We should not get 
so caught up in debates about competing approaches that we lose sight 
of this bigger picture. In the transportation sector, this means we 
need improvements in fuel economy; we need greater usage of low-carbon 
fuels; we need better management of our transportation system to reduce 
congestion and smooth traffic flows; and we need to take steps that 
reduce the growth in vehicle miles traveled (VMT).
    Fourth: We should focus on finding solutions that yield the 
greatest emission reductions at the least cost. In other words, cost-
effectiveness should be a major consideration in setting policy. 
Congress will be asked to consider many proposals in the name of 
climate change. The question that must be asked is: How much emissions 
reduction will this policy deliver, and at what cost?
    Fifth, and finally: Technological innovation has been the key to 
environmental progress in many areas. That will be even truer with 
greenhouse gas emissions. Quite simply, we need major technological 
breakthroughs in order to have any chance of dramatically cutting 
global emissions of greenhouse gases. For transportation, this means 
not only improvement in fuel economy, but ultimately a transition to 
entirely new fuels and new propulsion systems--for example, plug-in 
hybrid vehicles, zero-emission fuel-cell vehicles, and large-scale use 
of next-generation renewable fuels such as cellulosic ethanol.
Trends in Greenhouse Gas Emissions from Road Travel
    According to the policy analysis seen to date, transportation 
represents approximately one third of greenhouse gas emissions, and it 
is estimated that highway vehicles generate 72 percent of those 
emissions.
    Between now and 2030, the U.S. Government forecasts that fuel 
efficiency will continue to improve and renewable fuels will gain 
market share, but also vehicle miles traveled (VMT) will continue to 
grow at 1.6 to 1.9 percent annually, outpacing the gains in fuel 
efficiency. The result is that, according to DOE's forecasts, 
greenhouse gas emissions from the transportation sector are projected 
to increase gradually between now and 2030.
    Clearly, it is important to find ways to reduce greenhouse gas 
emissions from the U.S. transportation system, but how? It is a 
difficult challenge, but the challenge can be overcome. Recently, 
AASHTO published a report--the ``Primer on Transportation and Climate 
Change--which analyzed this issue.
    The Primer developed four scenarios showing how much greenhouse gas 
emissions could be reduced under a range of assumptions about fuel 
economy and growth in vehicle miles traveled. These scenarios assumed 
that fuel economy would increase faster than currently forecasted by 
USDOE--increasing to 50 or 100 miles per gallon in 2050. (For this 
study, ``miles per gallon'' was measured in ``gasoline equivalent'', 
which is a measure that converts greenhouse gas emissions from electric 
or hydrogen fuel-cell vehicles into an equivalent amount of gasoline 
usage). The scenarios considered in the primer also assumed the VMT 
would grow at either 1.5 percent or 1.0 percent annually, which would 
be slower than the USDOE's forecasts. AASHTO found that under these 
scenarios, major reductions in greenhouse gas emissions are 
achievable--in the range of 60 to 80 percent under the more optimistic 
scenarios.
    These scenarios are intended to illustrate the point that 
significant reductions in greenhouse gas emissions from road travel can 
be achieved, if we have major breakthroughs in fuel economy and a 
slight tempering of travel demand growth--while still allowing for 
travel demand to increase at a rate at least equal to population 
growth.
    So is it realistic to achieve these dramatic reductions in 
greenhouse gas emissions?
    First, in terms of fuel economy: We have all seen the tremendous 
increase in sales of gas-electric hybrid vehicles, which were rare up 
until just a few years ago. The auto manufacturers are working on 
developing entirely new vehicles, such as plug-in hybrids--for example, 
the Chevy Volt--that runs entirely on electricity. Researchers are also 
working on other innovations in vehicles and fuels, including next-
generation (cellulosic) ethanol and hydrogen fuel-cell vehicles. The 
seeds of tomorrow's technological breakthroughs have already been 
planted.
    And in terms of vehicle miles traveled: The VMT growth trends have 
been tapering off in recent years. Rather than growing at 2 percent or 
more annually, we have seen average VMT growth rates of approximately 
0.5 percent (one-half of a percent) since 2004. And very recently, the 
USDOT reported that cumulative vehicle miles traveled for 2008 declined 
by 2.1 percent. Higher gasoline prices have played a role in this 
shift, as have demographic factors. But the bottom line is this: we are 
not seeing runaway growth in VMT; in fact, we are seeing just the 
opposite. The tempering of VMT growth provides another indication that 
it is feasible--through a combination of measures--to achieve major 
reductions in greenhouse gases from road travel in the U.S.
Reducing Greenhouse Gas Emissions Through Innovation in Vehicles and 
        Fuels
    In recent decades, the volume of road travel has greatly increased, 
while the emissions of many harmful air pollutants have been 
significantly reduced. Technological innovation has made this progress 
possible: today's vehicles are more fuel-efficient and employ far more 
sophisticated emissions-control technologies than those on the roads in 
the 1970s. Reducing greenhouse gas emissions presents a new challenge, 
and in some ways a greater one. But technological advances will be just 
as important to meeting this challenge as they have been to achieving 
environmental goals in the past.
    As the AASHTO scenarios illustrate, technological innovation is 
essential to achieving emissions reductions. There are several ways 
that Congress can help encourage innovation in vehicles and fuels. I 
will briefly cover several of the most important ways that Congress can 
assist in this area.
Strengthening Vehicle Emission Standards
    In 2007, Congress increased the CAFE standard for passenger 
vehicles and light trucks to 35 mpg, which must be achieved by 2020. 
The law also creates a framework under which CAFE standards may further 
increase between 2021 and 2030 for passenger cars and light trucks, and 
establishes a program under which fuel-economy standards will be set 
for medium-duty and heavy-duty trucks. There could also be separate 
legislative or regulatory initiatives to continue raising fuel-economy 
standards, as a way of making continued progress toward reducing 
greenhouse gas emissions despite increasing travel demand.
    In addition, California and several other states have adopted 
stricter vehicle emission standards than those established by the 
Federal Government. However, these standards cannot take effect unless 
a waiver is granted by EPA, and in December 2007, EPA denied the 
waiver. California and other states have filed a lawsuit to overturn 
the waiver, and that case is now pending. If the California standards 
are eventually allowed to proceed, or are adopted in some form at the 
Federal level, they will contribute to further reductions in greenhouse 
gas emissions.
    Researchers have suggested another regulatory option, which focuses 
specifically on greenhouse gas emissions. This concept involves setting 
greenhouse gas emission standards for vehicles--that is, a standard for 
the grams of greenhouse gases emitted per mile of travel. This type of 
standard would more precisely reflect the underlying goal of reducing 
greenhouse gas emissions, not just reducing the amount of fuel 
consumed. This standard could be defined so that it covers all 
greenhouse gases emitted by vehicles, including methane and nitrous 
dioxide, not just CO<INF>2</INF>.
Low-Carbon Fuel Standards
    Federal legislation has set goals for the total amount of biofuels 
to be produced in 2022 (36 billion gallons), but has not set an overall 
goal or requirement for reducing the carbon content of transportation 
fuels. However, California has adopted a low-carbon fuel standard, 
which calls for a 10 percent reduction in the carbon intensity of 
transportation fuels by 2020. Additional states, and possibly the 
Federal Government, could adopt low-carbon fuel standards in the 
future. If such standards are adopted, it will be important to consider 
the life-cycle emissions of greenhouse gases associated with each fuel. 
Some of the benefits of using low-carbon fuels may be offset by the 
additional greenhouse gas emissions that result from clearing land and 
growing crops to produce the fuels.
Cap-and-Trade Program/Carbon Tax
    Any system for pricing carbon (whether it involves a cap-and-trade 
program or a carbon tax) could include transportation fuels. For the 
consumer, the increased cost of carbon would show up in the price of 
gasoline at the pump. Estimates differ about how much a system of 
carbon pricing would affect gasoline prices. However, there is general 
agreement that the effect on gasoline prices would be noticeable but 
not dramatic in relation to the price increases that have occurred in 
recent years.
    The enormity of the potential revenues from a carbon tax or cap-
and-trade program would give rise to important policy decisions about 
how to spend those revenues and whether to make offsetting tax cuts. 
Certainly, there would be a strong policy preference for funding 
activities that help to reduce greenhouse gas emissions, such as 
increased investments in transit, better management of our 
transportation system to reduce congestion and smooth traffic flows, 
and removing barriers to high density development. Congress should also 
consider dedicating a portion of the revenues from such a program to 
help meet the costs of adapting to climate change, including the costs 
of adapting the Nation's transportation infrastructure.
Reducing Greenhouse Gas Emissions by Reducing the Growth in Vehicle 
        Miles Traveled (VMT)
    While technological change is essential to reducing greenhouse gas 
emissions, there is also a role for strategies that help to limit the 
growth in travel demand. As discussed above, the total VMT has grown 
much faster than population growth for the past several decades, but 
appears to have slowed considerably in the past few years. The average 
annual increase in VMT between 1990 and 2005 was approximately 2.2 
percent. By contrast, population increased only about 0.8 percent per 
year during this period. Between 2005 and 2007, VMT growth occurred at 
a much slower rate--approximately 0.5 percent annually. Recent reports 
indicate that over the 12 month period between March 2007 and March 
2008, VMT declined by 4.3 percent
    This recent data suggests that the VMT growth rates are moderating. 
It is unclear at this point whether the lower growth rates are merely a 
temporary departure from historical trends or a sign that future VMT 
growth will be much lower than in the past. Certainly, it is plausible 
that continued record high oil prices will cause motor fuel prices to 
remain high or increase, which could continue to dampen growth in VMT. 
In addition, changing demographics (an increase in retirees as the baby 
boomer generation reaches 65 years of age) could also help to reduce 
the rate of VMT growth, since people over the age of 65 generally drive 
less than the rest of the population.
    There are many factors that can affect the future growth rate of 
VMT. Among the most important factors are economic trends and 
demographic forces, which are largely beyond the influence of 
government policies. For example, a strong economy and rising average 
incomes tend to produce increases in VMT; conversely, large and 
sustained increases in fuel prices will tend to dampen the growth in 
VMT.
    Against the backdrop of these larger trends, government policies 
also can play a role--albeit a limited one--in influencing VMT growth. 
Strategies that can be used include: (1) increasing investments in 
transit and intercity passenger rail, (2) expanding other alternatives 
to single-occupant vehicle travel, and (3) encouraging land uses that 
minimize the number and length of auto trips.
Expanding Transit Service and Intercity Passenger Rail
    Transit service provides an alternative to automobile travel and, 
under certain conditions, can help reduce greenhouse gas emissions. The 
challenge is how to make the most of transit's potential, given that it 
serves a relatively small share of travel in the United States (1 
percent of passenger miles traveled) and major transit system 
expansions require significant public sector funding. Additional 
research will be required to determine how much of a reduction in total 
greenhouse gas emissions could be achieved through increased transit 
ridership and which types of transit investments would yield the 
greatest (and most cost-effective) reductions in greenhouse gas 
emissions.
    While expanding transit service may not yield major reductions in 
greenhouse gas emissions, there are still good policy justifications 
for increasing investments in transit service. For example, transit 
service continues to play a key role in maintaining mobility within 
large and densely population metropolitan areas, especially for 
populations that lack access to an automobile. In addition, expanding 
transit service can facilitate higher-density land use patterns that 
help to reduce the need for auto trips. These considerations, in 
combination with the potential greenhouse gas emission reduction 
benefits, provide support for continuing to expand transit service as 
an integral part of the transportation system.
Expanding Alternatives to Single-Occupant Auto Travel
    In addition to transit, passenger travel also occurs by walking, 
biking, carpooling, vanpooling, and telecommuting. To the extent that 
auto driving in single-occupant vehicles can be shifted to these 
alternatives, greenhouse gas reductions can be achieved. Telecommuting 
is likely to be a highly cost-effective strategy for reducing 
greenhouse gas emissions, as telecommuting costs are quite low, with 
potentially a net savings per ton of greenhouse gas reduction, after 
factoring in reduced auto operating costs.
Changes in Land Use Patterns
    Land use decisions play an important role in determining the demand 
for automobile travel. Existing land use patterns in many areas make 
automobile travel a necessity for most trips. Higher-density land use 
patterns, combined with increased availability of transit service, 
could help to reduce the demand for automobile travel without reducing 
mobility.
    A key question is how to bring about those types of changes in land 
use, which can be difficult because land use decisions are primarily 
made by local governments. Government efforts should be focused on 
removing the barriers to higher-density land use patterns, not 
regulating lifestyle changes. Example of such barriers include, local 
land use policies, such as zoning and parking regulations and local 
reliance on land use taxes which tend to make localities favor 
commercial development rather than residential development. In 
addition, efforts should be made to tie the location employment centers 
with affordable housing and tie high density development with transit 
services.
    As with transit, an important question to consider is how much 
greenhouse gas emissions reduction can be achieved by shifting to 
higher-density and less auto-dependent land use patterns. This issue--
the magnitude of the effect on VMT--has been addressed in several 
reports. These reports indicate that changes in land use can reduce VMT 
growth--over a 40 to 50 year timeframe--by approximately 5 to 10 
percent.
Reducing Greenhouse Gases Through Congestion Relief and Other 
        Operational Strategies
    In tandem with efforts to develop cleaner vehicles and fuels and to 
reduce growth in VMT, it also is possible to reduce greenhouse gas 
emissions by reducing congestion and encouraging more efficient 
operation of motor vehicles.
Congestion Relief
    Traffic congestion contributes to greenhouse gas emissions because 
vehicle engines operate less efficiently--and therefore produce higher 
emissions per mile--when they are driven at low speeds in stop-and-go 
traffic. The optimal speed for motor vehicles with internal combustion 
engines is about 45 mph. At lower speeds, CO<INF>2</INF> emissions per 
mile are several times higher than at 45 mph. At higher speeds, 
CO<INF>2</INF> emissions per mile increase as well, but somewhat less 
sharply. As such, congestion relief can play a role in reducing 
greenhouse gas emissions. If we can reduce the amount of fuel burned by 
vehicles stalled in traffic that is a gain. If we can improve the flow 
of traffic so fuel is burned at more optimal efficiency rates then that 
will also produce a gain.
Driver Behavior
    In addition to vehicles, fuels, and VMT, the way motorists actually 
operate their vehicles affects greenhouse gas emissions. The March 2007 
TRB report notes that: Recent EAP data suggests that a significant 
component of greenhouse gas emissions--as much as 22 percent--results 
from inefficient operation of motor vehicles. These inefficiencies 
could result from factors beyond the driver's control, such as traffic 
congestion, and also could reflect a driver's own behavior, such as 
high-speed driving, vehicle maintenance, and tire pressures. Driver 
education and other policies could help to promote more efficient 
vehicle operations, which would help reduce greenhouse gas emissions.
The Impacts of Climate Change on the Transportation System
    While my testimony today focuses primarily on the role of the 
transportation system in emitting greenhouse gases, I will also briefly 
addresses the Transportation Research Board's (TRB's) recent report on 
the potential impacts of climate change on the U.S. transportation 
system.
    Based on numerous peer-reviewed scientific studies, the TRB report 
identified five climate changes of particular importance for the 
transportation system in the U.S.:

  <bullet> Increases in very hot days and heat waves,

  <bullet> Increases in Arctic temperatures,

  <bullet> Rising sea levels,

  <bullet> Increases in intense precipitation events, and

  <bullet> Increases in hurricane intensity.

    These changes in climate will affect the transportation system in 
many ways. The TRB report noted several specific examples. Just a few 
of these examples include:

  <bullet> Operational and maintenance impacts of excessive heat. 
        ``Periods of excessive summer heat are likely to increase 
        wildfires, threatening communities and infrastructure directly 
        and bringing about road and rail closures in affected areas. 
        Longer periods of extreme heat may compromise pavement 
        integrity (e.g., softening asphalt and increasing rutting from 
        traffic); cause deformation of rail lines and derailments or, 
        at a minimum, speed restrictions; and cause thermal expansion 
        of bridge joints, adversely affecting bridge operation and 
        increasing maintenance costs.''

  <bullet> Increased flooding of coastal roads and rail lines. ``The 
        most immediate impact of more intense precipitation will be 
        increased flooding of coastal roads and rail lines. Expected 
        sea level rise will aggravate the flooding because storm surges 
        will build on a higher base, reaching farther inland. . . . 
        [The IPCC] identifies coastal flooding from expected sea level 
        rise and storm surge, especially along the Gulf and Atlantic 
        coasts, as one of the most serious effects of climate change. 
        Indeed, several studies of sea-level rise project that 
        transportation infrastructure in some coastal areas along the 
        Gulf of Mexico and the Atlantic will be permanently inundated 
        sometime in the next century.''

  <bullet> Disruption of coastal waterway systems. ``[A] combination of 
        sea level rise and storm surge could eliminate waterway systems 
        entirely. For example, the Gulf Coast portion of the 
        intercoastal waterway will likely disappear with continued land 
        subsidence and disappearance of barrier islands. This will 
        bring an end to coastal barge traffic, which helps offset rail 
        and highway congestion; all ships will have to navigate the 
        open seas.''

  <bullet> Impacts on Alaskan infrastructure. ``The effects of 
        temperature warming are already being experienced in Alaska in 
        the form of continued retreat of permafrost regions (see the 
        discussion of Alaska below), creating land subsidence issues 
        for some sections of the road and rail systems and for some of 
        the elevated supports for above-ground sections of the Trans-
        Alaska pipeline. Warming winter temperatures have also 
        shortened the season for ice roads that provide vital access to 
        communities and industrial activities in remote areas.''

    Several other studies have also concluded that climate change is 
likely to have widespread and severe impacts on transportation 
infrastructure. These studies include:

  <bullet> U.S. DOT Gulf Coast Study. This study examined the potential 
        impacts of climate change on transportation infrastructure in 
        the Gulf Coast region. The study recognized ``four key climate 
        drivers'' in the Gulf Coast region: rising temperatures, 
        changing precipitation patterns, rising sea levels, and 
        increasing storm intensity. It suggested a range of possible 
        responses, including raising transportation facilities in low-
        lying areas; hardening them to withstand storm events; 
        relocating them to areas that are less vulnerable; and 
        expanding redundant systems where needed.

  <bullet> ICF Studies of Sea-Level Rise. This two-part study focused 
        specifically on the potential impacts of sea-level rise (not 
        climate change in general) on transportation infrastructure. 
        Phase 1 assessed impacts of sea-level rise on the District of 
        Columbia, Maryland, Virginia, and North Carolina. Phase 2, 
        which is still under way, will evaluate impacts of sea-level 
        rise on seven additional States on the East Coast: New York, 
        New Jersey, Pennsylvania, Delaware, South Carolina, Georgia, 
        and the Atlantic Coast of Florida.

    As these studies reflect, there is a growing consensus that climate 
change has already begun to have impacts on the transportation system 
and that those impacts will become more severe over time as the global 
climate continues to warm.
    Adapting to climate change will present challenges for all levels 
of government. Rather than a single national program or strategy, there 
will likely be many initiatives undertaken in response to the specific 
climate-related threats that exist in each region.
    For the transportation system, the adaptation challenges will be 
substantial. There is a need for adaptation planning at the State and 
local level, because of the important role of State and local 
governments in maintaining and operating the road system. According to 
the Pew Center on Global Climate Change, five States have adopted 
adaptation strategies (as of January 2008) as part of their 
comprehensive climate action plans, while six others have started 
adaptation planning efforts. In addition, cities and counties have 
begun to address adaptation as part of their climate plans. King 
County, Washington (which includes Seattle) has established an inter-
departmental team to develop adaptation plans and has even produced a 
guidebook on this issue. New York City has addressed adaptation as part 
of ``PlaNYC'', which calls for planning to protect critical 
infrastructure and high-risk communities from the effects of climate 
change.
Maryland Activities and Initiatives
    The Maryland Department of Transportation (MDOT) is undertaking 
various efforts and activities to reduce GHG emissions in Maryland, 
including participating in developing a statewide Greenhouse Gas and 
Carbon Footprint Reduction Strategy (GHG Strategy) and promoting 
sustainable transit communities. MDOT is also active in evaluating what 
climate change and sea level rise will mean to our transportation 
infrastructure given Maryland's 4,360 miles of tidal shoreline and our 
transportation system's proximity to these areas.
    In April 2007, Governor Martin O'Malley established a Climate 
Change Commission through Executive Order that includes: sixteen agency 
heads, six members of the General Assembly, private sector 
representatives from environmental groups and power companies, and 
local government representatives. This Commission is charged with:

  <bullet> Developing a plan of action to address climate change;

  <bullet> Preparing for climate change impacts in Maryland;

  <bullet> Establishing goals and timeframes; and

  <bullet> Reporting each year (Nov. 1) on a plan of action including 
        updates, timetables and draft legislation for the coming 
        legislative session.

    Our preliminary goals are to reduce greenhouse gas emissions by 
between 25 and 50 percent between 2006 and 2020 and to obtain 90 
percent reductions by 2050. The Commission's preliminary report and 
list of strategies in various focus areas will be made public in mid 
July. Transportation-related policies in the GHG Strategy include 
strategies to slow the growth of VMT, support the development and use 
of improved technologies and fuels, and other emissions reduction 
strategies.
    Fortunately, Maryland is in a unique position to work across all 
modes of transportation to implement GHG reduction strategies. As a 
multi-modal agency with a flexible transportation trust fund and 
responsibilities for highway, transit, port and airport capital 
development and operation, MDOT has the opportunity to act effectively. 
The department has already undertaken various strategies to reduce the 
growth in VMT including, developing park and ride lots, investing in 
transit expansions, encouraging telecommuting, providing ridesharing 
and guaranteed ride home support, and progressing bike and pedestrian 
projects. Additional mitigation strategies include: requiring idling 
reduction in MDOT contracts, utilizing hybrid buses and cleaner MARC 
engines, providing truck stop electrification, tree planting, use of 
biodiesel by MDOT trucks, and purchasing hybrid cars for our fleet.
    Climate change is bringing transit into the forefront of national 
policy discussions. In Maryland, transit communities are a priority, 
however, we need a new financial paradigm for supporting transit. 
Maryland is actively pursuing the establishment of public/private 
partnerships related to transit oriented development while creating an 
equity position for the public sector.
    To date, most public private activity has been related to highways. 
Maryland is working to encourage private investments in transit. We are 
anxious to find ways to establish public private partnerships that 
allow the private sector to benefit from the state's investment in 
transportation while sharing some of the benefit with the state. We 
would like to create public private partnerships that allow the state 
to take an equity position in land, projects and businesses that 
benefit directly from the transportation asset, or in the 
transportation asset itself, if it is privatized. Under this structure, 
ongoing equity returns could be directed toward transit operating 
costs.
Conclusion
    Reducing greenhouse gas emissions worldwide will require a major 
contribution from every country and every economic sector, including 
transportation. At the same time, our Nation needs a strong 
transportation system to maintain its competitiveness in the global 
economy and to expand economic opportunity in all regions and among all 
parts of the population. We need a strong transportation system to 
maintain and improve the quality of life by providing a high level of 
mobility while minimizing impacts to communities and the environment. 
We need to achieve our transportation goals in a way that is 
environmentally sustainable. This includes efficiently reducing the 
emissions of greenhouse gases from the transportation sector as well 
taking other actions to minimize our carbon footprint.
    The effort to reduce greenhouse gas emissions will involve many 
separate initiatives. Transportation sector initiatives include, 
improvements in fuel economy; greater usage of low-carbon fuels; better 
management of our transportation system to reduce congestion and smooth 
traffic flows; and taking steps that reduce the growth in vehicle miles 
traveled (VMT).
    Technological innovation is the key to progress in greenhouse gas 
emissions reduction. With increases in fuel economy and a shift to 
cleaner fuels, it is possible to reduce greenhouse gases while there is 
some growth in VMT. In the short term, the market will produce 
additional fuel economy and increased use of alternative fuels. New 
technologies including hydrogen fuel cells and plug-in electric hybrids 
are expected to enter commercial production in the next decade. In the 
period between 2020 and 2050, these and other zero-emission vehicles 
which no longer burn petroleum are expected to dominate the automotive 
market. These technologies alone may make it possible to reach the 
carbon emission goals set by many Governors and mayors for 2050.
    The growth in vehicle miles traveled (VMT) is a reflection of 
overall growth in our economy and our population. However, VMT growth 
is already flattening due to increasing fuel prices and long-term 
demographic changes. Regardless of current VMT trends and anticipated 
technological innovations in automotive fuel economy and fuels, 
additional measures should be taken to manage demand. Such measures 
include: increasing transit ridership, finding alternatives to single 
occupant auto travel and removing the barriers to high density land use 
development.
    Greenhouse gas policies should be based on sound, comprehensive 
data, including data regarding the cost and feasibility of 
accomplishing emissions reductions. It is ineffective to set an 
arbitrary target without knowing how that target could be achieved. We 
should focus on finding solutions that yield the greatest emission 
reductions at the least cost.
    Also, greenhouse gas policies need to take a broad and balanced 
approach as climate change solutions will vary from state to state and 
region to region. As such, individual states/regions should have the 
flexibility to implement the strategies that will work in their 
particular circumstances. It is imperative that transportation leaders 
be involved in the climate change discussion at all levels of 
government to assist in developing emissions reductions strategies and 
goals.
    Finally, strategies for reducing greenhouse gas emissions from the 
transportation sector cannot be effectively evaluated or carried out on 
a project level. A broad, systems-level approach is needed.
    Mr. Chairman, Members of the Committee, the importance of the 
subject you have under discussion today is of vital national 
importance. It is in the interest of us all to take on the challenge as 
vigorously and effectively as we can. On behalf of the AASHTO member 
states, I promise that we will continue to work with you in that 
effort.

    Senator Lautenberg. Thank you very much, Mr. Porcari. And I 
note that you are required to leave promptly, and Senator 
Stevens hasn't asked to throw any questions at you, so I would 
just have one.
    And I'd like to know what kind of impacts of climate change 
are considered before DOT undertakes a new project to build a 
new road. Should they be required to identify climate change 
impact?
    Mr. Porcari. It's a very good question, Senator. We're--
with Maryland as an example, we are currently, actually, 
mapping all of the projected climate change impacts on all of 
our transportation infrastructure--roads, rails, bridges, and 
tunnels, aviation, et cetera. Going forward, in both the 
location in the design of facilities, we will be taking this 
into account. I would point out that we have a number of 
facilities that are severely impacted, like the Port of 
Baltimore, a number of our bridges and tunnels, and highway 
network. You have similar examples, throughout the country, 
where you first have to map what the impacts will be, and then 
mitigate that in new construction, and reconstruction of older 
projects.
    Senator Lautenberg. Just one more thing. How complicating a 
factor is it to make judgments on the effect on climate? Does 
it require months of study or is it relatively simple computer 
formulation?
    Mr. Porcari. Senator, we're really plowing new ground here. 
To--some of the transportation decisions that we're making, 
such as doubling transit ridership, tripling our MARC commuter 
rail capacity, are relatively straightforward. We know those 
will have a positive impact. We are now turning to the process 
of getting down to the project-specific level and trying to 
quantify those impacts, positive or negative. It is one of the 
things that AASHTO is doing nationally that we can do through 
this technical assistance program, is provide the framework for 
all the states to make those kind of evaluations in the future.
    Senator Lautenberg. Thank you very much, Mr. Porcari.
    Mr. Porcari. Thank you.
    Senator Lautenberg. And thank the other panelists for their 
patience in letting us go ahead.
    Dr. Dickey, let me hear from you, please.

        STATEMENT OF G. EDWARD DICKEY, Ph.D., AFFILIATE

           PROFESSOR OF ECONOMICS, LOYOLA COLLEGE IN

       MARYLAND; MEMBER, COMMITTEE ON CLIMATE CHANGE AND

          U.S. TRANSPORTATION, TRANSPORTATION RESEARCH

      BOARD, DIVISION ON EARTH AND LIFE STUDIES, NATIONAL

            RESEARCH COUNCIL, THE NATIONAL ACADEMIES

    Dr. Dickey. Good morning, Mr. Chairman, members of the 
Committee.
    My name is Edward Dickey. I'm Affiliate Professor of 
Economics at Loyola College in Maryland, and I served as a 
Member of the National Research Council's Committee on Climate 
Change and U.S. Transportation.
    The charge given to our Committee was to examine the 
potential consequences of climate change on U.S. 
transportation. Our definition of ``transportation'' covers all 
the modes. Most of us usually focus on transportation's impact 
on climate change, where the emphasis is on strategies to 
mitigate these effects. This study was concerned with the 
converse, examining the potential impacts of climate change on 
transportation infrastructure and operations and identifying 
appropriate adaptation strategies.
    The main findings of our work are presented in Special 
Report 290, ``The Potential Impacts of Climate Change on U.S. 
Transportation.'' The report begins with an acknowledgment that 
global warming is a real, observable, phenomena, and that 
resulting climate changes will be marked by weather and climate 
extremes and surprises, not gradual shifts.
    A second finding is that the use of historical weather and 
climate data may no longer provide an accurate forecasting 
guide for infrastructure planning and design.
    Third, climate change will likely impact all regions of the 
country and all modes of transportation. Flooding of coastal 
transportation infrastructure probably poses the greatest risk, 
because of rising sea levels, coupled with storm surges and 
land subsidence.
    Fourth, climate change will require significant changes in 
the planning, design, construction, and operation and 
maintenance of transportation systems.
    Last, transportation professionals should acknowledge the 
challenges posed by climate change, and incorporate current 
scientific knowledge into the transportation planning process. 
Investment choices made today will influence how well the 
transportation infrastructure adapts far into the future.
    Our recommendations can be divided into two broad 
categories. We begin with the process of making decisions.
    First, government agencies and private owners should 
inventory critical infrastructure to determine which systems 
are vulnerable to the impacts of climate change.
    Second, transportation providers should incorporate climate 
change into their capital improvement programs, facility 
designs, maintenance practices, operations, and emergency 
response plans.
    Third, planners and engineers should use risk-based 
approaches that identify the tradeoffs between improved 
performance levels against the cost of achieving them when 
analyzing investment choices.
    Fourth, better communication is needed among transportation 
professionals, climate change scientists, and other related 
disciplines.
    Fifth, ongoing and planned research on climate science and 
decisionmaking tools should incorporate the needs of 
transportation decisionmakers. And decisionmakers, on the other 
hand, should define the types of climate data that would be 
most useful to them.
    Turning to the issue of adaptation to climate change, we 
have a number of additional recommendations.
    Sixth, recent experiences with Hurricanes Katrina and Rita 
emphasize the importance of making transportation an integral 
part of response plans to handle emergencies, and how these 
plans are executed.
    Seventh, greater use of technology would enable 
infrastructure providers to monitor climate change and its 
possible deleterious effects on structures and systems.
    Eighth, we need new design standards that incorporate 
climate change. The Committee recommends that the U.S. 
Department of Transportation take the lead, along with 
professional organizations across all modes, to initiate, 
immediately, a multiyear, multi-agency research program.
    Ninth, in the short term, whenever possible, we need to 
rehabilitate or construct new transportation infrastructure to 
higher design standards, especially in vulnerable regions.
    Tenth, transportation organizations, such as the American 
Association of State and Highway Transportation Officials, in 
cooperation with the Federal Government, should develop 
mechanisms for sharing best practices.
    Eleventh, we would be remiss if we did not mention that 
land use is an important issue. Much of our population now 
lives near the coasts, placing themselves, their homes, their 
businesses, and their transportation systems at greater risk. 
Land-use planning and zoning decisions are made primarily by 
local governments, and often involve competing interests that 
transportation planners cannot resolve. However, greater 
collaboration among these parties could go a long way toward 
putting these issues on the table, and such collaboration 
should be required in the reauthorization of transportation 
programs.
    Twelfth, the Federal Emergency Management Agency, which 
acts as the insurer of last resort for homeowners in designated 
flood hazard areas, should re-evaluate the risk reduction 
effectiveness of the National Flood Insurance Program, in view 
of projected increases in intense precipitation and storm 
activity. As a minimum, updating flood insurance rate maps to 
account for sea level rise and to incorporate land subsidence 
should be priority in coastal areas.
    Senator Lautenberg. Thank you very much.
    [The prepared statement of Dr. Dickey follows:]

 Prepared Statement of G. Edward Dickey, Ph.D., Affiliate Professor of 
      Economics, Loyola College in Maryland; Member, Committee on 
Climate Change and U.S. Transportation, Transportation Research Board, 
    Division on Earth and Life Studies, National Research Council, 
                         The National Academies
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Edward Dickey. I am Affiliate Professor of Economics at Loyola College 
in Maryland at Baltimore and served as a member of the Committee on 
Climate Change and U.S. Transportation of the National Research 
Council. The Research Council is the operating arm of the National 
Academy of Sciences, National Academy of Engineering, and the Institute 
of Medicine of the National Academies, chartered by Congress in 1863 to 
advise the government on matters of science and technology.
    Our study was initiated by the Executive Committee of the 
Transportation Research Board (TRB) and funded by TRB, the National 
Cooperative Highway Research Program, the U.S. Department of 
Transportation (USDOT), the Transit Cooperative Research Program, the 
U.S. Environmental Protection Agency, and the U.S. Army Corps of 
Engineers. Dr. Henry G. Schwartz, Jr., retired chairman of Sverdrup/
Jacobs Civil, Inc., and member of the National Academy of Engineering, 
chaired the expert panel of 13 members who conducted the study.\1\ Our 
report--Special Report 290: The Potential Impacts of Climate Change on 
U.S. Transportation--provides transportation professionals with an 
overview of the scientific consensus on the current and future climate 
changes of particular relevance to U.S. transportation, including the 
limits of present scientific understanding as to their precise timing, 
magnitude, and geographic location; identifies potential impacts on 
U.S. transportation and adaptation options; and offers recommendations 
for both research and actions that can be taken to prepare for climate 
change.
---------------------------------------------------------------------------
    \1\ Other committee members are Alan C. Clark, Houston-Galveston 
Area Council, Texas; G. Edward Dickey, Loyola College, Baltimore, 
Maryland; George C. Eads, CRA International, Washington, D.C.; Robert 
E. Gallamore, Gallamore Group, Rehoboth Beach, Delaware; Genevieve 
Giuliano, University of Southern California, Los Angeles; William J. 
Gutowski, Jr., Iowa State University, Ames; Randell H. Iwasaki, 
California Department of Transportation, Sacramento; Klaus H. Jacob, 
Columbia University, Palisades, New York; Thomas R. Karl, National 
Oceanic and Atmospheric Administration, Asheville, North Carolina; 
Robert J. Lempert, RAND Corporation, Santa Monica, California; Luisa M. 
Paiewonsky, Massachusetts Highway Department, Boston; Christopher R. 
Zeppie, Port Authority of New York and New Jersey, New York City.
---------------------------------------------------------------------------
    The study concludes that transportation professionals should 
acknowledge the challenges posed by climate change and incorporate 
current scientific knowledge into the planning, design, construction, 
operation, and maintenance of transportation systems. Every mode of 
transportation and every region in the United States will be affected 
as climate change poses new and often unfamiliar challenges to 
infrastructure providers. Focusing on the problem now should help avoid 
costly future investments and disruptions to operations.
Challenges of Climate Change
    Climate change will affect transportation primarily through 
increases in several types of weather and climate extremes. Climate 
warming over the next 50 to 100 years will be manifested by rising sea 
levels coupled with storm surges and land subsidence, increases in very 
hot days and heat waves, increases in Arctic temperatures, more 
frequent intense precipitation events, and increases in the intensity 
of strong hurricanes. The impacts will vary by mode of transportation 
and region of the country, but they will be widespread and costly in 
both human and economic terms and will require significant changes in 
the planning, design, construction, operation, and maintenance of 
transportation systems.
    The past several decades of historical regional climate patterns 
commonly used by transportation planners to guide their operations and 
investments may no longer be a reliable guide for future plans. In 
particular, future climate will include new classes (in terms of 
magnitude and frequency) of weather and climate extremes, such as 
record rainfall and record heat waves, not experienced in modern times 
as human-induced changes are superimposed on the natural variability of 
the climate.
    Decisions transportation professionals take today, particularly 
those related to the redesign and retrofitting of existing 
transportation infrastructure or the location and design of new 
infrastructure, will affect how well the system adapts to climate 
change far into the future.
Addressing the Impacts of Climate Change on Transportation
Inventory Critical Infrastructure
    Potentially, the greatest impact of climate change on North 
America's transportation system will be flooding of coastal roads, 
railways, transit systems, and runways because of a global rise in sea 
level coupled with storm surge and exacerbated in some locations by 
land subsidence. The vulnerability of transportation infrastructure to 
climate change, however, will extend well beyond coastal areas. 
Therefore, Federal, state, and local governments, in collaboration with 
owners and operators of infrastructure such as ports and airports, and 
private railroad and pipeline companies should inventory critical 
transportation infrastructure to identify whether, when, and where 
projected climate changes in particular regions might be consequential.
Incorporate Climate Change into Investment Decisions
    Public authorities and officials at various governmental levels and 
executives of private companies are making short- and long-term 
investment decisions every day and should incorporate climate change 
into their long-term capital improvement plans, facility designs, 
maintenance practices, operations, and emergency response plans. (See 
box below, which lays out a six-step approach for determining 
appropriate investment priorities).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Adopt Strategic, Risk-Based Approaches to Decision Making
    The significant costs of redesigning and retrofitting 
transportation infrastructure to adapt to the potential impacts of 
climate change suggest the need for more strategic, risk-based 
approaches to investment decisions. Transportation planners and 
engineers should incorporate more probabilistic investment analyses and 
design approaches that apply techniques for trading off the costs of 
making the infrastructure more robust against the economic costs of 
failure and should communicate these trade-offs to policymakers who 
make investment decisions and authorize funding. One model is the 
California Seismic Retrofit Program, which uses a risk-based approach 
to analyze vulnerability to earthquakes and criticality of highway 
bridges to determine priorities for retrofitting and replacement.
Improve Communication
    Transportation decisionmakers note that one of the most difficult 
aspects of addressing climate change is obtaining the relevant 
information in the form they need to plan and design. Transportation 
professionals often lack sufficiently detailed information about 
expected climate changes and their timing to take appropriate action. 
The National Oceanic and Atmospheric Administration, USDOT, the U.S. 
Geological Survey, and other relevant agencies should work together to 
institute a process for better communication among transportation 
professionals, climate scientists, and those in other relevant 
scientific disciplines, and establish a clearinghouse for 
transportation-relevant climate change information. In addition, better 
decision support tools are needed to assist transportation 
decisionmakers. Ongoing and planned research at Federal and state 
agencies and universities that provides climate data and decision 
support tools should include the needs of transportation 
decisionmakers.
Integrate Evacuation Planning and Emergency Response into 
        Transportation 
        Operations
    Projected increases in weather and climate extremes underscore the 
importance of emergency response plans in vulnerable locations and 
require that transportation providers work more closely with weather 
forecasters and emergency planners and assume a greater role in 
evacuation planning and emergency response. Climate extremes, such as 
more intense storms and more intense precipitation, will require near-
term operational responses from transportation providers and greater 
attention to emergency response in transportation operations and 
budgets. Transportation agencies and service providers should build on 
the experience in locations where transportation is well integrated 
into emergency response and evacuation plans.
Develop and Implement Monitoring Technologies
    Monitoring transportation infrastructure conditions, particularly 
the impacts of weather and climate extremes, offers an alternative to 
preventive retrofitting or reconstruction of some facilities in advance 
of climate change. Greater use of sensors and other ``smart'' 
technologies would enable infrastructure providers to receive advance 
warning of potential failure due to water levels and currents, wave 
action, winds, and temperatures exceeding what the infrastructure was 
designed to withstand. Federal and academic research programs should 
encourage the development and implementation of these technologies.
Share Best Practices
    As the climate changes, many U.S. locations will experience new 
climate-induced weather patterns. The geographic extent of the United 
States--from Alaska to Florida and from Maine to Hawaii--and its 
diversity of weather and climate conditions can provide a laboratory 
for best practices and information sharing as the climate changes. 
Drawing on existing technology transfer mechanisms, relevant 
transportation professional and research organizations should develop a 
mechanism to encourage sharing of best practices to address the 
potential impacts of climate change.
Reevaluate Design Standards
    Environmental factors are integral to transportation infrastructure 
design. However, engineers have not given much thought to whether 
current design standards are sufficient to accommodate climate change. 
Climate change projections indicate that today's 100-year precipitation 
event is likely to occur every 50 years or perhaps even every 20 years 
by the end of this century. Reevaluating, developing, and regularly 
updating design standards for transportation infrastructure to address 
the impacts of climate change will require a broad-based research and 
testing program and a substantial implementation effort. USDOT should 
take a leadership role along with professional organizations in the 
forefront of civil engineering practice across all modes to initiate 
immediately a federally funded, multiagency research program. The 
program should focus on the reevaluation of existing design standards 
and the development of new standards as progress is made in 
understanding future climate conditions and the options available for 
addressing them. A research plan and cost proposal should be developed 
for submission to Congress for authorization and funding. Until new 
standards are developed, infrastructure rehabilitation projects in 
highly vulnerable locations should be rebuilt to higher standards.
    The development of appropriate design standards to accommodate 
climate change is only one of several possible adaptation strategies 
that may require Federal leadership, research, and funding. Federal 
agencies have not focused generally on adaptation in addressing climate 
change. Better collaboration could help focus attention on these issues 
and shape existing research programs. USDOT should take the lead in 
developing an interagency working group focused on adaptation.
Include Climate Change in Transportation and Land Use Planning
    One of the most effective strategies for reducing the risks of 
climate change is to avoid placing people and infrastructure in 
vulnerable locations. Transportation planners are not currently 
required to consider climate change and its effects on infrastructure 
investments. Land use decisions are made primarily by local 
governments, which have too limited a perspective to account for the 
broadly shared risks of climate change. Integration between 
transportation and land use planning is uncommon. Federal planning 
regulations should require that climate change be included as a factor 
in the development of public-sector, long-range transportation plans; 
eliminate any perception that such plans be limited to 20 to 30 years; 
and require collaboration in plan development with agencies responsible 
for land use, environmental protection, and natural resource management 
to foster more integrated transportation-land use decisionmaking.
Evaluate the National Flood Insurance Program and Flood Insurance Rate 
        Maps
    The Federal Government is the insurer of last resort for homeowners 
in specially designated flood hazard areas. The National Flood 
Insurance Program, administered by the Federal Emergency Management 
Agency (FEMA), and the flood insurance rate maps (FIRMs) that determine 
program eligibility do not take climate change into account. FEMA 
should reevaluate the risk reduction effectiveness of the National 
Flood Insurance Program and the FIRMs, particularly because climate 
change may trigger more intense storms and sea-level rise will extend 
the scope of flood damage in some special flood hazard areas. At a 
minimum, updated FIRMs that account for sea level rise (incorporating 
land subsidence) should be a priority in coastal areas.
Develop New Organizational Arrangements
    The impacts of climate change do not follow modal, corporate, or 
jurisdictional boundaries, yet decisionmaking in the transportation 
sector is based on these boundaries. Current institutional arrangements 
for transportation planning and operations were not organized to 
address climate change and may not be adequate for the purpose. Some 
models of cross-jurisdictional cooperation exist. Among them are 
regional authorities for specific facilities (e.g., the Alameda 
Corridor); regional and multistate emergency response agreements; and 
state-mandated regional authorities, such as those responsible for air 
quality improvement. Similar arrangements could emerge to address the 
effects of sea-level rise on coastal real estate and infrastructure, 
drought on shipping along inland waterways, and hurricanes in the Gulf 
Coast region. However, state or Federal incentives may be required to 
ensure the development of such organizational arrangements at the 
regional or multistate level.
    Actions to prepare for climate change can be taken almost 
immediately. Some steps can be undertaken by local governments and 
private infrastructure providers. Others depend on Federal and state 
action. In all cases, leadership and continuing commitment are 
essential.
    Thank you for inviting me to testify today. I would be happy to 
address any questions the Committee might have.

    Senator Lautenberg. Mr. Friedman?

   STATEMENT OF DAVID FRIEDMAN, RESEARCH DIRECTOR AND SENIOR 
          ENGINEER, THE UNION OF CONCERNED SCIENTISTS

    Mr. Friedman. Thank you, Mr. Chairman.
    I'm the Research Director and a Senior Engineer for the 
Union of Concerned Scientists. Thank you for holding this 
hearing, because the topic is extremely urgent.
    Put simply, global warming is the largest long-term 
environmental threat facing the country and the world. If we 
are to avoid the worst impacts of climate change, our country 
must cut global warming pollution by at least 80 percent in 
2050, when compared to emission levels in the year 2000. Of 
course, we can't just sit around and wait, for decades, to 
begin. U.S. global warming pollution must be cut by more than 
20 percent below 2000 levels by 2020.
    For transportation to play a role, we need to rethink the 
system. In doing so, we will not only dramatically lower global 
warming pollution, we will cut our addiction to oil, we will 
save consumers billions, and we will create new high-quality 
jobs throughout America.
    One of the important tools that must be put in place is an 
economy-wide cap-and-trade policy. But, while a cap is 
essential to curbing global warming pollution, it will not push 
the transportation sector to do its share over the next 20 to 
30 years.
    Recent analysis from the Energy Information Administration 
shows that others must pick up the slack. As a result, it will 
be more expensive to control global warming pollution.
    A cap-and-trade market fails transportation consumers, 
because there are too few alternatives to going about our daily 
travel. Consumers and corporations need better vehicles, viable 
alternatives to cars and freight trucks, and sustainable fuels 
with a low global warming pollution footprint. And they need 
these solutions as soon as possible, much faster than the 
market can provide.
    This Committee is already quite familiar with policies to 
require better vehicles. The Ten-in-Ten Fuel Economy Act, by 
requiring at least a 10-mile-per-gallon increase in fuel 
economy for cars and trucks, will cut new vehicle global 
warming pollution by nearly 30 percent. It will also save 
consumers money at the pump. At today's $4.00 per gallon, the 
35-mile-per-gallon minimum is the equivalent of cutting gas 
prices by more than one dollar. The Committee also opened the 
door to fuel economy standards for medium- and heavy-duty 
trucks. But, the Committee's work is far from over. Rail, air, 
and shipping can also benefit from improved efficiency.
    There is also more work to be done in the fuel economy of 
cars and trucks of all shapes and sizes. Despite the fact that 
their own analysis indicates that we could reach the 35-mile-
per-gallon minimum fuel economy standard by 2015--that is 5 
years early--the Department of Transportation is relying on a 
flawed rulemaking that, at best, just barely puts cars and 
trucks on the road to 35 by 2020.
    In their work, NHTSA relied on gas price projections of 
$2.25 to $2.50 per gallon. Gas is over $4.00 a gallon today. 
Even the head of the Energy Information Administration recently 
publicly said that the Department of Transportation should use 
their high oil and gas price scenario, not the scenario they 
used.
    Further, NHTSA effectively ignored the cost of global 
warming and assumed hybrids would not be available until 2014, 
despite the fact that the Toyota Prius, a hybrid, is the ninth-
best-selling car in the country today. Instead of doing the 
bare minimum to satisfy the law, NHTSA should put cars and 
trucks on a path to 40 miles per gallon by 2020, and at least 
50 by 2030. This will cut global warming pollution from new 
cars and trucks in half by 2030, and would save about 50 
billion barrels of oil through 2050.
    Of course, efficiency isn't enough. Both urban and suburban 
areas need greater access to public transportation. As of 2001, 
less than one-third of the U.S. population lived within about a 
block of a bus line, and only about one-quarter lived within 5 
miles of a rail stop. Consumers also need improved access to 
high-occupancy-vehicle lanes, bike lanes, and more affordable 
housing near where they work. Corporations need many of the 
same solutions.
    For these options to work, we will need money to fund them 
and the willingness to use them. Whether it is pay-as-you-drive 
insurance, road-user fees, per-mile congestion fees, charging 
per mile rather than per year or per gallon can create a 
revenue stream to allow us to repair our roads and bridges, 
plus to provide funding for transit and other alternatives. We 
are already paying these costs, but consumers don't see it in 
their daily lives. Making them visible will provide a direct 
incentive to use the newly available alternatives.
    In addition, we also need to clean up our fuels. By 2050, 
we need the equivalent of 150 to 200 billion gallons of 
gasoline with as much as an 80-percent reduction in global 
warming pollution compared to today's gasoline.
    To supply this fuel, we must tap into sustainable biofuels, 
renewable electricity, and clean hydrogen. But, these resources 
will not appear overnight, nor will the vehicles that must be 
sold to use these low-carbon fuels. We need to institute a low-
carbon fuel standard. And, because plug-ins, fuel-cell 
vehicles, and battery-electric vehicles are currently 
significantly more expensive than even hybrids, we will need a 
combination of performance-based vehicle incentives and an 
ultra-low-carbon vehicle requirement. Policies like these will 
help us rethink our transportation system.
    Mr. Chairman, I am an engineer, and, as such, I was trained 
to be a problem-solver. And climate change is the largest long-
term environmental threat there is. We have the necessary 
solutions to deal with this problem. What we have lacked is the 
will.
    Thank you.
    [The prepared statement of Mr. Friedman follows:]

  Prepared Statement of David Friedman, Research Director and Senior 
              Engineer, The Union of Concerned Scientists
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to testify before you today. I am a research director and 
senior engineer with the Union of Concerned Scientists (UCS). UCS is a 
leading science-based nonprofit that has been working for a healthy 
environment and a safer world for over 30 years.
    The topic of this hearing, transportation and climate change, could 
not be more urgent. Put simply, global warming is the single biggest 
long term environmental threat facing the country and the world. But 
within this threat are buried opportunities. Every step we take to curb 
transportation's role in global warming will also cut America's oil 
addiction--and most, if not all, of these will also save consumers 
money. At the same time, the investments we make to become the world's 
leader in climate change solutions will strengthen our economy as we 
export the technology that will be essential to avoid the worst impacts 
of global warming.
Transportation, Targets, and Climate Caps
    If we are to avoid the worst impacts of climate change, our nation 
and the world must adopt a target that will keep global temperature 
from rising more than 2 +C above pre-industrial levels. That means 
stabilizing the concentration of global warming pollutants in our 
atmosphere at no more than 450 parts per million carbon dioxide 
equivalent. Analysis by UCS shows that one part of achieving this goal 
means the United States must cut global warming pollution by at least 
80 percent compared to emission levels in 2000.\1\ In addition, UCS 
analysis indicates that U.S. global warming pollution must be cut by 
more than 20 percent below 2000 levels by 2020, and at least 50 percent 
below by 2030.
---------------------------------------------------------------------------
    \1\ http://www.ucsusa.org/assets/documents/global_warming/
emissions-target-report.pdf.
---------------------------------------------------------------------------
    There is no single silver bullet that will dramatically cut U.S. 
global warming pollution and no single sector will be able to carry the 
full burden. Instead, the country will have to put in place a 
comprehensive climate and energy policy that encourages a diverse 
portfolio of solutions in every sector. Transportation, including the 
cars and trucks consumers drive every day, will have to play a 
significant role in meeting this essential 80 percent reduction minimum 
and all options for cutting pollution from transportation must be on 
the table. The good news is that every sector, including 
transportation, has many tools at its disposal.
    The debate has already begun on one of the most important tools 
that must be put in place to limit the total amount of global warming 
pollution humans create: a cap-and-trade policy that would ensure that 
the U.S. is on a path to do its part to limit global temperatures from 
rising above 2 +C, including at least an 80 percent reduction in U.S. 
global warming pollution by 2050.
    This cap must apply to all sectors, including transportation, but 
even that will still not be enough to ensure that transportation does 
its part. While it needed significant strengthening, the recently 
discussed Climate Security Act (S. 2191) provides a good example of the 
strengths and weaknesses of cap-and-trade policy. By 2030, EIA 
estimated that S. 2191 would cut global warming pollution by more than 
30 percent compared to emissions in 2000.\2\ However, at the same time 
that most sectors are projected to contribute reductions of 40 percent 
to 80 percent, the transportation sector is projected to continue to 
increase.
---------------------------------------------------------------------------
    \2\ http://www.eia.doe.gov/oiaf/servicerpt/s2191/index.html.
---------------------------------------------------------------------------
Figure 1. Energy Information Administration Analysis of the Climate 
        Security Act (S. 2191).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Supporting Transportation Climate Policy on a Three-Legged Stool
    The transportation sector simply does not do its share under a cap-
and-trade system. Instead, despite the fact that many transportation 
solutions can save money while cutting global warming pollution, other 
sectors must pick up the slack to ensure that the overall cap is still 
met. This dynamic is a sign of market failures that will lead to higher 
costs than are necessary for controlling global warming pollution.
    Put simply, the market fails transportation consumers because there 
are too few alternatives to doing things other than the way we have 
been doing them for the past sixty years:

  <bullet> Most of the planes, trains, ships, and automobiles we rely 
        on were designed during the days of cheap oil when fuel 
        efficiency was not a priority. Manufacturers have been slow to 
        respond to recent consumer demands for fuel economy. In 
        addition, consumers have shown themselves slow to change. Gas 
        prices have more than tripled since 2000 and consumers have 
        only just begun to shift their purchasing and driving habits.

  <bullet> Both personal travel and goods movement have evolved around 
        our extensive and dispersed national highway system. Compact, 
        walk-able or bike-able communities and easy access to transit 
        are the exception rather than the rule. Consumers and 
        corporations lack choices to substitute for reliance on our 
        cars and trucks.

  <bullet> The transportation sector is almost exclusively reliant on 
        fossil fuels, a fuel with a very high global warming footprint. 
        Alternative fuels meet only about 0.2 percent of U.S. 
        transportation fuel needs.

    These faults can be fixed by moving beyond the piecemeal approach 
that has historically characterized U.S. energy and transportation 
policy and instead applying a comprehensive approach that addresses 
these three market failures to build a solid foundation to support 
transportation's role in a national cap-and-trade policy.
Increasing Fuel Economy
    To tackle global warming, reduce America's oil addiction, and save 
consumers tens of billions of dollars, we must give consumers and 
corporations new options to use fuel more efficiently when they travel 
or ship goods. This can be achieved either through vehicle global 
warming pollution standards or by setting fuel economy standards.
    Through the Ten in Ten Fuel Economy Act, this Committee led the 
Nation forward on fuel economy for cars and light trucks for the first 
time in more than three decades. And for the first time ever, the door 
was opened to fuel economy standards for medium and heavy duty trucks 
thanks to this Committee.
    The projected benefits of just the light-duty portion of the Ten in 
Ten Fuel Economy Act highlight the importance of keeping efficiency a 
top priority. Meeting the minimum fuel economy requirement of 35 miles 
per gallon would cut global warming pollution for new cars and trucks 
nearly 30 percent by 2020. The minimum will also reduce oil consumption 
by nearly 9 billion barrels through 2030, rising to about 30 billion 
barrels saved through 2050. And finally, boosting fuel economy from 
today's 25 mpg average to 35 mpg will save consumers the equivalent of 
reducing the price of today's $4 per gallon gasoline by more than one 
dollar.
    The example of car and truck efficiency must be repeated and 
reinforced throughout the transportation sector. Delivery trucks and 
18-wheelers could increase fuel economy from today's level of less than 
7 mpg for new vehicles to 10-11.5 mpg by 2030. This represents a boost 
of 50-70 percent while maintaining or expanding today's hauling 
capacity. However, because of language in Ten in Ten, it may be at 
least 8 years before this committee's medium and heavy duty standards 
are put to work. Given the significant impacts the freight sector will 
feel from climate change, this committee should work to accelerate the 
Department of Transportation's reporting and rulemaking 
responsibilities in this area.
    Rail, air, and shipping can also benefit from improved efficiency. 
For example, rail efficiency could be improved by about 1 percent per 
year starting in 2015.
    Finally, there is more work to be done on the fuel economy of cars 
and trucks. A recent UCS report indicates that automakers can cost-
effectively boost the fleetwide average fuel economy of cars and trucks 
to 40 mpg by 2020 and to more than 50 mpg by 2030.\3\ Yet the recent 
notice of proposed rulemaking from the Department of Transportation's 
National Highway Traffic Safety Administration (NHTSA), at best, just 
barely puts cars and trucks on the road to the 35 mpg minimum by 
2020.\4\
---------------------------------------------------------------------------
    \3\ http://www.ucsusa.org/assets/redesign-documents/clean_vehicles/
UCS-Setting-the-Standard.pdf.
    \4\ http://www.ucsusa.org/news/press_release/new-fuel-economy-
proposal-star-0111.html.
---------------------------------------------------------------------------
    Instead of doing the bare minimum to satisfy the law, NHTSA should 
put cars and trucks on a path to 40 mpg by 2020 and at least 50 mpg by 
2030. This would cut global warming pollution from new cars and trucks 
in half by 2030 and would save about 50 billion barrels of oil through 
2050.
    NHTSA appears unwilling or unable to move the country on this path 
and this Committee should exercise its oversight authority to ask NHTSA 
to fix a variety of flaws used in setting their proposed standards:

  <bullet> While gasoline prices soared above $3 per gallon this winter 
        and have crossed $4 per gallon this summer, NHTSA relied on 
        projections of $2.25-$2.50 per gallon.

  <bullet> While carbon dioxide is currently trading at more than $40 
        per metric ton in Europe, NHTSA used a value of $7 per ton. 
        NHTSA even considered $0 per ton to be in the range of possible 
        values, implying that global warming does not exist or will 
        cause no harm.

  <bullet> NHTSA left out the military and strategic costs of America's 
        oil addiction.

  <bullet> NHTSA assumed light trucks would grow in market share, but 
        between 2005 and 2008 the market share of light trucks sold 
        from January to May dropped from 54 percent to 48 percent.

  <bullet> NHTSA assumed hybrids were not available until 2014 despite 
        the fact that the Toyota Prius, a hybrid, is the 9th best 
        selling car in the country today.

  <bullet> NHTSA based its rulemaking on costs and benefits on the 
        margin rather than the total costs and benefits of improved 
        standards.

    Changes along these lines would redirect NHTSA's efforts to the 
intent, not just the letter, of the law passed as part of Ten in Ten. 
NHTSA's own analysis confirms that simply switching to total benefits, 
even with their poor gas price assumptions, would have led them to 
propose a fleetwide average of at least 35 mpg by 2015--five years 
earlier than the required minimum.\5\ More realistic gas prices, even 
only setting the standard based on the marginal benefits, would also 
have led NHTSA to propose a fleetwide average over about 35 mpg by 
2015.\6\
---------------------------------------------------------------------------
    \5\ Page III-6 in NHTSA's Preliminary Regulatory Impact Analysis 
for their proposed fuel economy standards for Model Year 2011-2015 cars 
and light trucks.
    \6\ Ibid., pages IX-12 and IX-13.
---------------------------------------------------------------------------
    Making matters worse, not only will NHTSA's poor analysis 
shortchange consumers and lead to lower global warming pollution 
reductions, we can expect a similar approach to shortchange trucking 
companies and the environment when NHTSA address fuel economy standards 
for medium and heavy duty vehicles. This Committee's oversight role is 
essential to avoiding this outcome.
Smarter Travel, Freight, Cities
    While great strides can be made to improve vehicle efficiency, it 
is unlikely that technology alone will be able to keep pace with 
growing demand for personal and freight travel if we continue on our 
current path. As a result, despite the potential for parts of the 
transportation sector to increase efficiency by 50 percent or 100 
percent, global warming pollution from transportation will continue to 
increase beyond current levels.
    For example, if projected trends from the Energy Information 
Administration's Annual Energy Outlook 2008 continue through 2050, 
medium and heavy duty vehicles could see demand increase by more than 
130 percent. If the fuel economy of all delivery trucks and 18-wheelers 
on the road were increased by about 70 percent, that would still not be 
enough to compensate for the increase in demand. As a result, global 
warming pollution in this sector would still rise by more than 20 
percent in 2050 compared to levels in 2000. Compared to a goal of an 80 
percent reduction in global warming pollution, a 20 percent increase 
clearly won't cut it.
    Growing travel demand is a core barrier to avoiding the worst 
impacts of climate change, but historical travel growth has also been a 
key part of U.S. economic growth. The challenge is to rethink and 
redesign our transportation system to allow for continued economic 
growth without as many miles.
    As with efficiency, the first step is to ensure that consumers and 
corporations have alternatives other than business as usual. Both urban 
and suburban areas need greater access to public transportation, which 
produces significantly less global warming pollution per person than 
cars and trucks. As of 2001, less than one-third of the U.S. population 
lived within about a block of a bus line, while only about 40 percent 
lived within a half mile.\7\ The situation is even worse for rail, 
where only about 10 percent of U.S. population lived within a mile of a 
rail stop, while only about one quarter lived within five miles.\8\
---------------------------------------------------------------------------
    \7\ Public Transit in America: Analysis of Access Using the 2001 
National Household Travel Survey, Center for Urban Transportation 
Research, University of South Florida, Tampa, February 2007.
    \8\ Ibid.
---------------------------------------------------------------------------
    In addition to transit, consumers need improved access to high 
occupancy vehicle (HOV) lanes, bike lanes, and more affordable housing 
near where they work. Corporations need many of the same things. While 
18-wheelers provide a lot of flexibility in the freight world, it takes 
5-7 times more energy to ship a ton of goods on a truck than on rail--
switching more miles from long-haul trucking to rail will put a real 
dent in global warming pollution from freight. Trucks and buses might 
also benefit from their own dedicated lanes where they are not caught 
up in as much stop and go traffic, making highways safer as well.
    For these various new options to work, two key resources are 
needed: the money to fund them and the willingness to use them. 
Thankfully, in many cases, a system that makes sure people and products 
carry the full cost of their travel can help with both. Whether it is 
insurance, wear and tear on highways and bridges, or the costs of the 
pollution produced from tailpipes, charging per mile rather than per 
year or per gallon can create both a revenue stream for the needed 
investments and a more direct incentive to try out the newly available 
approaches.
    Some examples of these approaches include:

  <bullet> Pay as you drive insurance: If you drive less, you are less 
        likely to get into an accident. Paying for insurance by the 
        mile rather than just by the car would both provide a more 
        equitable distribution of insurance payments and encourage 
        people to drive less.

  <bullet> Per mile road user fees: Current highway construction and 
        maintenance costs, and some transit costs, are covered by per 
        gallon fuel taxes. Because fuel efficiency must go up to 
        address global warming, projected tax receipts will go down 
        compared to a business as usual scenario. Per mile road user 
        fees, adjusted to vehicle weight, could maintain a steadily 
        growing revenue stream to keep our roads and bridges from 
        falling apart while encouraging consumers and corporations to 
        seek less expensive alternatives.

  <bullet> Per mile pollution or congestion fees: Accidents and wear 
        and tear are not the only costs associated with every mile we 
        drive. Vehicles of all sizes cause smog-forming and toxic 
        pollution that lead to increased health care costs and even 
        fatalities. Traffic also costs time because of the delays 
        created by congestion. Per mile pollution and congestion fees 
        can become steady funding sources to hold people responsible 
        for the damage they create while creating a funding stream for 
        alternatives, plus they would provide another incentive to 
        drive less. Per mile pollution and congestion fees tied to air 
        travel and freight could be great ways to finance high-speed 
        rail or simply much needed reinvestment into the country's 
        conventional rail infrastructure.

  <bullet> Location efficient mortgages: Current tax codes give 
        consumers the same break on their mortgage interest no matter 
        where they live. While these tax breaks have helped many live 
        out the American dream of owning a house, they have also helped 
        lower the cost of owning homes that are farther from where 
        people work, increasing daily travel. Revamping that tax code 
        to provide greater tax breaks for those who live closer to work 
        or transit will still help people realize a part of the 
        American dream while ensuring it does not become a nightmare of 
        pollution and congestion.

    This is not intended to be an exhaustive list, but instead points 
the way to policies and practices that could help cut projected 
personal travel by 25 percent to 35 percent by 2050 (15 percent-20 
percent by 2030) and could contribute to reducing the amount of freight 
that is trucked by 20 percent or more by 2050. Even more innovative 
approaches, such as reserving downtown areas for walking, biking, and 
public transit, or directly integrating our personal and freight 
vehicles with a mass transit system, could be part of a smart growth 
revolution that allows us to rethink how we move people and goods.
Fueling Up with Low Carbon Alternatives
    The combination of investments in improved vehicle efficiency and 
alternatives to continuing historic growth in travel can go a long way 
to cutting global warming pollution from the transportation sector. 
However, if our economy continues to grow as it has over the last 20 
years, these solutions will not be enough to cut global warming 
pollution from transportation by at least 80 percent compared to levels 
in 2000.
    To reach those deep cuts while continuing to strengthen our 
economy, we must also tap into transportation fuels that do not release 
significant amounts of carbon dioxide. If we combine all of the 
approaches above for our light-duty cars and trucks, then by 2050 we 
will still need to supply the equivalent of 80 to 110 billion gallons 
of gasoline with 70-80 percent less global warming pollution than 
today's fuel. For medium and heavy duty trucks, we will need the 
equivalent of another 30 to 40 billion gallons of gasoline with 75-80 
percent less global warming pollution. And for the remainder of the 
transportation sectors, we will need yet another 40 to 50 billion 
gallons of low carbon fuel.
    That means, by 2050, we will need the equivalent of 150 to 200 
billion gallons of gasoline with as much as an 80 percent reduction in 
global warming pollution compared to today's gasoline. And, while 
biofuels will play an important part in a low carbon future, it is 
unlikely, at best, that we can sustainably produce sufficient low-
carbon biofuel in the U.S. A more realistic estimate of sustainable 
biofuel potential, one that minimizes tradeoffs between food and fuel 
and does not encourage deforestation in other countries, would be 
closer to 40 to 50 billion gallons, unless breakthroughs are achieved 
in novel biomass resources.
    To supply the rest of transportation's needed energy, we must to 
tap into renewable electricity and clean hydrogen. But these resources 
will not appear overnight, nor will the vehicles that must be sold to 
use these low-carbon fuels. We will need multiple policies to bring 
about the needed fuel revolution:

  <bullet> A low carbon fuel standard (LCFS) must be put in place to 
        cut global warming pollution by 10 percent by 2030 and up to 80 
        percent by 2050. While the recently passed Renewable Fuel 
        Standard applies global warming pollution standards to 
        biofuels, the required amount would only represent about 10 
        percent of current demand, leaving 90 percent of transportation 
        fuel unregulated.

  <bullet> An ultra-low carbon fuel standard is also needed to 
        accelerate demand for fuels that dramatically cut global 
        warming pollution. While a 10 percent low carbon fuel standard 
        may be appropriate for 2030, it will mainly put a stop to dirty 
        fuels such as liquid-coal and encourage fuels with only modest 
        improvements. To created demand for the cleanest biofuels, 
        electricity and hydrogen, there should be a carve-out in the 
        LCFS for a minimum volume of the cleanest fuels.

  <bullet> Vehicle incentives and an ultra-low carbon vehicle 
        requirement will also be essential to ensure that the vehicles 
        are there to use the fuel. Fuel cell vehicles, battery electric 
        vehicles, and plug-ins are currently significantly more 
        expensive than conventional vehicles or even hybrids. Economic 
        incentives and requirements will be needed to overcome the 
        valley of death experienced by new technologies.
Conclusion
    If left unchecked, climate change will have direct and significant 
impacts on our transportation system. But that same system can be an 
essential part of the solution set to help avoid the worst impacts of 
climate change.
    The U.S. needs to move away from a piecemeal approach to 
transportation energy and environmental policy and instead adopt a 
comprehensive set of policies that will tap into both the near term and 
long term solutions that are available or on the drawing boards. This 
will require a longer term perspective and a combination of consistent, 
significant, and sustained policies. Yes, we do need to rethink our 
transportation system, but in doing so, we will not only dramatically 
lower global warming pollution, we will save consumers billions, create 
new jobs in America and ultimately cut our addiction to oil. 

    Senator Lautenberg. Thank you very much.
    And now, Mr. Hamberger, welcome.

STATEMENT OF EDWARD R. HAMBERGER, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, ASSOCIATION OF AMERICAN RAILROADS

    Mr. Hamberger. Thank you, Mr. Chairman and Mr. Vice 
Chairman, Senator Stevens.
    The Association of American Railroads appreciates this 
opportunity to address the issue of climate change and 
transportation. At the outset, I would suggest that one area 
where everyone can and should agree is that greater use of rail 
transportation, both for freight and for passengers, offers a 
simple, cost-effective, and immediate way to meaningfully 
reduce greenhouse gas emissions without harming the economy.
    One way railroads positively impact the environment is by 
reducing fuel and energy consumption. Railroads, last year, 
were able to move a ton of freight an average of 436 miles on 
one gallon of fuel. It's like moving a ton of freight from 
Boston to Baltimore on one gallon of fuel.
    Railroads have an impressive record of improving their fuel 
efficiency. Since 1980, our fuel efficiency has improved by 85 
percent. Last year alone, freight railroads used 3.5 billion 
fewer gallons of fuel than we would have without that 
improvement. And important for this hearing is that that 
improved fuel efficiency translates into substantial reductions 
in emissions of greenhouse gases. In fact, that 3.5-billion-
gallon savings in fuel I've just referenced means that 
railroads last year emitted 39 million fewer tons of carbon 
dioxide than they would have, otherwise. And since railroads 
are three or more times as fuel efficient as trucks, every ton-
mile of freight that moves by rail instead of highways reduced 
greenhouse gas emissions by two-thirds or more. Shifting just 
10 percent of the long-haul freight that moves by truck would 
produce an annual fuel savings of more than 1 billion gallons 
of fuel, resulting in a reduction of annual greenhouse gas 
emissions of more than 12 million tons.
    The railroad fuel efficiency advantage helps explain why 
freight railroads account for just 2.6 percent of 
transportation-related greenhouse gas emissions, and just .7 
percent of total U.S. greenhouse gas emissions.
    Freight train emissions are also less for other types of 
pollutants. The EPA estimates that for every ton-mile, a 
typical truck emits three times more NO<INF>X</INF> and 
particulates than a locomotive. And just 3 months ago, the EPA 
issued stringent new locomotive emission standard guidelines 
that will cut particulate matter by up to 90 percent and 
nitrogen oxide by up to 80 percent.
    Freight rail can also help reduce gridlock on America's 
highways, saving commuters time, money, and fuel. A single 
freight train can take hundreds of trucks off the highways. If 
25 percent of freight volume was shifted from trucks to rail by 
2026, commuters could save an average of 41 hours a year in 
commuting time, 79 gallons of fuel, and $1,000 in total 
congestion costs.
    Now, just as expanded freight rail would be good for the 
environment, so would expanded passenger rail. The average 
intercity passenger train produces 60 percent lower carbon 
dioxide emissions per passenger mile than the average 
automobile, and half as much as an airplane. The public 
benefits of a truly attractive and competitive national 
passenger rail capability will, indeed, exceed public costs.
    The AAR was pleased to support passage of the Amtrak 
reauthorization bills in both the House and the Senate, and I 
hope a Conference Report can be passed yet this summer.
    At your hearing, 2 weeks ago, Mr. Chairman, you heard that 
the demand for freight in the U.S. will almost double over the 
next 25 years. And, given the green advantage of rail, 
policymakers would do well to encourage more of that freight to 
move over the Nation's rail network.
    I would like to offer three policy initiatives that would 
aid railroads in expanding capacity to meet that demand.
    First, enactment of the Freight Rail Infrastructure 
Capacity Expansion Act, S. 1125, which provides a tax credit 
for investments in new rail capacity. That credit would be 
available not just to railroads, but to any entity that invests 
in rail capacity expansion.
    Second, passage of the Short Line Rail Investment Act, 
which extends a targeted tax credit for smaller railroads that 
expired at the end of last year.
    Third, encouragement of public/private partnerships in 
which the public pays for the benefits it receives, and the 
railroads pay for the benefits they receive. The Chicago Create 
Project, the Heartland Corridor, and the Alameda Corridor are 
all examples of such projects in which public and private 
dollars are leveraged together to produce public benefits both 
for capacity for passenger rail, as well as freight rail, that 
otherwise would not be realized.
    We look forward to working with the Members of this 
Committee in developing programs that will help our Nation 
address climate change issues and continue to move passengers 
and freight by rail.
    Thank you.
    [The prepared statement of Mr. Hamberger follows:]

    Prepared Statement of Edward R. Hamberger, President and Chief 
          Executive Officer, Association of American Railroads
    The Association of American Railroads (AAR) appreciates the 
opportunity to address the issue of climate change and transportation. 
AAR members account for the vast majority of freight railroad mileage, 
employees, and traffic in Canada, Mexico, and the United States.
    Few topics today generate as much debate as climate change. I 
respectfully suggest, however, that one area where everyone can and 
should agree is that greater use of rail transportation offers a 
simple, cost-effective, and immediate way to meaningfully reduce 
greenhouse gas emissions without potentially harming the economy.
    Given this fact, I also respectfully suggest that policymakers 
should take steps to attract more freight and passengers to railroads 
and expand the substantial greenhouse gas and other public benefits of 
rail transportation--for example, by implementing an investment tax 
credit for rail infrastructure capacity expansion projects; by 
encouraging greater use of rail-related public-private partnerships; 
and by adequately funding Amtrak to allow it to bring the Northeast 
Corridor to a state of good repair, procure new rolling stock, and make 
additional capital improvements and maintenance over its network.
    Freight and passenger railroads have a strong record of success in 
meeting our Nation's transportation needs in an environmentally-
friendly fashion. They are committed to pursuing further technological 
and operational advancements that will lead to continued tangible 
improvements in fuel efficiency, mobility, greenhouse gas emissions, 
and air quality.
Railroads Are the Most Fuel-Efficient Form of Surface Freight Transport
    According to EPA data, in 2006 total U.S. greenhouse gas emissions 
were 7,054 teragrams \1\ of carbon dioxide equivalents, with 
transportation accounting for 28 percent of the total. The vast 
majority of transportation-related greenhouse gas emissions are 
directly correlated with fossil fuel consumption: the higher the fuel 
consumption, the greater the greenhouse gas emissions.
---------------------------------------------------------------------------
    \1\ A teragram is a million metric tons or 1.1 million short tons.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Freight railroads, though, are the most fuel efficient mode of 
surface transportation. In 2007, railroads moved one ton of freight an 
average of 436 miles per gallon of fuel--roughly the distance from one 
end of Nebraska to the other, or from Boston to Baltimore.
    Indeed, on a ton-miles \2\ per gallon of fuel basis, freight 
railroads are three or more times more fuel efficient than trucks. That 
means that every ton-mile of freight that moves by rail instead of 
truck reduces greenhouse gas emissions by two thirds or more.
---------------------------------------------------------------------------
    \2\ A ton-mile is the movement of one ton of freight one-mile. It 
is a standard way to measure freight volume across transportation 
modes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The railroad fuel efficiency advantage helps explain why freight 
railroads account for just 2.6 percent of transportation-related 
greenhouse gas emissions and just 0.7 percent of total U.S. greenhouse 
gas emissions, according to the EPA.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Moving More Freight By Rail is in the Public Interest
    Trucks are, and will continue to be, critical to freight 
transportation and to our economy. But based on data from a study by 
the American Association of State Highway and Transportation Officials 
(AASHTO), for each 1 percent of long-haul freight moved by rail instead 
of by truck, fuel savings would be around 110 million gallons per year 
and annual greenhouse gas emissions would fall by around 1.2 million 
tons. If 10 percent of long-haul freight now moving by truck moved by 
rail instead, annual fuel savings would exceed one billion gallons and 
annual greenhouse gas emissions would fall by more than 12 million 
tons.
    Moreover, because freight transportation demand is expected to rise 
sharply in the years ahead, future fuel savings--and greenhouse gas 
reductions--would be much higher if more freight moved by rail. AASHTO 
projects that ton-miles for truck movements more than 500 miles long 
will increase from 1.40 trillion in 2000 to 2.13 trillion in 2020. If 
10 percent of these long-haul truck movements went by rail (perhaps via 
efficient intermodal movements involving both railroads and trucks), 
cumulative greenhouse gas reductions from 2007 to 2020 would be around 
200 million tons.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The public benefits of freight rail do not stop there, however. 
Moving more freight by rail would also help reduce highway congestion, 
which costs $78 billion just in wasted travel time (4.2 billion hours) 
and wasted fuel (2.9 billion gallons) each year, according to the Texas 
Transportation Institute's 2007 Urban Mobility Report. (The total costs 
of congestion are far higher if lost productivity, costs associated 
with cargo delays, and other items are included.) A typical train, 
though, takes the freight equivalent of several hundred trucks off our 
congested highways, thus enhancing mobility and reducing the amount of 
greenhouse gases emitted by motor vehicles stuck or slowed in traffic. 
Railroads also reduce the costs of maintaining existing roads and 
reduce the pressure to build costly new roads, freeing up limited funds 
for other purposes.
    Finally, railroads also release far less of other types of 
emissions than other modes of transport. The EPA estimates that for 
every ton-mile, a typical truck emits roughly three times more nitrogen 
oxides and particulates than a locomotive. Other studies suggest an 
even greater advantage for railroads. In March 2008, the EPA issued 
stringent new locomotive emissions guidelines that, when fully 
implemented, will cut particulate matter emissions by locomotives by as 
much as 90 percent and nitrogen oxide (NO<INF>X</INF>) emissions by as 
much as 80 percent compared to locomotives meeting the most stringent 
standards set in 1998. The new standards will also yield sizable 
reductions in emissions of hydrocarbons, carbon monoxide, and other air 
toxics.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Railroads Are Constantly Working to Improve Fuel Efficiency and Reduce 
        Greenhouse Gas Emissions Even More
    In 1980, one gallon of diesel fuel moved one ton of freight by rail 
an average of 235 miles. As noted earlier, by 2007 railroads moved one 
ton of freight an average of 436 miles per gallon of fuel. Thanks to 
this improvement in fuel efficiency, in 2007 alone Class I freight 
railroads used 3.5 billion fewer gallons of fuel--and emitted nearly 39 
million fewer tons of carbon dioxide--than they would have if their 
fuel efficiency had remained constant since 1980. From 1980 through 
2007, U.S. freight railroads consumed 48 billion fewer gallons of fuel 
and emitted 538 million fewer tons of carbon dioxide than they would 
have if their fuel efficiency had not improved.\3\
---------------------------------------------------------------------------
    \3\ Today, U.S. freight railroads today consume approximately 4.4 
billion gallons of diesel fuel per year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Railroads are investing heavily in ``cleaner and greener'' 
technologies and other efforts to further improve their fuel 
---------------------------------------------------------------------------
efficiency. Just a few examples include:

  <bullet> New locomotives. Railroads have spent billions of dollars in 
        recent years on thousands of new, more environmentally-friendly 
        locomotives. They have also overhauled thousands of older 
        locomotives to improve their environmental performance.

    Some of the new locomotives are fuel-saving ``generator set'' 
        (genset) units for use in rail yards. Gensets have two or three 
        independent engines that cycle on and off depending on need, 
        sharply reducing fuel consumption, pollution, and noise 
        compared to the locomotives they replace. Other switching 
        locomotives are hybrids with a small fossil-fueled engine in 
        addition to a bank of rechargeable batteries. Research is 
        ongoing on hybrid long-haul locomotives that would store in 
        batteries the energy generated by braking, and in hydrogen fuel 
        cell switching locomotives.

  <bullet> Train handling. In part, railroad fuel efficiency depends on 
        how well an engineer handles a train. That's why railroads use 
        the skills of their engineers to save fuel. For example, many 
        railroads offer training programs through which engineers and 
        simulators provide fuel-saving tips. On some major railroads, 
        the fuel consumption performance of participating engineers is 
        compared, with awards given to the top ``fuel masters.''

    In addition, railroads are using sophisticated on-board monitoring 
        systems to gather and evaluate information on location, 
        topography, track curvature, train length and weight, and more 
        to provide engineers with real-time ``coaching'' on the best 
        speed for that train from a fuel-savings standpoint.

  <bullet> Information technology. Many railroads use advanced computer 
        software to improve their fuel efficiency. For example, 
        sophisticated modeling tools identify the best way to sequence 
        cars in a large classification yard. Railroads also use 
        innovative ``trip planning'' systems that automatically analyze 
        crew and locomotive availability, track congestion, the 
        priority of different freight cars, track conditions, and other 
        variables to optimize how and when freight cars are assembled 
        to form trains and when those trains depart. The result is 
        smoother traffic flow, better asset utilization, and reduced 
        fuel use.

  <bullet> Idle reduction technology. Locomotives often have to idle 
        when not in use to prevent freezing, provide for crew comfort, 
        or for other reasons. However, many railroads have installed 
        idle-reduction technology that allows main engines to shut down 
        under certain conditions. One advantage of genset locomotives 
        is that their smaller engines use antifreeze, allowing them to 
        shut down in cold weather. Railroads also use ``auxiliary power 
        units'' to warm engines so that locomotives can be shut down in 
        cold weather.

  <bullet> Components, maintenance, and design. Railroads use 
        innovative freight car and locomotive components, maintenance 
        programs, and designs to save fuel. For example, advanced 
        lubrication techniques save fuel by reducing friction; the use 
        of low torque bearings on freight cars and improving the 
        aerodynamic profile of trains save fuel by reducing drag; and 
        the use of ``distributed power'' (locomotives placed in the 
        middle of trains) can, in certain applications, save fuel by 
        improving operational efficiency.

    The seven largest U.S. freight railroads have all joined EPA's 
``SmartWay Transport,'' a voluntary partnership between freight 
transporters and the EPA that establishes incentives for fuel 
efficiency improvements and greenhouse gas reductions. The initiative 
is designed to reduce annual carbon dioxide emissions by 36 to 73 
million tons and nitrogen oxide (NO<INF>X</INF>) emissions by up to 
220,000 tons. As part of the partnership, each railroad has committed 
to evaluating the environmental impacts of its operations and agreed to 
work with the EPA to develop and implement plans to improve fuel 
efficiency and reduce emissions in coming years.
What Can Policymakers Do Regarding Freight Rail?
    Using freight railroads more means consuming fuel less, and that's 
important today more than ever.
    Serious capacity issues, however, threaten the ability of railroads 
to handle socially-optimal amounts of traffic. Freight railroads are 
reinvesting record amounts of their own funds into their systems, but 
that will not be enough to take full advantage of railroads' potential 
to meet our transportation needs. That's why we respectfully urge you 
to support a tax credit for projects that expand freight rail capacity. 
This would help bridge the funding gap, producing public benefits (like 
reduced greenhouse gas emissions, reduced highway gridlock, and cleaner 
air) that would far exceed the cost of the credit.
    S. 1125 (the ``Freight Rail Infrastructure Capacity Expansion Act 
of 2007'') calls for a 25 percent tax credit for investments in freight 
rail infrastructure expansion projects. The AAR gratefully acknowledges 
the support members of this committee have shown toward S. 1125, and 
congratulates them on recognizing that a rail investment tax credit 
addresses the central challenge of how to move more freight without 
causing more highway gridlock or environmental degradation.
    I also respectfully urge you to support S. 881, the ``Short Line 
Railroad Investment Act of 2007,'' which would extend the ``Section 
45G'' tax credit for investments in short line track rehabilitation 
that expired in 2007. The Section 45G tax credit has helped hundreds of 
short line railroads increase the volume and rate of track 
rehabilitation and improvement programs, which in turn allows them to 
offer more efficient, cost-effective, and environmentally-friendly rail 
service to communities throughout the country.
    Finally, the immense public benefits of freight railroading--
including lower greenhouse gas emissions and less congested roads and 
highways--would accrue more quickly if more public-private partnerships 
for freight railroad infrastructure projects were implemented. 
Partnerships are not ``subsidies'' to railroads. Rather, they are an 
acknowledgement that private entities should pay for private benefits 
and public entities should pay for public benefits. Partnerships 
reflect the fact that cooperation between interested entities is far 
more likely to result in timely, meaningful solutions to transportation 
problems than a go-it-alone approach.
Climate Change and Passenger Rail
    As discussed above, if our goal is to reduce greenhouse gas 
emissions and highway congestion, transportation policy should 
emphasize modes of transportation that reduce fuel consumption and take 
motor vehicles off our congested highways. Railroads offer a fuel 
efficient, carbon-friendly transportation option for people as well as 
freight.
    In its January 2008 final report to Congress, the National Surface 
Transportation Policy and Revenue Study Commission stated that 
``intercity passenger rail is . . . more energy efficient than many 
other modes of passenger transportation.'' The report states that the 
average intercity passenger rail train produces 60 percent lower carbon 
dioxide emissions per passenger-mile than the average automobile, and 
half the carbon dioxide emissions per passenger-mile of an airplane.
    BNSF CEO Matt Rose was a member of that Commission. In the final 
report, Mr. Rose stated that he ``shared the conclusion of the 
Commission's report that passenger rail--intercity and commuter--will 
need to grow in order to supplant [vehicle miles traveled] and give 
Americans more affordable, sustainable choices in light of higher fuel 
prices, growing transportation congestion and related environmental 
concerns.''
    Mr. Rose, like so many others, realizes that there are substantial 
public benefits from comprehensive intercity passenger rail. Indeed, 
the public benefits of a truly attractive and competitive national 
passenger rail capability will exceed public costs. But in order to be 
a true transportation alternative for Americans, passenger rail, like 
freight rail, cannot be achieved on the cheap.
    That's why expanding the capacity of our Nation's rail 
infrastructure is a critical challenge that policymakers should 
address, especially as rising fuel prices are bringing ever-more 
passengers to railroads. Amtrak ridership may reach 28 million this 
year--the highest it has ever been and up from 25.8 million passengers 
last year. In fact, Amtrak ridership and revenues are up in all 
categories: short distance, long distance, and Northeast Corridor 
services are all experiencing significant growth. Last month, Amtrak 
had the highest revenue and ridership of any month in history. Fiscal 
year 2008 year-to-date ridership is up 11 percent and revenues are up 
14 percent over the comparable period in Fiscal Year 2007.
    Indeed, as the cost of auto and air travel continue to increase and 
the prospect of a carbon-constrained future increases, we have an 
opportunity--and the need--to make far more concerted efforts than we 
have in the past to more fully capture the economic, environmental, and 
social benefits of reliable, convenient, and comprehensive passenger 
rail service.
    Unfortunately, without significant investment in capacity 
expansion--both infrastructure and equipment--Amtrak will not be able 
to handle all the people that want to use it and we will fail to 
capture all of those benefits.
    For example, Amtrak's locomotive fleet is antiquated: its diesel 
switcher locomotive fleet is 40 years old; the average age of the AEM-7 
electric fleet is 25 years, and its overhead electric catenary system 
in the Northeast Corridor is 1930s technology that does not allow 
Amtrak to take advantage of the improved efficiency of modern 
converter, transformer, and transmission designs. Passenger cars could 
be made lighter and more aerodynamic. These are all areas worthy of 
government investment that will pay huge dividends over the long term.
    Moreover, the implementation of high-speed rail corridors, if done 
in ways that minimize the substantial operational, engineering, legal, 
and other impediments that often hinder the ability of freight 
railroads to accommodate passenger trains, would go a long way in 
providing a realistic alternative to short-distance air travel and 
driving for millions of trips per year while significantly reducing the 
carbon footprint associated with that travel.
    In the meantime, Amtrak is committed to working to improve 
efficiency and reducing greenhouse gas emissions. For example, Amtrak 
is partnering with the state of Oklahoma on a pilot project to test the 
use of biofuels in Amtrak locomotives. Amtrak has been approached by 
another state about a pilot project testing new battery technology in 
locomotives. Amtrak has long been an industry leader in environmental 
initiatives as a charter member of the Chicago Climate Exchange (CCX) 
and the first railroad in CCX, North America's first greenhouse gas 
emissions trading market. Amtrak has already committed to the largest 
voluntary emissions reduction plan for diesel fuel use in the United 
States. In addition, Amtrak passengers can now purchase carbon offsets 
for their rail trip with Internet ticket purchases.
Conclusion
    The key to reducing transportation-related greenhouse gas emissions 
is reducing fuel consumption in transportation. America's freight and 
passenger railroads offer a simple, cost- effective and meaningful way 
to help do this, thereby helping to ensure a sustainable future for our 
planet.

    Senator Lautenberg. Thank you very much.
    Mr. Meenan. You're the next witness, please. Go ahead.

          STATEMENT OF JOHN M. MEENAN, EXECUTIVE VICE

             PRESIDENT AND CHIEF OPERATING OFFICER,

           AIR TRANSPORT ASSOCIATION OF AMERICA, INC.

    Mr. Meenan. Thank you. Today I wanted to focus my remarks 
on the commercial airlines' outstanding record of greenhouse 
gas efficiency, our proactive commitment to further limiting 
our emissions footprint, and the complementary role that 
Congress can play.
    However, I would also note the crippling fuel price crisis 
the airlines are enduring, which inextricably linked to the 
broader energy transportation and climate change policies 
underpinning today's hearing.
    We seek your help in ensuring policies that will alleviate 
this crisis and allow us to get on with our business. A 
vibrant, competitive, and growing aviation sector is a key part 
of climate--the climate change solution.
    Commercial aviation in the United States has a decidedly 
strong track record, which is often overlooked or misstated. We 
contribute just 2 percent of domestic greenhouse gases, 
compared to 25 percent for the balance of the transportation 
industry. This is no small achievement, given that commercial 
aviation is essential to our economy and supports nearly 9 
percent of U.S. employment.
    Today's airplanes are not just smarter, they're quieter, 
cleaner, and use less fuel than ever before, because we fly 
them smarter. U.S. airlines have been able to deliver more 
value by constantly improving fuel efficiency through 
reinvestment in technology and more efficient operations. And, 
in fact, we improved our fuel efficiency by 110 percent between 
1978 and 2007, resulting in 2.5 billion metric tons of carbon 
dioxide savings, roughly the equivalent of taking 18.7 million 
cars off the road in those years. U.S. carriers burned almost 3 
percent less fuel in 2007 than in 2000, but carried 20 percent 
more passengers and cargo on a revenue/ton-mile basis.
    Today, our planes are as fuel efficient as compact cars, 
but carry more goods and people over six times faster, and our 
jets are five to six times more fuel efficient than corporate 
jets.
    The Air Transport Association carriers are highly motivated 
to continue this trend, and have made a commitment to improve 
fuel efficiency by an additional 30 percent by 2025. Moreover, 
recognizing that today's carbon-based fuel supply can only take 
us so far, ATA and its airlines are making extensive resource 
commitments to stimulate the development of commercially 
viable, environmentally friendly alternative fuels through the 
Commercial Aviation Alternative Fuels Initiative. Congress can 
take action to complement our efforts by ensuring that our 
Nation's outdated air traffic control system is modernized to 
permit more direct routes, serving an--saving an additional 10 
to 15 percent in fuel and emissions.
    Further, we urge Congress to reinvigorate NASA's and the 
FAA's Environmental Aeronautics Research and Development 
Programs with specific respect to mitigating the impacts of 
climate change on aviation. Congress can support data-driven 
transportation planning that includes airlines, FAA, the 
airports, and State and local governments.
    Finally, and most time critical, we urge Congress to act 
now to address the fuel price crisis. Even before the recent 
sustained fuel price spikes, fuel was the airline's largest 
cost center. Fuel prices now average 30 to 50 percent of an 
airline's operating expenses, costing between $41 billion in 
2007, projected to grow to $61 billion this year. I think it's 
fair to say that the market has long sent a--the commercial 
airlines the price signal, which some now want to pile onto 
with cap-and-trade and further limits to the industry's ability 
to reinvest.
    Unfortunately, the last several months, that price signal 
has turned into a fuel price crisis of epic proportions. This 
country's airlines expect to lose in the range of $10 billion 
this year, a loss on par with that of the worst year in the 
industry's history. High fuel prices are the sole reason for 
this situation.
    Unlike the temporary revenue hits of 9/11 and other time-
demand shocks, the airlines are now facing a massive structural 
cost increase.
    Let me try to add some context. More than 14,000 airline 
jobs have been cut so far this year, and that's just the tip of 
the iceberg. Scores of communities stand to lose all scheduled 
air service by early next year. More airlines, in addition to 
the nine that have already filed for bankruptcy or stopped 
operating, will simply shut down.
    So, why should this Committee care that the airlines are on 
the brink of financial disaster--some would say, about to 
implode? The answer is simple. The Nation's economy is 
intrinsically linked to the viability of the air transportation 
system. If the airlines continue to spiral downward, so will 
the economy. Aviation contributes $690 billion to the U.S. 
gross domestic product. That's 10 million new jobs.
    So, I take this opportunity at this hearing to ask you 
again to work with us to address this crisis. And I'd be happy 
to respond to your questions.
    [The prepared statement of Mr. Meenan follows:]

  Prepared Statement of John M. Meenan, Executive Vice President and 
  Chief Operating Officer, Air Transport Association of America, Inc.
    Thank you, Mr. Chairman. Air Transport Association (ATA) airline 
members transport more than 90 percent of all U.S. airline passenger 
and cargo traffic.\1\ Our airlines take their role in controlling 
emissions very seriously. Recently, there has been a great deal of 
focus in Congress on greenhouse gas (GHG) emissions in particular, and 
how this Nation might achieve reductions in these emissions while 
maintaining economic stability and enhancing energy independence. 
Commercial aviation has a vital role to play in this regard. Also, as 
strong supporters of sound transportation planning, the airlines 
appreciate the Committee's interest in the potential impacts on 
transportation that might result from changes in climate. Thank you for 
the opportunity to appear before you today to discuss these issues.
---------------------------------------------------------------------------
    \1\ ATA airline members include ABX Air, AirTran Airways, Alaska 
Airlines, American Airlines, ASTAR Air Cargo, Atlas Air, Continental 
Airlines, Delta Air Lines, Evergreen International Airlines, Federal 
Express Corporation, Hawaiian Airlines, JetBlue Airways, Midwest 
Airlines, Northwest Airlines, Southwest Airlines, United Airlines, UPS 
Airlines and U.S. Airways. Associate members are: Air Canada, Air 
Jamaica Ltd. and Mexicana.
---------------------------------------------------------------------------
Introduction and Overview
    For generations, flying has contributed to a better quality of life 
in America. Commercial aviation has been essential to the growth of our 
economy, yielded breakthrough technologies, brought people together and 
transported critical cargo--all while achieving an exceptional 
environmental track record. Today's airplanes are not just smarter--
they are quieter, cleaner and use less fuel than ever before--but we 
also fly them smarter. That's why our industry represents just 2 
percent of all GHG emissions in the United States while driving three 
times more economic activity. But we are not stopping there. The 
initiatives that we are undertaking to further address GHG emissions 
are designed to responsibly and effectively limit our fuel consumption, 
GHG contribution and potential climate change impacts while allowing 
commercial aviation to continue to serve as a key contributor to the 
U.S. economy. I want to emphasize three points that are essential to 
moving our emissions-reducing efforts forward within a framework of 
sound transportation planning, energy and climate change policy:
    First, commercial airlines are and have long been extremely GHG 
efficient. For the past several decades, commercial airlines have 
dramatically improved GHG efficiency by investing billions in fuel-
saving aircraft and engines and innovative technologies like winglets 
and cutting-edge route optimization software. Fuel is our largest cost 
center, which, long before the current fuel price crisis created the 
economic imperative that we continuously improve fuel and GHG 
efficiency. And while commercial aviation accounts for only 2 percent 
of domestic man-made GHG emissions, we shepherd this to good use, 
driving a far larger percentage of economic activity, not only 
directly, but also indirectly, as a necessary element in the airport 
and tourism sectors and in all business sectors that rely on the rapid 
delivery of goods and human resources.
    Second, ATA airlines are proactively committed to further limiting 
their GHG footprint through a set of measures that will simultaneously 
address climate change and energy independence while preserving 
economic stability and the opportunity to grow. At the core of these 
measures is the ATA carriers' commitment to an additional 30 percent 
fuel efficiency improvement by 2025--improvement that only comes from 
the airlines' investment in new aircraft, new aircraft engines, 
navigation aids and enhanced operational procedures. In addition, we 
are dedicating ourselves to developing commercially viable, 
environmentally friendly alternative jet fuel, which could be a game-
changer in terms of aviation's output of GHGs. Moreover, we are central 
stakeholders in partnering efforts to modernize the outdated air 
traffic management (ATM) system and to reinvigorate research and 
development in aviation environmental technology, both of which can 
bring extensive additional emissions reductions.
    Third, there is a critical role for the Federal Government to play 
in energy, transportation planning and climate change policy to 
complement the airlines' efforts. While the ATA airlines' 30 percent 
fuel efficiency improvement target will be met through the airlines' 
own investments and operating initiatives, the other measures in the 
package require a significant measure of congressional support. Also, 
sound transportation planning at all levels of government can help 
minimize the impacts on transportation from potential climate change 
effects.
    Just as we ask Congress to continue to work with us, we also urge 
Congress to calibrate Federal energy and transportation policy and any 
climate change-related legislation so they do not work against our 
efforts. Last week, ATA announced a revised 2008 forecast: the U.S. 
airlines expect to lose in the range of $10 billion this year--a loss 
on par with the worst year in this industry's history. Soaring fuel 
prices are the sole reason. Congress must help get these prices under 
control. Moreover, while the Senate recently declined to go forward 
with the GHG cap-and-trade program proposed in the Lieberman-Warner 
Climate Security Act, which would have applied an additional fuel 
surcharge on airlines' jet fuel, we understand that many in Congress 
still are interested in applying such proposals to aviation. Not only 
is an additional ``price signal'' unnecessary for our industry, but 
recent events have shown the crippling effects that exorbitant fuel 
prices can have. We urge Congress to adopt sound energy, transportation 
planning and climate change policies that avoid counterproductive, 
punitive approaches that further siphon away funds that the airlines 
otherwise could use to invest in newer aircraft and other fuel- and 
GHG-saving measures.
Commercial Aviation Is Extremely GHG Efficient
    Commercial aviation in the United States has a decidedly strong 
track record that is often overlooked or misstated. U.S. commercial 
aviation contributes just 2 percent of domestic U.S. GHG emissions.\2\ 
To put that into context, with passenger vehicles (cars and light duty 
trucks) alone accounting for over 17.5 percent,\3\ as illustrated in 
Figure 1, road transport accounts for more than a quarter of U.S. GHG 
emissions and power plants account for over a third.\4\ The picture is 
similar when viewed on a global basis. Worldwide commercial aviation 
contributes just 3 percent of man-made GHGs.\5\ To put this into 
perspective, cattle and other livestock account for approximately 18 
percent.\6\
---------------------------------------------------------------------------
    \2\ The United States Environmental Protection Agency's (EPA's) 
most recent general inventory reports commercial aviation's 
contribution to the total GHG emissions in 2006 was 2.04 percent. EPA, 
Inventory of Greenhouse Gas Emissions and Sinks: 1990-2006 (April 15, 
2008) (hereinafter EPA GHG Inventory 1990-2006) at pages ES-4 and 21 
(``in 2006, total U.S. greenhouse gas emissions were 7,054.2'' 
teragrams of carbon dioxide equivalent (Tg CO<INF>2</INF> Eq)) and 
Table 2-15 at pp. 2-22 & 2-23 (``Commercial Aircraft--Domestic'' 
account for 143.6 Tg. CO<INF>2</INF> Eq.).
    \3\ EPA GHG Inventory 1990-2006, Table 2-15 at pp. 2-22 and 2-23.
    \4\ EPA GHG Inventory 1990-2006.
    \5\ It is estimated that on a worldwide basis, commercial aviation 
accounts for approximately 3 percent of total GHGs, while at the same 
time contributing over 8 percent of the world's economic activity. See 
International Air Transport Association, Debunking Some Persistent 
Myths about Air Transport and the Environment.
    \6\ United Nations, Livestock Environment and Development 
Initiative, Livestock's Long Shadow--Environmental Issues and Options 
(2006) at p. 271.
---------------------------------------------------------------------------
Figure 1--U.S. Aviation Greenhouse Gas Emissions
2 Percent of the Inventory
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: U.S. EPA Data 2005

    At the same time, commercial aviation is critically important to 
local, national and global economies, enabling a large percentage of 
U.S. economic output. A July 2007 study by the FAA found that the 
national economy is highly dependent on commercial aviation, which is 
directly or indirectly responsible for 5.2 percent of U.S. gross 
domestic product (GDP), $1.1 trillion in U.S. economic activity (gross 
output), an estimated 9.5 million jobs, and $322 billion in 
earnings.\7\ Placing our economic output side-by-side with our GHG 
output, it is clear that commercial aviation is an extremely GHG-
efficient economic engine, bringing good ``bang'' for our GHG ``buck.''
---------------------------------------------------------------------------
    \7\ See FAA, The Economic Impact of Civil Aviation on the U.S. 
Economy (July 2007).
---------------------------------------------------------------------------
    We have been able to deliver such strong economic output while 
reducing our emissions by continually improving our fuel efficiency 
through reinvestment in technology and more fuel-efficient operations. 
In fact, U.S. commercial airlines (passenger and cargo combined) 
improved their fuel efficiency by 110 percent between 1978 and 2007, 
which (given the one-to-one relationship between fuel consumption and 
carbon dioxide (CO<INF>2</INF>)) has resulted in 2.5 billion metric 
tons of CO<INF>2</INF> savings--roughly equivalent to taking 18.7 
million cars off the road each of those years. Further, Bureau of 
Transportation Statistics data confirm that U.S. carriers burned almost 
3 percent less fuel in 2007 than they did in 2000, resulting in 
absolute reductions in GHG emissions, even though they carried 20 
percent more passengers and cargo on a revenue ton miles basis.
    Commercial aviation's GHG efficiency compares very favorably to 
other modes and other sectors. While commercial aviation improved its 
per-passenger fuel efficiency from 1990, freight trucks showed the 
reverse trend, with GHG emissions growing faster than vehicle miles 
traveled.\8\ EPA also has confirmed that passenger vehicles have lagged 
far behind aircraft in fuel and GHG efficiency.\9\ (See Figure 2). 
Within the aviation sector, it is important to remember that different 
types of commercial aircraft have vastly different impacts on the 
environment. Commercial jets are five to six times more fuel efficient 
than corporate jets. The math is simple: carrying 200 people and cargo 
across the country in a single plane burns a lot less fuel than 33 
separate corporate jets, each flying six people.
---------------------------------------------------------------------------
    \8\ EPA GHG Inventory 1990-2006 at 3-8.
    \9\ Id.
---------------------------------------------------------------------------
Figure 2--In Contrast to Personal Vehicles, Airline Fuel Efficiency Has 

        Improved Substantially Since 1990
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    U.S. airlines are highly motivated to continue this trend. Fuel, 
long one of the two highest costs for airlines, is now our largest cost 
center, averaging between 30 and 50 percent of total operating 
expenses. In fact, jet fuel costs to the U.S. airlines in 2008 are 
projected to be $62 billion or more, breaking the 2007 record of $41.2 
billion, resulting in what some analysts are likening to the economic 
effects of the 
9/11 terrorist attacks.\10\ As shown in Figure 3, the price change 
alone between 2004 and year-end 2008 is the equivalent of 267,000 
airline jobs or the purchase price of 286 new narrow-body jets.
---------------------------------------------------------------------------
    \10\ See J.P. Morgan Securities North America Corporate Research 
(April 15, 2008).
---------------------------------------------------------------------------
Figure 3--2008 Jet Fuel Expense Will Break 2007 Record
Total Expense (Excluding Taxes and Into-Plane Fees) Will Exceed $60 
        Billion
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Note: Value in parentheses below year is average price paid 
excluding taxes, into-plane fees, pipeline tariffs and hedging costs
    Sources: ATA, Energy Information Administration, Department of 
Transportation

    And contrary to popular belief, the airlines cannot pass on 
significant portions of these costs. Indeed, as illustrated in Figure 
4, today's U.S. domestic air fares remain below 2000 levels, although 
fuel prices have tripled. While a slightly more robust international 
aviation market has allowed today's systemwide fares to increase 
approximately 3 percent above 2000 levels, this hardly makes up for the 
three-fold increase in fuel prices over the same period. Thus, we have 
an unrelenting economic imperative to reduce fuel consumption.
Figure 4--As of Early 2008, Domestic Airfares Remain Below 2000 Levels 
        While Jet Fuel Prices Have Tripled
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Source: U.S. Energy Information Administration.
    Source: ATA passenger revenue report (mainline + regionals).
ATA Airlines Are Proactively Committed to Further Limiting Their GHG 
        Footprint
    In light of the current and sustained fuel price crisis, the U.S. 
airlines are being forced to put down capacity for air services. Should 
we be able to get fuel prices down to more reasonable levels and turn 
the economy around, we would hope to see a return to growth in U.S. air 
passenger and cargo services. Under such a scenario, some growth in 
aviation emissions is predicted. However, this growth must be kept in 
context. The Intergovernmental Panel on Climate Change (IPCC), which is 
considered the authority on this issue, has determined that under the 
most likely scenario, CO<INF>2</INF> from global aviation in 2050 will 
account for only about 3 percent of total man-made CO<INF>2</INF> 
emissions and that aviation's overall GHG impact will be around 5 
percent.\11\ Yet even though those remain relatively small numbers, ATA 
carriers are relentlessly pursuing measures to further limit their 
emissions footprint.
---------------------------------------------------------------------------
    \11\ IPCC, Aviation and the Global Atmosphere (1999) at 8.
---------------------------------------------------------------------------
Figure 5--ATA's 30 Percent Fuel Efficiency Goal Will Translate into 
        CO<INF>2</INF> Savings
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    At the core of our efforts, ATA carriers have made a commitment to 
achieve an additional 30 percent systemwide fuel efficiency improvement 
through 2025, on top of prior improvements. That equates to an 
additional 1.2 billion metric tons of CO<INF>2</INF> saved--roughly 
equivalent to taking over 13 million cars off the road each year. (See 
Figure 5). To accomplish this, our airlines plan to continue the 
tremendous investments in new equipment and in operational innovations 
that have allowed us to attain such great fuel efficiency improvements 
in the past. We are leaving no stone unturned. Some examples of our 
efforts include:

  <bullet> Upgrading Fleets. Even in the highly constrained financial 
        environment we have been in for some time, ATA airlines have 
        been expending billions to upgrade their fleets through 
        investments in new airframes and engines, removing less fuel-
        efficient aircraft from their fleets, installing winglets to 
        reduce drag, altering fan blades and other measures aimed at 
        improved aerodynamics. As a critical element of our commitment 
        to achieve an additional 30 percent fuel efficiency improvement 
        by 2025, Boeing estimates that the North American carriers will 
        spend approximately $730 billion on new aircraft through 
        2026.\12\
---------------------------------------------------------------------------
    \12\ The Boeing Company (2008).

  <bullet> Introduction of Innovative, Cutting-Edge Technologies. Our 
        airlines also are investing millions of dollars in technologies 
        to make existing airframes more efficient. For example, the 
        airlines have undertaken equipage for Required Navigation 
        Performance (RNP) approach procedures, which provide navigation 
        capability to fly a more precise path into an airport. ATA 
        airlines also have developed software to analyze flight paths 
        and weather conditions, allowing aircraft to fly more direct, 
---------------------------------------------------------------------------
        efficient routes (subject to air traffic approval).

  <bullet> Improved In-Flight Operations. ATA airlines are doing all 
        they can within the existing ATM system to utilize programs to 
        optimize speed, flight path and altitude, which not only 
        reduces fuel consumption and emissions in the air, but avoids 
        wasting fuel waiting for a gate on the ground. In addition to 
        pursuing the use of RNP approach procedures at additional 
        locations, ATA carriers have worked with FAA to pioneer 
        protocols for continuous descent approaches (CDAs), which 
        reduce both emissions and noise, and we are doggedly pursuing 
        implementation of CDAs where the existing ATM system 
        allows.\13\ Further, our carriers are implementing Automatic 
        Dependent Surveillance Broadcast (ADS-B) satellite tracking 
        technology, which avoids the circuitous routings that occur 
        with today's radar-based systems. Demonstrating that the 
        efforts extend to the smallest details of airline operation, 
        our members also have worked on redistribution of weight in the 
        belly of aircraft to improve aerodynamics and have introduced 
        life vests on certain domestic routes, allowing them to overfly 
        water on a more direct route.
---------------------------------------------------------------------------
    \13\ For example, one ATA carrier is achieving an average savings 
of 1,300 pounds of CO<INF>2</INF> savings per flight for approaches 
into the Atlanta airport.

  <bullet> Improved Ground Operations. ATA airlines also are 
        introducing single-engine taxiing when conditions permit, 
        redesigning hubs and schedules to alleviate congestion and 
        converting to electric ground support equipment when feasible. 
        Further, they are improving ground operations by plugging into 
        electric gate power where available to avoid running auxiliary 
---------------------------------------------------------------------------
        power units and using tugs to position aircraft where possible.

  <bullet> Reducing Onboard Weight. ATA airlines continue to 
        exhaustively review ways, large and small, to reduce aircraft 
        weight--removing seat-back phones, excess galley equipment and 
        magazines, introducing lighter seats and beverage carts, 
        stripping primer and paint and a myriad of other detailed 
        measures to improve fuel efficiency.

    Second, recognizing that improving fuel efficiency with today's 
carbon-based fuel supply can only take us so far, ATA and its airlines 
are making extensive resource commitments to stimulate the development 
of commercially viable, environmentally friendly alternative fuels. As 
a framework for doing this, we are a founding and principal member of 
the Commercial Aviation Alternative Fuels Initiative (CAAFI), a 
consortium of airlines, government, manufacturers, fuel suppliers, 
universities, airports and other stakeholders who hold the various keys 
to research, development and responsible implementation of alternative 
jet fuels. Developing alternative jet fuels is a ``higher hurdle'' than 
developing alternative fuels for ground-based units, as jet fuel must 
meet rigorous FAA specifications, which include reliability and 
stability at altitude and in greatly varying temperature and pressure 
conditions to ensure safety. Thus, absent a cooperative initiative like 
CAAFI, fuel providers almost certainly would not undertake the 
investments needed to clear this higher hurdle, opting instead for the 
surer payoff at ground level.
    While each entity involved in CAAFI has a role to play, our 
airlines understand that--as end users of the ultimate product--they 
must not only make clear their specifications for alternative jet 
fuels, but also signal the market that we will financially back fuels 
meeting those specifications. On Earth Day this year, the ATA Board of 
Directors took another significant step in this regard, issuing the 
``ATA Alternative Fuels Principles Document.'' Among other things, that 
document stipulates that ATA carriers require that any future 
alternative jet fuel be more environmentally friendly, on a life-cycle 
basis, than the jet fuel available today. Through CAAFI and other 
partnerships, we are undertaking the work to be sure that tomorrow's 
alternative jet fuel meets that criterion. And accomplishing that will 
ensure the full decoupling of growth in aviation demand from growth in 
GHG emissions.
    Third, while ATA airlines are doing all that they can to promote 
efficiencies within the current ATM system, the limitations of that 
system account for 10-15 percent of unnecessary fuel burn and resulting 
emissions. To address this, and to achieve much-needed modernization of 
our outdated ATM system, ATA and its carriers are working with FAA and 
other agencies on a fundamental redesign of the system through the Next 
Generation Air Transportation System (NextGen) project and on various 
regional airspace design initiatives. ATA is supporting this 
modernization initiative through our ``Smart Skies'' program.\14\ 
However, congressional approval, including fair and equitable 
distribution of costs among all system users, is needed before 
significant progress can be made in implementing this system. 
Congressional authorization and implementation of this initiative will 
bring 10-15 percent additional savings on top of the ATA 30 percent 
commitment. (See Figure 6).
---------------------------------------------------------------------------
    \14\ ``Smart Skies'' is a national campaign led by ATA airlines, 
which advocates modernization of the U.S. ATM system and its funding 
mechanisms. For more on this initiative, see the Smart Skies website, 
at http://www.smartskies.org.
---------------------------------------------------------------------------
Figure 6--CO<INF>2</INF> Saved Under ATA and NextGen Initiatives
(As if NextGen Implemented in a Given Year)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fourth, at the same time ATA and its members are pushing the 
envelope with existing technology, we continue to contribute to work 
that will advance new technology. For example, ATA participates in key, 
joint government/stakeholder initiatives, including the Steering 
Committee of the Partnership for AiR Transportation Noise & Emissions 
Reduction (PARTNER) and the Environment and Energy Subcommittee of the 
FAA Research Engineering and Development Advisory Committee. While 
additional evolutionary environmental improvements are in the pipeline 
as a result of such initiatives, revolutionary environmental 
breakthroughs can only come about through the reinstatement of 
significant Federal investments in basic aeronautics research and 
development programs at NASA and FAA. Indeed, Pratt & Whitney's new 
geared turbofan engine, which offers both noise and emissions benefits, 
as well as many features of Boeing's more environmentally efficient 787 
were spawned through such programs. As we have noted in other contexts, 
however, congressional funding to NASA and FAA for aeronautics research 
and development--specifically including for environmental projects--has 
been cut significantly (by about 50 percent) in the past 8-10 years, 
compromising the public-private partnership for exploring and bringing 
to market products with significantly improved environmental 
performance.\15\ Thus, we continue to urge Congress to provide this 
needed funding, which also is critical to preserving America's 
competitiveness in aeronautics.
---------------------------------------------------------------------------
    \15\ While later funding cuts were even more drastic, a 2002 study 
by the National Academy of Sciences observed:
    In constant year dollars, NASA funding for aeronautics research was 
cut by about one-third between 1998 and 2000, reducing the breadth of 
ongoing research and prompting NASA to establish research programs with 
reduced goals, particularly with regard to TRL (technology readiness 
level). This significantly reduces the likelihood that the results of 
NASA research will find their way into the marketplace in a timely 
manner, if at all. The ultimate consequence is that the Federal 
expenditures are inconsistent with the long-term goal of support for an 
aviation enterprise compatible with national goals for environmental 
stewardship.
    See National Academy of Sciences, Committee on Aeronautics Research 
and Technology for Environmental Compatibility, For Greener Skies: 
Reducing Environmental Impacts of Aviation at 44 (2002).
---------------------------------------------------------------------------
Congress Should Complement the Airlines' Initiatives, Through Sound 
        Energy, Transportation Planning and Climate Change Policies
    We are confident that the measures ATA is undertaking and 
supporting will continue to limit and reduce aviation's emissions 
footprint, such that commercial aviation will remain a very small 
source of GHG and other emissions. However, Congress has a key role to 
play. First, as noted, congressional approval for implementation of a 
modernized ATM system is critical, as is reinstatement of funding for 
research and development programs to foster aviation environmental 
technology breakthroughs. Further, while Congress generally is 
supporting several alternative fuel research programs, specific support 
and funding should be provided for the development of environmentally 
friendly alternative jet fuels. Thus, while a central focus of today's 
hearing is on how climate change may impact transportation and 
transportation infrastructure, we must also remain focused on how 
improving air transportation infrastructure can help minimize the very 
GHGs of concern.
    As this Committee is aware, in March 2008 the Transportation 
Research Board issued a special report on the ``Potential Impacts of 
Climate Change on U.S. Transportation.'' That report identified threats 
that aviation (as well as other modes of transport) may face under 
certain climate change scenarios. Many of the recommendations called 
for further coordination among Federal, state and local agencies in 
conducting research and transportation planning to mitigate climate 
change impacts. ATA strongly supports data-driven, coordinated 
transportation planning, which can help ensure cost-effective 
deployment of resources. To this end, we work closely with FAA, state 
governments, the airports and local communities in aviation-related 
transportation research and planning. Congress should continue to 
support FAA's role in such planning initiatives.
    Just as we ask Congress to work to complement airline GHG 
initiatives, we also urge Congress to calibrate Federal energy policy 
and any climate change-related legislation so they do not work against 
our efforts. As noted, ATA's recently revised 2008 forecast shows that 
the country's airlines are likely to lose in the range of $10 billion 
this year--a loss on par with the worst year in this industry's 
history, with soaring fuel prices as the sole reason. Congress must 
help get these prices under control. The $62 billion (plus) that the 
airlines will spend on fuel this year is at least $20 billion more than 
last year and slightly more than our combined fuel bill for the first 4 
years of this decade. Sadly, 2008 could turn out to be the worst year 
in the industry's history. Unlike the temporary revenue hits from SARS, 
9/11 and other one-time demand shocks, the airlines now are facing a 
massive structural increase--with no end in sight--in a virtually 
uncontrollable cost. Moreover, there is little low-hanging fruit left 
to harvest. Unfortunately, not even Chapter 11 can lower the price of 
fuel.
    To many Members of Congress, $10 billion is not a lot of money. Let 
me add some context. More than 14,000 airline jobs have been cut so far 
this year, and that is just the tip of the iceberg. By cutting 
capacity, scores of communities stand to lose all commercial air 
service by early next year. Orders for new planes have been slashed and 
hundreds of older, less efficient planes have been taken out of 
service. We are burning through cash at unprecedented rates, barely 
surviving from month to month. The nation's airlines will never fully 
recover from this economic blow, and more airlines--in addition to the 
nine that already have filed for bankruptcy or stopped operating--may 
simply shut down. That means even more job losses and untold harm to 
families and the economy.
    Committee members and Congress, for that matter, may ask why the 
country should care that its airlines are on the brink of financial 
disaster and--some would say--about to implode. The answer is simple: 
this Nation's economy is inextricably linked to the viability of its 
air transportation system. If the airlines continue to spiral downward, 
so will the economy. Aviation contributes $690 billion to the U.S. 
GDP--that's equal to heating oil costs for 376 million households for 
one winter, 24 million new cars and 10 million new jobs.
    If Congress does not turn things around very soon, the impact on 
the country's economy will be even worse. Analysts are predicting that 
a 20 percent reduction in capacity may not be enough to save the 
industry. Based on the communities that stand to lose service, airline 
hubs will be decimated, tens of thousands more jobs will be eliminated 
and tourist destinations will be devastated by huge cuts in the number 
of flights. Realistically, rural areas will be hit the hardest by the 
cuts, leaving thousands of square miles without air service.
    Not only must Congress act with sound energy policy, but it also 
must forbear from adopting climate change policies that would further 
exacerbate the fuel price crisis. While the Senate recently declined to 
go forward with the GHG cap-and-trade program proposed in the 
Lieberman-Warner Climate Security Act, which would have applied an 
additional fuel surcharge on airlines' jet fuel, we understand that 
many in Congress still are interested in applying such proposals to 
aviation. Not only is an additional ``price signal'' unnecessary for 
our industry, but recent events have shown the crippling effects that 
exorbitant fuel prices can have. We urge Congress to avoid 
counterproductive, punitive approaches that further siphon away funds 
that the airlines otherwise could use to invest in newer aircraft and 
other fuel- and GHG-savings measures.
Conclusion
    I close by asking you to note the achievements that commercial 
airlines have made in reducing fuel burn and GHGs, particularly when 
compared to other industries, and the actions that we are taking to 
continue our progress in this regard. While we are fully committed to 
working with Congress and are asking for congressional leadership and 
support in each of the areas I have described, we are not asking you to 
work for us, we're asking you to work with us in addressing these 
environmental, energy and transportation concerns. We also are urging 
you to refrain from adopting policies that would work against our 
efforts. A vibrant, competitive and growing aviation sector is a key 
part of the solution, not an impediment to ensuring a future where a 
strong economy, freedom from foreign oil and cleaner air are the order 
of the day.

    Senator Lautenberg. Thank you, Mr. Meenan. We do care, 
obviously. And we thank you for your testimony.
    And now, Mr. Treadwell?

              STATEMENT OF MEAD TREADWELL, CHAIR, 
                U.S. ARCTIC RESEARCH COMMISSION

    Mr. Treadwell. Good afternoon, Mr. Chairman, Mr. Vice 
Chairman. Thank you for having me here today.
    On behalf of my fellow U.S. Arctic Research Commission 
commissioners, this is a very important thing to consider in a 
hearing on climate and transportation, is the Arctic.
    During this International Polar Year, the United States and 
other nations are laying down an Arctic Observing Network to 
better understand, model, and predict the vast changes coming 
to the northern part of the globe. This hearing has been 
focusing both on climate and its effects on transport, and then 
transport and its effects on climate.
    The Interagency Arctic Research Policy Committee, acting on 
our Commission's recommendation, has commissioned an 
Interagency Research Plan on Arctic Infrastructure, in light of 
climate change. And this will cover many climate impacts on 
transportation in the Arctic, including roads, maritime 
transport, and the need for improved oil-spill research in ice-
covered waters.
    I'm going to focus, today, however, on shipping. The Arctic 
Council's eight nations with indigenous participants in the 
global shipping industry are conducting an Arctic Marine 
Shipping Assessment, due to be published in 2009. I've given 
you a brochure about that assessment. While science is finding 
the Arctic to be suddenly and surprisingly accessible, our 
assessment is finding that regular Arctic ocean shipping tied 
to specific resource development projects, tourism, or serving 
the needs of Arctic communities is large now, and is growing. 
For the United States, it's necessary to recognize the Alaska 
purchase in 1867 made us an Arctic nation. Great circle air 
routes through the Arctic currently carry the bulk of travelers 
and air cargo between these continents. Today's Arctic 
infrastructure is global infrastructure.
    In the 21st century, Arctic seaways have the potential to 
serve as a major venue for shipping between these continents, 
as explorers envisioned as early as 500 years ago. Much of our 
work as a Commission is to ensure that the U.S. Government does 
its homework--homework we believe is necessary in response to 
an accessible Arctic Ocean.
    Let me focus on five points and direct the Committee to 
sources of additional information.
    First, climate is changing to create an accessible Arctic. 
Sea-ice coverage is reducing in both area and thickness faster 
than our climate models predicted. This, combined with the 
advent of more efficient ice-breaking technology and global 
demand for Arctic resources, works to make Arctic shipping more 
economically feasible and attractive to investors. In a set of 
slides I've given you, we can show the ice minimums in 2002 and 
what they've receded to 2007, and a second set of slides 
explains some changes in shipping technology, ice-breaking 
technology that--they're making icebreakers are more efficient.
    Second, Arctic residents, governments, and industry are 
assessing both the opportunities and the challenges of an 
accessible Arctic. Within these assessments is a fundamental 
question. Will trans-Arctic seaways be as important to global 
shipping as the Panama and Suez Canals, or will the Arctic 
Ocean continue more as a venue for shipping in and out of the 
Arctic itself, for tourism, local needs, and bringing natural 
resources to market?
    Third, policies are being conceived, developed, and 
implemented toward a goal of ensuring that shipping in the 
Arctic is, to quote my colleague at the Department of State, 
Assistant Secretary Dan Sullivan, ``safe, secure, and 
reliable.'' To me, those three words have large meanings. 
``Safe'' refers to protecting human life and mitigating any ill 
effects shipping will have on the environment, biodiversity, 
cultures, and traditions of the Arctic. Likewise, navies and 
coast guards must expand their capacity to ensure security for 
those ships, particularly those carrying strategic commodities. 
And finally, the word ``reliable'' refers to issues raised by 
the shipping industry itself. The Arctic Ocean is a patchwork 
quilt of tolls and regulations by several coastal nations. The 
U.S. Arctic Research Commission continues to urge the Senate to 
accede to the United Nations Convention on Law of the Sea, 
which will help set some of the rules in the Arctic related to 
shipping.
    Fourth, strong research programs are needed in the Arctic 
Ocean, and some of that research is on deadline. Decisions to 
be made by governments on climate issues require an 
understanding of what is happening in the Arctic Ocean, the 
Greenland Ice Cap, and the changing heat, freshwater, and 
greenhouse gas budgets of the Earth. There are several wildcard 
issues related to Arctic shipping identified through the AMSA 
process, and these include understanding the effects of air 
pollution and noise from ships on the ecosystem.
    Finally, and fifth, an accessible Arctic means a need for 
investment. Your Committee, Mr. Chairman, has recognized that 
and reported legislation calling for construction of two new 
polar-class icebreakers for the Coast Guard and the Nation 
while maintaining the existing fleet in working condition. We 
believe these ships will be used, as they are now, as research 
platforms and as the visible U.S. maritime presence in these 
regions. But, the advent of Arctic transportation means the 
other, more traditional missions of the Coast Guard will take 
center stage. And these ships are needed to provide the same 
protections U.S. Coast Guard affords the rest of the Nation--
search and rescue, law enforcement, border protection, 
environmental protection, and spill response.
    An accessible Arctic also means new, expanded routes for 
U.S. military sealift to move assets from one part of the world 
to the other. In Coast Guard, our polar icebreakers are an 
essential component to guarantee this polar maritime mobility 
exists.
    Mr. Chairman, to conclude, we understand it's our Nation's 
goal, expressed with other nations, to reverse the trend of 
climate change caused by humans. In the Arctic, research to 
support adaptation to, and mitigation of, climate change is 
high on our agenda. But, as more forces than climate are 
working to produce an accessible Arctic, it's essential our 
Nation act now. Under the principle of freedom of navigation, 
global shipping could come to our doorstep, whether we invite 
it or not. And whether you envision the Arctic Ocean as an--as 
a new seaway for trans-Arctic shipping, competitive with Panama 
and Suez Canals, or only foresee an expansion of the current 
shipping in and out of the Arctic, the time to prepare is now.
    Thank you very much.
    [The prepared statement of Mr. Treadwell follows:]

             Prepared Statement of Mead Treadwell, Chair, 
                    U.S. Arctic Research Commission
    Good morning, Mr. Chairman, Mr. Co-Chairman, and Members of the 
Committee. My name is Mead Treadwell. Since 2006, I have chaired the 
U.S. Arctic Research Commission (USARC).\1\ As a senior fellow at the 
Institute of the North, based in Anchorage, Alaska, and in the private 
sector, I have worked for much of my career on the economics, 
feasibility, and sustainability of Arctic transportation in shipping, 
pipelines, railroads, tourism and aviation.\2\
---------------------------------------------------------------------------
    \1\ Under the Arctic Research and Policy Act of 1984, the seven 
Commissioners of the USARC are appointed by the President and report to 
the President and the Congress on goals and priorities for the U.S. 
Arctic Research Program. That program is coordinated by the Interagency 
Arctic Research Policy Committee, (IARPC) chaired by National Science 
Foundation Director Dr. Arden Bement, who is also an ex-officio member 
of the Commission. See www.arctic.gov for Commission publications, 
including the Commission's 2007 Goals Report.
    \2\ The Institute of the North, www.institutenorth.org, founded by 
former Alaska Governor and U.S. Interior Secretary Walter J. Hickel, 
has programs that focus on economics and policy related to management 
of common resources, onshore and offshore. Our work in Arctic 
infrastructure (including energy, transportation and telecommunication) 
supports the work of the eight-nation Arctic Council and the 
circumpolar, regional governments of the Northern Forum. Our defense, 
security and geography studies stem from Alaska's unique, strategic 
location.
---------------------------------------------------------------------------
    On behalf of my fellow Commissioners, thank you for your invitation 
to be here today. The Arctic component to this hearing is essential. 
During this International Polar Year, the United States and other 
nations are laying down an Arctic Observing Network \3\ to better 
understand, model and predict the vast changes coming to the northern 
part of the globe. The Arctic Council's eight nations, with indigenous 
participants and the global shipping industry, are conducting the 
Arctic Marine Shipping Assessment, due to be published in 2009.\4\ 
While science is finding the Arctic to be suddenly, and surprisingly 
accessible, our assessment is finding that regular Arctic Ocean 
shipping, tied to specific resource development projects, tourism, or 
serving the needs of Arctic communities is large now, and is 
growing.\5\ New Arctic-capable ships are under construction in 
Southeast Asia and Europe. That trend brings with it the need for new 
policies--rulemaking, research, and investment--by governments of the 
Arctic region.
---------------------------------------------------------------------------
    \3\ AON report is here: http://www.nsf.gov/od/opp/arctic/iarpc/
start.jsp. Pending legislation to support the Integrated Ocean 
Observing System is needed to assure that studies of Arctic climate 
changes will be initialized and maintained. These are important to 
understand the processes that affect the ice cover and circulation of 
the Arctic Ocean and thus shipping.
    \4\ AMSA is led by the U.S., Canada, and Finland, and is Chaired by 
Dr. Lawson Brigham, Deputy Director of the U.S. Arctic Research 
Commission, a former U.S. Coast Guard icebreaker captain. For details 
on AMSA. See: http://arcticportal.org/pame/amsa.
    \5\ See slides, attached, and the website for June 5, 2008 Arctic 
Transportation Conference sponsored by DOT/MARAD. See: http://
www.marad.dot.gov/Arctic%20Conference/Arctic%
20index.html
---------------------------------------------------------------------------
    In the United States, it is necessary to recognize that the Alaska 
Purchase in 1867 made us an Arctic nation. Our ocean boundaries are 
more than the Atlantic and Pacific. In the 20th century, the advent of 
aircraft, missiles, and missile defense made the Arctic region a major 
venue for projection of power and a frontier for protecting the 
security of North America, Asia and Europe. Great circle air routes 
through the Arctic currently carry the bulk of travelers and air cargo 
between these continents. Today's Arctic infrastructure is global 
infrastructure. In the 21st century, Arctic seaways have the potential 
to serve as a major venue for shipping between these continents, as 
explorers envisioned as early as 500 years ago.
    Much of the U.S. Arctic Research Commission's work is to encourage 
the U.S. Government to do its homework--homework that is necessary in 
response to an accessible Arctic Ocean.\6\ In today's testimony, I will 
focus on five points, and direct the Committee to sources of additional 
information.
---------------------------------------------------------------------------
    \6\ See USARC's summary report on goals and objectives for Arctic 
research 2007 for the U.S. Arctic Research Plan, www.arctic.gov.
---------------------------------------------------------------------------
    First, climate is changing to create an accessible Arctic. Sea ice 
coverage is reducing in area and thickness faster than our climate 
models predicted.\7\ This, combined with the advent of more efficient 
icebreaking technology, and global demand for Arctic resources, works 
to make Arctic shipping more economically feasible and attractive to 
investors.\8\
---------------------------------------------------------------------------
    \7\ See National Snow and Ice Data Center's website at: http://
nsidc.org/arcticseaicenews/.
    \8\ See slides, attached.
---------------------------------------------------------------------------
    Second, Arctic residents, governments and industry are assessing 
both the opportunities and the challenges of an accessible Arctic.\9\ 
Within these assessments is a fundamental question: Will trans-Arctic 
seaways be as important to global shipping as the Panama and Suez 
Canals? Or, will the Arctic Ocean continue more as venue for shipping 
in and out of the Arctic itself, for tourism, local needs, and for 
bringing natural resources to market?
---------------------------------------------------------------------------
    \9\ See AMSA: http://arcticportal.org/pame/amsa and Arctic Shuttle 
Container Link Study conducted for the State of Alaska and the Port of 
Adak by the Institute of the North and Aker Arctic. See: http://
www.institutenorth.org/servlet/content/studies.html. Also see the Sept. 
2004 Arctic Marine Transport Workshop report here: http://
www.institutenorth.org/servlet/content/reports.html.
---------------------------------------------------------------------------
    Third, policies are being conceived, developed and implemented 
toward a goal of ensuring that shipping in the Arctic is, to quote my 
colleague at the Department of State, Assistant Secretary Dan Sullivan, 
``safe, secure and reliable.'' \10\ To me, those three words have large 
meaning. Safe refers to protecting human life, and mitigating any ill 
effects shipping will have on the environment, biodiversity, cultures 
and traditions of the Arctic. Likewise, navies and coast guards must 
expand their capacity to ensure security for those ships, particularly 
those carrying strategic commodities. Finally, the word reliable refers 
to issues raised by the shipping industry. The Arctic Ocean is a 
``patchwork quilt'' of tolls and regulations by several coastal 
nations. Arctic shipping will grow when rules are certain and when 
products can be delivered competitively with other routes. This means 
on a time and cost basis, not just on shorter distances.
---------------------------------------------------------------------------
    \10\ See: http://www.nytimes.com/2007/10/19/us/
19arctic.html?_r=1&scp=1&sq=shipping%
20Arctic%20sullivan&st=cse&oref=slogin.
---------------------------------------------------------------------------
    Mr. Chairman, a regime for safe, secure, and reliable shipping is 
something our Nation can lead in developing, through existing 
mechanisms like the International Maritime Organization, the Arctic 
Council, and--when acceded to by the U.S.--via the Law of the Sea 
convention. The U.S. Arctic Research Commission continues to urge the 
Senate to accede to this convention.
    The United States last revised its Arctic policy in 1994. While 
environmental protection was then made a principal objective, climate 
change and growth in Arctic shipping were not contemplated.\11\ As the 
Executive Branch currently conducts a review of U.S. Arctic policy, the 
Commission has urged consideration of policies to ensure safe, secure, 
and reliable shipping.
---------------------------------------------------------------------------
    \11\ The current State Department summary on Arctic Policy lists 
the six principal objectives of Arctic Policy. See: http://
www.state.gov/g/oes/ocns/arc/.
---------------------------------------------------------------------------
    Fourth, strong research programs are needed in the Arctic Ocean, 
and some of that research is on deadline. The U.S. Arctic Research 
Commission has developed a set of research goals related to shipping, 
and those goals will be included in the report due to Congress in 2009. 
Decisions to be made by governments on climate issues require 
understanding of what is happening in the Arctic Ocean, the Greenland 
icecap, in the changing heat, freshwater and greenhouse gas budgets of 
the earth.
    Several ``wild card'' issues related to Arctic shipping have been 
identified through the AMSA process and will be included in the 
Commission's goals for shipping research as part of the 2009 report. 
These include understanding the effects of air pollution and noise from 
ships on the Arctic ecosystem. As well, the tradeoff between warming 
effects of ship emissions in the Arctic and potential reduced emissions 
from shipping worldwide, due to shorter routes, is a goal of study. 
Also, the U.S. and Iceland are cooperating on development of hydrogen 
technologies. The prospect of hydrogen-powered ships, under development 
by Iceland, is of interest to the entire Arctic community.
    The Interagency Arctic Research Policy Committee, acting on the 
USARC's recommendation, has commissioned an interagency research plan 
on Arctic infrastructure, in light of climate change. This will cover 
many climate impacts on transportation in the Arctic, including roads, 
maritime transport, and the need for improved oil spill research in 
ice-covered waters.\12\
---------------------------------------------------------------------------
    \12\ Under the leadership of the U.S. Army Corps of Engineers' Cold 
Region Research and Engineering Laboratory, in Hanover, N.H., the plan 
will cover research and development goals for civil works and housing 
(including permafrost and shoreline erosion), oil spills, energy use, 
and marine transportation.
---------------------------------------------------------------------------
    Nations are mustering bathymetric and seismic expeditions to 
delineate the extended continental shelf of the Arctic region, for new 
territorial claims allowed under the United Nations Convention on the 
Law of the Sea (UNCLOS). And as those claims by some nations could make 
parts of the Arctic Ocean legally less accessible to research, the 
science community is pressing to ensure greater access with the 
diplomatic community.\13\
---------------------------------------------------------------------------
    \13\ The USARC has been informed by the Department of State that 
applications from the U.S. to Russia for approval to conduct marine 
scientific research in Russia's Exclusive Economic Zone was denied 11 
of the 13 times requested between 1996 and 2006, and 6 of the 14 times 
between 1992 and 1995 (Personal communication to the Chair and 
Executive Director of the USARC, April 7, 2008).
    See also this appeal was submitted by the USARC, and others, to the 
U.S. Department of State.

                            Appeal to the U.S. Department of State
        In anticipation of the meeting of ministers from the five 
Arctic coastal nations
                            In Ilulisat, Greenland, on May 28, 2008

    As you, representing the United States, meet with representatives 
from other Arctic coastal states, to discuss the future of the Arctic 
Ocean, we, representing the U.S. science community working in this 
region, make this appeal: please take all necessary effort to enable 
research to thrive by ensuring free and open scientific access to the 
Arctic. The open nature of the Antarctic Treaty, and the free support 
of and exchanges in science, have been the hallmark of international 
cooperation on that continent for 50 years. The Arctic also would 
benefit from such openness.
    We especially urge the coastal Arctic states to remove obstacles to 
ship access for research in the Arctic Ocean. In recent years, 
important scientific expeditions have been canceled through parts of 
the Arctic due to the expense and complications of national rules for 
foreign ships wishing to enter the Exclusive Economic Zone of certain 
Arctic nations. Further, some ships--whose voyages were solely 
dedicated to research--have been categorically denied access. We are 
concerned that Arctic nations' expanded jurisdiction of the ocean 
floor, that will come about through Law of the Sea claims, threatens to 
further limit the full range of customary research activities that need 
to be conducted by scientists in the Arctic. Although it may be useful 
to ensure rights of inspection for such vessels, there are many 
benefits to be derived from open access for scientific purposes.
    Second, please address the well-documented need for sharing of data 
that has been, or will be, collected in the Arctic Ocean region. We 
appeal to nations to continue to make available previously collected 
data, and to commit to further sharing of new data collected within 
jurisdictional borders.
    Knowledge gained from Arctic research is important to the entire 
world. Policy decisions on climate change, energy, environment, human 
health, security, commerce, and other subjects will be made by many 
nations based on this knowledge. Scientific research should be based on 
sound conclusions drawn from valid data, unfettered by national 
borders.
    Thank you for your attention to these issues. We wish you a 
productive meeting.
    Signed by the following four organizations:
    <bullet> Arctic Research Consortium of the U.S. (www.arcus.org), 
representing over 5,000 scientists worldwide from 51 member 
institutions
    <bullet> Consortium for Ocean Leadership (www.oceanleadership.org) 
representing over 10,000 scientists from 95 member institutions in the 
U.S. and Canada
    <bullet> Marine Mammal Commission (www.mmc.gov)
    <bullet> U.S. Arctic Research Commission (www.arctic.gov)
---------------------------------------------------------------------------
    Fifth and finally, an accessible Arctic means a need for 
investment. Your Committee, Mr. Chairman, has recognized that, and 
reported legislation calling for construction of two new Polar class 
icebreakers for the Coast Guard and the nation, while maintaining the 
existing fleet in working condition.\14\ The U.S. Arctic Research 
Commission has urged the President and Congress to move expeditiously 
in building and maintaining those ships. Certainly, they will be used 
as they are now--as research platforms and as the visible U.S. maritime 
presence in both polar regions. But the advent of Arctic transportation 
means the other, more traditional missions of the Coast Guard will take 
center stage. These ships are needed to provide the same protections 
the U.S. Coast Guard affords the rest of the nation: search and rescue, 
law enforcement, border protection, environmental protection and oil 
spill response.\15\
---------------------------------------------------------------------------
    \14\ See USCG authorization bill reported in the Senate: http://
thomas.loc.gov/cgi-bin/query/D?c110:2:./temp/c110UjJvKU.
    \15\ See attached letter March 18, 2008 from Alaska Governor Sarah 
Palin to President Bush. See also the attached memorandum for the Joint 
Chiefs of Staff that was received by the USARC on June 8, 2008. Both 
documents refer to national needs for new icebreaker capacity. The 2006 
National Research Council's study ``Polar Icebreakers in a Changing 
World: An Assessment of U.S. Needs'' can be accessed here: http://
www.nap.edu/catalog.php?record_id=11753.
---------------------------------------------------------------------------
    Aid to commerce is an important mission of our Great Lakes 
icebreakers. Under a regime worked out with Canada, the St. Lawrence 
Seaway/Great Lakes system has become an important part of the global 
transportation network. The Executive Order signed by President 
Franklin Roosevelt, committing icebreakers to support U.S. maritime 
commerce could apply to the U.S. Arctic as well.\16\
---------------------------------------------------------------------------
    \16\ See: http://www.conservativeusa.org/eo/1936/eo7521.htm Ex. 
Ord. No. 7521. Use of Vessels for Ice-breaking Operations in Channels 
and Harbors. Ex. Ord. No. 7521, Dec. 21, 1936, 1 F.R. 2527, provided: 
1. The Coast Guard, operating under the direction of the Secretary of 
the Treasury, is hereby directed to assist in keeping open to 
navigation by means of ice-breaking operations, in so far as 
practicable and as the exigencies may require, channels and harbors in 
accordance with the reasonable demands of commerce; and to use for that 
purpose such vessels subject to its control and jurisdiction or which 
may be made available to it under paragraph 2 hereof as are necessary 
and are reasonably suitable for such operations. 2. The Secretary of 
War (Army), the Secretary of the Navy, and the Secretary of Commerce 
are hereby directed to cooperate with the Coast Guard in such ice-
breaking operations, and to furnish the Coast Guard, upon the request 
of the Commandant thereof, for this service such vessels under their 
jurisdiction and control as in the opinion of the Commandant, with the 
concurrence of the head of the Department concerned, are available and 
are, or may readily be made, suitable for this service.
---------------------------------------------------------------------------
    Polar class icebreakers also support the essential mission of 
national presence in the Arctic and the Antarctic, both in maintaining 
our position and in supporting freedom of navigation. Indeed, an 
accessible Arctic Ocean also means new or expanded routes for the U.S. 
military sealift to move assets from one part of the world to another. 
Coast Guard polar icebreakers are an essential component to guarantee 
that this U.S. polar maritime mobility exists.
    Shipping and research activities in the Arctic depend today on a 
strong system to predict ice conditions, provided by satellites above, 
and analysis by our Navy/NOAA/Coast Guard National Ice Center, near 
here in Suitland, Maryland. Current activity in the Arctic depends on 
good meteorology, developed in cooperation with our neighbors. 
Appropriate spill response and search and rescue require additional 
investment. My predecessor, George Newton, as Chair of the USARC has 
spoken of the necessity for an ``Arctic 911'' capability, and led the 
effort to encourage the National Geospatial Intelligence Agency (NGA) 
to add the Arctic region to the oceans of the world supported by 
notices to mariners. The question of where we need new port facilities, 
as safe harbors and transshipping points, is yet to be fully addressed.
    Mr. Chairman, to conclude, we understand it is this Nation's goal--
expressed with other nations--to reverse the trend of climate change 
caused by humans. In the Arctic, research to support adaptation to and 
mitigation of climate change is high on our agenda. But as more forces 
than climate are working to produce an accessible Arctic, it is 
essential that our Nation act now. Research, policies and coordinated 
investment in infrastructure will ensure safe, secure, and reliable 
Arctic shipping. Under the principle of freedom of navigation, global 
shipping can come to our doorstep whether we invite it or not. Whether 
you envision the Arctic Ocean as a new seaway, for trans-Arctic 
shipping, competitive with the Panama and Suez Canals, or only foresee 
an expansion of the current shipping in and out of the Arctic, the time 
to prepare is now.
    Thank you very much.

    Senator Lautenberg. Thank you very much.
    The testimony is impressive, and I thank each one of you 
for your contribution.
    I want to ask Mr. Friedman a question. Concerns about 
whether ethanol is actually better than gasoline, in terms of 
its emissions of greenhouse gases. Do you think we should put 
stronger requirements on greenhouse gas emissions from ethanol 
producers?
    Mr. Friedman. Thank you, Mr. Chairman.
    Well, basically, we need strong greenhouse gas requirements 
on every fuel that is used in transportation. The science on 
the global warming reductions associated with ethanol is 
continuing to evolve. What we're learning is that corn ethanol 
may not be as good for the climate as we once thought. Both for 
those reasons and for concerns about food prices, we need to 
basically evolve from corn as an ethanol source, to waste 
products, to wood products in order to produce ethanol. These 
so-called cellulosic ethanol resources, if done sustainably, 
can dramatically cut global warming pollution and can be part 
of a broader solution that includes renewable electricity and 
clean hydrogen, but we're not going to get these solutions 
unless we have a low carbon fuel standard, a policy that is 
going to require all fuels to get better over time. And we 
probably also won't have this unless we make sure we have the 
vehicles out there--the plug-in hybrids, the fuel-cell 
vehicles, the electric vehicles--that can use these cleaner 
energy resources.
    Senator Lautenberg. Let me ask you--you identify corn for 
the problems that it creates and--by way of shortages and other 
things--forgive me, they've managed to break the code here--
    [Laughter.]
    Senator Lautenberg.--and is there any improvement, vis-a-
vis emissions, if sugar ethanol is introduced? Is that 
substantially more efficient? I heard what you said. You said 
all fuels should be examined for----
    Mr. Friedman. It does look like sugar-based ethanol--for 
example, the sugar cane used in Brazil--can be reduce global 
warming pollution. But, even there, anytime we talk about using 
a crop to make fuel, we need to make sure that, by using that 
crop for fuel instead of food, we're not encouraging someone 
somewhere else to cut down a forest to replace that fuel. 
That's the real dynamic that we have to avoid here.
    So, some sugar-based ethanol could make a lot of sense; 
but, too much, and it may actually contribute to either 
deforestation or clearing of land that could actually generate 
more global warming pollution than you could save.
    Using food for fuel is a tricky proposition, and it's 
definitely something that, I think, with good investment in 
cellulosic ethanol, especially from waste products, that we can 
move away from over time. It can potentially form the base for 
what we're doing right now.
    Senator Lautenberg. Is the technology available to make the 
conversion to using waste products to fuel the development of 
ethanol--to the point now that it can be done in the volumes 
that matter?
    Mr. Friedman. Well, thankfully, we're about to find out. 
There has been significant investment in cellulosic ethanol 
plants--in part, funded by the Department of Energy and work by 
Congress--but right now we don't have large-scale production of 
those fuels; it's probably going to take several years before 
we will see if we can, for example, get cellulosic ethanol for 
only, say, $2.00 a gallon. If we get the breakthroughs we need, 
it will become one of the added biofuel resources.
    Senator Lautenberg. But, the union is concerned about the 
time that we have to make changes in global warming--
significant changes--and asked for far larger reductions than 
almost any other really responsible organization. If we don't 
have the ability to produce products in sufficient volume for 
several years, it doesn't sound like we're on a good track to 
get going on what we need to do currently.
    Mr. Friedman. Well, that's a great point, and that is part 
of the reason why it's not only about pushing better fuels, 
it's also about getting vehicles and more alternatives to 
vehicles out there. We're not going to solve global warming 
with a single silver bullet, with the wave of a magic wand. We 
need a portfolio of options and a portfolio of policies. 
Biofuels, I think, will be able to be a part of that, but we 
can't expect them to carry the whole load.
    Senator Lautenberg. Yes, we're all hoping for a silver 
bullet.
    [Laughter.]
    Senator Lautenberg. I ask, with the indulgence of Senator 
Stevens, for one more question that----
    Even with fuel efficiency improvements, airplanes, Mr. 
Meenan, will not be as efficient as trains, particularly for 
journeys of 400 miles or less, and particularly in highly 
populated areas. Doesn't it make sense, environmentally as well 
as economically, to invest more in rail? Shouldn't we be 
encouraging--and I ask this for any one of you who would like 
to respond--shouldn't we be encouraging the most efficient 
travel possible? And as it appears now, it's rail. Any comments 
on that?
    Mr. Meenan. Senator, I think----
    Senator Lautenberg. Mr. Meenan?
    Mr. Meenan.--I think the second part of your question was 
the answer that I would give you, which is, we should be 
encouraging the most efficient--energy efficient transportation 
possible. In some markets, that may be rail. It may be, in a 
very high-density market, that may make perfect sense. But, in 
other markets, similar distances, you may not have that 
density, and air is a better energy-efficient alternative than 
200 cars making that trip, for example.
    So, we're open to all kinds of--we also believe, though, 
that public investment ought to also be directed at finding 
more efficient ways--energy-efficient ways of advancing air 
transportation, as well. And that's one of the reasons we're 
encouraging more investment in alternative fuel research for 
aviation.
    Senator Lautenberg. Yes, but, also, a question that's often 
raised, as you well know, sir, is whether or not distances to 
travel have to figure into the best manner to transport people. 
And when you see--in Europe, for instance, if you want to go 
from Brussels, where we have our NATO headquarters, to other 
cities, like Paris, when you have an hour-and-20-minute ride 
for 200 miles, it's hard to find an airplane trip that you can 
take there. So, that has to be a consideration, as well as 
population density.
    Mr. Meenan. But, there are also differences in existing 
infrastructure in Europe that are not necessarily replicated in 
the United States, so that we couldn't, for example, have all 
destinations within 400 miles of Washington, D.C., linked by 
rail, I don't believe, and do it efficiently, but we could do 
it in certain high-density corridors.
    Senator Lautenberg. I'll take no longer. We will keep the 
record open for questions.
    Senator Stevens?
    Senator Stevens. Thank you very much, Mr. Chairman. Been an 
interesting hearing.
    You know--and, Mr. Friedman, I respect your comments, but I 
don't see anything that is dealing with the basic balance of 
cost against change, particularly in terms of some of these 
ethanols. Ethanol costs a great deal more, really, than oil or 
gas right now, and it's subsidized. We took away all the 
subsidies for oil and gas in the past, but we're applying them 
now to ethanols. The more ethanol, more subsidy. How do you get 
down to balancing the overall cost to the Nation of this 
change?
    Mr. Friedman. Thank you, Senator, for the question.
    First, I would say there are definitely still substantial 
incentives for petroleum fuels, whether they be tax credits or 
access to public lands--and, in fact----
    Senator Stevens. I hate to interrupt you, but there is no 
such thing as access to public lands right now for oil and gas 
exploration; it has just actually been static now for at least 
10 years.
    Mr. Friedman. But, I think, when we look at the cost of 
ethanol, this is one of the reasons why we do need the 
incentives, in order to get the prices down.
    Senator Stevens. Well, the incentives are adding to the 
cost to the public. It's just a question of whether you put it 
on the taxpayer or on the purchaser of the ethanol. Ethanol is 
so subsidized today, it's limited in expansion. Why rest on the 
ethanol alternative?
    Mr. Friedman. Well, one of the great things that I think 
you point to is, actually, what we need to do is move away from 
simple tax credits for any one specific fuel, and, instead, 
move tax credits to performance basis. You should get a higher 
tax credit if you're a lower-carbon fuel. If we encourage 
performance, then the best solutions will emerge. Maybe it 
will, maybe it won't, be ethanol. Maybe it will be low-carbon 
electricity, maybe it will be hydrogen. But, if we encourage 
increased performance, maybe we can even get refineries to 
improve their efficiency so there's a little bit less global 
warming pollution associated with gasoline. Performance-based 
standards are the key.
    So, I do agree that we need to move away from, maybe, 
specific products, and move toward performance, and especially 
global warming performance, when we look at our incentives.
    Senator Stevens. Mr. Hamberger, all you need to do is find 
me the money to build about 150 miles of railroad, and we could 
be connected to the Canadian rail system and have a lot cheaper 
transportation in the long run. You think you could find that 
kind of money, 150 miles, these days?
    Mr. Hamberger. Well, I know that your former colleague, 
Senator Murkowski, believed very strongly in that, as well, 
and--I don't know where that planning process is. I believe the 
Canadian and the U.S. governments were supposed to put together 
a commission to take a look at that.
    Senator Stevens. And we should, we really should. I think 
that the difficulty is the people don't realize the great 
efficiency of the rail system, particularly in places like we 
live, in Alaska. As Mr. Treadwell could tell you, that the 
advent, now, of thinking we're going to have trans-Arctic 
steam--or ship transportation is sort of hard to realize, it 
might come true. Barring that, Mr. Treadwell, how does it look, 
as far as getting the kind of agreements that would be 
necessary to use the Arctic for surface transportation?
    Mr. Treadwell. Well, as you know, the Senate is 
considering--excuse me. Thank you, Senator, for the question. 
As you know, the Senate is considering approval of, or 
accession to, the Law of the Sea Treaty. And the Law of the Sea 
Treaty, basically, deals with the territorial issues. Under the 
United Nations, we already have participation in the 
International Maritime Organization. The Coast Guard is doing 
bilateral discussions right now with the Russians about the 
Bering Strait, sometimes now referred as the Bering Gate. But, 
something to consider is the fact that we can probably agree 
fairly quickly on new rules for the Arctic, but the issue is 
new investment needed for the Arctic, as well, that we have 
coordinated investment in the St. Lawrence Seaway, for example, 
and that may be something the Nation wants to look at in the 
Arctic with other nations.
    Senator Stevens. Thank you very much for the hearing, Mr. 
Chairman. I really think that until Americans wake up to the 
fact that we're sending out our capital overseas to buy oil we 
could produce here at home, we're not going to see the capital 
formation that's necessary to make the changes that all of you 
agree seems to be necessary in our transportation system. I 
just don't see the ability to add the cost of this change on 
the taxpayers. It should come from increased revenue from 
activity in the United States of producing our own oil and gas.
    Everyone talks about how much we'll save at the pump. They 
don't understand, the real savings comes from the job creation 
and the increased activity in this country that would come from 
producing our own supply of oil and gas.
    Thank you, Mr. Chairman. Appreciate it.
    Senator Lautenberg. Thank you.
    Senator Stevens. I do have some questions I'd like to 
submit for the record, but I have to go to another----
    Senator Lautenberg. I agree. I would just take a moment to 
respond to my eloquent friend from Alaska and say that the full 
measure of the cost of getting more material from those sources 
is not simply the cost for the material--oil, in particular--
but our costs for then protecting these states and their 
governments, and the cost is substantially higher. And I think 
that if we continue to want to compete there, then the costs 
for fuel is going to go substantially higher than it is now, 
and presents the question for us.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And thank you for 
holding this--thank the Chair and the Vice Chair for holding 
the hearing on the impact of the transportation sector on 
climate change, and vice versa.
    I think it's important that, whenever you talk about the 
topic of transportation's impact on carbon dioxide and other 
greenhouse gas emissions, to start with the energy bill of 
2007. In addition to the historic increase in vehicle fuel 
efficiency standards and other energy efficiency programs, the 
bill also included an expanded Renewable Fuel Standard.
    The 2007 energy bill requires the use of 36 billion gallons 
of renewable fuel by the year 2022, and it also includes 
significant requirements for life-cycle greenhouse gas emission 
reductions. In fact, under the bill, new corn ethanol plants 
must product ethanol with a 20 percent reduction in life-cycle 
greenhouse gas emissions. And when you start talking about 
advanced biofuel and cellulosic ethanol, which constitutes the 
majority of the new Renewable Fuel Standard, those have to have 
a 50 percent reduction and 60 percent reduction in life-cycle 
greenhouse gas emissions relative to regular gasoline.
    So, this was a landmark piece of legislation that I don't 
think can be overlooked. We need to start discussing the 
transportation sector's impact on greenhouse gas emissions. And 
moving forward, we've got to continue to meet the challenges of 
high fuel costs and greenhouse gas emissions with commonsense 
policies that reduce those emissions while, at the same time, 
helping U.S. businesses stay competitive, keep our economy 
growing and family budgets intact.
    So, I wanted to make that general observation with regard 
to the RFS, but I guess I'd like to, more specifically, ask a 
couple of questions of the panel, and maybe get a reaction in 
terms of--and I'd direct this, I guess, to Mr. Meenan, to start 
with--but, if there was a policy that we could put in place, 
what's the single most important policy this Committee could 
pursue that would help with airline industry--the increase in 
fuel costs that you're dealing with, with fuel efficiency, 
trying to lower your fuel bills and decrease greenhouse gas 
emissions? That's something--we all see the spike in everything 
in the economy right now, but airline ticket fares are no 
exception--I know, driven by the high cost of fuel. Any 
thoughts about that?
    Mr. Meenan. Senator, without any question. The subject was 
addressed yesterday by Northwest's Chairman and CEO in his 
testimony up here. We believe that getting after some of the 
speculative pressure in the oil market would be the most direct 
and immediate means of driving some of that cost out of the 
price of a barrel, at this point. Experts in the field say that 
it could drive the price down as much as $40-$50 at a single 
sweep. Even assuming that that may be an exaggeration--even 
$20, even $5 would be a marked improvement from where we are 
today. We see no risk in getting after a little bit more 
regulation, a little bit more focus on what's going on in that 
market today. As you know, we're trading as many as 20 paper 
barrels of oil for every single barrel of actual product that's 
used. That suggests to us that there's a lot of froth in the 
market that might be reduced by getting after the speculative 
pressures.
    Senator Thune. Does your organization--have they taken any 
kind of position on--specific piece of legislation or way of 
going about doing--I know a number of proposals that are 
swirling around out there.
    Mr. Meenan. Senator, we're working with a number of 
different members who are proposing a variety of different 
measures. And right now we're trying to, sort of, hone in on 
whatever the most effective vehicle will be, and go with that. 
But, it's--the debate is still swirling, at this point, but I--
we're hopeful it's going to get resolved in the next few days, 
if at all possible.
    Senator Thune. Anybody else care to comment on that? I know 
I directed it to the aviation industry, but any, just, general 
thoughts about specific remedies that Congress could pursue 
that--policies that would help address----
    Mr. Hamberger. To the availability and price of fuel?
    Senator Thune. Yes.
    Mr. Hamberger. I don't know how my friend to the right will 
react to this, but are part of a coalition pushing coal-to-
liquids, and believe that that would certainly provide both a 
domestic and a reliable source at a reasonable rate.
    Senator Thune. Yes, if--maybe, direct this to your friend 
to the right.
    [Laughter.]
    Senator Thune. My left, your right.
    But, with respect to the whole issue of the RFS and 
biofuels and everything else, how do you see the--sort of, the 
movement of the next-generation biofuel, cellulosic ethanol, 
as--with respect to how it will contribute to reducing 
CO<INF>2</INF> emissions and the broader issue, I suppose, of 
climate change, but the impact that that might have on our 
transportation infrastructure if we move more to biofuels?
    Mr. Friedman. Thank you, Senator.
    I expect that the potential is out there for the 
sustainable production of maybe 40-50 billion gallons of 
biofuels over the next 30, 40, 50 years, significantly less 
than some people are pointing to. But, one of the most 
important things we have to realize is that, as we tackle 
global warming pollution, as we tackle oil dependence, we need 
to make sure we're not creating any tradeoffs between the two. 
We need to focus our research, our incentives on the best of 
the biofuels, the cleanest of the biofuels. We also need to do 
the same when it comes to any fuel.
    When it comes to coal-to-liquids, look, if coal-to-liquids 
can get a dramatic reduction in global warming pollution, the 
same as renewable electricity, then it belongs in the mix. 
Right now, all the data shows that making liquid coal can 
potentially double global warming pollution.
    So--but, as long as we have a fuel policy based on 
performance standards and incentives based on greenhouse gas 
performance standards, I don't think we have to have these big 
debates over which fuel is the best, which fuel is the worst. 
As long as we guide the performance, the market is going to 
figure out which are the most cost-effective options out there.
    We also have to remember that the Renewable Fuel Standard 
isn't enough. It really only covers about 10 percent of the 
market. That's why we need to move to something like a low-
carbon fuel standard to broaden out what we're doing.
    Senator Thune. But, the RFS does have----
    Senator Lautenberg. Senator, may I ask, how much more do 
you have? We are going to keep the record open for questions, 
if we could wrap it up.
    [Laughter.]
    Senator Thune. Thank you for that not-so-subtle hint.
    [Laughter.]
    Senator Lautenberg. That's how I got to be Chairman.
    [Laughter.]
    Senator Thune. Well, it'll get us both to lunch, I guess, 
but----
    [Laughter.]
    Senator Thune. I will, I'll submit any other questions I 
have for the record.
    Senator Lautenberg. If you have one more----
    Senator Thune. No, that's all right. I just wanted to ask--
I guess, in--just as a quick follow-up on----
    Would you all not concede, however, that the RFS, inasmuch 
as it is only--we say we use 140 billion gallons of fuel every 
year in this country--even if we get to 36 billion gallons, 21 
billion of which will be cellulosic--that that is going to have 
a significant impact because of the requirements we imposed in 
the Renewable Fuel Standard on reduction of greenhouse gas 
emissions, life-cycle greenhouse gas emissions--that that's 
going to have a positive impact?
    Mr. Friedman. Great question. And the portion of the 
Renewable Fuel Standard that does have greenhouse gas 
standards, I think, will have a clear and positive effect. One 
of the challenges, though, is that on the order of 13 to 14 
billion gallons of corn ethanol remains completely unregulated 
when it comes to global warming pollution. It was grandfathered 
in as part of the Renewable Fuel Standard.
    Honestly, if you look at the potential land-use impacts and 
increased global warming pollution from some of those fuels, we 
could end up with only a very small benefit from the Renewable 
Fuel Standard, as written. This is why, again, we need to 
eventually move beyond turning food into fuels, even just 
simply for climate reasons. And this Committee, I think, has a 
role to play in all of these things.
    One of the other things I definitely want to urge this 
Committee to do is to exercise its oversight powers, as well, 
on the Department of Transportation to make sure that our 
upcoming fuel economy standards are as strong as they can be.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman. Thank the panel for your 
testimony. Appreciate it.
    Senator Lautenberg. Thank you.
    With that, we thank you again, to the witnesses, and we'll 
keep the record open.
    We're adjourned.
    [Whereupon, at 1:10 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    The transportation sector is a significant contributor to global 
warming.
    Approximately 33 percent of greenhouse gas (GHG) emissions in the 
United States come from transportation. And 72 percent of the 
transportation sector's emissions are generated by road use.
    The movement of goods has a real impact on air quality and global 
warming emissions. Freight transportation still largely relies on 
fossil fuels and consequently produces significant greenhouse gas 
emissions.
    As a percentage of all mobile source emissions, heavy-duty truck, 
rail, and water transport together account for more than 25 percent of 
CO<INF>2</INF> emissions, approximately 50 percent of NO<INF>X</INF> 
emissions, and nearly 40 percent of particulate (PM) emissions in the 
United States.
    My home state of California has long suffered from air quality 
problems from transportation emissions. According to the California Air 
Resources Board (CARB), approximately 75 percent of diesel particulate 
emissions in California are related to goods movement.
    In addition, CARB has attributed 2,400 premature deaths to diesel 
emissions and estimates that the health costs of diesel emissions could 
be as high as $200 billion in 2020.
    The movement of people and goods is vital to our economy, but it 
clogs our roads, fouls our air, pollutes our water, and creates safety 
issues.
    For example, idling in traffic congestion is a tremendous source of 
carbon dioxide emissions and fuel. Billions of gallons of fuel are 
burned by vehicles stuck in traffic. This type of congestion stifles 
our economy and uses our energy resources and produces greenhouse gas 
emissions that are contributing to global warming.
    Through the use of traffic signal timing and other technologies we 
can reduce idling, which can make a significant contribution to 
reducing GHG emissions.
    In addition, we can help reduce congestion and the growth of 
highway demand by shifting trips to other modes of travel. Making more 
trips by biking, walking, carpooling, and reducing the number of trips 
necessary, by telecommuting, for example, could help reduce GHG 
emissions as well.
    A combination of strategies including land use and increased public 
transit ridership could significantly reduce transportation-related 
CO<INF>2</INF> emissions.
    By reducing congestion we can also improve the quality or the air 
we breathe and improve public health.
    However, in addition to working to reduce GHG emissions to limit 
future warming, we also need to prepare our transportation system to 
withstand the unavoidable impacts of global warming.
    Recent studies by the Transportation Research Board of the National 
Academy of Sciences and the U.S. Department of Transportation (DOT) 
underscore the need for adaptation planning at the state and local 
levels.
    Six of the Nation's top ten freight gateways, which are centers for 
economic activity, will be at risk if sea levels rise.
    60,000 miles of coastal highways already experience coastal storm 
flooding and wave action. This number is certain to increase with 
rising the sea levels, leaving communities vulnerable to ocean waves 
and cutting off evacuation routes.
    Climate change will have significant impacts on transportation, 
affecting the way U.S. transportation interests plan, design, 
construct, operate, and maintain infrastructure.
    That's why I am pleased the Committee is holding this hearing to 
examine the impacts of climate change on the transportation sector.
    I thank the Chairman for holding this important hearing. We are 
looking at these issues in the Environment and Public Works Committee 
as well. A cap and trade system to control carbon pollution could 
provide substantial revenue to address carbon emissions in the 
transportation sector.
    I look forward to hearing from the witnesses before us today.
                                 ______
                                 
Prepared Statement of Captain Mary Ann Schaffer, Chairperson, Aviation 
Sustainability and Environment Task Force, Air Line Pilots Association, 
                             International
    On behalf of the 54,000 airline pilots represented by the Air Line 
Pilots Association, International (ALPA), I am pleased to offer this 
testimony to the Senate Commerce Committee. We appreciate the 
Committee's interest in climate change and the impacts on the 
transportation sector and are pleased to share our perspective.
    It may not be apparent why ALPA would have an interest in this 
subject, so I will explain. ALPA's motto, since its beginning almost 77 
years ago, has been ``Schedule with Safety.'' A former FAA 
Administrator and others have dubbed ALPA the ``conscience of the 
airline industry'' and in that role, we take very seriously the need to 
ensure that any new operational measures are fully understood and 
thoroughly considered before implementation. Pilots literally sit at 
the intersection of new technology, operational measures, air traffic 
control procedures, and varying aircraft capabilities. This gives us a 
unique vantage point to see and experience first hand what well-
intended, but unrealistic operational procedures can do to safety 
margins.\1\
---------------------------------------------------------------------------
    \1\ For example, a recently designed descent path into a major east 
coast airport required pilots to cross closely spaced points at 
successively lower altitudes. The points were too close together to 
allow pilots to meet the restrictions using advanced aircraft 
navigation computers resulting in increased pilot workload in a 
critical phase of flight. The procedure was revised based on pilot and 
controller feedback.
---------------------------------------------------------------------------
    Another principal reason for our interest in this subject is the 
need to ensure the ongoing viability, what we call the sustainability, 
of our airline industry. We recognize all too well that our employers 
are under tremendous financial stress due to the record high cost of 
fuel and pressures from environmental concerns to reduce fuel 
consumption and corresponding emissions. Pilots have a genuine ability 
to help their airlines burn less fuel, and thereby put less noise and 
tailpipe emissions into the environment. Pilots look for opportunities 
to reduce fuel burn and do so every day.
    Pilots and the airline industry as a whole have already made great 
strides toward reducing total fuel burn, noise, and tailpipe emissions. 
We believe Congress should take this into account when it considers any 
legislation regarding greenhouse gas (GHG) emissions. I will discuss 
later the extraordinary investments that our employers have made to 
reduce consumption and pollution.
    With oil peaking near $140 per barrel, airlines are parking 
airplanes because they can no longer afford to fly them, name-brand 
legacy carriers are looking for mergers in order to survive, airlines 
are spending about 40 percent of their revenues on fuel, and airline 
pilots are facing an uncertain future in an industry unstable because 
of this energy crisis. Already this year, four carriers have shut down 
entirely and more than 14,000 airline jobs have been eliminated.
    Airlines and aviation face unique challenges. First are the long 
and expensive lead times for the research, development, design, and 
certification implementation for new technologies. Second is the lack 
of any economically viable alternative to fossil-based fuel. 
Compounding these issues is the lack of a comprehensive national energy 
policy that addresses the short and long term needs of our 
transportation systems.
ALPA's Work to Improve the Environment
    As evidenced by the creation of our President's Task Force on 
Aviation Sustainability and Environment, ALPA takes environmental 
concerns very seriously. We are, and will continue to be, part of the 
solution as evidenced by the following activities:

  <bullet> ALPA is participating in the work of Commercial Aviation 
        Alternative Fuel Initiative (CAAFI), which involves the 
        airlines, aircraft manufacturers, and the scientific community 
        collaborating to find new and better sources of fuel for 
        aviation.

  <bullet> We are also a member of the Advisory Board for the 
        Partnership for Air Transportation Noise and Emissions 
        Reduction (PARTNER) effort and the FAA's Joint Planning and 
        Development Office (JPDO) Environmental Working Group.

  <bullet> Our most recent success story: ALPA was a principal co-
        sponsor of a two-day conference for more than 200 government 
        and industry participants in March, called Aviation and the 
        Environment: A Primer for North American Stakeholders. The 
        purpose of the forum was threefold:

        1. Put the environment debate into context and educate the 
        members of the co-hosting associations on the basic facts.

        2. Examine some of the policy options, measures and decisions 
        proposed to curtail and reduce overall noise and emissions.

        3. Provide a platform to communicate aviation's already 
        impressive gains in the reduction of noise and emissions and 
        highlight ongoing industry environmental initiatives.
Safety and Operations
    Airline pilots can, and do, save fuel and emissions through 
operating techniques. Safety is our utmost concern, of course, but 
where safety is not impacted, airline pilots will reduce fuel usage 
through such measures as:

  <bullet> Single-engine outbound taxi--Under certain conditions, it is 
        not necessary that all aircraft engines be operated to taxi on 
        the ramp or on taxiways. When conditions permit, only one 
        engine may be started out of two or more available engines 
        until reaching the end of the runway for takeoff.

  <bullet> Engine shut-down during inbound taxi--Once the aircraft has 
        exited the landing runway and is headed to the gate or parking 
        stand, one or more operating engines may be shut down either in 
        the taxiway environment or on the ramp.

  <bullet> Technology enhanced departure procedures--New procedures are 
        being developed with the aid of Area Navigation (RNAV) and 
        Required Navigation Performance (RNP) technology which permit 
        shortening the distance and time traveled during approach and 
        departure.

  <bullet> Optimal altitude--Each jet aircraft, based on weight and 
        ambient conditions, has an optimum altitude where fuel burn is 
        minimized. To the extent that conditions and circumstances 
        permit, pilots may request that optimal altitude in order to 
        conserve fuel, which reduces emissions.

  <bullet> Optimal-speed flight plans--Planning and operating a flight 
        at an efficient speed can save fuel. Pilots can optimize fuel 
        burn based on aircraft weight, winds, and atmospheric 
        conditions.

  <bullet> Continuous Descent Arrival (CDA)/Optimized Descent Procedure 
        (OPD)--Normal approach and landing procedures require an 
        aircraft to reduce power, descend to a new altitude, and then 
        add considerable power to level off and fly straight and 
        level--that process may be repeated several times during any 
        approach and landing. A new approach procedure, the CDA, or 
        what we refer to as an OPD, is being developed that permits 
        pilots to reduce power on all engines and not use significant 
        thrust until safety concerns dictate establishing a stabilized 
        approach configuration just before landing. This procedure 
        cannot work at all airports at all times due to operational 
        constraints, but at those locations where it can be used, it 
        can save substantial fuel on a single approach.

  <bullet> Reduced Vertical Separation Minimum (RVSM)--Taking advantage 
        of improved technology, appropriately equipped aircraft can now 
        fly with 1,000 feet--compared with 2,000 feet previously--
        vertical separation at higher altitudes. This operational 
        change added six additional useable altitudes increasing the 
        opportunity for pilots to fly their aircraft at the optimal, 
        most fuel efficient altitude, in addition to permitting much 
        greater airspace utilization.
Aviation's Enviable Environmental Record
    Aviation arguably has the most successful record of limiting its 
impact on the environment while increasing its productivity of any 
industrial sector. Airlines have greatly reduced carbon-based emissions 
through engine technology which reduces fuel burn and emission of 
undesirable gases and particulates. Compared to aircraft in use in 
1972, the U.S. airline industry now carries six (6) times more payload 
using 60 percent less fuel and has reduced by 95 percent the number of 
people significantly impacted by aircraft noise.\2\ This outstanding 
record of environmental achievement has resulted almost entirely from 
the airlines continually demanding new aircraft from the manufacturers 
that burn less fuel, carry greater payloads, and create less noise. 
Boeing is preparing for the first flight of the B-787; due to its 
cutting edge technology, that aircraft is designed to use 20 percent 
less fuel--and thereby create 20 percent less GHG emissions--than 
current aircraft of the same size. This aircraft is just one example of 
the kinds of investments that the airlines make in a very heavily 
capitalized industry; those investments should be taken into account by 
any legislation that deals with fuel conservation and GHG emissions.
---------------------------------------------------------------------------
    \2\ ``Aviation and the Environment: A National Vision Statement, 
Framework for Goals and Recommended Actions,'' Report to the U.S. 
Congress, December 2004; see also, ``Aviation and the Environment: A 
Pilots' Perspective,'' British Air Line Pilots Association, March 2007.
---------------------------------------------------------------------------
Recommendations
    As described, the airline industry has already made great progress 
toward reducing GHG emissions without the creation of a new commodity 
market that would funnel its assets to other industries and 
entities.\3\ That said, the industry does need your help to boost our 
great progress:
---------------------------------------------------------------------------
    \3\ The International Civil Aviation Organization held a 2-day 
conference June 18-19 in Montreal to discuss carbon markets and their 
application to aviation. These voluntary and mandatory markets are 
maturing around the world and stand ready to envelop the aviation 
industry in a commodities market for carbon that will divert needed 
financing from true fuel savings initiatives.

  <bullet> Provide sufficient and timely funding to the FAA for 
        necessary improvements in the U.S. National Aviation System 
        (NAS). Funding the national airspace system modernization 
        components needed to enhance aircraft efficiency, safety, and 
        capacity will help in reducing delays, fuel consumption, and 
        emissions. Implementation of the Next Generation Air 
        Transportation System (NEXTGEN) could eliminate as much as 15 
        percent of today's delays, increase safety and capacity, and 
        concurrently reduce emissions. Funding important studies like 
        wake vortex investigations will also help. More information and 
        understanding of wake vortex patterns around runways will allow 
        spacing of traffic on the runway based on real hazards--a more 
---------------------------------------------------------------------------
        accurate standard than the currently used mileage separation.

  <bullet> Continue funding for important infrastructure improvements 
        including runway and taxiway additions and improvements. Poor 
        airport design, including those with intersecting runways, 
        increases taxi time and increases fuel use. Adding high-speed 
        taxiway exits from runways can reduce runway occupancy time 
        thus increasing airport capacity. Additional runways, like 
        those in progress at Seattle-Tacoma and Washington Dulles 
        airports, reduce fuel wasted in holding patterns and long lines 
        of aircraft waiting for take-off.

  <bullet> Give greater support to research for alternative fuels which 
        are renewable, pollute less or not at all, and are less 
        expensive than today's fuels. Because of aircraft engine design 
        and extreme atmospheric conditions at altitude, the airline 
        industry relies entirely on petroleum-based fuels; it cannot 
        currently substitute ethanol or other fuels as some industries 
        are able to do.

  <bullet> Avoid adding economic burdens, in the form of market-based 
        measures, to an already crippled industry. Such measures as 
        planned to take effect in Europe and proposed in the Lieberman-
        Warner bill are biased against the airline industry and do not 
        provide sufficient re-investment of revenue for new aviation 
        technologies and fuel. These carbon cap-and-trade schemes are 
        designed to provide an economic incentive to reduce emissions--
        our industry already has that incentive and is continually 
        searching for more ways to reduce fuel use and emissions. 
        Diverting funds needed for new, more fuel efficient aircraft 
        and alternative fuels research will only slow these efforts.

  <bullet> Work with the International Civil Aviation Organization 
        (ICAO) to establish emissions standards and operating measures 
        for uniform application across this global industry.
Conclusion
    Aviation is a good news story; we safely move hundreds of millions 
of passengers around the world in comfort, at great speed, and with 
less impact on the environment than any other mode of transportation in 
history. However, aviation is a visible target and has drawn the 
attention of numerous groups around the world who condemn the industry 
for being a driver of projected climate change.
    As pilots, we deal with facts, and the facts clearly show that 
while aviation is a contributor of greenhouse gas and other emissions, 
it plays only a small role in the overall issue. Indeed, we could 
ground the entire world's fleet, and not have a significant effect on 
the climate change issue. The industry is poised to make great strides 
in reducing emissions through technology and operating procedures. We 
believe that the best way to achieve those results is the same way that 
we have made such great advances thus far, namely, through industry's 
investments in increasingly advanced technology.
    Thank you again for the opportunity to testify today. We urge 
Congress' support of our ongoing and future efforts to reduce 
aviation's environmental impacts.
                                 ______
                                 
                             Railway Supply Institute, Inc.
                                      Washington, DC, June 30, 2008
Hon. Daniel K. Inouye,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Re: June 24, 2008, Full Committee Hearing on ``Climate Change Impacts 
    on the Transportation Sector''

Dear Mr. Chairman,

    The Railway Supply Institute appreciates the opportunity to submit 
comments to the Committee for the record on the contributions of the 
transportation sector to address climate change, and the potential 
impacts of climate change on the Nation's transportation 
infrastructure.
    Established in 1908, RSI is the international trade association of 
the rail and rail rapid transit supply industry. We have over 200 
members who provide goods and services to our Nation's freight and 
passenger railroads as well as our rail transit systems. RSI estimates 
that the domestic railway supply industry approaches $25 billion in 
annual revenues and employs 150,000 people.
    Many Americans are still trying to understand what climate change 
is and what needs to be done to address it. What Americans do 
understand is the cost of oil and the penalties we all must pay for 
being overly dependent on foreign oil. The fact remains that the more 
we can reduce our dependence on fossil fuels the more likely we are to 
reduce greenhouse gas (GHG) emissions that impact climate change.
    Transportation consumes 7 out of every 10 barrels of oil consumed 
in the United States. Highway transportation dominates both energy use 
and GHG emissions, accounting for 72 percent of transportation energy 
use and carbon emissions in the Nation. The United States 
transportation system is the largest in the world, is a major source of 
global GHG emissions, and is almost entirely responsible for our 
Nation's dependence on oil as the major source of energy. While the 
United States has only 4.5 percent of the world's population, it uses 
25 percent of the world's oil. About 60 percent of U.S. oil is 
imported. Clearly this suggests that until we have alternative fuels 
that can be economically employed on a wider scale, we must depend more 
on encouraging the development of the most efficient modes of 
transportation. In turn, that will help us achieve a reduction in GHG 
emissions.
    Rail transportation is efficient and we need to focus more 
attention on investing in rail as a way to fight GHG emissions, reduce 
vehicle miles travelled (VMT) and improve fuel efficiency. The 
transportation investments made now will impact future transportation, 
environmental and social investments so we need to start getting these 
decisions right. Robert Puentes of the Brookings Institution has 
suggested that ``America's transportation policy is adrift with no 
clear goals, purpose, or ability to meet today's challenges''. He 
suggests that policymakers are too focused on highways and transit and 
have ignored passenger and freight rail which may be part of the 
solution to addressing other key policy issues (such as dependence on 
foreign oil, congestion and climate change).
    Increased passenger rail should be part of the transportation modal 
shift required to address the proliferation of greenhouse gas 
production, while maintaining mobility. Furthermore, a strong, national 
railroad infrastructure helps to achieve some of our Nation's critical 
policy objectives:

  <bullet> reducing carbon emissions;

  <bullet> reducing congestion on our highways;

  <bullet> improving transportation safety;

  <bullet> reducing airport congestion;

  <bullet> efficiently utilize land for transportation purposes

  <bullet> reducing dependence on foreign oil; and,

  <bullet> enhancing our ability to move vast numbers of people in 
        emergency evacuation situations (e.g., 9/11 or Katrina).

    The 1973 events in the Middle East, which the French refer to as 
the ``oil shock'' changed the way of life for many in that country. The 
price of oil quadrupled and French policymakers saw only one way out 
for France--energy independence. The thought of being dependent for 
energy on a volatile region of the world such as the Middle East 
disturbed many French people. In the 1970s, the French decided that 
they could no longer afford to have an economy so dependent on imported 
oil.
    Now the U.S. is facing a 2008 ``oil shock'' and the answer is not 
to manipulate the cost of oil downward or drill for more oil offshore 
as some have suggested. No, the answer is energy independence first 
through utilizing the most efficient modes of transportation and then 
through alternative energy sources.
    While we may argue over the method employed by the French--higher 
oil taxes and a move to nuclear energy--there is no arguing over their 
strategy to stop depending on imported oil to fuel their economy.
    Today, the French are energy independent and are among the world 
leaders in lowering GHG emissions. One of the ways they have achieved 
this is by investing in electric high speed rail corridors throughout 
the country. Meanwhile the U.S. struggles with its addiction to oil and 
stands by idly as others develop energy efficient and carbon friendly 
high speed rail systems.
    We know that the high cost of fuel in Europe and Asia has promoted 
development of high speed rail and the results have demonstrated that 
once reliable and convenient rail passenger service is available it 
begins to impact mode-shifting away from the higher carbon producing 
modes, particularly as the cost of auto and air travel increase.
    Cost alone is not the true measure of our transportation policy. 
There is a cost of carbon, a cost of congestion and a very high cost of 
having a transportation system that is overly dependent on foreign oil. 
Transportation policy must focus on a reduction in vehicle miles 
travelled (VMT), less dependence on foreign oil, lower greenhouse gas 
(GHG) emissions, alternative to short distance air travel, reduction in 
congestion and realistic alternatives to driving.
    Finally, it is important to note that 2 years ago the Center for 
Clean Air Policy and the Center for Neighborhood Technology released a 
report on High Speed Rail and Greenhouse Gas Emissions in the U.S. This 
report used the 11 federally designated high speed rail corridors in 
the U.S. to estimate the annual GHG benefits if these high speed rail 
systems were developed as planned. The report concluded that high speed 
rail development in these corridors ``will generate substantial GHG 
savings in all regions''. All the evidence on fuel efficiency and 
carbon emissions points to the need to begin implementing these 
corridors now. We know what needs to be done and we need to find the 
will to do it.
    Thank you for the opportunity to present our views.
            Sincerely,
                                         Thomas D. Simpson,
                                    Executive Director--Washington.
                                 ______
                                 
         Prepared Statement of Stephen A. Alterman, President, 
                       Cargo Airline Association
    My name is Steve Alterman and I am President of the Cargo Airline 
Association (``the Association'' or CAA), the organization representing 
the interests of the leading U.S. all-cargo air carriers before 
Congress, Federal administrative agencies and the various states and 
localities throughout the United States.\1\ I also have the honor of 
being the current Chairman of the Environmental Subcommittee of the 
FAA's Research, Engineering and Development Advisory Committee (REDAC). 
On behalf of our air carrier association members, I appreciate the 
opportunity to comment briefly on aviation's place in the debate over 
global climate change.
---------------------------------------------------------------------------
    \1\ U.S. air carrier members of the Cargo Airline Association are 
ABX Air, Air Transport International, Atlas Air, Capital Cargo, FedEx 
Express, Kalitta Air and UPS Airlines.
---------------------------------------------------------------------------
    Initially, it is important to note that the all-cargo airline 
industry, and indeed the aviation community generally, has a record of 
achievement that clearly demonstrates a commitment to environmental 
sensitivity. For example, comparing the year 2007 with the year 2000, 
U.S. commercial airlines consumed 3 percent less fuel in 2007, while at 
the same time transporting over 20 percent more passengers and cargo. 
Moreover, between the years 1978 and 2007, fuel efficiency has improved 
by 110 percent.\2\ Therefore, the aviation sector of the economy has 
been able to stabilize its contribution to total greenhouse gas (GHG) 
emissions at approximately 2 percent of the total GHG emissions in the 
United States.\3\ While this record is enviable, it cannot and should 
not end the discussion of the future course of the climate change 
debate in the United States.
---------------------------------------------------------------------------
    \2\ Although not directly related to the global climate change 
debate, it is also significant that the industry's commitment to noise 
abatement has resulted in over a 90 percent reduction in the population 
exposed to significant aircraft noise since 1978.
    \3\ In contrast, electric utilities contribute over a third of the 
total GHGs and the ``emissions'' of cattle and other livestock 
contributes approximately 18 percent.
---------------------------------------------------------------------------
    For their part, U.S. airlines are not simply resting on their past 
accomplishments. As noted in the statement submitted to the Committee 
by John Meenan, Executive Vice President and Chief Operating Officer of 
the Air Transport Association (ATA) on June 24, 2008, ATA member 
airlines have already committed to an additional 30 percent system-wide 
fuel efficiency by the year 2025. The major cargo carriers are included 
in this commitment and Cargo Airline Association members have been in 
the forefront of developing and implementing new operational procedures 
and technologies that will increase efficiency and decrease fuel burn. 
These efforts will continue as the industry continually upgrades its 
aircraft fleet and works with the manufacturing sector on airframe and 
engine technology and with the Federal Government on a new generation 
of more environmentally sensitive aviation fuels.
    At the same time, the industry alone cannot achieve the 
enhancements that will be necessary in the coming years--especially in 
the current chaotic airline environment.\4\ Rather, both the 
legislative and administrative branches of government must recognize 
both the past achievements and future challenges in fashioning a 
program to ensure that the airline community meets its environmental 
goals--goals based on sound environmental science balanced with the 
operational realities of the air transportation system. If there were 
any doubt that Congress is fully engaged in the issue of global climate 
change, that doubt should be erased in reviewing the recently-
introduced Lieberman-Warner Climate Security Act (S. 3036).\5\ However, 
this proposed legislation would only exacerbate an already untenable 
position in the airline community. While not directly addressing the 
airline industry, the provisions of this bill would impose a 
substantial indirect fuel tax that would be paid to the oil companies 
and would not in any way address aviation environmental issues.\6\
---------------------------------------------------------------------------
    \4\ With fuel prices hovering around the $135 per barrel level, 
airlines have been forced to take drastic action to simply stay in 
business.
    \5\ It appears that this legislation will not move forward in this 
session of Congress, but it is likely that the same or similar 
legislation will be introduced early in 2009.
    \6\ The funds collected in this manner would simply reimburse the 
oil companies for the tax imposed on them and would not be funneled 
into aviation projects.
---------------------------------------------------------------------------
    What, then, should Congress do to address environmental issues in 
the aviation community? First, it should be recognized that FAA 
Reauthorization is, among other things, an environmental imperative. 
Quite apart from the ongoing debate over FAA funding, both the House 
(H.R. 2881) and the Senate (S. 1300) reauthorization bills contain a 
number of environmental initiatives that are necessary if the industry 
and government are to move forward to meet the environmental challenges 
of the coming years.\7\ The most far-reaching program is the proposal 
to establish a government/industry consortium to develop, mature and 
certify ``continuous lower energy, emissions, and noise engine and 
airframe technology'' (CLEEN), with the following specific goals to be 
accomplished by September 30, 2015:
---------------------------------------------------------------------------
    \7\ These challenges include, not only managing aviation's impact 
on global climate change, but also dealing with the continuing issues 
of aircraft noise and aircraft engine emissions that affect local air 
quality.

  <bullet> Development of certifiable aircraft technology that reduces 
        greenhouse gas emissions by increasing fuel efficiency by 25 
---------------------------------------------------------------------------
        percent relative to 1997 subsonic jet aircraft technology.

  <bullet> Development of certifiable engine technology that reduces 
        landing and takeoff cycle nitrogen oxide emissions by 50 
        percent, without increasing other gaseous or particle 
        emissions, over the International Civil Aviation Organization 
        standard adopted in 2004.

  <bullet> Development of certifiable aircraft technology that reduces 
        noise levels by 10 decibels at each of the certification points 
        relative to 1997 subsonic jet aircraft technology.

  <bullet> Determination of the feasibility of the use of alternative 
        fuels in aircraft systems, including successful demonstration 
        and quantification of the benefits of such fuels.

  <bullet> Determination of the extent to which new engine and aircraft 
        technologies may be used to retrofit or re-engine aircraft to 
        increase the integration of retrofitted and re-engined aircraft 
        into the commercial fleet. See, Section 602 of S. 1300.

    In addition, the proposed legislation establishes various 
environmentally-based pilot programs and permits airports to undertake 
studies and to apply for grants targeted to reducing adverse affects of 
aviation activity on the environment at their airports. Taken together, 
these initiatives would build on the progress already made in reducing 
the impact of aviation on the environment.
    The reason for detailing these prospective provisions is to 
emphasize that there are ways that the government and industry can 
together address aviation environmental issues by recognizing past 
successes and building on them--without imposing punitive taxes that 
would further cripple an already reeling industry. If it is impossible 
to enact a reauthorization package before the end of the current 
Congress, the Association urges the Senate to attempt to find another 
vehicle that would permit these important environmental provisions to 
move forward.
    Similarly, the FAA must be ``encouraged'' to expedite its program 
to modernize the airspace system. While this modernization has its 
roots in safety, efficiency and capacity gains, it also has a major 
environmental component. When more direct routings and approaches are 
possible, the immediate result will be less fuel use and a concurrent 
reduction in all emissions. The Association is encouraged by the 
appointment of a new FAA Senior Vice President for NextGen and 
Operations Planning and anticipates that this move will lead to short-
term gains that might otherwise be delayed. However, the modernization 
program in general is a difficult major paradigm shift in the way 
traffic is managed and the FAA, industry and Congress must work 
together to ensure its success.
    Finally, a unique opportunity may present itself when looking at 
the interrelationship between FAA Reauthorization and the environmental 
challenge. In view of the current impasse over FAA financing, all 
parties to the debate should be looking for a compromise funding 
solution. One such possible compromise might have positive 
environmental consequences. If the current excise tax system for 
commercial aviation were eliminated and replaced by an expanded fuel 
tax, carriers would have the incentive to save fuel by accelerating 
fleet modernization and the environment would benefit in the form of 
significantly decreased emissions.\8\ In addition, as noted by the 
Department of Transportation Inspector General in a report dated March 
3, 2008,\9\ ``. . . we found that jet fuel consumption is a better 
proxy for system use of the NAS than the current aviation excise taxes 
. . .'' \10\
---------------------------------------------------------------------------
    \8\ The Association does not specifically endorse such a system of 
FAA funding but feels that it should be explored as a potential 
compromise as the reauthorization debate moves forward. No final 
position on this type of funding can be taken until more details are 
developed.
    \9\ Department of Transportation Inspector General Report CR-2008-
028, ``Use of the National Airspace System'', March 3, 2008.
    \10\ The Report goes on to conclude that fuel consumption is not a 
perfect measure of system use, but it clearly indicates that such a 
measure is clearly better than the existing system. Department of 
Transportation Inspector General Report CR-2008-028, p. 3.
---------------------------------------------------------------------------
    In conclusion, we urge Congress to recognize the environmental 
record of the aviation industry when taking action in the sphere of 
global climate change. In addition, consideration should be given to 
finding a way to enact legislation that implements those portions of S. 
1300 that have environmental consequences. In the interim, the members 
of the all-cargo air carrier industry will continue to explore ways to 
improve its environmental performance while ensuring that it can 
continue to service its shipper clients around the world.
    Thank you for the opportunity to file these comments. If the 
Committee has any questions with respect to the positions advanced, 
please do not hesitate to contact me.
                                 ______
                                 
                National Association of Railroad Passengers
                                      Washington, DC, June 24, 2008
Hon. Daniel K. Inouye,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Mr. Chairman:

    The National Association of Railroad passengers appreciates your 
providing a forum to consider how the transportation sector can 
innovate and adapt to address increased demand in a manner which 
mitigates the negative impacts of global climate change. I ask that 
this letter be made part of the record in today's hearing.
    Based on 2005 data reported last year by the Oak Ridge National 
Laboratory, Amtrak energy consumption per passenger-mile was 17 percent 
lower than by airlines and 21 percent lower than by automobiles. 
However, these numbers may understate the rail advantage because:

        1. Amtrak ridership has increased since 2005 while its energy 
        consumption has been reduced.

        2. While airlines and auto owners are constantly investing in 
        newer, more fuel-efficient units, Amtrak's youngest locomotives 
        are 7 years old; the main fleet of road diesels was acquired 
        between 1996 and 2001. The well-known Acela train sets, due to 
        safety-related design changes, will remain over-powered until 
        additional passenger cars can be added.

        3. Oak Ridge numbers do not reflect the added environmental 
        damage that results from high-altitude emissions; there 
        apparently is not yet scholarly agreement on how to quantify 
        this added impact.

        4. Externalities:

                (a) The ability of trains to stimulate pedestrian- and 
                transit-friendly development in town centers such as at 
                Washington Union Station and in many other Amtrak-
                served communities of all sizes.

                (b) Good intermodal connections among trains and other 
                forms of transportation make public transportation more 
                attractive by more closely emulating the auto's 
                flexibility. Of particular note this summer is the 
                planned August opening of the St. Louis Gateway Station 
                which will give St. Louis Amtrak and Greyhound 
                passengers their first attractive, visible terminal, 
                and connection to local buses and the highly successful 
                light rail line (that serves both the airport and 
                Illinois suburbs).

    Amtrak is now in its sixth year of increasing ridership, one of 
many indications that Americans remain way ahead of policymakers in 
willingness to embrace energy-efficient travel. President Bush and many 
other leaders tend to focus on ``technology'' as the solution to our 
climate change and energy problems but to overlook the fact that the 
most feasible ``technology'' we have at our disposal is adequate 
development of train service, which our Association has been promoting 
since our founding in 1967.
    As Americans across the Nation struggle with record fuel prices and 
rapidly congesting roadways, the choice to ride trains, to some extent, 
has become a forced one--at least where seats are still available for 
sale. Amtrak's nationwide ridership jumped 11 percent in the last 7 
months--clear evidence that Americans are turning to intercity 
passenger trains in reaction to skyrocketing gas prices and turmoil in 
the airline industry.
    Now, the Nation needs to address the consequences of funding 
priorities that continue to neglect rail-transport--relative both to 
rail-development needs, and to Federal spending on other modes of 
transport. When people read reports of your good work on S. 294 and the 
House's recent passage of H.R. 6003, they are tempted to think that 
spending priorities have changed and ``real'' passenger train 
development is just around the corner. Last week's action on Fiscal 
2009 funding by the House appropriations subcommittee brought us back 
to reality. Tough budget limits and heavy demands by other programs 
limited the increase in passenger train spending to $144 million--
enough to cover the back pay recommended by Presidential Emergency 
Board 242 and increase the tiny U.S. DOT fund for matching state 
investments to $60 million from the current $30 million.
    Options to augment appropriated funds for passenger trains include 
an allocation of revenues from any cap and trade bill that may 
eventually become law, as well as tax credit and tax exempt bonds which 
Congress has considered as a high speed rail funding source.
    We, as a nation, have too long been building cities predicated 
largely upon the assumption that every citizen has an auto. Instead of 
planning communities which take into account the changes that come with 
economic and population growth, we have continually utilized 
instruments and methods to delay facing the consequences of this 
growth. This is reflected in the growing cost of transport. A new 
Brookings Institute report says transportation is now the second 
largest expense for most American households--consuming on average 20 
cents out of every dollar. The Surface Transportation Policy Project 
previously documented that transport takes a bigger share of household 
income where public transport is less developed. Auto-oriented housing 
configurations, in large part, limit the short-term relief the 
transportation sector can provide.
    Long-term costs benefit analysis of our options underscores the 
importance of today's decisions and how they will shape the landscape 
and potential of our future cities and networks. By expanding passenger 
train capacity, we can quickly allow more Americans to use trains to 
cut transportation costs, avoid traffic stress and air travel 
headaches, and minimize our oil dependence and negative impacts on 
climate change. Beyond that, we will lay the foundation for enabling a 
growing share of our population to enjoy the economic and quality-of-
life benefits that come with pedestrian-friendly development.
    Thank you for considering our views.
            Sincerely,
                                             Ross B. Capon,
                                           NARP Executive Director.
cc: The Honorable Ted Stevens
   Other Committee Members
                                 ______
                                 
               National Business Aviation Association, Inc.
                                      Washington, DC, June 23, 2008
Hon. Daniel K. Inouye,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Inouye:

    As the Senate Committee on Commerce, Science and Transportation 
considers climate change issues, I would like to take this opportunity 
to reaffirm general aviation's commitment to reducing aircraft 
emissions and protecting our environment. On behalf of our 8,000 
members across the country, National Business Aviation Association 
(NBAA) acknowledges that when it comes to general aviation operations, 
environmental stewardship is an imperative. We continually work to 
develop reasonable and balanced policies that support the industry's 
twin objectives of promoting mobility while minimizing its 
environmental footprint.
    Although the industry represents a tiny fraction of transportation 
emissions, general aviation has long led the way in promoting advances 
aimed at minimizing its environmental footprint. For example, 20 years 
ago, the industry developed winglets for general aviation aircraft, 
which optimize aircraft performance and flight range, and contribute to 
a more efficient fuel burn, thereby reducing emissions. This equipment 
is now in place on a large number of general aviation aircraft.
    The industry continues to reduce engine emissions through new 
technologies, which means that today's aircraft engines are cleaner, 
quieter, and more fuel-efficient than ever. In fact, general aviation 
turbine engines today are an average of 30 percent more fuel efficient 
than those certified in 1976--and 50 percent more fuel efficient than 
those introduced in the 1960s.
    Operational improvements supported by general aviation have also 
resulted in system efficiencies that help the environment Over 3 years 
ago, NBAA members began equipping aircraft--at their own cost--with 
cockpit technology allowing for Reduced Vertical Separation Minimums, 
or RVSM, which effectively doubled the system's airspace capacity.
    General aviation was also at the forefront of the development of 
automatic dependent surveillance-broadcast (ADS-B), the cornerstone for 
aviation system modernization and capacity expansion, because it allows 
for optimal efficiencies in routing, approaches and other uses of the 
aviation system.
    In addition, NBAA members supported the development of precision 
approach procedures, which likewise produce efficiencies by enabling 
operators to custom-tailor flight paths, minimizing fuel burn and 
noise, while preserving operational safety.
    Going forward, NBAA will continue to look for ways to further 
reduce our environmental footprint.
    We also believe that an effective way to reduce emissions is to 
continue the work already done to implement a more efficient Next 
Generation, or ``NextGen'' aviation system based on satellite 
technology. The Government Accountability Office has cited FAA data 
showing that ``the full implementation of NextGen could reduce 
greenhouse gas emissions from aircraft by up to 12 percent by 2025.''
    NBAA commends the Commerce Committee for its work to modernize our 
system and expedite the transition to NextGen. We support the recent 
Senate agreement on FAA funding and look forward to working with the 
Committee to complete work on FAA reauthorization and aviation system 
modernization this year, so that the potential for significantly 
reducing aircraft emissions can be fully realized.
    Thank you for your consideration of our comments. Please do not 
hesitate to contact me if you have any questions or would like 
additional information.
            Regards,
                                           Edward M. Bolen,
                                                 President and CEO.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Hon. John Porcari
    Question 1. What do you believe is the appropriate role for state 
transportation decisionmakers and planners in combating climate change?
    Answer. The next authorization of the highway/transit program 
provides an opportunity to begin incorporating climate change 
considerations into Federal transportation policy. The challenge in 
this authorization will be to institute effective policies for reducing 
greenhouse gas (GHG) emissions and adapting to the impacts of climate 
change, while minimizing Federal regulatory burdens and ensuring that 
the transportation system continues to deliver a high level of 
accessibility and safety for passengers and freight traffic.
    There are many ways to reduce GHG emissions from the transportation 
sector. Some solutions, including development of cleaner vehicle 
propulsion technology and fuels and improving fuel economy will largely 
be in the hands of manufacturers. GHG emissions can also be lowered by 
reducing transportation demand, including that in vehicle miles 
traveled (VMT); improving system operations and driver behavior; and 
providing modal alternatives. State transportation decisionmakers and 
planners may opt to pursue these options, but may be limited in part by 
funding and authority for implementing these various strategies.
    Major manufacturers are already working on the development of much 
more fuel-efficient vehicles, including conventional gas/electric 
hybrids, plug-in hybrids, hydrogen fuel cell vehicles, and electric-
powered vehicles. These innovations have the potential to provide a 
giant leap in energy efficiency and to reduce GHG emissions, without 
sacrificing safety or mobility. These types of breakthroughs are vital 
not only for reducing GHG emissions in the U.S. but also for reducing 
GHG emissions around the world, including developing countries. States 
can incentivize the adoption of these new technologies in many ways, 
including for example through the provision of tax credits or matching 
funds, leading-by-example in state fleets, and through support for 
pilot projects such as new fueling infrastructure.
    Beyond technological improvements, effecting a policy shift toward 
smart, green and sustainable growth requires transportation planners 
and land use planners to align interests to create new and redeveloped 
places that reduce dependence on driving. Mixed-use, interconnected and 
pedestrian-friendly neighborhoods providing access to homes, jobs, 
schools, and other destinations will help reduce trip-induced 
emissions.
    Recent evidence shows that VMT growth trends may be tapering off: 
rather than growing at 2 percent or more annually, VMT has been 
increasing at a modest one-half of a percent since 2004. And as we have 
all witnessed, VMT in recent months has declined further in response to 
sharply higher gasoline prices and economic forces. The recent VMT 
trends suggest that VMT growth is abating on its own, thereby lessening 
the need for Federal VMT reduction mandates. However, as long as VMT 
from carbon-based fuels is contributing to GHG emissions, we must link 
transportation and land use decisionmaking to reduce our dependence on 
oil and encourage the kind of land development and transportation 
choices that result in more climate-friendly, energy efficient, lower 
cost options for Americans.
    While better land-use planning can be an effective tool in reducing 
GHGs and the growth in VMT, most land use decisions tend to be under 
local government control and not the purview of the states. It is 
imperative however, that states not be left out of the critical 
pathways for decisionmaking, as regional, multi-jurisdictional and 
multi-state issues are important aspects of planning effective 
strategies to reduce GHGs. Recent focus on Metropolitan Planning 
Organizations to combat climate change would be improved by 
consideration of the appropriate state role during the process from 
planning to implementation. The challenge of addressing climate change 
should be done as part of the existing statewide and metropolitan 
transportation planning process. The planning process provides the 
appropriate venue for States and Metropolitan Planning Organizations 
(MPOs) to develop strategies for reducing GHG emissions from the 
transportation system, adapting the transportation system to the 
impacts of climate change, developing our land sustainably, and 
increasing the absorption of GHGs. And while funding is necessary for 
those responsible for the planning stage--which may be at any level of 
government, and if at the local level, can be enhanced by input from 
the state--the significant resources that are provided for the 
implementation of projects to combat climate change should be accorded 
primarily to states for prioritized investment reflecting the scope of 
needs across the state.
    GHG emissions should be addressed through a new framework that 
takes into account the global nature of the challenge. This framework 
will likely require new Federal direction, rather than relying on 
existing conformity requirements under the Clean Air Act, which are 
designed for pollutants that can be controlled on a local and regional 
basis. The air quality benefits of this process are difficult to 
discern, and compliance with the transportation conformity requirements 
has become increasingly complex and costly. The air has become cleaner 
in recent years, but much of the improvement has resulted from 
technology and increasingly effective EPA regulations requiring a 
transition to clean vehicle engines and fuels. Should a GHG conformity 
process be considered, it is important that states play a significant 
role in the development of this strategy, to ensure that GHG impacts 
are considered at a regional level and not at the level of individual 
projects.

    Question 2. As users of climate information and services, what type 
of data is most important to you and how do you think the Federal 
Government can improve the climate information and services it 
provides?
    Answer. Much more data and information is needed regarding climate 
change adaptation and the potential impacts from rising temperatures on 
the transportation system. The following information would be helpful 
to state Departments of Transportation:

  <bullet> Notification of high temperature days and the likelihood of 
        forest fires, to allow states to prepare for and conduct 
        evacuations.

  <bullet> Notification of changes in precipitation patterns and 
        specific severe weather events. Flooding stresses the capacity 
        of drainage systems, disrupts traffic management, and increases 
        highway incidents and damages pavement structure.

  <bullet> Information regarding sea level rise and impacts to coastal 
        areas. This information will allow the states to minimize 
        disruptions in connectivity and access to the transportation 
        network and provide reliable transportation services.

  <bullet> Information regarding storm activity, which can lead to 
        service disruption and infrastructure damage. Advanced 
        notification will assist the states to better prepare for and 
        conduct evacuations.

  <bullet> Information regarding average temperature increases, which 
        may require changes in materials, maintenance and operations.

    Additionally, prior to requiring states to measure GHG emissions, 
EPA and FHWA must work with the states and MPOs to develop functional 
GHG emissions models. Models are necessary to determine the overall 
statewide emissions and the emissions benefits of selected emission 
reduction strategies.
    Much more data will be needed to better understand and address 
transportation related emissions and mitigation strategies, 
particularly freight-related GHG emissions. Federal funding assistance 
will be needed to test, implement and evaluate a variety of solutions 
to address climate change.
    States are at various stages of tackling climate change and new 
data needs are emerging daily. States will need assistance in 
identifying effective strategies for their particular region and 
circumstances. AASHTO is establishing a Climate Change Program that 
will assist in identifying additional data needs and will work with the 
Committees of jurisdiction in Congress as well as with EPA and U.S. DOT 
to tackle these important issues.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Thomas R. Carper to 
                           Hon. John Porcari
    Question 1. We have had hearings in both this committee and in 
Environment and Public Works on freight movement. And most witnesses 
have called for a freight fund and single freight policy. This is 
because freight is moved by multiple modes of transportation on each 
trip--truck, train and ship. The system works better when we plan for 
the movement of the cargo as opposed to the machines moving them. It 
occurs to me that people are the same way. For example, I drive to the 
train station, take the train to DC and then walk to the office. What 
can we do during the transportation reauthorization to shift our policy 
toward moving people and goods instead of moving cars, trucks, ships, 
etc.?
    Answer. AASHTO's authorization recommendations include an approach 
to reforming the planning and project selection process which addresses 
precisely this question. AASHTO's proposal closely parallels ideas 
recommended by the National Surface Transportation Policy and Revenue 
Study Commission. We recommend a five-step process: First, Refocus 
highway and transit programs, for the most part, on objectives of 
genuine national interest. Second, Set national goals through which the 
objectives can be achieved. Third, Direct states and MPOs through their 
long-range plans to set targets through which they will seek to meet 
the national goals. Fourth, Select investments which will help to 
achieve those targets. Fifth, Measure improvements in performance which 
show the progress being made toward achieving those targets and report 
on the results. It is during the project selection phase when state 
DOTs and MPOs would determine which projects or mix of projects would 
best help meet the goals and targets in question. At that point, they 
would have to get specific and determine which improvement in which 
mode would be the best solution to the problem.
    One key way to ensure effective decisionmaking and investment at 
the state level is to provide sufficient flexibility to states to shift 
resources between programs and modes. Flexibility across the programs 
and modes combined with performance measures will greatly improve the 
mode-neutrality of planning and implementation and improve the outcome 
of Federal investment for a better transportation system.

    Question 2. Transit agencies across the country are struggling to 
meet increasing demand resulting from high gas prices. At the same 
time, more people are turning to transit as a clean, affordable way to 
travel. In fact, the typical public transportation user on average 
needs to buy half as much gasoline as a person without access to 
transit. Is the Federal investment in public transportation adequate to 
serve the public in an era of high gas prices?
    Answer. From our perspective in Maryland, the answer is no--Federal 
investment is not adequate to serve our bus and rail transit needs. Our 
local communities and large municipalities are struggling to meet the 
needs of rapidly growing bus demands, and the Federal New Starts 
program is underfunded and ill-constructed to help communities tackle 
other transit needs.
    AASHTO's transit authorization proposal calls for progressively 
increasing funding for transit over the six-year authorization period, 
totaling $93 billion over the six-year period. In addition, the 
proposal calls for establishing transit-supportive policies to enable a 
doubling of ridership to more than 20 billion by 2030 and 50 billion by 
2050.
    In Maryland, our climate change commission report calls for 
doubling transit ridership by 2020 but we will need significant support 
from the Federal Government to do this and urge Congress to consider 
supporting at least the level of funding proposed by AASHTO. The 
economic downturn and higher gas prices are impacting the ability of 
many states to increase transit options. Obviously Maryland, compared 
to less-urbanized states, can and will rely more heavily on transit to 
solve our transportation issues, however, AASHTO's call for increased 
transit investment is a clear sign that transit is seen as part of the 
solution for states across the Nation.

    Question 3. Several studies have shown that transportation plans 
are far more efficient and more effective at reducing greenhouse gas 
emissions when they are integrated with local land use and development 
plans. What role should the Federal Government play in helping ensure 
that its transportation investments are paired with good local land-use 
decisions to ensure that maximum the taxpayers' investment and to 
reduce emissions? What are state governments doing to address this?
    Answer. The statewide and metropolitan planning process requires 
consideration of ways to ``promote consistency between transportation 
improvements and State and local planned growth and economic 
development patterns.'' By maintaining this provision, Congress should 
continue to encourage strong linkages between transportation and land 
use plans.
    States are increasing their efforts to link transportation and land 
use planning, while respecting local government's traditional role in 
making land use decisions. In States that are seeing increased growth, 
the current relationship has caused tensions. This said, many local 
governments are beginning to adapt their land use plans to encourage 
more energy-efficient land use patterns. AASHTO's authorization 
policies ask Congress to support these State and local efforts by 
increasing funding for joint initiatives to coordinate transportation 
and land use planning, including creation of a new Transportation and 
Land Use Program to replace the existing Transportation Community and 
System Preservation (TSCP) Program. Under this proposal, the former 
TCSP program would be transformed into a merit-based, competitively 
awarded discretionary program funded at $100 million per year, with 
increased funding and emphasis on sustainability and quality of life. 
Funds would be allocated through a competitive application process by 
USDOT to States, MPOs, or local governments for:

  <bullet> Programs and projects that support focused growth, infill 
        housing, and transit-oriented development.

  <bullet> The integration of context sensitive solutions.

  <bullet> Programs that support local planning and policy programs and 
        local technical assistance to better link transportation and 
        land use strategies to preserve fragile natural and human 
        environments.

  <bullet> Programs and projects that improve connectivity within and 
        between modes for passenger and freight traffic and use 
        operations and management strategies to improve efficiency of 
        the transportation system, avoiding the need for capacity 
        increases.

  <bullet> Programs and projects to ensure efficient access to jobs, 
        services, and centers of trade.

  <bullet> Transportation programs to reduce GHG emissions and increase 
        GHG absorption.

    AASHTO's authorization proposals also call for Congress to increase 
the Federal share for transportation projects explicitly designed to 
support sustainable land use and focused growth strategies and to 
reduce the rate of growth of VMT. Finally, AASHTO is calling on 
Congress to provide funding for transportation from climate change 
legislation to help address GHG reduction. A strong state role will 
help improve the viability of the investment decisions.

    Question 4. Right now, the Department of Transportation is divided 
into agencies responsible for a single mode of travel. Further, when I 
was Governor of Delaware, I found that if we decided to build a road, 
we could get 80 percent of the funding from the Federal Government. If 
we chose to invest in transit, we might only receive 50 percent. 
However, if we decided the best, lowest cost investment was in 
passenger rail, we got no Federal funds at all. How does this impact 
the goal of intermodalism? And how might it interfere with the 
development of an integrated, efficient transportation system?
    Answer. As the Secretary of a multimodal agency, I agree that the 
current system is flawed and needs to be revised. Inadequate 
investments have resulted in gaps in our transportation system, 
lowering transit or rail ridership, increasing aviation and highway 
congestion, raising VMT and GHGs, and lowering system effectiveness for 
all users. Investment in multi-modal projects and intermodal connectors 
should be enabled through changes in flexibility, funding levels, the 
provision of contract authority, and through a more equitable and 
simplified Federal approval process.
    AASHTO's authorization policies call for the Federal share of 
transit projects (including New Starts) to be a minimum of 80 percent 
and for the establishment of a dedicated account for intercity 
passenger rail funded at an 80 percent Federal share for capital 
improvement projects. This Federal allocation requirement would aid in 
the selection of intermodal infrastructure investments and help move us 
closer to a seamless transportation system.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Hon. Thomas J. Barrett
    Question 1. The Federal Government has ceded most of the 
decisionmaking about what types of transportation assets are built and 
used by most Americans to the states, localities, and private sector. 
While this decentralized control of planning has certain benefits, it 
also presents challenges to ensuring that nationwide goals are achieved 
in a uniform fashion, particularly in the face of a rapidly developing 
crisis like climate change. Do you believe that we must reassert a 
strong Federal role in planning and shaping transportation 
infrastructure and usage to ensure that nationwide goals are achieved, 
such as reducing fuel consumption and emissions?
    Answer. We need to proceed carefully in addressing the challenges 
of greenhouse gas emission reductions and fuel economy in the 
transportation sector while maintaining the mobility and connectivity 
that is critical to national economic growth. Finding a balance between 
these goals, through fuel economy standards and in other ways, is best 
achieved through uniform national standards rather than a patchwork of 
different requirements across the states. We continue to believe, 
however, that regional transportation investment decisions themselves 
are best made by State and local governments because they know the 
transportation problems in their areas and can work with us to tailor 
the best options to address those problems.

    Question 2. Did the National Highway Traffic Safety Administration 
(NHTSA) base the new fuel economy standards in its notice of proposed 
rulemaking on the average fuel economy standards for passenger cars and 
light trucks for model years 2011-2015 on the assumption that gas 
prices would be only $2.31 per gallon in 2015? If so, can you explain 
to the Committee the foundation of this extrapolation? What is the 
relationship between this number and the fuel economy standards that 
the NHTSA will ultimately issue?
    Answer. In its notice of proposed rulemaking, the agency used the 
reference case in the most up-to-date Department of Energy/Energy 
Information Administration's (EIA) gasoline price projections then 
available. The retail fuel price forecasts presented in EIA's Annual 
Energy Outlook 2008 span the period from 2008 through 2030. Measured in 
constant 2006 dollars, the reference case forecast of retail gasoline 
prices during calendar year 2015 is $2.32 per gallon, $2.42 per gallon 
during 2020, rising gradually to $2.51 by the year 2030 (these values 
include Federal, State, and local taxes).
    Gasoline prices, along with other economic and engineering 
assumptions, can affect the stringency of the standards. NHTSA sought 
comments on its assumptions for gasoline prices. The comment period 
closed on July 1, 2008. NHTSA is currently evaluating the comments it 
received. These comments will be considered in determining the final 
assumptions and the final standards.

    Question 3. What is the methodology that the NHTSA uses to classify 
cross-over vehicles as either passenger cars or light trucks in the 
NHTSA's Notice of Proposed Rulemaking?
    Answer. The NPRM followed NHTSA's regulatory definitions for 
classifying vehicles as passenger cars or light trucks. The definitions 
are contained in 49 CFR Part 523. Essentially, a vehicle may be 
classified as a light truck for one of two reasons: either because (1) 
it has off- highway capability, or (2) it has some functional 
characteristic that makes them ``truck-like.'' If a vehicle does not 
meet the definition of ``light truck,'' it is classified as a passenger 
car.
    A vehicle is off-highway capable, and therefore a light truck, per 
523.5(b), if it is either 4WD or over 6,000 lbs GVWR and meets 4 out 
of 5 ground clearance characteristics, like approach angle, departure 
angle, running clearance, etc.
    Alternatively, a vehicle may be classified as a light truck if it 
is designed to perform at least one of the following functions, as laid 
out in  523.5(a):

  <bullet> It transports more than 10 persons;

  <bullet> It provides temporary living quarters;

  <bullet> It transports property on an open bed;

  <bullet> It provides greater cargo-carrying than passenger-carrying 
        volume; or

  <bullet> It permits expanded use of the automobile for cargo-carrying 
        purposes or other nonpassenger-carrying purposes by removing or 
        stowing the back seats to create a flat surface. (Starting in 
        MY 2008, vehicles may qualify as light trucks under this 
        criterion if they have 3 rows that fold or stow to create a 
        flat surface.)

    NHTSA sought comment on its classification system in the NPRM and 
is currently deliberating on this issue in developing the final rule.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Thomas J. Barrett
    Question 1. There has been significant Federal research undertaken 
on technologies to reduce the emissions of trucks that move freight. 
Can you tell me what parallel efforts have been made by your agency 
regarding freight rail?
    Answer. The Federal Railroad Administration and the rail industry 
are pursuing several research programs focused on locomotive emissions 
reduction. For example, FRA has provided grants to Norfolk Southern 
Railroad and its partners, General Electric and New York Air Brake for 
the LEADER (Locomotive Engineer Assist/Display Event Recorder) project. 
The LEADER project is a tool for assisting locomotive engineers to 
operate trains more efficiently by maximizing the use of braking and 
power. The project has been successful in providing fuel savings (and 
therefore reducing emissions) of 15 percent.
    In addition to the LEADER project, FRA has developed an in-situ 
emissions measurement system. This device is a portable emissions 
measurement system that will allow easy and frequent emissions 
measurement. Currently it measures some criteria pollutants (such as 
NO<INF>X</INF>), but it does not measure particulate matter (PM). 
Future research will focus on PM measurement. Emissions measurement at 
regular intervals can promote engine efficiency, thereby reducing 
NO<INF>X</INF> and other pollutants.
    New research promises exciting future opportunities in emission 
reductions. The U.S. Army has sponsored a locomotive development 
program for a fuel cell locomotive, which has the potential for greatly 
reduced emissions. Locomotive manufacturers are also working to develop 
a road hybrid locomotive which captures the energy dissipated in 
dynamic braking.
    The rail industry is pursuing a number of initiatives. One of the 
more successful areas are so-called Genset locomotives that use three 
smaller (700 HP) size truck-type diesel engines, which can be 
automatically turned off when the tractive effort demand is less than 
the peak demand. These ``switcher'' locomotives save 50 to 60 percent 
in fuel consumption, thus substantially reducing overall emissions. 
Burlington Northern (BN) and Union Pacific (UP) already use switchers 
in California and Texas. The Genset concept is being extended to road 
locomotives with four 700 HP diesel engines for the equivalent of a 
3000 HP locomotive. The industry has also adopted Auto Stop/Start 
systems (which allow locomotives to be shut down to reduce idling and 
the related emissions) and Auxiliary Power Units (APU) are also being 
used by the industry to provide air and heat instead of idling 
locomotives for these needs.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Thomas R. Carper to 
                         Hon. Thomas J. Barrett
    Question 1. The transportation sector is responsible for about \1/
3\ of our greenhouse gas emissions, making it among the largest 
emissions sources in our economy. How should U.S. surface 
transportation policy be updated to support the goals of climate change 
legislations? Should the transportation sector be responsible for \1/3\ 
of the emissions reductions necessary to meet targets science says is 
necessary?
    Answer. In 2007, the transportation sector accounted for 28 percent 
of total greenhouse gas emissions and 34 percent of carbon dioxide 
emissions (2007). The CO<INF>2</INF> emissions of the combined 
commercial and residential electric power sectors, however, accounted 
for 39 percent of CO<INF>2</INF> emissions, making electric power 
generation the largest source of CO<INF>2</INF> in our economy. 
Greenhouse gas mitigation strategies vary in their cost-effectiveness, 
and generally stationary source measures have been found to be more 
cost-effective than transportation mitigation strategies.
    As we develop strategies for reducing greenhouse gas emissions, we 
must be mindful of the indispensable role that transportation plays in 
sustaining and improving our economy, facilitating our trade, and 
ensuring the Nation's mobility and connectivity. Our approach for 
reducing emissions focuses on: improving vehicle efficiency; increasing 
the use of alternative fuels; advancing the efficiency of the 
transportation system (often by promoting market-based measures, such 
as congestion pricing); and improving our understanding of the impacts 
of climate change on transportation infrastructure. Additionally, while 
mandates and regulations have their place, new technologies and private 
sector innovations should be at the center of our national effort to 
curb emissions. We must address climate change in a way that does not 
compromise the competitiveness of our transportation providers or the 
shippers and passengers that rely upon them.

    Question 2. Airport congestion is a major problem. We've seen many 
airlines shift toward flights consisting of many short hops rather than 
longer direct flights. Couldn't much of this short-hop air travel be 
shifted onto passenger rail if we put the resources into developing a 
network of convenient, high-speed service? Would that help relieve 
pressure on our airports? What would be the impact on greenhouse gas 
emissions?
    Answer. As part of its environmental review of proposed airport 
enhancement projects, the Federal Aviation Administration (FAA) 
examines whether other modes of transportation or other congestion 
management actions might be appropriate alternatives or satisfy part of 
the demand for air travel as part of environmental review of proposed 
capacity enhancement projects. Passenger rail travel may be competitive 
for some trips greater than 150 miles in markets with frequent rail 
service such as through the Northeast Corridor, or mid-range trips 
between 250 and 500 miles where connections are direct and efficient. 
Travelers consider time, cost, and frequency of service in making 
choices about how they travel. In addition, the experience of the 
European Union, which has \1/3\ the land area and a more highly 
urbanized population than the United States shows that passenger rail 
services require enormous subsidies.
    Current tools for estimating greenhouse gas emissions from 
different modes of transportation are limited, except for aviation. The 
FAA has developed the System for Assessing Aviation's Global Emissions 
(SAGE) model. SAGE is recognized as one of the premier models in the 
world for analyzing aviation greenhouse gas emissions and has been used 
by the United Nation's International Civil Aviation Organization and 
the Intergovernmental Panel on Climate Change. DOT's Center for Climate 
Change and Environmental Forecasting has funded some work on tools to 
compare emissions across modes, and FAA is doing extensive research on 
identifying emissions from aviation.

    Question 3. Right now, the Department of Transportation is divided 
into agencies responsible for a single mode of travel. Further, when I 
was Governor of Delaware, I found that if we decided to build a road, 
we could get 80 percent of the funding from the Federal Government. If 
we chose to invest in transit, we might only receive 50 percent. 
However, if we decided the best, lowest cost investment was in 
passenger rail, we got no Federal funds at all. How does this impact 
the goal of intermodalism? And how might it interfere with the 
development of an integrated, efficient transportation system?
    Answer. Federal surface transportation programs have increasingly 
emphasized flexibility for States and local areas to choose 
transportation solutions that best meet their needs. This flexibility, 
however, has been limited by spreading Federal transportation funds 
over more than 100 programs and the proliferation of project-specific 
Federal earmarks. The Administration's new plan to refocus, reform and 
renew the national approach to highway and transit systems in America--
announced on July 29--would consolidate Federal programs into a 
manageable few, and give grantees the authority to make worthwhile 
infrastructure investments, regardless of whether those investments 
involve transit or highway projects. The proposal also increases the 
way communities can fund projects with innovative financing mechanisms, 
such as private activity bonds, State infrastructure banks, and Federal 
credit flexibility.

    Question 4. We have had hearings in both this Committee and in 
Environment and Public Works on freight movement. And most witnesses 
have called for a freight fund and single freight policy. This is 
because freight is moved by multiple modes of transportation on each 
trip--truck, train and ship. The system works better when we plan for 
the movement of the cargo as opposed to the machines moving them. It 
occurs to me that people are the same way. For example, I drive to the 
train station, take the train to DC and then walk to the office. What 
can we do during the transportation reauthorization to shift our policy 
toward moving people and goods instead of moving cars, trucks, ships, 
etc.?
    Answer. Building intermodal connections that provide real value to 
system users should be a central national goal, but the constraints on 
cross-modal funding in current law frustrate that objective. We address 
this problem directly in our recently announced reform proposal.
    For instance, the proposed metro mobility program is applicable to 
areas with populations greater than 500,000, areas that collectively 
generate 42 percent of the Nation's annual vehicle-miles traveled. This 
program enables performance-based transportation funding to supplant 
program and modal specific funding constraints. Funding is awarded 
through a competitive process, allowing multimodal flexibility in 
selecting projects for the movement of people and goods. Program 
projects must be Title 23 or Title 49 eligible, both of which include 
the flexibility to advance intermodal projects.
    Further, the proposed metro mobility and Federal interest highway 
programs target Federal funds on elements of the system that are in the 
national interest. This focus of Federal funds on areas of national 
interest enables State and local governments to direct their own funds 
to projects that meet State and local mobility priorities, regardless 
of mode. By allowing more local control of transportation funding, 
decisionmakers most familiar with the movement of people and goods in a 
particular area can develop intermodal projects that provide the 
greatest benefits and the greatest return on the Federal dollar.
    In regard to providing effective transportation access to America's 
treasures, such as our national parks, forests, and refuges, the 
Administration proposes combining the existing Federal Lands Highway 
Program with Transit in the Parks and Tribal Transit Programs to 
promote integrated transportation solutions where congestion is 
becoming a problem.
    Finally the Department's reform proposal also increases flexibility 
that stakeholders have to tap into existing financing mechanisms. 
Removing the national volume cap of private activity bonds (PABs) would 
allow greater private sector, tax-exempt investment in highway and 
freight transfer facilities. Enhanced flexibility for State 
infrastructure banks (SIBs) would allow States to capitalize SIB 
accounts to provide loans or other forms of credit to public and 
private entities for eligible highway, transit, and rail projects. And 
reform of the Transportation Infrastructure Finance and Innovation Act 
(TIFIA) would broaden the availability and enhance the attractiveness 
of TIFIA credit assistance, allowing flexibility to structure credit 
support for vital, non-mode specific infrastructure projects, including 
intercity bus and passenger rail.

    Question 5. Transit agencies across the country are struggling to 
meet increasing demand resulting from high gas prices. At the same 
time, more people are turning to transit as a clean, affordable way to 
travel. In fact, the typical public transportation user on average 
needs to buy half as much gasoline as a person without access to 
transit. Is the Federal investment in public transportation adequate to 
serve the public in an era of high gas prices?
    Answer. The Federal investment in public transportation has 
increased significantly over the last few years. Annual Federal funding 
for public transportation increased from $7.6 billion in 2005 to $9.5 
billion in 2008. The Administration's FY 2009 Budget proposes a total 
of $10.14 billion in Federal spending on public transportation, an 
increase of $644 million over 2008. This is a record level of funding 
and will help provide more transit service to accommodate increased 
demand.
    High gas prices increase both ridership on public transportation 
and the cost of operating public transportation. Due to high gas 
prices, public transportation ridership increased 2.4 percent for the 
12 month period ending in May 2008, over the previous 12 month period. 
The increase in ridership has helped cover the incremental costs 
associated with increased capacity utilization.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Dr. James M. Turner
    Question 1. The recent National Research Council report on the 
impacts of climate change on U.S. transportation recommended that 
scientists develop and implement monitoring technologies that could 
provide advanced warning of pending infrastructure failures due to 
weather and climate extremes on transportation facilities. Can you 
describe how NIST will respond to this recommendation?
    Answer. The National Institute of Standards and Technology (NIST) 
is directly addressing the recommendation of the recent National 
Research Council report that scientists develop and implement 
monitoring technologies that could provide advanced warning of pending 
infrastructure failures due to weather and climate extremes on 
transportation facilities. NIST is currently running a competition for 
proposals focused on developing solutions to the challenges of 
inspecting and monitoring civil infrastructures. The competition, 
``Advanced Sensing Technologies for the Infrastructure: Roads, 
Highways, Bridges and Water Systems'', is aimed at enabling the 
development of sensing systems for the effective measurement of 
characteristics such as fatigue, corrosion, stress, usage, and damage 
in these infrastructures. The sensing systems and measurements will 
provide critical information for infrastructure decision-makers as they 
reevaluate design standards in light of new climate extremes.
    NIST also has ongoing research programs on predicting the response 
of structures simultaneously exposed to multiple climatic hazards 
(e.g., high winds and storm surge), real-time infrastructural 
performance monitoring to provide advanced warning of pending 
transportation infrastructure failures due to weather and climate 
extremes, as well as the materials research aimed at improving the 
resilience and durability performance of infrastructural materials. The 
President's 2009 budget includes an initiative to look at Disaster 
Resilient Structures and Communities. This initiative will enable the 
development of a robust capability to predict the effects of hazards on 
the performance of complex infrastructural systems, such as roads, 
highways, and bridges, and is ideally suited to address the types of 
infrastructure failures that are predicted to accompany climate change.

    Question 2. What do you see as the greatest gap or deficiency in 
scientific research and information that NIST can address relating to 
climate change and transportation issues?
    Answer. NIST has identified as a gap the need for developing 
sensing systems and measurements to provide critical information for 
transportation infrastructure decision-makers as they reevaluate design 
standards in climate extremes.
    NIST also fulfills the need to develop the measurement science that 
rigorously monitors the impacts of the U.S. transportation 
infrastructure on climate change. A few of the activities in this area 
that NIST is currently addressing are:

  <bullet> The composition, volume, and weight standards for fuels and 
        oil to allow confidence in trading in low to high sulfur 
        content fuels in competitive markets. This covers everything 
        from measures and standards for fossil fuels and biofuels, and 
        from train cars of coal to gallons of gasoline at the pump.

  <bullet> Air Quality standards for sulfur dioxide and nitrogen 
        dioxide that enable automotive manufacturers to meet 
        Environmental Protection Agency (EPA) standards and generally 
        allow industry to tune and trade their emissions through the 
        EPA sulfur dioxide cap and trade system.

  <bullet> Composition of refrigerants in automotive air conditioning 
        systems to eliminate chlorofluorocarbons and find replacements 
        that minimize impacts on air quality and ozone in the upper 
        atmosphere.

  <bullet> Production of roadway materials, and the composition, 
        strength, and durability of road and bridge materials and 
        construction techniques to minimize GHG emissions.

  <bullet> Lightweight metal forming and composites to enable 
        manufacturers to have high performance, high durability and 
        safe materials to increase efficiency in the automotive and 
        aerospace industry.

  <bullet> Development of the measurement science and standards 
        infrastructure to support the development and implementation of 
        advanced alternative fuel sources such as hydrogen or biofuels.

  <bullet> Developing Smart Grid standards for plug-in hybrid 
        electrical vehicles scheduled to be in showrooms in 2010.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Thomas C. Peterson
    Question 1. In your opinion, what challenges do climate scientists 
face when attempting to produce and deliver climate information and 
services that are useful to transportation planners?
    Answer. There are two main challenges that we face. The first is 
understanding the exact needs of transportation planners. This means 
knowing what weather and climate conditions impact transportation and 
exactly what types of information and data about these weather and 
climate conditions transportation planners require. The second 
challenge flows directly from the first, namely, developing the climate 
information at the temporal and spatial scale transportation planners 
need. For example, a person planning an upgrade to a railroad track 
needs to know the temperature and precipitation extremes that the track 
is likely to experience not for the track as a whole but at critical 
locations along the track because the temperature extremes and 
precipitation level may affect the performance of the facility.

    Question 2. How is NOAA trying to address these challenges?
    Answer. To better understand user needs, NOAA actively engages with 
the transportation community. For example, in 2007, NOAA hosted a 
specialized Data Users workshop to identify the requirements of the 
energy, insurance, and transportation sectors, with respect to data and 
information needs in the context of a changing climate. Also in 2007, 
the Office of the Federal Coordinator for Meteorology convened the 
Third National Surface Transportation Weather Symposium. These meetings 
brought weather and climate information providers together with 
transportation planners to, among other things, enhance understanding 
of the weather and climate information needed for transportation 
decision support. Furthermore, NOAA personnel serve on the Committee on 
Climate Change and U.S. Transportation initiated by the Transportation 
Research Board.
    NOAA is working to expand weather services to encompass customer-
focused climate services as well as to help fulfill NOAA's strategic 
goal of supporting the Nation's commerce with information for safe, 
efficient and environmentally sound transportation. This takes on many 
forms. For example, NOAA has developed the Pacific Region Integrated 
Climatology Information Products and the Pacific Regional Integrated 
Science and Assessment (Pacific RISA), as well as RISAs in other parts 
of the country, to provide the climate information needed in the 
Pacific to manage risks and support practical decision-making in the 
context of climate variability and change. NOAA is working with the 
Federal Highway Administration to update atlases of maximum 100-year 
60-minute precipitation estimates on a fine enough scale to improve 
design flow estimates for improved design of highways.. The challenges 
of producing accurate climate model output at spatial and temporal 
scales fine enough for transportation planners are great and this is a 
research effort currently underway at NOAA and elsewhere. While the 
ultimate payoff on the promise of this work is still unrealized, NOAA 
is providing up to date output of this research which is growing 
increasingly useful to decision support. NOAA is providing climate 
model output that has been reprocessed to scales that are fine enough 
to provide the location specific information that transportation 
planners need. As hurricanes anywhere in the world impact shipping, 
NOAA is leading the creation of an International Best Track Archive for 
Climate Stewardship tropical cyclone database so planners can see 
exactly where hurricanes have been in the past. NOAA is providing the 
basic weather and climate data and information from the U.S. and around 
the world that transportation planners need to respond real time to 
weather and design transportation infrastructure to operate smoothly 
for climatic conditions anticipated over its lifetime.

    Question 3. Recently the U.S. Climate Change Science Program 
released its first assessment of weather and climate extremes in North 
America. Could you explain the significance of climate extremes, how 
such extremes may change in the future, and the expected impacts that 
these changes will have on transportation infrastructure and planning?
    Answer. As described in our paper on the implications of climate 
change on transportation,\1\ transportation is sensitive to changes in 
extremes. The release of the U.S. Climate Change Science Program (CCSP) 
report on weather and climate extremes in North America \2\ is quite 
relevant to transportation planning. Below is a table combining key 
information from the CCSP report on extremes and the National Research 
Council (NRC) report on impacts of climate change on U.S. 
transportation. \3\
---------------------------------------------------------------------------
    \1\ Peterson, Thomas C., Marjorie McGuirk, Tamara G. Houston, 
Andrew H. Horvitz and Michael F. Wehner, 2008: Climate Variability and 
Change with Implications for Transportation, National Research Council, 
Washington, D.C., http://onlinepubs.trb.org/onlinepubs/sr/
sr290Many.pdf, 90 pp.
    \2\ CCSP, 2008: Weather and Climate Extremes in a Changing Climate. 
Regions of Focus: North America, Hawaii, Caribbean, and U.S. Pacific 
Islands. A Report by the U.S. Climate Change Science Program and the 
Subcommittee on Global Change Research. [Thomas R. Karl, Gerald A. 
Meehl, Christopher D. Miller, Susan J. Hassol, Anne M. Waple, and 
William L. Murray (eds.)]. Department of Commerce, NOAA's National 
Climatic Data Center, Washington, D.C., USA, 164 pp. Available from 
http://www.climatescience.gov/Library/sap/sap3-3/finalreport/
default.htm
    \3\ Committee on Climate Change and U.S. Transportation, National 
Research Council, Potential Impacts of Climate Change on U.S. 
Transportation: Special Report 290, The National Academies Press, 
Washington, 296 pp.

------------------------------------------------------------------------
                         Likelihood of
    Extreme and        Continued Future    Key Impacts on Transportation
Direction of Change     Changes in this
                            Century
------------------------------------------------------------------------
Warmer and fewer     Very likely \4\       Positive impact on many forms
 cold days and                              of transportation by, for
 nights                                     example, causing less ice
                                            buildup on marine
                                            superstructure and easier
                                            maintenance of railroad
                                            tracks. However, in parts of
                                            Alaska where remote mines
                                            depend on ice roads, warming
                                            will limit the length of
                                            time that the ice roads will
                                            be open. Also, the thawing
                                            of permafrost caused by
                                            warming in the Arctic will
                                            result in subsidence of
                                            roads, rail beds, bridge
                                            supports (cave-in),
                                            pipelines, and runway
                                            foundations.
------------------------------------------------------------------------
\4\ Very likely
 means 9 out of 10
 times.
Hotter and more      Very likely           Increased railroad track
 frequent hot days                          buckling and highway
 and nights along                           rutting, more difficult
 with more frequent                         outdoor maintenance, and
 heat waves and                             decreased lift-off load
 warm spells                                limits on airplanes.
------------------------------------------------------------------------
More frequent and    Very likely           Increased flooding of
 intense heavy                              roadways, increases in road
 downpours and                              wash outs, overloading of
 higher proportion                          drainage systems, increases
 of total rainfall                          in soil moisture to the
 in heavy                                   point where they may affect
 precipitation                              structural integrity of
 events                                     roads, bridges and tunnels.
------------------------------------------------------------------------
Increases in area    Likely \5\ in         Negative impacts on river
 affected by         Southwest U.S.         transportation routes and
 drought                                    increased susceptibility to
                                            wildfires causing road
                                            closures.
\5\ Likely means 2
 out of 3 times.
------------------------------------------------------------------------
More intense         Likely                Greater probability of
 hurricanes                                 infrastructure failures,
                                            increased damages to road
                                            signs, lighting fixtures,
                                            and damages to harbor
                                            infrastructure from waves
                                            and storm surges.
------------------------------------------------------------------------

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Thomas C. Peterson
    Question 1. Over the past month, we've seen yet another disturbing 
trend in the Arctic. According to the National Snow and Ice Data 
Center, the average ice melt rate this May was 3,000 square miles per 
day faster than last May. As a result, the Arctic ice is now at the low 
levels seen at this time last year--leading to a likely repeat of last 
year's unprecedented ice melt.
    Answer. The National Snow and Ice Data Center (NSIDC) is closely 
monitoring sea ice conditions. While you are correct that melt rates 
were especially fast in May, the rate of ice loss subsequently slowed. 
As of early September 2008, the data at NSIDC actually show slightly 
more Arctic sea ice than at the same time last summer. Data for August 
indicate the second lowest August sea ice extent.

    Question 1a. At what point do we stop saying that each year's 
record, extreme ice-melt is a fluke and conclude that this is a new 
state of the Arctic that is here to stay?
    Answer. With the current major loss of multi-year ice it would be 
very difficult for the sea ice to return to conditions of the 1980s.\6\ 
Sea ice is retreating faster than anticipated by the models run for the 
Intergovernmental Panel on Climate Change Fourth Assessment Report.\7\ 
Contributions to this trend include a run of warm years due to natural 
variability plus an anthropogenic global warming signal produced rapid 
sea ice loss involving ice/ocean feedbacks (from albedo change) leading 
to a new state for Arctic sea ice. Models predicted summer sea ice loss 
after 2050, but because of the combination of these three factors, the 
Arctic appears now to be on a fast track for summer sea ice loss over 
the next decades. According to scientists at the NSIDC, the summer 
Arctic Ocean might be ice-free as early as the year 2030.\8\ An ice-
free ocean in summer would be a new state of the Arctic. Due to natural 
variations in weather patterns, the transition to this new state will 
not be a smooth process, but will instead be manifested as a jagged 
series of ups and downs in ice extent from year to year.
---------------------------------------------------------------------------
    \6\ Jinlun Zhang, Research Scientist at the Polar Science Center 
ran a sea ice model backward to see what it would take to return the 
ice to conditions before the recent melting. His model results 
indicated that it would take six to ten cold years, the likelihood of 
which is small. This work has not yet been published.
    \7\ Stroeve, J., M. M. Holland, W. Meier, T. Scambos, and M. 
Serreze (2007), Arctic sea ice decline: Faster than forecast, Geophys. 
Res. Lett., 34, L09501, doi:10.1029/2007GL029703.
    \8\ Renfrow, S., 2007: Arctic Sea Ice Shatters All Previous Record 
Lows, NSIDC Arctic Sea 
Ice News, 1 October, http://nsidc.org/news/press/2007_seaiceminimum/
20071001_press
release.pdf

    Question 1b. Has the decrease in ice thickness affected the melting 
of sea ice in the Arctic?
    Answer. The decrease in ice thickness has impacted the melting of 
Arctic sea ice as the extent of ice at the end of summer depends 
strongly on how thick the ice was the previous spring, at the start of 
the melt season. The thinner the ice in spring, the more easily it is 
melted out in summer. Thin ice is also more vulnerable to mechanical 
breakup by storms. As the ice breaks up it becomes easier for the 
individual chunks (termed floes) to melt. The sea ice cover has thinned 
substantially over the past few decades, and this has contributed to 
record low September ice extents that have been observed in recent 
years, such as in 2007.

    Question 1c. Can we expect for ice thickness to continue to 
decline?
    Answer. We expect ice thickness to continue to decline. Already 
more than half of the older, thicker sea ice in the central Arctic 
Ocean has been lost. This is part of a feedback cycle. Thinner ice in 
spring means more open water through summer. Dark open water areas 
absorb more of the sun's energy than the brighter ice cover. This helps 
to melt more ice, meaning even more open water. More heat in the ocean 
also results in slower ice growth in autumn, so that the ice the next 
spring is even thinner than before.

    Question 1d. A scientist at the U.S. National Snow and Ice Data 
Center has projected that without ``an exceptional sequence of cold 
winters and cold summers'' historic levels Arctic sea ice will not 
rebuild. What is the likelihood of several unusually cold winters and 
summers occurring given current climate projections?
    Answer. The Arctic region always has, and always will, be home to 
strong natural climate variability. Model results out of the University 
of Washington \9\ suggest that it could take six cold years to rebuild 
the thicker sea ice. The likelihood of six cold years in a row is 
small. A series of cold winters and summers is certainly possible, and 
the sea ice might recover somewhat in response. However, such recovery 
would only be temporary, and is expected to become less and less likely 
as the years pass.
---------------------------------------------------------------------------
    \9\ Jinlun Zhang, Research Scientist at the Polar Science Center 
ran a sea ice model backward to see what it would take to return the 
ice to conditions before the recent melting. His model results 
indicated that it would take six to ten cold years, the likelihood of 
which is small. This work has not yet been published.

    Question 2. Our Nation has billions of dollars invested in 
transportation infrastructure for the movement of goods and services--
infrastructure that will be impacted if transport patterns radically 
shift due to a warming, ice-free Arctic that opens new shipping routes. 
When will our ports, rail lines and other transportation infrastructure 
start to see the impact of such changing marine transport routes? Will 
it be sudden and disruptive, or a gradual change that our economy can 
slowly adapt to?
    Answer. At this point, it is difficult to ascertain when we can 
reasonably expect Arctic shipping to begin, because significant 
uncertainty exists about further sea ice melting, technology, 
infrastructure construction, and international treaties. Large scale 
shipping across a relatively ice free summer Arctic is unlikely to 
happen in the near future. Nevertheless, the U.S. and other Arctic 
nations are closely examining potential shipping routes in the Arctic 
Ocean. The effect of shipping on Arctic sea ice, and the reformation of 
sea ice each year, should be considered before such shipping begins.
    Further, the loss of Arctic sea ice is likely to coincide with 
other climate change impacts to transportation infrastructure 
elsewhere, such as compromised rail track due to extreme heat, storm 
surges and changes in water levels at ports, and extreme weather 
events, which will impact roads and bridges for trucks. A comprehensive 
response to climate change is necessary. Any change in international 
shipping routes can be expected to result in gradual change in freight 
movements as the transportation sector considers new infrastructure to 
take advantage of Arctic shipping and begins shifting freight movement 
patterns.
    On June 5, 2008, the Maritime Administration hosted an Arctic 
Transportation conference. The conference brought together industry, 
governmental and international transportation officials to focus on the 
careful and principled development of the immense Arctic Region as an 
emerging and valuable alternative ocean highway that will provide 
shorter travel distances for much of the world's international commerce 
and help relieve existing vessel congestion at the two major inter-
ocean canals. Conference members also discussed infrastructure impacts 
of transport of freight that may result from shifting ice conditions in 
the Arctic region. Conference members also considered port 
infrastructure policies and development that will be necessary for safe 
and environmentally sound transportation of freight in the Arctic 
region. The Maritime Administration is following up to ensure that 
potential Arctic transportation programs are established and has 
created a Marine Excellence Transportation Center for Arctic 
transportation policies.

    Question 3. Given that it can take 10 years to build a polar 
icebreaker, when should the U.S. Government make the policy commitment 
to acquiring new icebreakers for the Coast Guard?
    Answer. The Administration is currently conducting a policy review 
and an analysis of mission and infrastructure requirements in the 
Arctic, so it is premature to speculate on whether or when such a 
commitment could be made.

    Question 3a. The Senate Coast Guard authorization bill currently 
contains language providing for the construction of new polar 
icebreakers and the maintenance of the current fleet. Some members of 
the U.S. Senate, though, are trying to strip that language out of the 
bill. What would be the implications if our government fails to 
recapitalize the Coast Guard's fleet of polar icebreakers?
    Answer. POLAR STAR was commissioned in 1976 with a designed service 
life of 30 years. POLAR STAR is currently ``in commission, special'' 
caretaker status in Seattle, WA with a support crew of 34. POLAR STAR 
is not operational. The medium-class HEALY, a very capable science 
platform, was commissioned in 1999 with a 30 year designed service 
life, and will be operational for at least another two decades. Under 
current asset use assumptions, a major overhaul to reactivate and 
extend the service life of POLAR STAR or to further extend POLAR SEA's 
service life would be needed to extend the Coast Guard's heavy 
icebreaking capability past 2014. If the Coast Guard no longer has 
heavy icebreaking capability, the U.S. could look to assets not owned 
by the U.S. Government to meet any heavy icebreaking requirements.

    Question 3b. What do you believe this would do to U.S. capabilities 
in the Arctic? Should the government consider this a national security 
issue?
    Answer. Loss of U.S. heavy icebreaking capacity may impact the 
government's ability to access and exert jurisdiction over some waters 
in the ice-covered high-latitude Arctic. This could limit our ability 
to establish maritime domain awareness, assert sovereignty over our 
waters and Exclusive Economic Zone, and preserve our right to transit 
international straits. The Administration is currently conducting an 
Arctic policy process that should address national and homeland 
security issues.

    Question 3c. How would this impact our Nation's research and 
monitoring capabilities in the Arctic?
    Answer. Without heavy icebreaking capabilities, research and 
monitoring in the high Arctic would be limited to the Arctic summer. 
Due to its robust science capability, the medium-class icebreaker HEALY 
is the predominate icebreaker used for research support in the Arctic, 
including the mapping of the outer-continental shelf, so there should 
be minimal impact on the current research program. The HEALY would not 
be able to support all of the current research programs if the non-
science or non-Arctic missions traditionally performed by the heavy 
icebreakers POLAR SEA and POLAR STAR were transferred to the HEALY. 
U.S. research in the Arctic is frequently conducted on-board 
icebreakers operated by other countries, notably Canada, Sweden, and 
Russia. We will continue to work with our international partners and 
would need to collaborate more closely with these partners and look at 
heavy icebreaking vessels not owned by the U.S. Government to continue 
the research and monitoring capabilities where there are heavy 
icebreaking requirements.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Dr. G. Edward Dickey
    Question 1. Which of the recommendations you discussed in your 
testimony would be performed best by the states and which ones would be 
suited best for the Federal Government?
    Answer. The study committee of which I was a member specifically 
mentioned a leadership role for the Federal Government in four of the 
recommendations I discussed in my testimony: Recommendation #4: 
improving communications among transportation professionals, climate 
scientists, and other related disciplines, Recommendation #8: 
reevaluating and developing appropriate new design standards to 
accommodate climate change, Recommendation #11: new transportation 
planning regulations requiring inclusion of climate change in 
transportation and land use plans, and Recommendation #12: reevaluating 
the National Flood Insurance Program and Flood Insurance Rate Maps. 
(See response to question #2 for more specifics.) The Federal 
Government is also mentioned as a partner in research to develop more 
transportation-relevant decision support tools (Recommendation #5) and 
to develop and implement sensors and other ``smart'' technologies for 
long-term monitoring of climate change effects on transportation 
infrastructure (Recommendation #7).
    No recommendations were targeted solely for state action. 
Nevertheless, state agencies are mentioned as important partners in 
several recommendations: Recommendation #1: inventorying critical 
infrastructure facilities (along with local governments and private 
infrastructure owners), Recommendation #2: incorporating climate change 
into investment decisions (along with local governments and private 
infrastructure owners), Recommendation #3: adopting strategic, risk-
based approaches to decisionmaking (all levels of government), 
Recommendation #5: developing decision-support tools (along with 
Federal research agencies and universities), Recommendation #9: 
rebuilding or constructing new infrastructure to higher standards in 
vulnerable regions (along with Federal funding agencies), and 
Recommendation #13: providing incentives for regional and multi-state 
structures to address the regional effects of climate change (along 
with the Federal Government).
    Please note that the recommendations referred to in response to 
this question and subsequent ones are keyed to my oral testimony. The 
numbers will sometimes differ from those contained in the Committee 
report (Special Report 290: Potential Impacts of Climate Change on U.S. 
Transportation, TRB, 2008) because the report recommendations were 
combined or otherwise reorganized in the testimony in the interest of 
brevity.

    Question 2. How would you suggest Congress or the Federal 
Government proceed to implement the National Research Council's 
recommendations you outline in your testimony?
    Answer. The next steps for Congress and Federal agencies to 
implement the first four recommendations best suited for Federal action 
listed in the response to question #1 are detailed here:

        a. Recommendation #4: The National Oceanic and Atmospheric 
        Administration, the U.S. Department of Transportation (US DOT), 
        the U.S. Geological Survey, and other relevant agencies should 
        work together to institute a process for improved communication 
        among transportation professionals, climate scientists, and 
        those in other relevant scientific disciplines, and establish a 
        clearinghouse for transportation-relevant climate change 
        information.

        b. Recommendation #8: U.S. DOT should take a leadership role 
        along with professional organizations in the forefront of civil 
        engineering practice across all modes to initiate immediately a 
        federally funded, multiagency research program, focused on 
        reevaluation of existing design standards and development of 
        new standards as progress is made in understanding future 
        climate conditions and the options available for addressing 
        them. A research plan and cost proposal should be developed for 
        submission to Congress for authorization and funding. In 
        addition, it was recommended that U.S. DOT take the lead in 
        developing an interagency working group focused on adaptation. 
        (In the interest of time, this recommendation was not included 
        in the oral testimony.)

        c. Recommendation #11: Congress in reauthorizing current 
        surface transportation legislation should modify Federal 
        planning regulations to require that climate change be included 
        as a factor in the development of public-sector, long-range 
        transportation plans; eliminate any perception that such plans 
        be limited to 20 to 30 years; and require collaboration in plan 
        development with agencies responsible for land use, 
        environmental protection, and natural resource management to 
        foster more integrated transportation-land use decisionmaking.

        d. Recommendation #12: The Federal Emergency Management Agency, 
        which acts as the insurer of last resort for homeowners in 
        designated flood hazard areas, should reevaluate the risk 
        reduction effectiveness of the National Flood Insurance Program 
        in view of projected increases in intense precipitation and 
        storm activity from climate change. At a minimum, updating 
        flood insurance rate maps to account for sea level rise and 
        incorporate land subsidence should be a priority in coastal 
        areas.

    Question 3. Does the Federal Government have the organizational 
infrastructure in place to be responsive to those recommendations? If 
so, can you please identify that organization or office?
    Answer. I believe the organizational infrastructure is in place to 
start the implementation process. The study committee tried to be as 
specific as it could regarding which level of government and which 
Federal agencies should carry out the recommendations. Each 
recommendation identifies the organizational element the Committee 
believes is best suited to lead in implementing the recommendation; 
these are indicated in my response to question 2.

    Question 4. In your opinion, what would be an appropriate timeline 
to implement the recommendations?
    Answer. Implementation of the recommendations can begin almost 
immediately, without awaiting Federal action. For example, state and 
local governments and private owners of infrastructure can begin to 
inventory critical infrastructure (Recommendation #1) and incorporate 
climate change into investment decisions (Recommendation #2). 
Recommendations that build on existing experience can also be 
implemented rapidly. Two examples include making transportation an 
integral part of local emergency response plans, building on experience 
of locations where evacuation planning and emergency response are 
already part of transportation operations (Recommendation #6) and 
developing a mechanism for sharing best practices regarding responses 
to climate changes, building on existing technology transfer mechanisms 
(Recommendation #10). Other recommendations, however, will involve a 
long-term effort [e.g., reevaluating design standards (Recommendation 
#8), establishing better communications among transportation 
professionals, climate scientists, and other relevant scientific 
disciplines and creating an information clearinghouse (Recommendation 
#4)] or require new legislation [e.g., transportation planning 
regulations (Recommendation #11)].

    Question 5. As users of climate information and services, what type 
of data is most important to you and how do you think the Federal 
Government can improve the climate information and services it 
provides?
    Answer. One of the first tasks of transportation professionals is 
to identify the types of climate data they need to incorporate climate 
change into investment and engineering decisions. For example, 
transportation decisionmakers need to know which climate changes pose 
the greatest risks for their regions, what the impacts are likely to be 
at as fine-grained geographic scales possible (e.g., extent of 
incursion from sea level rise and storm surge combined with land 
subsidence) along coastal areas, and their likely timing. Information 
on the changes in the magnitude and frequency of extreme events is 
often more relevant than changes in the means and medians of 
distributions of the various measures of climate, such as temperature 
and precipitation. Many of these data are beyond the current state of 
the science. Nevertheless, Recommendation #4 suggests a process for 
relevant Federal agencies to take the lead in furthering information 
sharing and establishing a clearinghouse for transportation-relevant 
climate change information as it becomes available.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ted Stevens to 
                          Dr. G. Edward Dickey
    Question. Transportation is the largest industrial contributor of 
emissions to our atmosphere. Our society cannot function without 
transportation, however. How can we balance the need for transportation 
and the need to curb emissions?
    Answer. Transportation emissions are a function of the volume of 
traffic (i.e., ton miles or passenger miles) handled by each of various 
modes of transportation and the emissions intensity (e.g., emissions 
per ton mile) for each type of traffic. An increase in total 
transportation activity can be accompanied by a decrease in total 
emissions by the transportation sector by adapting technologies that 
reduce emission intensities (e.g., hybrid automobiles) and by 
redistributing traffic from a more emission intensive mode to a less 
emission intensive mode, e.g., by shifting commerce from trucks to 
railways or waterways. In encouraging modal shills care must be taken 
to ensure that public policy does not result in perverse outcomes by 
causing traffic to shift from a more intensive mode to a less emissions 
intensive mode with more circuitous routes.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             David Friedman
    Question 1. On April 22, 2008, the NHTSA released a notice of 
proposed rulemaking that would increase fuel economy standards for all 
cars and light trucks by 4.5 percent per year between 2011 and 2015. 
Mr. Friedman, do you agree with the assumptions NHTSA relied upon to 
calculate maximum feasible fuel economy standards?
    Answer. To put it simply, NO.
    Through the Energy Independence and Security Act (EISA), Congress 
led the Nation forward on fuel economy for cars and light trucks for 
the first time in more than three decades. But, instead of setting 
maximum feasible fuel economy standards as required by law, NHTSA did 
the bare minimum allowed by Congress due to a variety of faulty 
assumptions.
    Instead of doing the bare minimum to satisfy the law, NHTSA should 
put cars and trucks on a path to 42 mpg by 2020 and at least 50 mpg by 
2030. This would cut global warming pollution from new cars and trucks 
in half by 2030 and would save about 50 billion barrels of oil through 
2050.
    A recent UCS report indicates that automakers can cost-effectively 
boost the fleetwide average fuel economy of cars and trucks to 42 mpg 
by 2020 and to more than 50 mpg by 2030,\1\ with a modest 25 percent 
penetration of hybrids by 2020.\2\ Yet the recent notice of proposed 
rulemaking just barely gets cars and trucks on the road to the 35 mpg 
minimum by 2020, and assumes that hybrids don't enter the market until 
2014. Yes, despite the fact that there are more than one million 
hybrids on the road today, in 2008, and that the Toyota Prius is the 
9th best-selling car in America, the analysis NHTSA used assumes 
hybrids won't reach the market until 2014. People are not sitting 
around waiting for a hybrid to show up on a dealer's lot in 6 years. 
They are on 6 month wait lists to buy one because they are already so 
popular.
---------------------------------------------------------------------------
    \1\ http://www.ucsusa.org/assets/redesign-documents/clean_vehicles/
UCS-Setting-the-Standard.pdf
    \2\ http://www.ucsusa.org/news/press_release/new-fuel-economy-
proposal-star-0111.html
---------------------------------------------------------------------------
    There are a number of additional flaws in the base analysis that 
unnecessarily limit the benefits from the rule by limiting the 
application of available technology:

  <bullet> While gasoline prices soared above $3 per gallon this winter 
        and have hovered around $4 per gallon this summer, NHTSA relied 
        on projections of $2.25-$2.50 per gallon.

  <bullet> While carbon dioxide futures are currently trading at more 
        than $40 per metric ton in Europe, NHTSA used a value of $7 per 
        ton. NHTSA even considered $0 per ton to be in the range of 
        possible values. In the face of numerous economic analyses 
        which indicate that combating global warming will greatly 
        reduce the cost of adapting to climate change, factoring a $0 
        value into the rule is unacceptable.

  <bullet> NHTSA left out the military and strategic costs of America's 
        oil addiction.

  <bullet> NHTSA assumed light trucks would grow in market share, but 
        between 2005 and 2008 the market share of light trucks sold 
        from January to May dropped from 54 percent to 48 percent.

  <bullet> NHTSA based its rulemaking on costs and benefits on the 
        margin rather than the total costs and benefits of improved 
        standards.

  <bullet> For more details on these, and other flaws in the base 
        analysis, please see UCS's formal comments on the NPRM.\3\
---------------------------------------------------------------------------
    \3\ http://www.ucsusa.org/assets/documents/clean_vehicles/UCS-2011-
2015-CAFE-Comments
.pdf.

    Changes along these lines would redirect NHTSA's rule and EIS to 
illustrate the full potential of fuel economy standards. NHTSA's own 
analysis confirms that simply using more realistic gas prices or 
switching to an analysis based on total benefits would have led them to 
propose a fleetwide average of at least 35 mpg by 2015--five years 
earlier than the required minimum.\4\ Given the urgency of global 
warming, and the fact that removing CO<INF>2</INF> early on is 
essential to reducing the risks of dangerous climate change, NHTSA is 
significantly underestimating the potential environmental impact of 
increased fuel economy simply because they are failing to exercise 
their legal obligation to set standards at maximum feasible levels.
---------------------------------------------------------------------------
    \4\ Pages III-6, IX-12 and IX-13. in NHTSA's Preliminary Regulatory 
Impact Analysis for their proposed fuel economy standards for Model 
Year 2011-2015 cars and light trucks.

    Question 2. When predicting the future costs of greenhouse gas 
emissions, NHTSA cites a $7 per ton value on global warming pollution. 
The Europeans assign a value of $40 per ton. Which value do you believe 
best approximates the costs of global warming? Why?
    Answer. Both are too low, but at least the value from Europe is a 
start. The value in Europe is based on ``avoidance costs,'' i.e., what 
it might cost to avoid the worst impacts of climate change. Given that 
impacts like the death or displacement of tens of millions in India due 
to sea level rise, or the cost of increase air pollution in the U.S. 
from warmer temperatures, devastation of spring and summer water 
supplies in places like California that rely on snow melt for drinking 
and irrigation, and many other impacts, the cost of climate change is 
going to be much higher than the cost of avoiding the worst impacts. 
Research, such as the Stern report, indicates that costs of ignoring 
climate change may be as high as 5 percent of GDP while the cost of 
avoiding climate change may only be 1 percent of GDP.
    Further, Europe's current targets are not strong enough to avoid 
the worst impacts of climate change. Our world needs to dramatically 
cut global warming pollution if we are to avoid the worst impacts of 
climate change. For the U.S., that means cutting global warming 
pollution by 80 percent by 2050, plus significant progress along the 
way.

    Question 3. As users of climate information and services, what type 
of data is most important to you and how do you think the Federal 
Government can improve the climate information and services it 
provides?
    Answer. The list of important data is both too long and beyond my 
expertise to comprehensively discuss here.
    When it comes to improving climate information and services, first 
and foremost, the Federal Government needs to provide adequate funding 
to NASA, NOAA, EPA and the other important agencies that are part of 
the front line in developing information on the science, impacts, and 
solutions to climate change. Climate change represents the single 
biggest environmental security threat facing the Nation and the world 
and these agencies should be funded at a level that recognizes this.
    Further, the scientists and others working at government agencies 
should never be allowed to be muzzled and in fact, should be given 
clear protections in law when they speak out either about the 
importance of the problem or about the abuse of science within their 
agencies.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                             David Friedman
    Question. There have been several tax incentives targeted toward 
alternative fuel vehicles, including hydrogen fuel cells, mainly for 
passenger vehicles. Do you see similar value in adapting those 
incentives to other modes of transportation, such as rail, or more 
specifically fuel cell yard locomotives?
    Answer. Tax incentives can be very useful tools and should be put 
to work in ways that provide clear benefit to the Nation in return for 
the taxpayer dollars that are provided. This means their magnitude 
should be directly tied to the performance or benefits provided. The 
greater the benefit, the greater the incentive.
    That said, there are clear limits to what tax credits can do and 
they should not be seen as substitutes for a strong cap and trade 
system plus specific standards such as vehicle greenhouse gas 
standards, low carbon fuel standards, and policies to reduce vehicle 
miles traveled.
    To the specific question of rail yard locomotives, while the 
greenhouse gas benefits are not very significant, there are substantial 
local air quality improvements to be made in urban rail yards, ports, 
airports, and other commerce/shipping hubs that can be provided through 
electrification (whether through batteries or hydrogen fuel cells).
    Well designed tax incentives to encourage electrification of these 
commerce/shipping hubs could make sense, but the performance metrics 
associated with those tax credits should be based on both global 
warming pollution and public health performance. Many sensitive 
populations have their lives deeply impacted by these facilities and 
their needs and health should be addressed.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Thomas R. Carper to 
                             David Friedman
    Question 1. We have had hearings in both this committee and in 
Environment and Public Works on freight movement. And most witnesses 
have called for a freight fund and single freight policy. This is 
because freight is moved by multiple modes of transportation on each 
trip--truck, train and ship. The system works better when we plan for 
the movement of the cargo as opposed to the machines moving them. It 
occurs to me that people are the same way. For example, I drive to the 
train station, take the train to DC and then walk to the office. What 
can we do during the transportation reauthorization to shift our policy 
toward moving people and goods instead of moving cars, trucks, ships, 
etc.?
    Answer. If the goal is to shift moving people and goods in ways 
that will address global warming, save money, and reduce our oil 
addiction a top priority in the transportation reauthorization should 
be to tie Federal funding to the lifetime global warming pollution 
performance of any project funded. At the end of the day, the Federal 
Government's strongest transportation infrastructure tool is the power 
of the purse and tying that purse to performance metrics linked to 
global warming pollution will help deliver what we need.

    Question 2. Transit agencies across the country are struggling to 
meet increasing demand resulting from high gas prices. At the same 
time, more people are turning to transit as a clean, affordable way to 
travel. In fact, the typical public transportation user on average 
needs to buy half as much gasoline as a person without access to 
transit. Is the Federal investment in public transportation adequate to 
serve the public in an era of high gas prices?
    Answer. No, the Federal investment in public transportation needs 
to be stepped up to help make the country more energy independent, to 
save consumers money and cut global warming pollution. As of 2001, less 
than one-third of the U.S. population lived within about a block of a 
bus line, while only about 40 percent lived within a half mile.\5\ The 
situation is even worse for rail, where only about 10 percent of U.S. 
population lived within a mile of a rail stop, while only about one 
quarter lived within five miles.\6\ We need to prioritize greater 
access to transit for Americans.
---------------------------------------------------------------------------
    \5\ Public Transit in America: Analysis of Access Using the 2001 
National Household Travel Survey, Center for Urban Transportation 
Research, University of South Florida, Tampa, February 2007.
    \6\ Ibid.
---------------------------------------------------------------------------
    The challenge, of course, in today's economy, is where to get the 
money? And the answer is user fees for highway and other road travel. 
We need to transition to user fees tied to congestion, pollution, and 
other important impacts that are not currently included in the daily 
cost of driving and that are relieved by increased use of public 
transportation. This is just basic economics, people should pay for the 
impacts of their road travel and the payments should be given right 
back to consumers in ways that mitigate the problems.

    Question 3. Right now, the Department of Transportation is divided 
into agencies responsible for a single mode of travel. Further, when I 
was Governor of Delaware, I found that if we decided to build a road, 
we could get 80 percent of the funding from the Federal Government. If 
we chose to invest in transit, we might only receive 50 percent. 
However, if we decided the best, lowest cost investment was in 
passenger rail, we got no Federal funds at all. How does this impact 
the goal of intermodalism? And how might it interfere with the 
development of an integrated, efficient transportation system?
    Answer. The same fundamental thing missing from America's broader 
energy and climate policy is also absent when it comes to 
transportation planning--an actual plan! Instead of looking at 
individual modes, we need to look at transportation, and all energy 
use, as a system and we need a comprehensive, long-term plan to move 
that system in a way that preserves mobility while saving money, 
cutting oil use and reducing pollution.
    There will always be a need for specialized groups within DOT in 
order for the agency to operate, but there needs to be a systems group 
that helps bring together each of the pieces to see how they work as a 
whole. This is similar to some of what has happened in the Energy 
Efficiency and Renewable Energy group at DOE. EERE has individual 
projects focusing on many alternative fuels and technologies, whether 
hybrids or fuel cells or biofuels or conventional vehicles and fuels. 
But recently, after encouragement from outside studies, they have 
created a whole group dedicated to looking at all the options at once. 
This will allow them to compare and contrast the options. Their work is 
in its early stages and it will not give us black and white answers, 
but it helps point to the more comprehensive approach that is needed.
    All of that said, if such a systems group is to be created, DOT 
will need more people and resources in areas that have gotten less 
emphasis, such as public transit and fuel economy.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ted Stevens to 
                             David Friedman
    Question. All modes of transportation currently rely on fossil 
fuels and there are no readily available alternatives. Since demand for 
oil is steadily increasing, how do we balance the need to increase 
domestic production of oil with a transition to alternative energy 
without compromising our transportation needs?
    Answer. Thank you for this question.
    Honestly, the data does not support the existence of a conflict 
between domestic production of oil and alternative energy because 
domestic production potential is too small and too long-term. Current 
debates around drilling in off-limits areas of the outer continental 
shelf highlight the issue. According to analysis from the Energy 
Information Administration, new OCS resources will not deliver in any 
significant amount until 2020, will have an insignificant impact on oil 
and gasoline prices even then, and will deliver only about 0.2 million 
barrels of oil per day, or 3 billion gallons of oil per year, between 
2020 and 2030.\1\ In comparison, EISA requires the use of at least 20 
billion gallons of advanced and cellulosic ethanol by 2022, or the 
equivalent of 15 billion gallons of oil per year. The potential for 
low-carbon alternative fuels dwarfs what is available from drilling on 
off-limits areas of the OCS and drilling.
---------------------------------------------------------------------------
    \1\ EIA, ``Impacts of Increased Access to Oil and Natural Gas 
Resources in the Lower 48 Federal Outer Continental Shelf,'' 2007, 
http://www.eia.doe.gov/oiaf/aeo/otheranalysis/ongr.html.
---------------------------------------------------------------------------
    Even ignoring the significant delays and low volume potential of 
resources such as off-limits OCS, the U.S. faces a fundamental mismatch 
between demand and domestic supply of oil. We simply cannot drill our 
way to improved energy security because our oil resources represent 
less than 3 percent of the world's supply while use about 25 percent of 
the world's oil.
    This fundamental mismatch points to the need for climate and energy 
policy that prioritizes reductions in demand while maintaining mobility 
and shifts to alternatives to oil.
    We have ignored rising demand for transportation fuel over the past 
two decades. Fuel economy was stuck in neutral while driving continued 
to grow. These are mistakes we cannot afford to repeat.
    Last year's energy bill (EISA) represented a good start by 
requiring the first mandated increase in fuel economy standards since 
the program first began. The Commerce Committee showed wisdom by 
including language that ensured that 35 mpg by 2020 was only a minimum, 
but NHTSA has not followed up on that wisdom and is only just barely on 
track to meet that minimum despite its own analysis indicating that 
existing conventional technology can bring cars and trucks to 35 mpg by 
2015, 5 years earlier. Analysis by the Union of Concerned Scientists 
indicates that the combination of existing technology and conventional 
hybrids would enable cars and trucks to go even farther on a gallon of 
gasoline to 42 mpg by 2020 and to 55 mpg by 2030.
    Taking this path toward improved energy security (42 mpg by 2020, 
55 mpg by 2030) would cut consumer costs at the pump by half and would 
reduce global warming pollution from new vehicles by the same amount. 
By 2030 the country would be saving about 4.5 million barrels of oil 
per day compared to business as usual*2 million barrels per day more 
than if we just did the minimum required by EISA. At today's oil price 
of more than $120 per barrel, that represents a national savings of 
nearly $200 billion-a-year. When compared to the potential for 0.2 
million barrels per day from off-limits OCS and effectively no consumer 
savings, it is clear that drilling should not be a priority, while 
efficiency should receive significant added policy attention.
    In addition to increased fuel economy, consumers need alternatives 
to cars and trucks. This will require increased funding for transit, 
car-pooling, and telecommuting. In sharp contrast to some recent 
proposals, highway trust funds should not be diverted away from these 
alternatives. In fact these alternatives need significantly more 
funding, which could be raised from per-mile fees that would cover 
wear-and-tear, the costs of congestion, and the environmental and 
energy security costs of oil use.
    Finally, since cars and trucks will remain an important part of 
personal mobility, additional renewable energy resources must be 
developed. This means increased reliance on low-carbon biofuels made 
from waste or other biomass resources that do not put pressure on the 
agricultural system. In the longer run it means a transition to cars 
and trucks that rely on electricity and hydrogen instead of liquid 
fuels. Significant amounts of electricity and hydrogen can be produced 
from renewable, domestic resources and will ultimately allow us to end 
our reliance on oil.
    Thank you.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                              Ed Hamberger
    Question 1. One method of regulating greenhouse gas emissions is a 
cap and trade system. How do you see an overall cap and trade system 
influencing the transportation marketplace?
    Answer. It would depend on the scope of the cap and trade system. 
For example, a cap and trade system that covered only the power 
generation sector would affect the mix of commodities carried by 
freight transporters as (1) the power sector moved away from carbon-
intensive fuels such as coal; and (2) the sector passed the subsequent 
higher costs of electricity production on to manufacturers, farmers, 
retailers and other commercial enterprises.
    A broader, economy-wide cap and trade system covering all sectors, 
including transportation, would likely lead to higher fuel prices and 
higher transportation rates. How these higher costs would ultimately 
play themselves out among all economic sectors is difficult to 
ascertain beforehand. Depending upon the stringency of the cap and the 
costs of compliance, one potential outcome is that the relative fuel 
efficiency of rail over truck transport would lead to a relative shift 
in freight traffic from truck to rail.

    Question 2. What impact do you think such a cap and trade system 
would have on overall coal loadings in the railroad industry?
    Answer. It would depend upon the nature of the cap and trade system 
that was enacted. A cap and trade system incorporating a ``safety 
valve,'' such as that found in S. 1766, would have a less significant 
impact on coal loadings than the system in S. 2191, which does not 
contain a safety valve. A second consideration would be the extent to 
which the emissions reduction timetable in a particular cap and trade 
system is in alignment with the expected commercial availability of 
carbon capture and storage (CCS) technology. Phasing in carbon 
reduction limits over a time period sufficient to allow CCS to mature 
would ensure that utilities are not forced to abandon coal generation 
as an option.

    Question 3. As users of climate information and services, what type 
of data is most important to you and how do you think the Federal 
Government can improve the climate information and services it 
provides?
    Answer. The rail industry depends more heavily on Federal weather 
data than it does on Federal climate data. Weather data is critical to 
day-to-day rail operations. Climate data is only relevant in terms of 
very long-term trends.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                              Ed Hamberger
    Question. As efforts are made to reduce the carbon footprint of 
individual modes, such as the experimental fuel cell locomotive under 
development--is there anything the Federal Government can or should do 
to promote or accelerate research and development of new technologies?
    Answer. We regret that the House is presently considering 
legislation to promote technologies to increase the fuel efficiency of 
medium-to-heavy duty commercial trucks--but not similar legislation to 
promote locomotive technologies. We find it similarly unfortunate that 
the Department of Energy for many years has funded heavy-duty truck 
fuel efficiency research, but not rail fuel efficiency research. We 
believe that public policymakers should treat both modes similarly.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Thomas Carper to 
                              Ed Hamberger
    Question 1. We have had hearings in both this committee and in 
Environment and Public Works on freight movement. And most witnesses 
have called for a freight fund and single freight policy. This is 
because freight is moved by multiple modes of transportation on each 
trip--truck, train and ship. The system works better when we plan for 
the movement of the cargo as opposed to the machines moving them. It 
occurs to me that people are the same way. For example, I drive to the 
train station, take the train to DC and then walk to the office.
    Answer. The industry has recently adopted a series of 11 principles 
that it plans to use to evaluate proposals to establish a Federal 
freight fund. These principles are attached.

    Question 2. Right now, the Department of Transportation is divided 
into agencies responsible for a single mode of travel. Further, when I 
was Governor of Delaware, I found that if we decided to build a road, 
we could get 80 percent of the funding from the Federal Government. If 
we chose to invest in transit, we might only receive 50 percent. 
However, if we decided the best, lowest cost investment was in 
passenger rail, we got no Federal funds at all. How does this impact 
the goal of intermodalism? And how might it interfere with the 
development of an integrated, efficient transportation system?
    Answer. Freight railroads are the backbone of North America's 
freight transportation network, accounting for more than 40 percent of 
all freight transportation. Yet capacity limits threaten to reduce the 
freight rail market share as well as encumber any expansion of 
passenger rail in coming decades. To address this economic and 
environmental challenge, the rail sector supports enactment of S. 1125, 
the ``Freight Rail Infrastructure Capacity Expansion Act.'' In terms of 
funding from the Federal Government, see answer to #1 (above).
                   Association of American Railroads
Final AAR Principles on Federal Funding of Freight Rail
    There is a growing consensus that the Nation faces transportation 
challenges that could threaten the competitiveness of U.S. producers 
and products and the mobility of our citizens. The opportunity exists 
for railroads to play a significantly-expanded role in addressing 
growing transportation congestion and related societal problems such as 
pollution, safety, and energy independence.
    Railroads are private companies that invest 17 percent of their 
revenue on capital spending for plant and equipment, a figure higher 
than virtually any other industry and five times the average for all 
manufacturing. Despite this record level of investment, future 
expenditures necessary to expand capacity to fully meet projected 
demand for railroad services and to meet other national objectives will 
be considerable.
    The rail freight community is prepared to contribute private 
capital to fund its share of proposed partnerships with the public 
sector. Public benefits--such as congestion mitigation and pollution 
reduction--which can result from projects associated with expanded 
freight utilization--are valid policy objectives for which public 
funding is appropriate. Public-private partnerships do not represent a 
subsidy of private beneficiaries, since a rail carrier will contribute 
commensurate with any benefits it may realize when it chooses to 
participate.
    If government policymakers determine that projects provide public 
benefits worthy of support, then policymakers must be willing to commit 
public funds commensurate with that determination, rather than relying 
on freight railroads to cross-subsidize the projects to the detriment 
of their own investment needs. Private freight railroads should be 
expected to participate financially in individual projects, but only 
based on the direct benefits they will receive.
    It is essential that private railroad investment continue to focus 
on network expansion and renewing and refreshing existing 
infrastructure. Railroads cannot also support the public's 
participation in and benefits derived from infrastructure projects.
    Accordingly, AAR subscribes to the following eleven Federal funding 
principles, which fall into three categories. The first nine principles 
assure that Federal funding will create sustainable partnerships with 
public entities while maximizing the public benefits found in rail 
projects. The tenth promotes freight rail as a solution to looming 
transportation challenges. The eleventh clarifies that grade 
separations do little to benefit rail capacity or rail productivity.

        1. Federal funding and policies must not reduce and should 
        encourage private investment in the Nation's rail system.

        2. In all public-private partnerships, public benefits should 
        be funded by public funds, and railroad benefits should be 
        funded by railroad funds.

        3. The same funding principles should apply to projects 
        involving other modes of freight transportation.

        4. If the Federal Government establishes a freight fund to fund 
        public benefits of freight rail projects, funding should not be 
        extracted from freight transportation providers or their 
        customers or disadvantage the economics of rail transportation. 
        Further, freight railroads should not be required to assess or 
        collect any fees. The rail logistics system should not be 
        saddled with increased costs to fund public benefits, either 
        directly or through a freight fund.

        5. Federal fees associated with a freight fund should preempt 
        state and local fees, unless there is mutual agreement among 
        the parties.

        6. Any involvement by a rail carrier in public-private projects 
        must be strictly voluntary.

        7. Federal funding of public benefits must not be in lieu of 
        the enactment of Federal investment tax incentives for 
        increased private investment.

        8. Federal funding must not be conditioned upon a change in the 
        present economic regulation of the rail industry or other 
        industry concessions.

        9. Federal funding must be executed in a manner that preserves 
        the rail industry's current ownership rights.

        10. Federal freight investment should focus on key 
        transportation projects with significant public benefits, such 
        as eliminating rail chokepoints, improving service to shippers, 
        facilitating international trade, reducing greenhouse gas 
        emissions, cutting vehicle miles traveled, and improving 
        safety. Such projects should be selected based upon 
        standardized, agreed-upon methodology.

        11. Grade separations must continue to be regarded as primarily 
        beneficial to the highway/road user. They do little to increase 
        freight rail capacity or improve rail productivity.
Additional AAR Principles on the Reauthorization of SAFETEA-LU
    In addition to its principles on Federal funding of freight rail, 
AAR's principles for the reauthorization of SAFETEA-LU include:

  <bullet> Support for separate funding for the Section 130 program;

  <bullet> Support for separate funding for intermodal connectors;

  <bullet> Support for funding for Operation Lifesaver;

  <bullet> Opposition (on economic grounds) to a thaw of the freeze on 
        longer and heavier trucks operating on the interstate highway 
        system; and

  <bullet> Support for public private partnerships such as CREATE and 
        the New Orleans gateway project.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ted Stevens to 
                              Ed Hamberger
    Question. Rail transportation is the most efficient in terms of 
miles per gallon of diesel (over 400 mpg). What can be done to get more 
passengers and freight on railroads while keeping in mind both still 
require other modes of transportation?
    Answer. Comprehensive, reliable, and cost-effective rail service is 
critical to our nation, and that, in turn. requires having adequate 
rail capacity. Railroads must be able to both maintain their extensive 
existing infrastructure and equipment and build the substantial new 
capacity that will be needed to meet much higher future freight and 
passenger transport demand.
    Our privately-owned freight railroads are working hard every day to 
help make sure America has the rail capacity it needs. They're re-
investing record amounts in their systems ($420 billion from 1980 to 
2007, or more than 40 cents out of every revenue dollar), adopting 
innovative new technologies and operating plans, and forging 
partnerships with each other, other transportation providers, and 
customers.
    Policymakers can help ensure that more freight and passengers move 
by rail by addressing a number of serious impediments to meeting the 
rail capacity challenge. A few of these impediments arc discussed 
briefly below.
Local Opposition to Rail Projects
    Under existing law, state and local regulations (other than local 
health and safety regulations) that unreasonably interfere with rail 
operations are preempted by Federal regulations. These Federal 
regulations protect the public interest while recognizing that our 
railroads form an integrated, national network that requires a uniform 
basic set of rules to operate effectively.
    Nevertheless, rail expansion projects often face vocal, 
sophisticated opposition by members of affected local communities. In 
many cases, railroads thus face a classic ``not-in-my-backyard'' 
problem--even for projects for which the benefits to a locality or 
region far outweigh the drawbacks.
    In the face of local opposition, railroads try to work with the 
local community to find a mutually-satisfactory arrangement, and these 
efforts are usually successful. When agreement is not reached, however, 
projects can face seemingly interminable delays and sharply higher 
costs.
    Often, local communities allege violations of environmental 
requirements to challenge a proposed project, even though detailed 
environmental reviews, when required, already identify the impacts of 
rail projects and determine necessary mitigation measures. Railroads 
understand the goals of environmental laws and appreciate the need to 
be responsive to community concerns, but community opposition to rail 
operations can be a significant obstacle to railroad infrastructure 
investments, even when the opposition has no legal basis.
    Policymakers can help by taking steps to shorten the time it takes 
for reviews of rail expansion projects in ways that do not adversely 
affect the quality of those reviews.
Financial Sustainability
    Because U.S. freight railroads are overwhelmingly privately owned 
and must finance the vast majority of their infrastructure spending 
themselves, capacity investments carry substantial financial risk. 
Accordingly, these projects must pass appropriate internal investment 
hurdles--i.e., the investments will be made only if they are expected 
to generate an adequate return. That's why policymakers should say no 
to the re-regulation of railroads.
    Prior to 1980, decades of government over-regulation had brought 
U.S. freight railroads to their knees. Bankruptcies were common, rates 
were rising, safety was deteriorating, and rail infrastructure and 
equipment were in increasingly poor condition because meager rail 
profits were too low to pay for needed upkeep and replacement. 
Recognizing the need for change, Congress passed the Staggers Rail Act 
of 1980, which partially deregulated the rail industry.
    The record since Staggers shows that deregulation works. Since 
1981, rail traffic is up 95 percent, rail productivity is up 163 
percent, and average inflation-adjusted rail rates are down 54 percent. 
And rail safety is vastly improved--the train accident and employee 
injury rates have plunged since Staggers. Our privately-owned, largely 
deregulated freight railroads competing fairly in the transportation 
marketplace have produced the best freight rail system in the world.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Despite the severe harm excessive rail regulation caused prior to 
Staggers and the enormous benefits that have accrued since then, 
legislation has been proposed--most recently, S. 953/H.R. 2125 (the so-
called ``Railroad Competition and Service Improvement Act of 2007'') in 
the 110th Congress--that would re-regulate freight railroads.
    Re-regulation is bad public policy and should be rejected. It would 
prevent railroads from earning enough to make the massive investments a 
first-class rail system requires. As the Congressional Budget Office 
has noted, ``As demand increases, the railroads' ability to generate 
profits from which to finance new investments will be critical. Profits 
are key to increasing capacity because they provide both the incentives 
and the means to make new investments.''
    Under re-regulation, rail earnings, and therefore rail spending on 
infrastructure and equipment, would plummet; the industry's existing 
physical plant would deteriorate; needed new capacity would not be 
added; and rail service would become slower, less responsive, and less 
reliable. It would mean less freight moving by rail when we should have 
more.
    As the Government Accountability Office (GAO) recently noted, 
``Without a doubt, rates have decreased for most shippers, and most 
shippers are better off in the post-Staggers environment than they were 
previously. This outcome suggests that widespread and fundamental 
changes to the relationship between the railroads and their customers 
are not needed.''
Public Involvement in Freight Rail Infrastructure Investment
    Rail transportation demand is projected to rise sharply in the 
years ahead as our population and economy grow. The U.S. Department of 
Transportation (DOT) recently forecast, for example, that U.S. freight 
railroad demand will rise 88 percent by 2035.
    Railroads will continue to spend massive amounts of their own funds 
to address their capacity challenges. However, they are, and will 
continue to be, unable to pay for the socially-optimal amount of rail 
capacity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The magnitude of the looming freight rail capacity issue was borne 
out by a recent study by Cambridge Systematics, a prominent economic 
and transportation consulting firm. The purpose of the study, which 
focused on 52,000 miles of primary freight rail corridors, was to 
estimate the cost of the expansion in rail capacity necessary for 
America's freight railroads to handle the 88 percent increase in rail 
traffic forecast by the DOT for 2035.
    The study found that if rail capacity needs are not properly 
addressed, by 2035 some 16,000 miles of primary rail mileage--nearly 
one-third of the 52,000 miles covered in the study--will be so 
congested that a widespread service breakdown environment would exist. 
(Today, less than 1 percent of rail miles are that congested.) Because 
our rail system is interconnected, this outcome would mean that 
America's entire rail system would, in effect, be disabled.
    Class I railroads are anticipated to be able to generate (through 
earnings growth from the additional traffic and productivity gains) 
only $96 billion of the $135 billion needed for new capacity identified 
by the Cambridge Systematics study. Addressing this shortfall is 
critical if railroads are to fulfill their potential in meeting 
America's freight transportation challenges.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    One way to help bridge the funding gap is through tax incentives 
for rail infrastructure investments. S. 1125/H.R. 2116 (the ``Freight 
Rail Infrastructure Capacity Expansion Act of 2007) calls for a 25 
percent tax credit for investments in new track, intermodal facilities, 
yards, and other freight rail infrastructure projects that expand rail 
capacity. All businesses that make capacity-enhancing rail investments, 
not just railroads, would be eligible for the credit.
    A rail ITC would addresses the central challenge of how to move 
more freight without causing more highway gridlock or environmental 
degradation. For a railroad considering whether to fund an expansion 
project, an ITC would reduce the cost of the project, raising the 
likelihood that the project will be economically viable. It would help 
worthwhile projects get built sooner, but would not be enough to cause 
economically-unjustified projects to go forward.
    An ITC would also stimulate the economy. U.S. Department of 
Commerce data indicate that every dollar of freight rail infrastructure 
investment that would be stimulated by a rail infrastructure ITC would 
generate more than three dollars in total economic output. Each $1 
billion of new rail investment induced by the ITC would create an 
estimated 20,000 jobs nationwide. The benefits to our economy would be 
broad and long lasting.
    Policymakers should also support a short line tax credit. Since 
1980, more than 380 new short lines have been created, preserving 
thousands of miles of track (much of it in rural areas) that may 
otherwise have been abandoned. In 2004, Congress enacted a 50 percent 
tax credit (``Section 45G'') for investments in short line track 
rehabilitation. The focus was on assisting short lines in handling the 
larger and heavier freight cars that are needed to provide their 
customers with the best possible rates and service.
    Since Section 45G was enacted, hundreds of short lines have rapidly 
increased the volume and rate of their track rehabilitation and 
improvement programs. Unfortunately, Section 45G expired in 2007. 
Pending legislation in Congress (S. 881/H.R. 1584, the ``Short Line 
Railroad Investment Act of 2007'') would extend this tax credit and 
thus preserve the huge benefits it delivers.
    Finally, a more pronounced use of public-private partnerships would 
help get more freight on our rails. Public-private partnerships reflect 
the fact that cooperation is more likely to result in timely, 
meaningful solutions to transportation problems than a go-it-alone 
approach. Without a partnership, projects that promise substantial 
public benefits (including reduced highway gridlock and highway 
construction and maintenance costs, reduced pollution and greenhouse 
gas emissions, and enhanced mobility) in addition to private benefits 
are likely to be delayed or never started at all because it would be 
too difficult for either side to justify the full investment needed to 
complete them. In contrast, if a public entity shows it is willing to 
devote public dollars to a project based upon the public benefits that 
will accrue, the private entity is much more likely to provide the 
private dollars (commensurate with private gains) necessary for the 
project to proceed.
    Partnerships are not ``subsidies'' to railroads. Rather, they 
acknowledge that private entities should pay for private benefits and 
public entities should pay for public benefits. In many cases, these 
partnerships only involve the public contributing a portion of the 
initial investment required to make an expansion project feasible, with 
the railroad responsible for keeping the infrastructure productive and 
in good repair.
Promoting Passenger Rail
    Freight railroads are successful partners with passenger railroads 
all over the country. Around 97 percent of the 22,000 miles over which 
Amtrak operates are owned by freight railroads, and hundreds of 
millions of commuter trips each year occur on commuter rail systems 
that operate at least partially over tracks or right-of-way owned by 
freight railroads.
    The potential national benefits of a strong national passenger rail 
system are significant. The key question is: under what circumstances 
can freight and passenger interests advance this worthy goal?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    U.S. freight railroads are moving more freight than ever before, 
and demand for freight rail service is projected to grow sharply in the 
years ahead. Passenger rail growth would come on top of growth in 
freight traffic. That's why, going forward, capacity will likely be the 
single most important factor determining our ability to provide the 
high quality rail service that will be essential for both freight and 
passengers.
    While recognizing existing Amtrak statutory authority regarding use 
of freight railroad- owned facilities, the AAR has developed principles 
which we believe should govern new passenger rail use of freight-owned 
facilities:

  <bullet> Freight railroads should not be forced to give passenger 
        railroads access to their property; rather, access should be 
        voluntarily negotiated.

  <bullet> Freight railroads should be fully compensated for the use of 
        their assets by passenger trains.

  <bullet> Freight railroads should be adequately protected from 
        liability.

  <bullet> Freight railroads should not be asked to pay for capacity 
        increases needed to accommodate passenger service.

    These principles are grounded in the tremendous importance of 
freight railroads to America. Freight railroads lower shipping costs by 
billions of dollars each year and produce an immense competitive 
advantage for our farmers, manufacturers, and miners in the global 
marketplace. If passenger railroads impair freight railroads and force 
freight that otherwise would move by rail onto the highway, those 
advantages would be squandered. Moreover, highway gridlock would 
worsen; fuel consumption, pollution, and greenhouse gas emissions would 
rise; and our mobility would deteriorate--outcomes that are contrary to 
the goals of expanding passenger rail in the first place
    For these reasons, passenger rail progress must be complementary 
to--not in conflict with--freight rail development.
    That said, there clearly are substantial public benefits from 
expanded passenger rail. Indeed, as at cost of auto and air travel 
continue to increase and the prospect of a carbon-constrained future 
increases, we have an opportunity--and the need--to make far more 
concerted efforts than we have in the past to more fully capture the 
economic, environmental, and social benefits of reliable, convenient, 
and comprehensive passenger rail service.
    But in order to be a true transportation alternative for Americans, 
passenger rail, like freight rail, cannot be achieved on the cheap. 
Without significant additional investment in infrastructure and 
equipment, Amtrak will not be able to handle all the people that want 
to use it and we will fail to capture all of those benefits.
    We believe that future passenger rail initiatives, especially 
regional or national highspeed initiatives, will require separate 
assets dedicated to passenger operation. This more visionary approach 
would enable faster and more reliable passenger service and minimize 
the substantial operational, engineering, legal, and other impediments 
that often hinder the ability of freight railroads to accommodate 
passenger trains.
    This approach will be costly, but so will any approach to 
meaningfully enhance passenger rail. Freight railroads believe that the 
public benefits of a truly attractive and competitive national 
passenger rail capability will exceed public costs, and look forward to 
continue to work with all appropriate parties to make those benefits a 
reality.
    One way railroads are doing this is by working closely with Amtrak 
to alleviate problems that are hindering Amtrak's performance and 
reliability. Individual freight railroads are currently working 
directly with Amtrak to identify areas where targeted infrastructure 
improvements that eliminate chokepoints can be made, and where 
dispatching and maintenance practices can be improved. Joint, 
cooperative efforts like these are far more likely to result in 
meaningful improvements than a punitive approach. Imposing monetary 
penalties on freight railroads based on Amtrak on-time performance, for 
example, would be neither constructive nor appropriate.
Other Transportation Modes
    Obviously, neither freight or passenger railroads operate in a 
vacuum. Trucks, for example, are and will continue to be absolutely 
critical to freight transportation and to our economy. That's why 
significant attention must be paid, and appropriate resources devoted 
to, other transportation infrastructure. Working as a whole, our 
various transportation networks will help ensure that freight and 
people can get to where they need and want to be efficiently and cost 
effectively.

                                  <all>

</pre></body></html>
